<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                   LEGISLATIVE BRANCH APPROPRIATIONS
                                FOR 1998

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

                       SUBCOMMITTEE ON LEGISLATIVE

                   JAMES T. WALSH, New York, Chairman

C. W. BILL YOUNG, Florida              JOSE E. SERRANO, New York
RANDY ``DUKE'' CUNNINGHAM, California  VIC FAZIO, California
ZACH WAMP, Tennessee                   MARCY KAPTUR, Ohio
TOM LATHAM, Iowa                       

 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                   Edward E. Lombard, Staff Assistant
                                ________

                                 PART 2

                   FISCAL YEAR 1998 LEGISLATIVE BRANCH
                         APPROPRIATION REQUESTS

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 39-099 O                   WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director









         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 1998

                              ----------                              

                                         Tuesday, February 4, 1997.

    Mr. Walsh. The committee will come to order.
    We begin by welcoming everyone to our hearing today.
    My name is Jim Walsh. I am the new Chairman of the 
Legislative Branch Subcommittee on Appropriations. Ed Lombard 
is the clerk for the subcommittee and resident institutional 
memory. And we have a number of new Members who I will 
introduce in just a second.
    What I would like to do is just make a couple of personal 
comments, if I may, and that is that I am really excited about 
this opportunity to chair this very, very important 
subcommittee. I think all of us who are here have a sense of 
the history of the place and the institution that we belong to, 
and I think one of the benefits of being on this subcommittee 
is that we will learn a great deal more about this institution 
and the legislative branch.
    There are literally thousands of people who work for the 
Congress, the House, the Senate, the Library, the other 
departments. I think we need to let them know that we care 
about them and that the decisions that we make in this 
subcommittee will affect them. And we hope it will affect them 
in a positive way. We want to improve their quality of life, 
where they work, the conditions they work in. What they do is 
very, very important to all of us and the ability--our ability 
to do our jobs.
    We are entrusted with a great deal, the bill we produce, 
and for me it is very exciting to have oversight for the House, 
the Senate, especially the House, and the Library of Congress 
and all the other agencies we have in our jurisdiction.
    The Library of Congress is the repository of our Nation's 
history. It has it all, from the Mayflower, to Yorktown, to 
Kitty Hawk, Pearl Harbor, the Apollo project, right up until 
today, and they will be recording the history of whatever we 
accomplish or fail to accomplish in the 105th Congress. So it 
is really a neat subcommittee assignment, and I hope everybody 
enjoys it as much as I do, or more, perhaps.
    Before we begin, I would like to welcome the Members of the 
subcommittee. We have a number of changes, a number of new 
individuals. And as I said, my name is Jim Walsh, I am from New 
York State, New York's 25th Congressional District, Syracuse is 
my home. I am the Chair.
    We also have on our side, Bill Young of Florida, the 
returning Vice Chairman; Duke Cunningham of California.
    Good to have you with us, Duke.
    Zach Wamp of Tennessee. Zach is just arriving.
    Good to have you with us, Zach.
    And Tom Latham of Iowa. So we go pretty much from East to 
West.
    Back East we have our Ranking Member and my good friend, 
Jose Serrano of New York, the other part of New York that I am 
not quite as familiar as I am with Syracuse, and he can tell 
you more about that, and I am sure he will. He returns as a 
Ranking Minority Member, and he is joined by Vic Fazio the 
former Chair, and Marcy Kaptur of Ohio.
    We also have the Chairman of the full Committee on 
Appropriations, Bob Livingston of Louisiana, and Dave Obey 
Ranking Minority Member of the full committee, they are also 
Members of this subcommittee.

                    jurisdiction of the subcommittee

    I will insert in the record the current jurisdiction of the 
subcommittee which has been established under the rules of the 
Committee on Appropriations.
    [The information follows:]

                      Subcommittee on Legislative

    House of Representatives.
    Joint Items.
    Architect of the Capital (Except Senate Items).
    Botanic Garden.
    Congressional Budget Office.
    General Accounting Office.
    Government Printing Office.
    John C. Stennis Center.
    Library of Congress, including:
        Congressional Research Service.
        Copyright Arbitration Royalty Panel.
        Copyright Office.
        National Film Preservation Board.
    United States Capitol Preservation Commission.

    Mr. Walsh. Several agencies included as legislative branch 
agencies in the President's budget are not under the 
jurisdiction of this subcommittee. For example, the U.S. Tax 
Court is one agency classified as a legislative agency in the 
President's budget, but that agency is actually funded in the 
Commerce, Justice, State and Judiciary appropriations bill.
    Likewise, the Helsinki Commission, the Prospective Payment 
Commission and several other agencies are not within our bill.
    The President's budget has not yet been delivered to the 
Congress. It will be soon. However, for the past several weeks, 
the legislative agencies and all Federal agencies have been 
submitting their budget material to the Office of Management 
and Budget in preparation for the expected delivery to the 
Congress on Thursday of this week, the President's budget.
    Under statute, the legislative budget must be submitted to 
the Congress in the President's budget without change by OMB. 
During the process of preparing the Federal budget for 1998, we 
have asked those agencies under our jurisdiction to provide 
copies to the subcommittee of the material they are sending to 
OMB. We did that in order to get an early start on our 
hearings.
    This has been the customary practice over the years, and 
both Majority and Minority have always agreed to this 
procedure.

                    members' informational materials

    The staff has compiled the customary budget material for 
the use of the Members of the subcommittee. The draft 
Legislative Branch Appropriations Bill, Fiscal Year 1998, 
Subcommittee Print, contains the bill language and funding 
requests that will be included in the President's budget 
document, primarily the budget appendix.
    The subcommittee print is labeled as a draft, since the 
formal budget submission has not arrived. We believe it will 
not change in any significant extent, if at all. The 
subcommittee print also contains a great deal of historical 
information that the Members may find useful.
    The Legislative Branch Appropriations For 1998, Hearings, 
Part 1, contains the budget justifications that the agencies 
have prepared in explanation of their budget requests. Part 1 
contains what the agencies have provided to the committee by 
way of explaining their budget requests. Both of these 
documents have been provided to each Member.
    Part 1 will be made available as a public document when the 
hearings are completed.
    The budget that we are going to consider in this 
subcommittee totals $1.9 billion, just under that amount. That 
figure does not include the operating budget of the Senate. 
That budget will be taken up by our counterpart subcommittee in 
the other body.
    The budget for Congressional Operations is $1.1 billion. 
That encompasses the House of Representatives operating budget, 
the Joint Committees and the various support agencies such as 
the Capitol Police, the Architect, the Congressional Budget 
Office, the Office of Compliance, Congressional Research 
Service, and congressional printing at the Government Printing 
Office.
    The balance of the funds requested, $710 million, 
approximately, is for other agencies in the legislative budget, 
primarily the Library of Congress, Superintendent of Documents, 
Federal Depository Library Program, General Accounting Office, 
Botanical Garden, and the care of the Library grounds by the 
Architect.

                          subcommittee's role

    As I mentioned earlier, these budgets have been submitted 
to the Office of Management and Budget by each of the 
legislative branch agencies separately. By law, OMB will 
include these budget requests in the President's budget without 
change.
    Since OMB cannot and should not make policy or dollar-level 
changes in these legislative budgets, this committee will 
perform a double function. We will scrub these budgets much the 
same as OMB does the executive agency budgets, and, when the 
602(b) budget allocations are given to the subcommittee, we 
will markup the legislative branch appropriations bill to 
conform with our overall budget targets.
    So what we see and hear today are requests of the agencies 
to OMB, they are submitted as part of the President's budget, 
but they have not been scrubbed and we will have to perform 
that duty.
    As we proceed through the process, we will consult with the 
authorizing committees, House Oversight, Budget, Government 
Reform, perhaps Judiciary, if necessary. So the bill we bring 
to the Floor will undergo several adjustments, and I fully 
expect reductions will be made along the way.

                           budget evaluation

    Over the past 2 years in the 104th Congress, legislative 
spending has been reduced by $225 million below the level of 
operations in fiscal year 1995. That was not an easy task 
because these programs are important and we must have an 
effective legislative branch to carry out the checks and 
balances required by our Constitution.
    So, we must fund these programs, the staff and resources 
necessary to conduct the legislative business of the House and 
Senate, the maintenance of our physical plant, the research 
staff, and the auditors. Our basic responsibility in this 
appropriations bill is to make sure we provide the resources 
necessary to carry out those duties.
    But we must also be cost-effective. We must isolate what is 
necessary from what is merely desirable or even of marginal 
value in our programs. The Congress has shown that it can 
reduce its own budget and not sacrifice fundamental 
capabilities. Resources and staff have been reduced, some 
programs were eliminated where possible, and the private sector 
has filled the gaps, to some extent, when feasible.
    Since I am new to the subcommittee, as are several of my 
colleagues, I will reserve judgment on prospective increases 
and decreases. We will proceed through these hearings and 
examine the budget in detail, and the subcommittee will keep an 
open mind on the level of funding necessary for fiscal year 
1998.
    So the requests will be treated just that way. They are 
just requests, and the subcommittee will listen carefully and 
evaluate each agency's budget. I know each Member of the 
subcommittee will join in that effort.
    Lastly, before I turn it over to Mr. Serrano for an opening 
statement, I would just like to say for those of you who do not 
know this, this is the Brumidi Room, the first room of the 
Capitol that was painted about 1860. The gentleman received 
$3,700 for this job. I can't imagine what it would be in 
today's dollars, but there is a sense of history in the room, 
and I hope that this committee continues not necessarily to 
make history, but at least to be recorded in history as having 
done the right job.
    Mr. Serrano.

                        MR. SERRANO'S STATEMENT

    Mr. Serrano. Thank you, Mr. Chairman.
    First of all, let me congratulate you on your Chairmanship 
of this committee.
    Mr. Walsh. Thank you.
    Mr. Serrano. We will have the House Historian look to see 
the last time that two Members of the New York delegation 
headed a committee on both sides at the same time.
    Let me also just clarify that when I returned to the 
Appropriations Committee last year, after a little vacation I 
was asked to take after the 1994 elections, the work had been 
done by the staff and by the Members. And so this hearing is 
really my first time as I join you in doing this kind of work.
    I realize, Mr. Chairman, that this committee, and it is no 
secret to a lot of the people that are here, at times takes 
some bad jokes from Members. Supposedly this is a hard duty 
that you do before you go on to great splendor as Speaker or 
something else in the House.
    I look at it as you do, in a totally different fashion. I 
think that as this House moves into the new age of technology, 
which it has embarked on already, as we look at the work the 
Sergeant at Arms does in a totally different world these days 
about security and safety, and so on, as we look at the Library 
of Congress that, as you said, holds our history--of course, 
you said Mayflower, I remind you St. Augustine, Florida, was 
the first settlement--that there is so much work that can be 
done and done well.
    And so, I join you, Mr. Chairman, in being excited about 
this work. I don't take it lightly. I think that we have a 
grave responsibility to keep up the work of this institution, 
and the affected agencies. And I take, as you know, very 
seriously my service in this House, and the history of this 
House. And any way that I can be helpful to making this a 
better place, I think that that would be input that I can be 
proud of.
    This committee also requires, perhaps as much or more than 
any other committee, I believe, a bipartisan approach. And I 
pledge to you my desire to do that. In fact, if we can work as 
closely here as we do on the basketball court, I think we will 
have a wonderful time. And here, too, you will score more than 
I will.
    Mr. Walsh. But I will pass to you, I promise.

                CREDIT TO PREVIOUS SUBCOMMITTEE CHAIRMAN

    Mr. Serrano. But last, Mr. Chairman, I would like, although 
he is not here, just to show my gratitude to Mr. Fazio, who, 
for so many years, both as Ranking Member and as Chairman, 
understood this committee's business well. Understood and 
respected this House, as he continues to. And he will be a 
valuable Member to assist me, assist all of us in the work that 
we have to do.
    With that in mind, let us proceed, and you have me as an 
ally.
    Mr. Walsh. Thank you very much. And I really look forward 
to working with you, you are a good friend. And I am sure we 
won't agree all the time, but I pledge that you will have my 
bipartisan support also, and I agree that is really integral to 
the success of this committee. And since we are really the 
first subcommittee to get started, maybe we can set the tone 
for everybody else.
    Anyone else have an opening statement they would like to 
make?

                         MR. LATHAM'S STATEMENT

    Mr. Latham. I will submit one for the record.
    Mr. Walsh. Happy to submit it.
    [The information follows:]

[Page 6--The official Committee record contains additional material here.]


    Mr. Cunningham. I associate myself with Mr. Serrano's and 
your comments.
    Mr. Walsh. Okay.
    Mr. Cunningham. Except he fouls on the basketball court.
    Mr. Walsh. You are allowed five.

                              ----------


                                         Tuesday, February 4, 1997.

                     U.S. HOUSE OF REPRESENTATIVES

                               WITNESSES

JEFF TRANDAHL, ACTING CHIEF ADMINISTRATIVE OFFICER, OFFICE OF THE CHIEF 
    ADMINISTRATIVE OFFICER OF THE HOUSE
DAVID DENNIS, ACTING ASSOCIATE ADMINISTRATOR, OFFICE OF FINANCE
KENNETH J. MILLER, ASSOCIATE ADMINISTRATOR, HOUSE INFORMATION RESOURCES
ROBIN H. CARLE, CLERK, OFFICE OF THE CLERK
B. JENAY PATCH, SPECIAL ASSISTANT
HON. WILSON S. LIVINGOOD, SERGEANT AT ARMS, OFFICE OF THE SERGEANT AT 
    ARMS
JOHN W. LAINHART IV, INSPECTOR GENERAL, OFFICE OF THE INSPECTOR GENERAL
BOB FREY, DEPUTY INSPECTOR GENERAL, OFFICE OF THE INSPECTOR GENERAL
JOHN R. MILLER, OFFICE OF THE LAW REVISION COUNSEL
DAVID E. MEADE, OFFICE OF THE LEGISLATIVE COUNSEL
DR. JOHN F. EISOLD, OFFICE OF THE ATTENDING PHYSICIAN
    Mr. Walsh. All right. We will now take up the budget 
request of the House of Representatives and several joint 
items.
    The Acting Chief Administrative Officer, assisted by the 
Office of Finance, submits the House budget each year to the 
Office of Management and Budget. That material is then included 
in the President's budget. We will go right to Jeff Trandahl, 
who is the Acting Chief Administrative Officer for the House of 
Representatives.

                    Mr. Trandahl's Opening Statement

    Mr. Trandahl. Chairman Walsh, Mr. Serrano, other Members of 
the subcommittee, I am Jeff Trandahl and I am the Acting 
Administrative Officer or CAO of the House. As established at 
the beginning of the 104th Congress, the CAO is the Chief 
Budget official of the U.S. House of Representatives and is 
responsible for the presentation of the House budget before 
your subcommittee.
    In essence, I will be walking you through the papers before 
you today. Later in these hearings I will further outline my 
daily responsibilities in the fiscal year budget request 
related to the Offices of the CAO. In addition, I stand ready 
to assist the subcommittee in any way as you work to compile 
the fiscal year 1998 legislative branch appropriations bill.
    I realize the need for you to have complete, accurate 
information, and we have hopefully anticipated and gathered 
much of the information for you already.

                       fiscal year 1998 estimates

    The fiscal year 1998 estimates that were submitted earlier 
to the OMB are reflected in the budget to be transmitted to the 
Congress by the President and are detailed in your subcommittee 
print. This statement and subcommittee print may be used 
jointly to obtain a complete picture of the budget. At the 
beginning of each budget item you will find a reference to the 
related page on the subcommittee print where further detail is 
provided.
    The fiscal year 1998 request for the House totals 
$752,383,000. This is an increase of $68,552,000 over the 
fiscal year 1997 amount and was based on the statutory 
entitlements, full funding authorizations, actual spending 
history, and consultation with the administrative offices.
    The following page illustrates the itemization of the 
actual fiscal year 1996 expenditures through October 31, 1996, 
appropriated funds for fiscal year 1997, and requested fiscal 
year 1998 funds, and I would ask that the following table on 
page 3 be submitted for the record.
    Mr. Walsh. Without objection.
    [The information follows:]

[Page 11--The official Committee record contains additional material here.]


                         house budgets and ftes

    Mr. Walsh. I have questions for the record to insert at 
this point.

    Question. The House has reduced its budgets and FTE 
employment significantly. Give the Committee a sense of those 
reductions since the beginning of the 104th Congress.
    Response. At the beginning of the 104th Congress the 
Committees were reduced by one-third and further reductions 
were made to administrative support offices through 
privatization efforts. The following comparative table shows 
each fiscal year appropriation since fiscal 1995 and estimated 
outlays. The impact of these factors is presented in the 
following chart.

                              APPROPRIATION                             
------------------------------------------------------------------------
                                                   Actual/       Percent
         Fiscal year               Budget         Estimated       used  
------------------------------------------------------------------------
1995........................     $728,468,000     $667,022,000     91.57
1996........................      670,561,000      658,166,000     98.15
1997........................      683,831,000      664,919,000     97.23
------------------------------------------------------------------------

    From an FTE perspective, there have been significant 
related reductions. The first comparative table below shows the 
relationship between funded FTEs and actual usage for fiscal 
years 1995 and 1996 with estimated usage for fiscal year 1997. 
The fiscal year 1997 estimate is based on actual first quarter 
usage plus estimated usage for the remaining nine months at the 
same level as the December 1996 activity.

                          FULL TIME EQUIVALENTS                         
------------------------------------------------------------------------
                                                     Actual/    Percent 
              Fiscal year                  Budget   Estimated     used  
------------------------------------------------------------------------
1995...................................     10,730      9,844      91.74
1996...................................      9,897      9,440      95.38
1997...................................      9,876      9,233      93.49
------------------------------------------------------------------------

    The following FTE table compares the actual/estimated usage 
by major category since fiscal year 1995 which comprised the 
majority of the first session of the 104th Congress. The 
``others'' category consists of House Leadership and 
Administrative Support offices.

                          FULL TIME EQUIVALENTS                         
------------------------------------------------------------------------
                                                   Fiscal years         
                                        --------------------------------
                                            1995       1996       1997  
------------------------------------------------------------------------
Members................................      7,186      7,103      6,944
Committees.............................      1,197      1,136      1,113
Others.................................      1,461      1,201      1,176
                                        --------------------------------
      Total............................      9,844      9,440      9,233
------------------------------------------------------------------------

    Question. For the record, prepare a five year table which 
shows the recent history of House funding and FTE levels.
    Response. The information follows:

------------------------------------------------------------------------
          Fiscal year               Funding            FTE              
----------------------------------------------------------------        
1993..........................     $699,109,000              n/a        
1994..........................      686,318,000           10,877        
1995..........................      728,468,000            9,844        
1996..........................      670,561,000            9,440        
1997..........................      683,831,000            9,876        
------------------------------------------------------------------------

    The House began monitoring FTEs in Fiscal Year 1994. 
Therefore, a four year summary of FTEs is provided.
    The original FY 1996 enacted appropriation of $671,561,000 
was reduced by $1 million. The FY 1996 appropriation language 
under the ``Office of Compliance'' authorized a transfer of 
$500,000 from the ``House of Representatives'' account. The FY 
1997 ``Omnibus Appropriations'' act authorized a rescission of 
$500,000.

                        house leadership offices

    Mr. Trandahl. Fiscal year 1998 House Leadership Offices. 
For salaries and expenses of the House Leadership offices, the 
request is $11,916,000. This represents an increase of $324,000 
over the amount enacted in fiscal year 1997.
    And at this time, I would ask that the remainder of pages 4 
through 16 be submitted for the record.
    Mr. Walsh. Without objection.
    [The information follows:]

[Pages 14 - 26--The official Committee record contains additional material here.]


                  members' representational allowances

    Mr. Trandahl. Members' Representational Allowances. For 
Members' Representational Allowances, MRA, including Members' 
clerk hire, official rxpenses and official mail, $405,450,000 
is requested. This request is $42,137,000 greater than the 
amount enacted for fiscal year 1997.
    I would request that we submit the balance of pages 17 and 
18 for the record.
    Mr. Walsh. Without objection.
    [The information follows:]

[Pages 28 - 29--The official Committee record contains additional material here.]


    Mr. Walsh. I have a question for the record to insert at 
this point.

    Question. Funding for Members' allowances is appropriated 
in one appropriation line item. For Fiscal Year 1997, how much 
are the Members authorized to spend, as opposed to the amount 
we actually appropriate? Explain that in terms of each 
allowance component (i.e. clerk hire, official expenses and 
mail).
    Response. Each Member has an overall consolidated allowance 
established by the Committee on House Oversight. The numbers in 
the following table are estimates and do not represent specific 
amounts appropriated for the various component items.

----------------------------------------------------------------------------------------------------------------
                                                                               Fiscal year 1997                 
                         Component                          ----------------------------------------------------
                                                                Authorized      Appropriated        Variance    
----------------------------------------------------------------------------------------------------------------
Clerk hire.................................................     $264,191,400     $253,683,000      ($10,508,400)
Official expenses..........................................       85,838,096       88,933,000         3,094,904 
Official mail..............................................       49,275,887       20,697,000       (28,578,887)
                                                            ----------------------------------------------------
      Total................................................      399,305,383      363,313,000       (35,992,383)
----------------------------------------------------------------------------------------------------------------

    The FY 1997 authorization is based upon the prorated 
Calendar Year 1996 and 1997 authorizations as established by 
the Committee on House Oversight. The Clerk Hire component 
contains the 2.3% January 1, 1997, cost of living adjustment. 
However, the individual and aggregate 1997 authorization has 
yet to be complete. Due to re-districting in several states, 
the U.S. Postal Service is compiling the new postal delivery 
sites which are contained in the individual Members' 
Representational Allowance.

                standing committees, special and select

    Mr. Trandahl. Standing Committees, Special and Select. For 
salaries and expenses of Standing Committees, Special and 
Select, authorized by House resolutions, $90,310,000 is 
requested. This request is $10,088,000 greater than the amount 
provided in fiscal year 1997.
    I would ask that the balance of pages 19 and 20 be 
submitted for the record.
    [Clerk's note.--The House Finance Office has supplied the 
following information:]
    The original second session funding of $79,416,362 for 
Committees was adjusted in the second session of the 104th 
Congress as follows: Ethics Committee authorization was 
increased by $580,000 in H. Res. 377, dated March 7, 1996. The 
Committee on International Relations was increased by an 
additional $995,000 in H. Res. 417, dated May 8, 1996. On June 
19, 1996 the Intelligence Committee transferred $1,500 out of 
the funding resolution in to the franked mail allocation upon 
the approval of House Oversight. On October 10, 1996, the 
Committee on Small Business transferred $1,000 out of the 
funding resolution in to the franked mail allocation upon the 
approval of House Oversight. On October 21, 1996, the Committee 
on Standards of Official Conduct transferred $1,000 out of the 
funding resolution in to the franked mail allocation, upon the 
approval of House Oversight. This final adjustment brought the 
second session authorization to $80,987,862.
    [The information follows:]

[Pages 31 - 32--The official Committee record contains additional material here.]


                      committee on appropriations

    Mr. Trandahl. Committee on Appropriations. For salaries and 
expenses for the Committee on Appropriations, including studies 
and examinations of executive agencies and temporary personal 
services for the Committee, $18,276,000.
    I would ask that the table on pages 21 be submitted for the 
record.
    [The information follows:]

[Page 34--The official Committee record contains additional material here.]


                    salaries, officers and employees

    Mr. Trandahl. Salaries, Officers and Employees. For 
salaries and expenses of the officers and employees as 
authorized by law, $91,770,000, included in this amount is 
$58,706,000 for personnel and $33,064,000 for nonpersonnel 
items.
    I would ask that we insert the tables on pages 22 and 23 
for the record.
    Mr. Walsh. Without objection.
    [The information follows:]

[Pages 36 - 37--The official Committee record contains additional material here.]


                          office of the clerk

    Mr. Trandahl. And at this time, I would ask the Committee 
to call the Clerk to the table.
    For salaries and expenses of the Offices of the Clerk, 
$14,715,000 is requested. Included in this request is 
$11,814,000 for personnel and $2,901,000 for nonpersonnel-
related expenses.
    At this time I will introduce the Honorable Robin H. Carle, 
Clerk of the House, who is here to testify on behalf of her 
fiscal year 1998 budget request. And following her testimony I 
would ask that we insert the table on page 24 to follow her 
testimony.
    Mr. Walsh. Robin, welcome.
    We have as our witness Robin Carle, the Clerk of the House, 
and we have your statement. If you would like to summarize.
    Ms. Carle. Chairman Walsh, Mr. Serrano, and other 
distinguished members of the Subcommittee, I am pleased to 
appear here to discuss the operations of the Offices of the 
Clerk and to outline my fiscal year 1998 budget submission.
    Serving as Clerk of the House, I am responsible for the 
most traditional of the House's legislative responsibilities 
and functions. Our offices are structured to provide seamless 
support for House legislative operations. The 104th Congress, 
therefore, provided a historical work load high for us. During 
the second session of the House, the House spent 122 days and 
almost 920 hours in session; passing 529 measures; enacting 249 
bills into law; and having a total of 455 recorded votes. The 
Congressional Record contained 12,304 pages of House 
proceedings with 1,951 pages of remarks.
    From a fiscal year 1995 appropriation of $15,270,000 and 
284 FTEs, by fiscal year 1997 we were able to hold overall 
funding to $15,074,000 and overall FTEs to 286, despite the 
creation of an additional office under the Clerk, the Office of 
House Employment Counsel. While the Offices of the Clerk have 
been given additional responsibilities throughout the 104th 
Congress, it has been our intention to truly do more with less.
    To summarize the submission before the subcommittee today, 
I am requesting for fiscal year 1998 a budget of $14,715,000, a 
net reduction of 2.38 percent compared with fiscal year 1997. 
In addition, I am requesting that my FTE authorization be 
reduced to 264 from its current total of 286. With my 
testimony, I am submitting a table identifying estimated office 
budget totals, personnel and nonpersonnel expenses. I would be 
pleased to submit any additional materials needed by the 
Subcommittee.

                       document management system

    In fiscal year 1998, I am also requesting that the 
Subcommittee create a separate and new account of $1.5 million 
to support the development of a document management system, a 
project intended to automate document preparation. Using PC-
based initiation, documents will be available to print on 
demand and/or for transmission to GPO for printing and further 
distribution.
    As part of the report accompanying the fiscal year 1997 
Legislative Branch Appropriations Act, the Clerk of the House 
was tasked to pursue various electronic efforts internal to the 
House and other joint legislative operations between the House, 
Senate, and related legislative agencies. This focus led to a 
report titled, ``Proposed Document Management System and 
Electronic Configurations Within the Office of the Clerk.'' We 
are going to try and rename it.
    This report, forwarded to this Subcommittee and the 
Committee on House Oversight, advocated the creation of a 
document management system that would allow for the 
comprehensive management of the document creation and 
production process and facilitation of electronic distribution. 
I am requesting a separate account to clearly disclose the 
costs of this effort and to ensure sound management; that it 
will be a long-term and costly but most necessary effort was 
predicted in a House Oversight Committee working group report.
    Also, as requested in last year's report, the Secretary of 
the Senate and I established a working group to study SGML, 
standard general market language, as a standard for the 
exchange of legislative information among legislative branch 
agencies.
    Working with an outside expert, the group surveyed all 
legislative branch agencies on their current activities. It is 
clear that it is in the best interest of the Congress to move 
to this standard and to form a group to establish and 
coordinate its development between all the affected agencies.
    The Secretary and I will provide a report to the House 
Oversight Committee and to the Senate committee, detailing what 
we have learned and making recommendations for the next steps. 
We are in agreement that a common standard must be established 
to easily facilitate the transfer of documents between the 
House and the Senate as well as share documents and information 
between all legislative branch agencies.
    A high priority for my office during the last Congress was 
to build a platform to electronically transmit more of the 
daily proceedings of the Congressional Record to the GPO. With 
the commencement of the 105th Congress, we began to transfer 
the electronic files from the Reporters' Office on a nightly 
basis. I am closely monitoring the progress we are making to 
ensure that we reach a level where we transmit everything that 
we have available.
    As the year progresses, I intend to ask Members who submit 
speeches, first for the extension of remarks and later for the 
debate portion of the record, to provide us with an electronic 
version along with the paper versions. Both will be submitted 
to GPO to eliminate any unnecessary rekeying of information.
    Last year, the Public Printer, speaking to ABC news, 
estimated this program will save $1 million a year. I am making 
every effort to ensure that the House realizes these savings 
and they can be reflected in future budgets.

                      legislative resource center

    Another separate, yet equally important, effort to the 
internal operations of the House is the soon-to-be open 
Legislative Resource Center. This new center located below the 
rotunda of the Cannon Building is a facility created to assist 
congressional offices with the retrieval of legislative 
information as well as to provide easy access by the public to 
the legislative procedures of the people's House.
    With the combination of responsibilities of several 
previously separate offices into the Legislative Resource 
Center, the House Library, the House Historian, the House 
Document Room and the Office of Records and Registration, our 
ability to meet the House needs has and will continue to 
greatly improve.

                      enhancement to voting system

    A primary goal during the last calendar year was to find a 
suitable replacement for the Members' voting cards, and we 
replaced all voting stations on the House Floor. The cards and 
the voting stations were originally part of the voting machine 
and had been in use since 1973, the 93rd Congress.
    As a result of these changes, the system's response time 
has improved and we will experience fewer failures and repairs 
in the voting stations as well as providing Members with a more 
durable voting card.
    I hope this has provided a brief review of some of the more 
significant undertakings within our offices. Your interest, 
support and guidance does much to ensure our success. For that, 
I thank you.
    If the committee has any questions, I am ready to answer 
them.
    Mr. Walsh. Thank you very much for your testimony.
    [The information follows:]

[Pages 41 - 57--The official Committee record contains additional material here.]


          questions on the proposed document management system

    Mr. Walsh. The record should note that Ms. Carle is not 
only the first woman Clerk of the House, but the first female 
officer of the House of Representatives. I think it is a 
remarkable accomplishment and you are obviously a pioneer and 
we are very proud of that fact, and we are glad to have you 
with us today.
    Ms. Carle. The first but I am sure not the last.
    Mr. Walsh. Not the last. We have only just begun.
    Just one question that I had, and we talked about this a 
little bit when you came in earlier. One of the common-heard 
complaints around here is that when we get to crunch time, and 
especially around the time when conference reports are being 
put together, we are voting on bills that we have not seen 
because there just isn't time to get them printed.
    This process that you set up for electronic transmission to 
the Government Printing Office, do you anticipate that that is 
going to help to resolve that problem?
    Ms. Carle. Absolutely. The idea would be that when it is 
filed, the Committee reports are filed on the Floor, there will 
be an electronic version that is filed with the Clerk. And then 
we will be able to produce for Floor use a smaller amount at 
the same time GPO is printing for a larger audience. So, yes, 
it will be available for you.
    And in addition, that will apply also to Committee reports, 
committee rules, legislation reported out of committees. All of 
that.
    Mr. Walsh. Mr. Serrano.
    Mr. Serrano. Briefly, Ms. Carle, in your testimony, you 
spoke about asking us as time goes on during this year to 
submit to you our written comments on disk. This would be for 
all comments that we make on the Floor? Prepared statements?
    Ms. Carle. Yes, we are going to start--it is like--I want 
to be sure it works. So we are not asking for everything at 
once. We are going to be sure in increments we can do it well. 
And we are going to start with remarks and work from there.
    Mr. Serrano. I realize that most of these things have a 
dollar-saving view to them, and I certainly support that, but I 
am also interested in the dissemination of information so at 
what point do you see us being able, for instance, to speak on 
the Floor, to submit statements and not only be covered by C-
SPAN live, by networks live, but to have that information 
available on-line? I mean, it happens in other places where the 
President may be delivering a speech and people are reading it 
at the same time that he is doing it.
    Ms. Carle. Some things--some of this will necessitate rules 
changes and decisions by membership about how they want things 
available and when they want things available. But the whole 
idea is that within the quite short timeline of this 4-year 
plan that we have for implementing the document management 
system that all of that information would be capable of being 
available in a fairly immediate fashion, and then the decisions 
would be up to the membership as to what rules changes they 
would or would not want to effect deciding what official 
documents are available when.
    Mr. Serrano. Just one last question on that. Do you foresee 
that that would be something you initiate, to get that on-line? 
Would it mean that another department would have to put it on?
    The minute that I give you a disk, assuming that we were at 
that point, does it take off from there or do you see a system 
by which it would have to be cleared by someone else before it 
goes on-line? Assuming that, once the rules are changed, I give 
you a disk, that is obviously what I want to say, and I don't 
want it altered by anyone, would the possibility exist for it 
to go on-line?
    Ms. Carle. Or to be pointed to. A lot of the work that we 
are doing in the committees right now would be to have those 
records, the plan would be that their web site would be able to 
point to documents that are the Clerk's responsibility to 
maintain as official records. And so rather than the committee 
or a Member rekeying that information or massaging it into some 
other form, they would be able to point to that in the Clerk's 
organization, and as time goes on that would become more and 
more immediate.
    This last Congress we tested a lot of these systems to be 
sure that we could technically do it. And now we are starting 
to implement it in this Congress.
    Mr. Serrano. You know, I stopped counting at seven the 
times that my voting card fell apart this past session. I 
really did. I was embarrassed.
    Ms. Carle. We didn't like to see you coming.
    Mr. Serrano. This one is guaranteed foolproof and will not 
fall apart?
    Ms. Carle. Well, we all----
    Mr. Serrano. I understand that it has a computer chip which 
will follow me wherever I go?
    Ms. Carle. That is right. No, no, the idea is that these 
are not laminated cards. This is the next generation of cards, 
and our hope is that they will be a more durable card for the 
Members.
    Mr. Walsh. I would like to recognize Mr. Fazio, the 
formerly both Chairman and Ranking Member of the subcommittee. 
Welcome.
    Mr. Fazio. Thank you, Mr. Chairman. I want to wish you all 
the best in your role. I know how important it is to the 
institution, and I appreciate the fact that you have taken it 
on with your colleague from New York, Mr. Serrano, but that 
makes it even more important that Californians like Mr. 
Cunningham and I show up to get ours. We have a lot of new 
blood on the Committee and that is always helpful.
    I appreciate what I gather were some kind comments made 
before I got here. I do hope to help as much as I can, and 
working with all of you, and our good friend, the clerk of the 
committee, Mr. Lombard, because I think it is important that on 
a bipartisan basis we make the institution work well. And that 
has always been what we try to do here.
    And I want to say to Robin, I particularly appreciate the 
job she has done. I think most members of my caucus agree that 
you have attempted to be fair and certainly evenhanded in the 
way you have tried to run the office. And I think we have made 
some real progress.
    I am particularly interested in the document management 
system. As you remember, when I served on the Oversight 
Committee we had some concerns about it. What did you learn 
from that oversight process, the concerns that were expressed 
to you at that time?
    Ms. Carle. Well, I think that this has to be a 
comprehensive plan. It is going to be an extremely costly 
undertaking. Not only financially but in terms of staff support 
and Member participation. And so we want to move along smartly, 
but we want to be sure that we do things that don't break the 
seamless operation of the legislative process.
    Mr. Fazio. Hence, the more deliberate process that you are 
undertaking.
    Ms. Carle. Right, and parallel tracks on testing.
    Mr. Fazio. So that we don't have any reduction in the 
current system's service.
    Ms. Carle. Right. I think I got that message pretty well.

                legislative information retrieval system

    Mr. Fazio. I thought you may have.
    I wondered if you worked at all with the legislative 
information system initiative that CRS has?
    Ms. Carle. Actually, with his other hat on----
    Mr. Trandahl. Actually, I participated as the Assistant to 
the Clerk of the House in my old role, and at a distance now as 
the acting CAO. We continue to meet. We have a working group 
that gets together. It is both a joint group of the Library, 
the Senate, as well as the House dealing with the SGML 
standards. But there is a lot of discussion about legislative 
information system.
    Primarily, a lot of that interest or the interaction 
between the House and the Library is actually at the HIR front 
in terms of providing information for the Members' offices. As 
you know, the Clerk and the Library----
    Mr. Fazio. Do you see at some point a system equally 
accessible not only to Members but to staff and people who come 
through the CRS or maybe people in the general public? Are we 
all talking about access on the same system? And in what real-
time kind of environment?
    Mr. Trandahl. There are two types of layers or two types of 
services right now that LIS is looking at. One is----
    Mr. Walsh. Jeff, could I interrupt for a second? For the 
uninitiated, you are going to have to drop the initials and go 
with the full, boring titles for a while.
    Mr. Trandahl. Oh, I am sorry. I am sorry. Yes, computer 
code.
    For the legislative information system that the Library of 
Congress will be testifying on in front of you, I believe it is 
actually engineered as being a dual system. One is defined as 
Intranet, which is basically Hill-clientele-only features, and 
then an Internet, which the public as well as the Hill can 
access those areas. And we have the ability within the 
technologies to create these different layers of service 
groups. There is discussion right now trying to define if there 
should be separate service groups or whether there should be 
just one threshold for the public and Congress.
    The reason there is a discussion about creating just a Hill 
environment within that larger environment would stem from the 
fact that there are draft documents and other types of 
information which are specific to our legislative process that 
aren't necessarily a public document.
    Mr. Fazio. Work in progress before an amendment is 
submitted, for example, formally which would perhaps trigger 
the second level of public access. I think this is an important 
issue for everybody to focus on, and probably this committee, 
among others, because we don't want to rightfully be accused of 
withholding information.
    On the other hand, there is a lot of work that is done 
before we are actually ready to go with amendments or 
legislation in a form that must be available to the public. Far 
more available than would set you back historically. I am sure 
there will be interest, especially among special interests who 
are in the general public, to have most draft documents 
available. To debate, we need the whole.
    Ms. Carle. And within the Clerk's operations, we are doing 
our internal document management system. That is a clear line 
between official documents and those documents that are works 
in progress.
    Mr. Fazio. Thank you, Mr. Chairman.
    Mr. Walsh. Are there any other questions of the Clerk?
    [Questions of Chairman Walsh and responses follow:]

    Question. Last year, during appropriations hearings, you 
spoke about efforts in the Office of the Clerk to make House 
hearings, reports and documents available electronically. As 
you know, one of the needs is to have electronic standards for 
creating uniform legislative documents. What progress has been 
made since last year?
    Response. During the past year, we developed a conceptual 
design document outlining a Document Management System which 
would make documents available electronically as well as 
available for print. The plan was submitted for approval to the 
Committee on House Oversight. The Committee approved the 
conceptual plan and directed the Clerk to proceed. The first 
and primary requirement is to establish standards with the 
Senate for creating uniform documents which can easily be 
exchanged between the two bodies and other legislative branch 
agencies.
    The Secretary of the Senate and I established a task force 
to do this. SGML was determined to be the standard to follow. 
All legislative branch agencies were surveyed regarding their 
activities and SGML programs and the information was reviewed 
by an outside consultant jointly hired by the Secretary and me. 
The consultant's report was received last week, endorsing SGML 
but noting that each agency had been working independently of 
each other with no coordination. Several next steps were 
suggested including collecting and coordinating all of the work 
done to date by each agency. A full report to both the Senate 
Rules Committee and the Committee on House Oversight is 
currently being drafted and will be submitted by the Secretary 
and me to our respective oversight committees within the next 
two to three weeks.
    Question. It should be possible for Members and staff to 
create documents and pass them electronically to other offices. 
House staff should be able to use familiar word processing 
programs without having to perform complex coding required by 
computer programs that drive the printing process. Will the 
standards being developed reach this goal?
    Response. I agree that Members and staff should be able to 
use familiar word processing packages to create and edit 
documents. This is highlighted in the conceptual design 
document for the Document Management System. No standards will 
be developed which do not meet this primary requirements.
    Presently this is not the case for documents created for 
printing. House Members and staff do not have the software or 
training to use the typesetting software supplied by our 
current printer. Nor is it based on newer windows based 
software.
    Question. Is it the goal for the Clerk's office to receive 
electronic copy created on a Committee word processor, convert 
it into a file that drives the printing process, provide a copy 
to a Member or committee for further editing, and receive back 
the edited electronic copy for printing? Outline an ideal 
process for the future of House printing needs.
    Response. The answer is yes. Users should be able to type 
documents using prepared quick tasks, coaches, templates and 
macros from within off-the-shelf word processing packages 
commonly used in Congressional offices. This conversion process 
must work both ways, allowing documents stored in the final 
format used for printing to be converted back to WordPerfect or 
to Microsoft Word.
    The first step is to establish an SGML based system and 
SGML document type definitions (DTDs) for final electronic 
storage of official House documents. SGML is a document mark-up 
which allows documents to be used and shard on a variety of 
computer platforms in addition to being printed. Formatting 
documents using SGML standards allows a document to be 
processed in many different ways: formatted for printing, saved 
to a database, displayed on-line or combined with other data to 
create new documents or formats. The information will be 
independent of the programs which created it.
    Working with the Secretary of the Senate we hope to 
establish an SGML standard which will allow Members and 
committees to work on documents which can easily be exchanged, 
edited, reused and shared between the two bodies. This should 
include a method by which House and Committee documents can be 
filed electronically with the Clerk. The electronic version 
should be numbered, maintained as the official version, and 
made available to the House staff and the public as a first 
step. This will allow the House to consider limiting the number 
of printed documents.
    The electronic version can be distributed to the Library of 
Congress, the GPO (for the depository Library System), or 
whomever else needs it for further electronic distribution and 
should be printed by GPO only when necessary.
    Commercial word processing vendors such as Corel (Word 
Perfect), Microsoft, and others are marketing software which 
works with the SGML standard, storing documents according to 
Document Type Definitions defined by the user, in this case, 
the legislative branch agencies including the House. It is this 
support which should allow staff to type documents in their 
office and then store the document in an SGML format for 
transfer to Legislative Counsel, the Clerk or whomever needs 
it.
    However, existing marketplace standards must be followed 
and new versions of SGML declared to be improvements on the 
SGML standards cannot be used with commercial products. This 
will leave us in the same situation as we currently find 
ourselves, heavily dependent of specialists who mark-up 
documents adding complex printing codes.

   Questions from The Honorable Vic Fazio for the Clerk of the House

    Question. You have requested authority to create a separate 
line-item and funding for the creation of a Document Management 
System for the legislative operations of the House. Please 
provide a breakdown of what the $1.5 million request would be 
used for?
    Response. The money will be used for contracting for 
resources needed to begin the project. The FY 98 request 
includes money (1) to work with the Senate to develop SGML 
definitions of Congressional documents, (2) to develop full 
user requirements for Bill Drafting, Journal and Calendar 
preparation, print on demand and (3) to identify and purchase 
software (text editing) to replace the GPO's microcomp system 
and databased software to managing large volumes of text files. 
We plan to contract most of this work out rather than hire 
permanent employees whose services would no longer be required 
when the work is completed.
    Most of the money in the first year is devoted to SGML 
development. This is a very expensive proposition as 
demonstrated by projects currently underway in some state 
legislatures and based on the GPO and Senate experiences. Some 
work done by the GPO and the Senate can be reused, but a great 
deal of work remains to be done and further coordination 
efforts are necessary.
    A breakdown of the projected costs for FY 98 are as 
follows:

Projected Costs: Fiscal Year 1998

Establish SGML Standards (Task Force with Secretary of the 
    Senate):
    Project/Activities:
        A. Requirements Development and Tool Selection........   $25,000
        B. Software...........................................    30,000
        C. DTD development and Implementation.................   400,000
Document Management System:
    Hardware:
        A. Servers............................................    50,000
        B. Workstations.......................................    30,000
        C. Optical Storage....................................   150,000
        D. Scanners...........................................    50,000
    Software:
        Data repository (100-150 users).......................   500,000
        Workflow management...................................   250,000
    Training:
        SGML Development......................................     5,000
        DBMS software.........................................    10,000
                        -----------------------------------------------------------------
                        ________________________________________________
          Total............................................... 1,500,000

    Question. How does your document management effort dovetail 
with CRS's Legislative Information System initiative? What 
problems, if any, have been encountered from your end? What 
policy questions--such as questions differentiating between the 
use of the information by the House and the dissemination of 
the information to the public--will eventually need to be 
answered by the Committee on House Oversight, the House 
leadership or the entire House?
    Response. The Legislative Information System being 
developed by CRS, is a PC/LAN based system using the same 
technology as the current World Wide Web/Internet. It will 
eventually replace their current mainframe-based SCORPIO 
system. As planned, it carries information supplied by the 
House and specifically from the Clerk's LIMS (Legislative 
Information Management System) maintained by HIR. The new 
technology is extremely flexible and allows the Clerk as well 
as other entities to provide more information in an easier to 
use format than has been available previously.
    Last fall, the Chairman of House Oversight wrote CRS asking 
they work closely with House users to insure the new system 
meets the needs of the House. As planned, the Document 
Management System will build documents based on the SGML 
standards, the same technology being adopted by CRS. My staff 
is working closely with CRS to ensure that documents and 
information can easily be transferred to or linked to the new 
system.
    Currently, the information managed by the Clerk is public 
information and is available on both the current systems and 
the future systems. There are, however, many other types of 
information being asked for by the general public or outside 
entities. For example, full text of amendments being offered in 
committee or before it comes to the House Floor, or Chairman's 
marks of legislation. This information is not currently handled 
under the Clerk's authority and we do not have it available. If 
the House wishes to make it available, several rules changes 
may have to be considered, but they are beyond the scope of the 
Clerk's office.
    Question. On page five of your submitted testimony you 
refer to ``publications previously produced by the Clerk only 
on paper will be provided in electronic form.'' Can you give 
some examples?
    Response. Some examples are: Nominees for the Office of 
United States Senator and for the Office of United States 
Representatives; Statistics of the Presidential and 
Congressional Election; The List of Members of the 105th 
Congress; The List of Committees for the 105th Congress; The 
Alphabetical List of Members and Their Committee Assignments 
for the 105th Congress.
    These documents were previously printed and distributed 
exclusively through the Clerk's office and often very limited 
runs of the paper documents were made. A good example is the 
final official list of the Membership of the 104th Congress. 
The distribution for this document in the past was less than 
1,000 copies. We are working to post these documents on the 
Internet where they will be available electronically and can be 
printed by people who need the information long after the 
initial printing is exhausted. In some cases, the information 
in the documents becomes quickly outdated, but the electronic 
copy can be easily updated and available until the next time 
the documents are scheduled for printing.
    When we can recover the electronic data, we are posting 
documents of historical value which are also out of print, 
specifically, the election statistics for the 1992 and 1994 
elections. This information is no long available on paper. 
However, by providing the information electronically on the 
Internet the information will be available to researchers 
indefinitely and can be printed as needed.
    Question. What is the timetable for your Document 
Management System effort?
    Response. I expect the entire effort to take three to five 
years and the system will be implemented in stages. In the 
document previously submitted to the Committee and to the 
Committee on House Oversight, several interim steps were 
outlined, some of which are being implemented during this 
Congress. Also, an important step is coordination with the 
Senate so as to not disrupt the flow of information and 
documents between the two bodies. The staff from the Office of 
the Clerk and the Secretary as well as the Senate Rules 
Committee and Committee on House Oversight meet regularly to 
coordinate the separate efforts in each body. Currently, the 
major emphasis is the joint development of SGML standards of 
which the efforts of both bodies will be based.
    A project plan was included in the conceptual design 
document submitted to the Committee on House Oversight last 
year. Included here is the highlevel schedule showing the major 
tasks and a projected timeline:

[Page 65--The official Committee record contains additional material here.]


    Question. The Inspector General released a year-end report 
entitled ``Opportunities Exist to Improve the Management of the 
Office of the Clerk.'' Can you summarize the IG's findings and 
tell us what steps you are taking to implement his 
recommendations?
    Response. The Inspector General indicated the Offices of 
the Clerk fully implemented the baseline objectives identified 
at the beginning of the 104th Congress and further, completed a 
number of other significant actions during the 104th Congress 
to improve operations, increase accountability and improve 
resource management.
    Of particular importance to me was the IG's evaluation 
that--the Clerk's immediate office has managed its duties in a 
hands on manner and at the same time empowered its employees to 
make improvements in their daily tasks. As a result the Clerk 
has made improvements in process and product while reducing 
appropriated positions from 302 in 1994 to 282 in 1996 and 
reducing total non-capital appropriations to $13,807,000 in 
1996. Additionally, employee morale appears good as evidenced 
by the fact that, of the approximately 80 Job Activity 
Questionnaires (JAQs) and 20 employee interviews, all of the 
feedback suggested that conditions have improved.
    The IG's staff identified a modest but important list of 
areas where they believe further opportunities exist for the 
Clerk to utilize staff more efficiently, achieve cost savings 
and operate more effectively.
    Their findings and my responses follow.
Finding A: The Cloak Rooms Appear to Have Several Underutilized 
        Personnel Positions
    The Clerk agrees to study this matter further within the broader 
context of her current review of staffing/reporting responsibilities of 
the service groups and will forward a proposal to the Committee on 
House Oversight during FY 97.
    The Clerk does, however, believe that the KPMG review during a 
recess period did not allow the opportunity to illustrate to the 
auditors the operational responsibilities and pace the Republican and 
Democratic Cloak Rooms face during a legislative period. The diversity 
and frontline duties of the staff to assist members of both parties 
with technical legislative support, current information and basic 
office and related support needs far exceeds the currently available 
resources of the Cloak Room staff. While supplemented with the services 
of House Pages, the needs for experienced supervisory personnel must be 
understood.
Finding B: Staffing Levels and Mix Required Within the Office of 
        General Counsel Needs to be Reviewed
    The Clerk agrees to begin a staffing review and will forward a 
proposal to the Committee on House Oversight during FY 97.
    The audit suggests a comprehensive study of personnel and legal 
demands on and services of this office be conducted to determine 
whether reductions can be made. The Clerk will begin such an evaluation 
with an eye on a possible recommendation to reduce the number of 
support personnel. As a part of the study the Clerk may request the 
Committee on House Oversight consider the effects the splintering of 
legal support services for the House among House Officers has had on 
personnel levels.
Finding C: Room and Board Fees for Pages Have Not Increased for 13 
        Years
    The Clerk agrees to study this matter further and forward a 
proposal to the House Page Board during FY 97.
    As an educational program, the Clerk believes the intent of the 
program is to provide a basic spending allowance for participants and 
recover a portion of the room and board costs via the monthly charges 
which may need to be evaluated periodically.
Finding D: Page School Staff Appears to be Underutilized.
    The Clerk agrees to study this matter further and forward a 
proposal to the House Page Board during FY '97.
    The compressed school day and the need for specialized professional 
instructional staff to teach the House Page students make this proposal 
difficult. If the student-teacher ratio were changed to reduce costs, 
it would raise multiple concerns. As example, as part of the re-
certification deemed by the Middle States Association earlier this 
year, the objectives of expanding, not maintaining or reducing, the 
current academic subjects available to students, were clearly 
articulated.
IG Recommendation:
    The Inspector General recommends that the Clerk work with the Chief 
Administrative Officer and the Sergeant at Arms to establish a 
consistent system for tracking and managing the implementation of prior 
audit recommendations.
Management Response:
    The Clerk agrees that such coordination is important to the success 
of the institution and the implementation of various audits. As a point 
of fact, the Clerk would also highlight the responsibilities of the 
Committee on House Oversight regarding the daily coordination of all 
House Officer activities. Further, the Inspector General no doubt has 
in place a tracking system. Perhaps it has functions which could be 
easily transferred to the individual officers thereby offering 
consistency not only among the officers' tracking systems but the 
Inspector General and Committee on House Oversight's systems as well.

                     office of the sergeant at arms

    Mr. Trandahl. Could I have the Sergeant at Arms be brought 
to the table.
    For salaries and expenses, $3,598,000 is requested. 
Included in this request is $3,189,000 for personnel and 
$409,000 for nonpersonnel related expenses.
    I introduce the Honorable William S. Livingood, the 
Sergeant at Arms of the House, here to testify on behalf of his 
fiscal year 1998 budget request, and I ask that the table on 
page 25 be inserted into the record.
    Mr. Walsh. Without objection.
    [The information follows:]

[Page 68--The official Committee record contains additional material here.]


    Mr. Walsh. Bill, welcome. I know this is a busy day for you 
with the President coming up. Lots of security issues. We won't 
hold you up too long. I will withhold any questions and go to 
Mr. Serrano, or if you would like to make an opening statement.

                          study of the capitol

    Mr. Livingood. I think I will just submit my statement, 
sir.
    There is just one item I wanted to add to that statement. 
One of the accomplishments I did not mention in my statement 
was the joint Secret Service, Capitol Police, and Sergeant at 
Arms study of the Capitol complex completed this last year; 
this was an exhaustive study about the security of the Capitol. 
We are in the process of implementing suggestions and 
recommendations.
    Mr. Walsh. Okay.
    [The information follows:]

[Pages 70 - 72--The official Committee record contains additional material here.]


                   questions for the sergeant at arms

    Mr. Cunningham. Just one question. Have you looked at delta 
or the ongoing negotiation of unionization on the costs and the 
variance of costs?
    Mr. Livingood. I am sorry, sir?
    Mr. Cunningham. I understand that the unions are coming in 
and looking at unionizing different branches. Is there any 
delta information on what the cost significance may be of that?
    Mr. Livingood. We have not done a study on that at all, I 
don't think--this will come up during the Capitol Police 
budget, but I don't see any difference or change in that, any 
increased costs at all.
    Mr. Cunningham. Okay.
    Mr. Walsh. Are there any problems with or any ideas that 
you would like to get before us early on that you wanted to 
deal with?

                    acknowledgement of subcommittee

    Mr. Livingood. No, sir. The committee and staff have been 
very cooperative and generous with this office, particularly in 
matters of security. We are striving to get the best security 
possible in an open environment and allow easy access for the 
public, the Members, and their staff.
    I think the Committee has given us guidance and assistance 
in all the areas that we have sought. I particularly thank the 
Committee for that.
    In particular, we have taken over parking security, and I 
think that has worked out extremely well. We have provided 
uniforms for staff, thanks to the Committee. And we took over 
the function of chamber security, from the old Doorkeeper's 
Office. I think that is working very well. We have new training 
programs for all staff. More security related for both parking 
security and for chamber security. You have been working with 
us on some of these changes and recommendations from this 
study. And we appreciate that very much.
    Mr. Walsh. We have a real challenge. We all want the 
people's House to be as accessible as possible to the people. 
We don't want barricades, we don't want shielded-off galleries 
and so on. But we also want to have our security. So you are 
entrusted with a real sticky wicket.
    Mr. Livingood. I as well aware of that situation having 
come from the Secret Service. During my White House days, when 
the President was out campaigning, we wanted to keep him in a 
bank vault and transport him only by tank.
    Mr. Walsh. What a great situation if you could have done 
that this year. We will have to keep that in mind for 4 years 
from now.
    Mr. Livingood. But there are some similarities.
    Mr. Fazio. We have had problems with our candidates getting 
in tanks.
    Mr. Walsh. Any other comments, questions, or puns? All 
right. Thank you very much.
    Mr. Livingood. Thank you, Mr. Chairman. And I thank the 
committee.

             chief administrative officer's budget request

    Mr. Trandahl. Since I am already at the table for the 
Office of Chief Administrative Officer, the fiscal year 1998 
funding request is $59,688,000.
    At the conclusion of my submitted statement, or after I 
give my statement, I would ask that the following information 
on pages 26 to 40 be inserted into the record.
    Mr. Walsh. Without objection.
    Mr. Trandahl. I appreciate having the opportunity to appear 
before the Subcommittee today to outline the fiscal year 1998 
budget submission of the Offices of the Chief Administrative 
Officer. As the Acting Chief Administrative Officer, I have had 
the responsibility to maintain and guide the operations of the 
Offices of the CAO until a permanent replacement is named.
    For those of you who are unfamiliar with the details of 
this organization, the Office of the CAO was established at the 
beginning of the 104th Congress. The organization was created 
by transferring administrative offices and responsibilities 
from various House support entities and offices under this new 
House officer position. The basic intent of creating this 
office was to place under one organization all the various 
nonlegislative administrative responsibilities and services of 
the House.

                       organizational components

    Included as part of my statement is a detailed 
organizational chart with division listings. Also included is a 
chart showing fiscal year 1997 funding levels by division 
compared with fiscal year 1998 requests. These specific details 
are certain to assist individuals in understanding the 
diversity and scope of responsibilities under the purview of 
the CAO. Simply, the organization consists of six divisions 
overseeing 31 offices, more than 600 House personnel and has 
oversight responsibility for more than 200 contracts and an 
estimated 325 tprivatized contract employees.

                     cao fy 1998 budget submission

    Before outlining the fiscal year 1998 budget, I would like 
to take the opportunity to express my gratitude to the many of 
you who have shown me support and guidance in my short tenure 
in this position. It has truly been a pleasure to work with the 
professionals throughout the CAO organization and others 
interested in the operations of the House and the continuation 
of reforms to improve the services and support provided for the 
House membership. Let me add that I have neither been nor do I 
wish to be a candidate for the position permanently. I accepted 
this role as an acting appointment, and I continue to view my 
role in those terms.
    We in the CAO organization clearly understand the need to 
respond to the requirements of the House, its Members and 
responsibilities. We are clearly and simply a service 
organization, and we pride ourselves on our ability to assist 
and support the House whenever possible.
    As the Acting Chief Administrative Officer, I was asked to 
provide two basic functions throughout my short service--
hopefully short service: first, to maintain stability and 
continuity in the operations and, second, to execute actions 
that provided opportunity and options for the future CAO. As 
part of those efforts, I submitted the budget submission before 
you today. Simply, this budget submission is not perfect, and 
it is my intention to hold open various options and proposals 
before the Subcommittee so the next CAO can assist the 
Committee in prioritizing the objectives of the Offices of the 
CAO prior to this Subcommittee's markup on the fiscal year 1998 
spending bill.
    As outlined in the notes before the Members of the 
Subcommittee, the fiscal year 1998 request I have submitted 
contains a total funding request of $59,688,000, a $4,479,000 
increase or 8.1 percent increase compared to fiscal year 1997 
funding. I recognize that this funding request is most likely 
beyond the abilities of the Subcommittee to support, and I 
would anticipate a lower budget request to be developed between 
the CAO organization and the Subcommittee prior to markup after 
a permanent CAO has been elected by the House.

                        cao personnel increases

    The 8.1 percent increase outlined before you today is the 
result of increasing CAO personnel by $3,211,000 to 
$33,403,000, a 10.6 percent increase. This increase is the 
result of maintaining fiscal year 1997 personnel funding, 
adding funding for scheduled longevity and merit increases, 
adjustments in anticipated position classifications, estimated 
overtime costs, cost of living adjustments and the creation of 
37 additional FTEs. In addition, the request includes an 
increase of $1,268,000 for House equipment and other 
nonpersonnel costs.
    I ask that my formal statement be submitted for the record. 
I recognize that this is simply a brief overview of the 
operations and the pending fiscal year 1998 funding request to 
better articulate the daily responsibilities activities and 
proposals before the CAO. I have also included a brief outline 
of the office's operation and comparative schedules for the 
overall CAO operational costs for fiscal year 1996 and 
estimates for 1997 and fiscal year 1998. I and some CAO staff 
are here and prepared to answer any questions you may have.
    Mr. Walsh. Thank you very much.
    Mr. Trandahl. Thank you.
    [The information follows:]

[Pages 76 - 91--The official Committee record contains additional material here.]


    Mr. Walsh. You are quite sure about not wanting to continue 
that? You made that very clear.
    Mr. Trandahl. Quite sure.
    Mr. Serrano. Playing hard to get.

                        vendor payment concerns

    Mr. Walsh. Good thing to do.
    I have a couple of questions, if I may. There was a real 
issue as you know, when you took over the office, of late 
payments to vendors and organizations that the Congress was 
doing business with. Obviously, it is not a good idea for the 
House of Representatives to be late in its payments to vendors 
and doesn't set a very good example.
    Would you care to comment on what your office has done to 
resolve that issue, and what sort of problems we might 
anticipate, if any?
    Mr. Trandahl. For historical background, I would mention to 
the Members that last summer and early fall we had a voucher 
processing problem, and many of you in your personal offices or 
committee offices experienced late payments, and we were 
getting past due notices, and it became a fairly public issue.
    At that particular time the Finance Office, which is the 
organization responsible for the processing of voucher payments 
to vendors, was also beginning the implementation phase of what 
was called FFS, which is a financial management system that 
they are bringing into the House to add accountability and 
better management. So they began implementation and were 
running a dual process, and in essence we didn't have the 
personnel within the Finance Office to be doing the traditional 
responsibility at the same time this new activity was 
happening.

                    improvements in implementing ffs

    Now, in response to that, additional resources were added. 
We slowed the implementation of FFS and stepped back to come up 
with a more methodical process. Since I have been there, 
thankfully, we have our target date of 5 days, which is the 
normal processing time for voucher payments once they arrive in 
the Finance Office, and we seem to be on target. The latest 
numbers that we have on our processing chart, which we will 
submit for the record, show that we are actually below our 
targeted goal.
    [The information follows:]

[Page 93--The official Committee record contains additional material here.]


                   additional voucher delays possible

    Now, there are some other ways--other types of delays may 
occur. Some of you may have outstanding equipment requests that 
are currently at the Office of Systems Management because the 
end of the calendar year is the time when most Members tend to 
spend a little bit of money out of their MRA account to upgrade 
their computers.
    There is currently a small backlog of orders there. That 
backlog is a traditional backlog that we experience every 2 
years or every year when Members are purchasing equipment, and 
we have prioritized those requests based on incoming freshmen 
Members who don't have computers yet, and we are working 
through that process.
    Mr. Walsh. When the problem was at its worst, it was a 
combination of a backlog because of whatever management 
problems or problems with the existing system, and the 
implementation of a new financial management system probably to 
deal with the problem that they were dealing with at the time, 
and it compounded the problem? Is that safe to say?
    Mr. Trandahl. Yes, very safe.
    [A question from Ms. Kaptur and response follow:]

    Question: What is the status of House payment to vendors?
    Response. There is a five day processing time target for 
vouchers. During October and November 1996 there was a five day 
processing average. In the month of December, the average 
processing time was six days. The January 1997 average was 
approximately 6.5 days.

                     federal financial system, ffs

    Mr. Walsh. What is the status of that new FFS?
    Mr. Trandahl. We are still in the implementation stages. 
The IG has completed an audit.
    Mr. Walsh. You are satisfied that that will work for the 
office?
    Mr. Trandahl. Yes. We have a lot of work to do, though. We 
have spent considerable time defining the processes of the 
House. We are meeting the needs and the expectations of the 
House. It is a system in which considerable resources have 
already been invested. We are down the trail, so to speak, 
quite a way in terms of bringing the system in. It is intended 
to add better management, accountability and audit trails for 
the House.
    Mr. Walsh. Are you requesting additional funds to implement 
that system?
    Mr. Trandahl. Now, within the 1998 request that I have 
before you, yes, there are some additional staff positions that 
would be slated to go into the Office of Finance to assist in 
that effort.
    Now, I would also add here, though, that I would anticipate 
that a CAO--an incoming CAO would be able to potentially help 
if not completely balance out by reducing other areas of the 
CAO budget to bring those priorities in.
    Mr. Walsh. You don't feel--in your judgment this is not a 
case of putting good money after bad?
    Mr. Trandahl. No, I don't feel that way. At the same time, 
though, I believe it is fairly safe to say that we view this as 
a system that has a use and a utility up to date certain, and 
that there will be new systems to follow. It is an evolutionary 
process. We are bringing new requirements into the House that 
we have never done before. We have learned a lot through that 
process. We are going to have a system that works, but we are 
definitely going to have future systems, and we have learned 
this time around what we need more clearly.
    [A question from Ms. Kaptur and response follow:]

    Question. What is the current status of the Federal 
Financial System (FFS)? Do you agree with the IG's evaluation 
of the system? How much have we spent on this project so far? 
When will Member offices and Committees see a tangible product 
that will facilitate the administrative tasks in our offices?
    Response. The Federal Financial System (FFS) is currently 
in the Phase II system which includes establishing and 
implementing the core FFS system. This phase is anticipated to 
be completed this year. We do agree with the Inspector 
General's overall evaluation of the system. Additional 
resources have recently been approved by the Committee on House 
Oversight to assist in the day to day operations and management 
of the FFS system as well as being an integral part in the 
remainder of Phase II and future phases.
    The cost of FFS to date, including actual disbursements and 
outstanding obligations, has been $8.5 million. Phase III of 
FFS includes the migration of input and retrieval to offices 
which will facilitate the administrative tasks in offices. A 
time table has yet to be compiled until a thorough needs 
analysis and requirements definition is completed.

                        telecommunication budget

    Mr. Walsh. Okay. My other question is on the 
telecommunications budget. We are being asked to appropriate 
funds for new switches and terminal equipment; right?
    Mr. Trandahl. I am going to turn to Ken Miller, who runs 
House Information Resources, and he can briefly outline that.
    Mr. Walsh. We might be jumping ahead. We will get this out 
of the way now and leave early.
    Mr. Kenneth Miller. Thank you. The question is are we 
investing in a new switch?
    Mr. Walsh. Yes.

                         new digital telephones

    Mr. Kenneth Miller. There is $3.3 million in the net 
telecommunications budget, and that $3.3 million includes 
$800,000 in upgrades to the two new switches that we put in in 
1996, $2.1 million for 7,000 new digital telephones, that would 
be the completion of the implementation for the House, and 
$420,000 of that $3.3 million for installation of those 
telephones.
    Mr. Walsh. The switches are digital; the existing sets are 
analog?
    Mr. Kenneth Miller. The switches are digital, and the 
existing sets are not digital.
    Mr. Walsh. The idea is to put digital equipment behind the 
switch. Obviously, the existing telephone sets will work.
    Mr. Kenneth Miller. Right, they are running off the other 
switches.
    Mr. Walsh. So why are we putting in new phones?
    Mr. Kenneth Miller. Well, the telephones that we have are 
approaching 11 years of age now, and we are putting them in for 
a number of reasons; one, the new features. One is Caller ID, 
and the ability to have ISDN lines as well as other features.
    Mr. Walsh. Caller ID?
    Mr. Kenneth Miller. Plus the concern for security.
    Mr. Walsh. You could put a separate unit in each office 
that would provide Caller ID without buying new phone sets; 
right?
    Mr. Kenneth Miller. I suspect that is true. I don't know.
    Mr. Walsh. And what is the application for ISDN?
    Mr. Kenneth Miller. Well, it is for linkage to the district 
offices to support video conferencing and future multimedia 
applications.
    Mr. Walsh. Wouldn't they have to have ISDN capabilities at 
the district offices, too?
    Mr. Kenneth Miller. Yes, many do have that ISDN capability; 
not all do.
    Mr. Walsh. Mr. Serrano.
    Mr. Serrano. On that, telecommunications, we are hearing 
about phones. Could you just very briefly tell us how the whole 
system would change our daily operation; I mean, besides the 
Caller ID, which is fine. But that doesn't get----
    Mr. Kenneth Miller. Six-way conferencing would be one of 
the features that will be helpful in the offices. And I think 
the other piece is not a feature, but making sure that we have 
a reliable telephone system for the House because we have one 
of the largest telephone systems in a single location with 
20,000 lines, and the concern is always that we are capable of 
providing the very best communication services to the House, 
since that is one of the primary activities of the Members and 
the staffs.
    [Questions from Mr. Fazio and responses follow:]

    Question. I understand that there may be an effort underway 
to eliminate the so-called ``soft lines'' in Member offices, 
which may have an adverse impact on the budgets of a number of 
offices who use them.
    Decisions of this nature which will have a budget impact on 
Members should be communicated to Members early so their input 
can be sought, and so they can communicate with the Committee 
on House Oversight.
    What is the status of this proposal?
    Response. No effort is currently underway to eliminate the 
soft lines that are available from the House Telecommunications 
System. The Inspector General, in his Telecommunications Cost 
Audit, recommended that the Chief Administrative Officer 
develop a proposal, for approval by the Committee on House 
Oversight, to establish and implement a new charge back 
structure that eliminates the incentive-oriented program for 
providing ``soft lines'' at no charge and provides rates that 
reasonably and equitably distribute costs among both District 
Inward Dialing and ``soft line'' users.
    In response to the Inspector General, the CAO stated that 
HIR Client Services will fully analyze costs, benefits and 
ramifications of eliminating the no charge policy of soft lines 
and forward a proposal containing this analysis to the 
Committee on House Oversight prior to the end of fiscal year 
1997. Due to the resource requirements necessary to install the 
105th Congress, this effort has not yet begun. However, the CAO 
has every intention to keep the due date commitment.
    Question. My office traditionally received excellent 
service from the Office of Telephone Services. However, I 
understand that a significant backlog of telephone requests 
exists for this department. Please provide statistics that 
would permit the committee to track workload in this area. 
Indicate the number of requests received and the number 
satisfied for whatever period you have statistics. If there is 
any backlog, indicate how you intend to deal with it.
    Response. The Telecommunications group is currently 
receiving approximately 70 requests per day, almost double the 
normal amount of 36 orders per day. Some of this increase is 
attributable to the new Congress but even prior to January, 
requests were up 30%. Telecommunications has traditionally been 
able to process an order in 1-3 days. That interval is 
currently 4-10 days. If the rate of orders continues at the 
current pace, the backlog will not be eliminated without 
additional assistance. Telecommunications has been dealing with 
this backlog by working extra hours and by contracting with 
Lucent Technologies for a technician with the skills to process 
orders in the telephone management system. The technical skills 
required to process orders requires significant training in our 
vendor's proprietary system. We are investigating opportunities 
for gaining assistance from other departments in processing 
purchase orders and other related functions associated with 
FFS. These procedures will allow more time for processing 
orders.
    Question. What is the current actual FTE level for OTS? Is 
it sufficient to accommodate the workload?
    Response. As described below, there is no longer a single 
Office of Telephone Services. The number of FTEs for customer 
services is 12, which includes one manager. This level of 
support is the same as it was in ``OTS'', with the exception of 
a receptionist to answer and direct calls. While the 
Telecommunications group has always focused on using technology 
and improving processes instead of hiring more staff, the 
current workload indicates that more staff may be required. As 
stated earlier, requests are up 30 percent. These increases are 
mostly associated with AUDIX voice mail, celluar telephones, 
district office orders, and the administration of two new 
telephone switches. The additional requirements for using FFS 
have also added to the workload. As a result, productivity 
would be greatly improved with the addition of a Telephone 
Administrator to process orders and a staff assistant for 
clerical tasks.

    [Questions from Mr. Fazio and responses follow:]

    Question. What is the status of the installation of new 
phone sets for House offices. Is the work proceeding on 
schedule, and if not, what factors are affecting the 
installations and what is the projected timetable for 
completion? To what extent, if any, is the changeover affecting 
the processing of normal telephone requests for Member offices, 
and how are these competing demands prioritized?
    Response. The implementation of new telephones is on 
schedule with the first installations scheduled for the week of 
March 3. New Member offices have all received the new phones 
and follow-up work is almost complete. The entire project is 
expected to take approximately two years. Lucent Technologies 
is responsible for project management and implementation 
activities. There is some involvement by the Telecommunications 
group amounting to about 10% per week. Work associated with 
this project is scheduled as is most telecommunications work on 
a first come, first served basis.

    [Questions from Ms. Kaptur and responses follow:]

    Question. What is the status of the new telephone system? 
When will the new telephone system be fully deployed?
    Response. New digital telephones have been installed in all 
new Member offices, nine Member early adopter offices, the 
Republican Conference, the Democratic Caucus, the CHO minority 
staff office, and House Information Resources. The FY97 budget 
includes funding to install up to 5,000 new telephone 
installations. The FY98 budget appropriation request includes a 
request for the additional 7,000 telephone sets and features 
required for the two G3R digital switches that were installed 
in FY96. This would complete the installation of the telephones 
late in 1998.
    Question. Have you spoken to the IG in regards to his 
assessment of the CyberCongress initiative? Could we get a 
breakdown of the cost of the project? When do you expect to 
have the project fully operational? What do you expect will be 
the total cost of the project?
    Response. Over the past few months the CAO and Inspector 
General have discussed and evaluated various projects relative 
to House Information Resources and the CyberCongress 
initiative. As part of various IG studies and audits relative 
to HIR performance, the CyberCongress has been evaluated.
    As the Subcommittee is aware, the CyberCongress initiative 
is a combination of a broad set of projects that address the 
infrastructure, the legislative and administrative operations, 
Member and Committee offices, and the extension of the House 
constituents through the Web. The initiative continues to 
evolve with the changing needs and desires of the House and 
changing technologies. It should consistently evolve with 
timeliness, cost and benefit in mind.
    The itemized cost and projected total cost for this project 
has yet to be determined.

                           video conferencing

    Mr. Serrano. One last question. The video conferencing will 
be all-encompassing and will allow us to communicate with other 
than our district offices?
    Mr. Kenneth Miller. Yes, yes.
    Mr. Serrano. Local colleges?
    Mr. Kenneth Miller. Yes, throughout the district, and there 
are two ways that that is being handled: One, in the recording 
studio the capability to do video conferences without having it 
in your office; and, secondly, to be able to actually have it 
at your desktop. We have a few Members who have it at the 
desktop now, and that does give them the capability to go not 
only to the district, but also anywhere really in the world 
that would accept that capability.
    Mr. Serrano. Okay. Thank you.
    Mr. Walsh. Mr. Wamp? Mr. Latham?

                          unexpended balances

    Mr. Wamp. I have a general question. I represent an area 
with Federal facilities in it, and this deal of unexpended 
balances is confusing to me, even keeping up with the 2 billion 
that flows into the Third District of Tennessee every year. Do 
we have at this subcommittee level any kind of long-term 
strategy to simplify this process of carryover money now that 
we are not spending on an annual basis?
    Mr. Trandahl. Are we talking about the appropriation level 
versus the authorization level of accounts?
    Mr. Wamp. As I look through each one of these accounts and 
I see a wide latitude of variation on unexpended balances from 
year to year, is there a long-term strategy on how to 
consolidate that?
    Mr. Trandahl. Actually, I think the confusion of what we 
are seeing there is the fiscal year 1997 first quarter expended 
and the fiscal year 1996 expended as well as the fiscal year 
1998 request. The fiscal year 1997 number that you see there is 
actually only the first quarter of the fiscal year, and that is 
why you see a drop and then a giant jump and then a requested 
number.
    Mr. Wamp. So we are not actually carrying funds over from 
year to year?
    Mr. Trandahl. No.
    Mr. Wamp. I am new, and I will learn.
    Mr. Fazio. Our ability to do that a few years ago was 
circumscribed on the Floor. We have 1-year carryover now? Two? 
Mr. Lombard, I was seeking information from you.
    Mr. Lombard. Obligational authority lapses after the first 
fiscal year. For those obligations that have been made, the 
funds stay on the books for 3 years in order to pay them when 
payment invoices are received.
    Mr. Fazio. Those are obligations we have agreed to pay. The 
unspent funding no longer resides with this committee to 
reprogram in future fiscal years. We have actually tightened 
down on that process quite a bit.
    Mr. Wamp. Thank you.

                     additional video conferencing

    Mr. Walsh. Mr. Fazio, do you have any questions? Tom?
    Mr. Latham. I would just have a question, I guess, about 
the video conference issue. In the district, what are you going 
to need as far as facilities? We are totally set up with fiber 
optics throughout the State, and every community basically.
    Mr. Kenneth Miller. At the desktop, you need a personal 
computer capable of accepting the card that would support video 
conferencing. That would include having a camera that would sit 
on top of the desktop and an ISDN line back to the Hill.
    Mr. Latham. Okay.

                   vendor payment concerns, continued

    Mr. Serrano. If I may, I thought we were just asking HIR 
questions. I recall that last year one of the fears was that 
Members would submit their vouchers on time, but we would 
somehow run the risk of reading about ourselves in the papers 
as not paying our bills on time, personally. But I also 
remember at that time that part of the problem was not what the 
House was not doing, but also the fact that one of our credit 
card vendors had a lot of problems in terms of what our records 
looked like. Things appeared or didn't appear, and it took a 
while to get that straightened out. Will it change that 
somewhat?
    Mr. Trandahl. Because we run so many bills through the 
Finance Office, we traditionally have vendor problems where we 
have gotten bad billing by a vendor being late or double 
billings or a myriad of issues. The thing that did push us over 
the edge in late summer/early fall was the fact that we did 
have a situation here where we were attempting to put in dual 
financial systems. Members were correctly submitting bills, 
along with the payment papers to go with them. We just did not 
have the staff to do the processing part of it.
    And the Committee on House Oversight quickly intervened, 
and they reallocated staff resources over there and got the 
time frame down. We are doing okay now, but you are correct, 
you are absolutely right on the history. We had an example 
there where we had a vendor problem in addition.
    Mr. Serrano. Okay. Thank you.
    Mr. Walsh. Vic.
    Mr. Fazio. I wanted to, first of all, say to Jeff, and I 
really think you are doing a good job. You come from the old 
Pat Roberts College of Good Humor, which make its a lot easier 
to work with you and the people over there, and I appreciate 
that.
    I think it would really help all the members of the 
committee, however, if they read the Inspector General's report 
on the Chief Administrative Officer's office. I think we don't 
need to go into a lot of it now, it is old history. But there 
are clearly some lessons to be learned, the concern about gag 
orders to the House Oversight Committee and the concern about 
reprisal for people who questioned any action within the 
organization. I am sure that is no longer in place, and I am 
very happy to hear about it, but I think we do have to try to 
make some progress. I know some of the questions that have 
already been raised are concerns of mine. Twenty-five of the 37 
full-time equivalent positions you have asked for would be 
assigned to the Finance Office; is that correct?
    Mr. Trandahl. Yes, that is correct.

                          contract assistance

    Mr. Fazio. Does that mean that we would no longer have to 
rely on outside vendors for contract assistance?
    Mr. Trandahl. It would be my hope--that was an IG 
recommendation, actually. We had relied considerably on 
contract assistance to try to help us get current under that 
law.
    Mr. Fazio. It was useful at that time. We couldn't have 
begun to catch up without that.
    Mr. Trandahl. And we have been on a downhill slide in terms 
of reducing our reliance on it. One of the results of the Peat 
Marwick audit suggested that we get to the stage where if we 
had a high tide, that we be able to go to contract employees. 
But if it is routine, we ought to have our employees----
    Mr. Fazio. In general, we would like to be able to maintain 
a decent flow with our own people?

                        finance office staffing

    Mr. Trandahl. Exactly. And that is part of this.
    Now, we are also in the process of putting together a 
comprehensive staffing plan for the Finance Office that will be 
going to the Committee on House Oversight. Now, this 25 
additional FTE estimate, that is an estimate based on the 
earliest possible prediction that I could have in the first 
week as interim CAO. We would hope it would not be that high. 
But at the same time we were planning for all contingencies, 
and we will prepare a draft plan, and when the permanent CAO is 
put in place, it would be up to that individual to forward it 
on to the committee.
    Mr. Fazio. You should be commended for accepting without 
exception all of the concerns expressed--some would say 
criticisms by the IG. I think that shows a very positive 
attitude. And there is no point in recriminations, but I think 
some of these concerns were noted early on when reductions were 
made that made it impossible for us to handle some of the other 
workload.
    Where are the other 12 positions going to be?

                         other staff increases

    Mr. Trandahl. Scattered throughout the entire CAO 
organization. There are different priority issues that have 
been established. There were earlier notes in terms of the 
budget request that was going to be sent down to the OMB that 
had highlighted where these additional positions would go in. 
They were random. Some were administrative staff in the 
different offices and things.
    I kept the 12 additional positions that were being 
requested from the administrative staff or the associate 
administrative staff. There was a theory that it would be 
offset with other reductions in other areas. And I would--there 
again, the permanent CAO can determine where the priorities 
would be. It would not be my anticipation that--my submitted 
statement goes on to say that it would not be my anticipation 
that the permanent CAO would request those.
    [Questions from Mr. Fazio and responses follow:]

    Question. Last year, House Information Resources reported 
that they were understaffed by 20%. What is the current 
staffing level and what number and percent does this fall short 
of HIR's authorized level?
    If they are short, what steps are being taken to fill the 
positions?
    To what degree do Human Resources procedures have an impact 
on filling these positions?
    Response. HIR's current staffing is 239, 31 below the 
authorized staffing of 270 (11.5%).
    HIR is continuing to actively pursue qualified candidates 
for open positions. A reorganization recommendation with 
attendant Position Description changes is being prepared for 
review by the Committee on House Oversight in March. Once this 
recommendation has been reviewed and approved, a large 
percentage of the current openings will be filled. The market 
for information and communications technology professionals is 
very competitive in the Washington metro area and this makes 
the task increasingly difficult.
    Human Resources procedures have no negative impact on 
filling these positions. They continue to provide advice, 
counsel, and support.
    Question. It has come to my attention that the Furniture 
Resource Center, commonly known as ``office furnishings,'' may 
be understaffed for the level of requests it is receiving.
    What is the requested FTE level for this department, what 
is the actual staffing level, and how does this compare to the 
requested and actual FTE levels for the past four years?
    Response.

Requested FTE level...............................................   107
FY '97 FTE level..................................................    98
Estimate--Projected using four months of actual activity and 
    forecasting the remaining months based on the last month 
    remaining constant............................................   101
FY '96 FTE level..................................................   112
Actual............................................................   105
FY '95 FTE level..................................................   129
Actual............................................................   118
FY '94 FTE level..................................................   150
Actual............................................................   129

    Question. Anecdotal evidence indicates that office 
furnishings may have as many as 1000 backlogged requests, with 
little hope of cutting down on this number appreciably in the 
near future. Member offices are universal in their praise for 
the hard work this department does on their behalf, but they 
should expect adequate staffing in order to receive timely 
response to their needs in the furniture area.
    Please provide statistics that would permit the committee 
to track the workload in this area. Indicate the number of 
requests received and the number satisfied for whatever time 
period you have statistics (e.g., day, week, month, quarter). 
If there is any backlog, indicate how you intend to deal with 
it.
    I also understand that the increased use of overtime or the 
use of temporaries has been frowned upon as a temporary remedy. 
Is this the right policy in the light of the backlog?
    Response. From December 1, 1996 through February 27, 1997: 
11,083 work orders were written; 9,278 work orders were 
completed.
    The backlog consists of 1,805 work orders. 40% of the 
backlog orders are deliverable and are being worked on daily. 
40% of backlog is in need of repair/refinishing/reupholster or 
construction, which are also being worked on daily. The 
remaining 20% are items that are no longer in the furniture 
inventory and unavailable for delivery.
    In order to complete the outstanding work orders the 
Furniture Resource Center has temporarily suspended new 
construction orders on a case by case basis. The focus is to 
manage the backlog priorities, which require some employee 
overtime.
    The use of temporary help in the trade shops is not 
feasible due to the lack of available shop work space. Any 
additional FTE's in these shops would infringe on the capacity 
of the shop, thus creating a possible safety hazard. Temporary 
help in the labor division would enable additional delivery 
capabilities.
    The use of temporary help was utilized during the 
Congressional office moves.
    Question. As the House continues to be upgraded to cope 
with advanced computer and telecommunications applications, it 
draws attention to the fact that much of the furniture stock is 
decades old and in need of constant repair.
    What steps do you anticipate, if any, to acquire more 
modern furniture or to replace the House's aging furniture 
stock?
    Response. The House's aging furniture stock, specifically 
desks, was last replaced twenty years ago. The current desk 
inventory is under constant repair by the Furniture Resource 
Center and reamins in high demand. There are currently enough 
desks in the inventory to meet the demand. However, after 
numerous repairs from office moves over the years and general 
day to day usage, it will eventually become nonproductive to 
repair these desks. The estimated costs for desk replacements 
exceeds several million dollars. The cost for these desks will 
have to be phased in over a period of years due to the high 
replacement cost and will be addressed in the FY 1999 budget.
    Several studies and proposals have been done over the years 
regarding the use of modular furniture in House Office 
buildings. None of these studies have been conclusive in terms 
of their long term benefit to the House.
    Currently, the Furniture Resource Center is developing a 
long term plan, including cost estimates for the replacement of 
the aging furniture.

                          staffing procedures

    Mr. Fazio. There were some questions that the IG indicated 
that related to the CAO's requirement of going through the 
Office of Human Resources when trying to staff up. It seemed 
that there might be delays there that would allow you to bring 
on the qualified people in a timely manner. Are you still 
required to go that route even though you now have House 
Oversight as your oversight body?
    Mr. Trandahl. Well, the Human Resources Office basically 
provides an administrative function as well as the legal 
function for the CAO's office to ensure that we are advertising 
positions, and people who are getting positions are of quality 
and education to fit the positions that they are being put 
into. I am unfamiliar that we have a delay in the Human 
Resources Office per se. I view it as a very cooperative 
collaborative effort between the other staff, the other 
managers, between the Departments and our people.
    [A question from Mr. Fazio and response follow:]

    Question. There have been a number of recent termination's 
within departments overseen by the CAO.
    Please describe the normal CAO termination policies and 
process. Have these policies and processes been followed in 
recent months?
    What is the current policy for awarding accumulated annual 
leave, and is this policy being applied uniformly for all 
terminated employees?
    Response. CAO employees can be released under ``At Will'' 
authority or for cause. CAO employees separated under ``At 
Will'' authority have traditionally been provided two weeks of 
administrative leave. CAO employees released for cause are 
immediately separated.
    Under guidelines approved by the Committee on House 
Oversight, all House Officer employees are entitled to 
compensation for up to 30 calendar days of accrued annual leave 
upon their separation from employment for any reason. 
Appropriate documentation is required to certify an 
individual's payment.

                           procurement delays

    Mr. Fazio. We can ask Mr. Lainhart about that 
recommendation, but I think he is also concerned about the 
procurement, even small purchases being sometimes delayed, a 
too cumbersome bureaucratic process. Maybe if you have any 
comment on that, fine. Otherwise, we can bring those up with 
him.
    Mr. Trandahl. I would just add on the procurement process, 
we have a system right now that is currently a paper-driven 
process where you do go through multiple levels, and we have 
determined that--that is an electronic effort. We do have a 
problem in the fact that we are mirroring almost identically 
the paper processes, and I believe the IG--part of his 
recommendations, basically, is suggesting that we might be able 
to alleviate some of the steps in the processes, especially on 
small procurements.
    [A question from Mr. Fazio and response follows:]

    Question. The Inspector General's report on the Chief 
Administrative Officer's office said that ``the procurement 
approval process requires an excessive number of approvals 
within the CAO organization, for even the small purchases.''
    What specific problems has HIR experienced with procedures 
of the Office of Purchasing and Procurement and what effect has 
that had in carrying out HIR duties?
    Response. There are multiple reviews and approvals by the 
procurement process, which does not delegate procurement 
authority commensurate with levels of mission responsibility. 
The multiple reviews necessarily consume time, not just in the 
actual inspections, but also in transit (between different 
offices and buildings) and administrative tracking of the 
documents. This should see improvement with the advent of 
automated, paperless systems such as the Procurement Desktop 
system currently being piloted at HIR. Meanwhile, the recent 
delegation of procurement authority to the Office of 
Procurement and Purchasing to approve purchases less than 
$10,000 should result in immediate improvement in turnaround 
time for the bulk of HIR's orders.

                          year 2000 readiness

    Mr. Fazio. Do you still go forward with something called 
the year 2000 issue? I understand the IG was concerned about 
progress on that. Is that still part of the agenda?
    Mr. Kenneth Miller. Oh, yes.
    Mr. Fazio. Do you want to comment on that?
    Mr. Kenneth Miller. Sure. The year 2000 is an issue that 
everyone around the world is concerned about relative to the 
information systems and the other systems that are in place 
simply because most systems that were built in the 1970s and 
1980s or even in the 1990s went with two-position date fields, 
and that is not going to do it for us.
    We have quite an effort now started to ensure that our 
systems are either going to be moved to a new platform that 
will be year-2000-compliant or in some cases will be made year-
2000-compliant simply because there is not enough time to move 
them to another platform. That work is underway. And there is a 
request for money in the fiscal year 1998 budget to support 
that.
    Mr. Fazio. And that will bring us up to date with our 
original schedule on that project?
    Mr. Kenneth Miller. Yes. Well, it is a big project, Mr. 
Fazio, and there is a lot of work, and it is the only time we 
are ever going to do this.
    Mr. Fazio. John's eyes were rolling a little bit behind 
you. Obviously this is a monumental task.
    Mr. Kenneth Miller. It is a major task because we have to 
look at every one of our operational systems and make sure that 
we are going to make it when the clock strikes 2000.
    Mr. Fazio. I don't want to delay the committee, but I think 
these are major expenditures for this function in a relatively 
short time frame, and people need to know why we are doing it, 
what we hope to get out of it. I have been associated, 
regrettably, with other efforts like this in the legislative 
branch that have come with great fanfare to naught, and we 
don't want to have that happen again, including one at the GAO 
of all places. So, I did want to try to get that on the record.
    I have some other questions, Mr. Chairman, I will put on 
the record.
    [Questions from Mr. Fazio and responses follows:)

    Question: Are you cooperating with CRS's Legislative 
Information System initiative and what, if any, problems have 
been encountered from the HIR end?
    Response. Following the October 1996 letter from the 
Committee on House Oversight to CRS requesting inclusion of the 
House in the development of the Legislative Information System 
(LIS), the Associate Administrator for HIR authorized his 
planning manager to coordinate plans with CRS on the 
development of LIS. HIR's Technical Support Representatives 
(TSRs) and several groups of the House's user community have 
discussed the initial version and suggestions for its 
improvement with CRS. The Training team is contributing 
curriculum development for training on the LIS, which will be 
modular and coordinated with counterparts in the Senate. Staff 
in HIR's Internet Services Group have agreed to assist with the 
functional specification of information search technology at 
CRS's request. No problems have been encountered from the HIR 
end of our collaboration with CRS.
    Question. The IG's report has a number of criticisms of 
HIR's long-range planning, in particular the fact that it ``has 
not completed a comprehensive needs analysis and cost/benefit 
analysis of its mainframe migration project that could 
conceivably result in increased costs and decreased service 
levels.''
    I am particularly interested in the treatment of systems 
that have historically constituted the Member Information 
Network.
    Please summarize the issues regarding mainframe migration 
and the plan for the most widely-used MIN systems, such as the 
Newswire, Hotline and LEGIS?
    Response. There are three major elements regarding the 
mainframe migration plan. They are the migration of appropriate 
applications to three tiered client server architectures, the 
preparation of legacy systems that can't be migrated at this 
time for Year 2000 compliance, and the reduction in the size 
and cost of the MVS platform as these applications are 
migrated.
    HIR recently replaced the mainframe that had been 
operational throughout the 104th Congress with an Enterprise 
Server that runs legacy systems but takes 5% of the floor space 
of the previous system. This change will save the House over 
$500,000 in hardware, software, and maintenance costs over the 
next 2 years. The system will also reduce the Architect's 
annual power expense by an estimated $60,000 per year.
    The MIN/ISIS system will also be moving to different 
platforms over the next few years. It is anticipated that the 
newswires, Hotline, and LEGIS will be available via the House 
Intranet or the Internet World Wide Web. The Hotline will be 
accessible only via the Web in the very near future. The 
objective of these changes is to provide an easy to use common 
interface (a Web browser) that is accessible from any desktop 
or laptop system.
    Question. The IG also pointed out overlap between the CAO's 
office and HIR for the so-called ``Cyber-Congress'' initiative. 
I'm also concerned that little progress has been shown to 
demonstrate even one Member office function that would take 
advantage of ``seamless electronic transactions'' as envisioned 
in the original ``Office 2000'' initiative.
    What are the immediate goals for Cyber-Congress and what 
progress can you report on the office functions aspect of it?
    Response. The Cyber-Congress initiative's objective is to 
position Members, Committees, and their staffs to increase the 
quality and productivity of their work by taking advantage of 
the most appropriate, timely, and cost effective communications 
and information systems technology. The immediate goals are to:
    1. Provide a secure, high quality, multi-faceted 
communications backbone for voice, data and video based 
systems.
    2. Provide a highly reliable, robust messaging system 
capable of handling a variety of current and future House, 
office application requirements.
    3. Provide Intranet, Internet services that are comparable 
to top internet service providers.
    4. Maintain a highly reliable and secure environment to 
conduct House business electronically.
    5. Implement a list of system applications prioritized by 
the House community that enhance the operation and 
effectiveness of Member and committee offices and legislative 
and administrative systems.
    In the office: new desktop systems have been installed in 
all but seven offices; the new Exchange messaging system is 
operational in over 50% of the House; new digital telephones 
are operational in new Member offices and being installed in 
returning Members offices and committees; new software to 
support the latest desktop applications including the Netscape 
Web browser and anti-virus protection is operational; just 
under 250 Members, Committees and other offices have 
operational Web sites today; and the new desktop video 
conferencing system is available.

    Mr. Wamp. If the gentleman will yield, on the year 2000 
issue, is there any coordination between the legislative branch 
and the executive branch on this problem, as it is a huge 
problem that everybody is scared to death could bring the 
country to its knees?
    Mr. Kenneth Miller. Yes. The coordination has to do with 
the sharing of information, and conferences we are attending, 
and understanding what others are experiencing, and really 
trying to understand what tools we can use, what productivity 
techniques are being used, what experiences people are having. 
And there is a lot of discussion back and forth on that. There 
was a conference back, I believe, last May that I believe the 
Social Security Administration had initiated, and I think that 
will continue.

                 year 2000 readiness, members' concerns

    Mr. Wamp. From a policy perspective we may want to have 
briefings for the Members on this problem as I think a lot of 
folks don't really understand this problem. I just became aware 
of it last year, and I am kind of new still. But I think 
Members need to understand the urgency of this because this is 
going to sneak up on us a lot faster than most would suspect, 
and the information technology field is short on manpower right 
now. I think there is a zero unemployment rate in the whole IT 
industry nationwide. And there are a few parts of the country 
that might be pooled together, but I think the average 
knowledge of people charged with leadership in this country on 
this issue is limited. That is just my perspective.
    We may even want to consider setting up some clearing house 
of information on this issue for Members as it becomes more and 
more known through the country that this is a problem that the 
administration and the Congress are both going to share the 
adverse consequences of if we are not careful. It is pretty 
bipartisan in nature as we are all going to be blamed because 
we are stewards of the public trust at this time in history if 
we don't cure this problem sooner than later.
    Mr. Kenneth Miller. Well, the sooner versus later is really 
important and that is that we make as much progress as early as 
we can, particularly on the higher priority items. And you are 
right about the resources being strained, because this is 
probably one of the few problems where the whole industry 
across the world affecting most systems is going through the 
same exact situation.
    So the resource is going to become scarce, and we really do 
need to keep everyone informed of the progress and the concerns 
as we go.
    Mr. Wamp. I thank the gentleman.
    Mr. Walsh. Any other questions?
    [Questions from Chairman Walsh and responses follow:]

    Question. Describe the role HIR has played in discussions 
on standardizing electronic files. The Clerk's office has been 
working on standards that decrease the amount of staff time 
spent in editing files prior to publication, be it the 
Congressional Record, or committee bills, hearings, documents, 
or reports. What role is HIR playing in assuring that the 
standards will be available and usable in Member and Committee 
offices?
    Response. HIR has supported the initiative of the Clerk and 
the Secretary of the Senate to create a process for the 
dissemination and collaboration on electronic documents and for 
the establishment of electronic document formats and standards. 
HIR's primary role in this area has been to ensure that the 
technology infrastructure needed for staff and Members to 
share, change, review, and collaborate on the productive 
completion of important House documents is in place.
    The new House communications systems, messaging system, and 
Web based Intranet (secure House internal Internet) are being 
implemented to support this type of application. In addition, 
each House office and Committee now has at least one desktop 
system capable of performing these documents management tasks 
when they are available for House use. Once certified as 
official, these documents will be available for printing or 
accessible through a search via their Intranet or the Internet.
    Question. What timetable do you see in achieving 
standardization? Do you believe Members and Committees will be 
able to interface with support offices such as the Legislative 
Counsel and the Clerk in a seamless manner? Will it be possible 
with new technology to forgo the onerous checking at each stage 
of the legislative process to make sure ``translation'' from 
one electronic system to another has not introduced errors?
    Response. The timetable for standardization will be 
controlled by the complexity required by the document 
management systems selected by the Clerk and the Secretary. 
Because the electronic format for legislative documents will be 
specified in an international Standard Generalized Markup 
Language (SGML), and assuming the translation from the 
legislative SGML DTD to the HTML (HyperText Markup Language) 
format familiar to Web browsers in Member and Committee 
offices, seamless interface to the documents is expected. The 
master copy will contain additional reference information which 
offices could obtain through software comparable to that used 
by the Clerk's office to manage the documents. Onerous checking 
of documents will be eliminated by getting them correctly 
marked at the outset in the official version. Avoiding errors 
in the translations to versions more convenient for all House 
staff can be ensured by the specification of the DTD since HTML 
is defined in terms of SGML.

    [Questions from Ms. Kaptur and responses follow:]

    Question. There seems to be a policy or informational 
contradiction with regards to modems and the desire of Members 
to use PC FAX capabilities. On the one hand, the IG has issued 
a report warning Members of the high possibility of security 
compromises with modems in PCs. On the other hand, the House is 
allowing Members to install modems in PCs in order to use 
faxing capabilities from PCs.
    In light of the IG report, has the House developed an 
official policy when it comes to modems?
    Response. No, the House has not developed an official 
policy. The HIR Security function was initiated in February 
1996 and was fully staffed per approved levels by June 3, 1996. 
During its initial year, the HIR Security office had to address 
over forty 1995 IG audit findings of which the modem issue was 
identified. Since there were only two existing policies 
regarding information security (i.e., Internet Security and In-
Office Security) HIR Security has essentially had to develop 
policy from ground zero. The Committee on House Oversight is 
currently reviewing The United States House of Representatives 
Information Security Reference Manual 105th Congress. This 
document comprised of over 100 pages addresses the basics of 
information security. Modem policy is planned for future 
inclusion in the policy document, currently pending before CHO.
    Question. Do we have enough available numbers to 
accommodate the growing influx of PC modems?
    Response. HIR Communications considers that with the 
current trends in growth, there will be enough telephone 
numbers in the 225 and 226 range to support the needs of the 
House. If there is an unexpected demand for lines, the House 
will need to consider the purchase of an additional range of 
numbers.
    Question. Have you considered a centralized modem system to 
minimize the security concerns of the IG?
    Response. A centralized approach to fax modems was 
investigated in August 1996. The cost to provide a centralized 
service of the magnitude purported to be required for 
supporting the House was in excess of $2 Million. This course 
of action was deemed imprudent for two reasons: (1) the 
supporting data was suspicious since the service for the 
existing fax gateway was not being charged at market rates and 
therefore not representative of true traffic patterns, and (2) 
implementation of newer technologies (e.g., fax over the 
Internet, the House Massaging system, etc.) are expected to 
further erode the need for the investment in a centralized fax 
service.
    Question. Why does the House block the use of UDP as a 
communication protocol? Is this a security or communication 
issue, what can be done to resolve these issues to allow access 
to UDP?
    Response. It is a security issue--The House's security 
posture is predicated on a packet filtering scheme and 
therefore, relies on the use of secure, connection-oriented 
protocols (i.e., Transmission Control Protocol (TCP)). User 
Datagram Protocol (UDP) is connection-less and therefore, will 
travel through our firewall at unexpected points which makes it 
highly ``spoofable''. Therein lies the security vulnerability. 
The issue is why is UDP perceived as being needed in the House. 
UDP supports UNIX Remote Procedure Calls (RPC) or ``r'' family 
of commands (e.g., rlogin, etc.). This family of commands is 
extremely dangerous and is prohibited from being used on House 
systems. Another example of a dangerous UDP supported command 
is trivial file transfer protocol (TFTP) which permits anyone 
to logon to a machine without a password. In the current House 
configuration, the use of the UDP protocol would essentially 
open up House systems as a ``playground'' for the hacker 
community. If there is a valid need for the use of this 
protocol, a proxy setup would be required to provide additional 
filtering capability.
    Question. Can you assure other Members and me that our 
computers are immune from outside entities which may try to 
alter or destroy documents which reside on our systems? What 
steps have we taken to address security concerns of the House?
    Response. HIR Security is working to prevent threats to 
electronic information but cannot guarantee immunity of Member 
office systems from external or internal threats. HIR Security 
has and will continue to build layers of security for Member 
office systems
    The following steps have been taken to address the security 
concerns of the House:
    A policy text which provides an infrastructure from which 
to manage the Security program;
    Perimeter protections in the form of fire walls are in 
place to isolate the House from the Internet and other agencies 
on the Capnet backbone;
    Host protections in the form of security configurations for 
internal systems; and
    Continuous self assessments to ensure that policies and 
controls are in place;
    The following protections are planned:
    Full participation in a professional organization which is 
an international consortium of computer incident response and 
security teams working together to handle computer security 
incidents and promote preventive activities which promotes 
preventive activities;
    The development of an automated Member office risk analysis 
program which will enhance the security posture of office 
systems; and
    The development of a ``war room'' from which various 
automated network security analyses and monitoring will be 
conducted. The goal of network and system monitoring is to have 
instantaneous notification of security breach attempts.
    HIR Security will continue to build ``layers'' of security 
as appropriate to ensure the highest level of protection 
possible for Member office systems as well as other office and 
internal systems.
    Question. At this stage, what grade would you give for the 
progress being made on the deployment of the Cyer-Congress and 
FFS projects?
    Response. There has been major progress in the 
infrastructure development of the initiative. This progress has 
been principally in the following areas:
    1. Communications--new and improved voice, data, and video 
systems:
    Message system to replace the 9 House e-mail systems:
    Internet, Intranet, and Web architecture and Web sites for 
House, Member and Committee offices;
    Repositioning and downsizing the mainframe to an Enterprise 
server to reflect the decreasing workload and reduce cost; and
    Establishing the security systems to ensure information 
security and confidentiality.
    The legislative, administrative, Member and Committee 
applications haven't made the same level of progress but with 
the infrastructure in place, progress in these areas is 
expected to increase. Overall, the project is probably a ``B''.
    Question. What further infrastructure improvements does HIR 
anticipate?
    Response. The major infrastructure initiative are in place 
and will be substantially completed during FY 97. Beyond that 
point, the introduction of new hardware and software features 
and functions will be researched and where appropriate will 
become part of a continuing process of incremental improvement 
that take advantage of price/performance opportunities. Any 
major infrastructure changes due to technology breakthroughs 
would have a compelling cost/benefit business case for review.
    Question. What is the current status of the Exchange 
deployment? When will the deployment be finished?
    Response. The deployment of the Microsoft Exchange as the 
House proprietary e-mail system began in October, 1996. As of 
February 1, 1997, more than 4,000 House mailboxes have been 
converted to Exchange. There are 79 House offices scheduled for 
installation during February and March which will bring that 
total to approximately 5,500 mailboxes. It is currently 
anticipated that by mid-summer, all offices selecting Exchange 
as their e-mail system will be completed.
    Question. With the deployment of Exchange progressing, has 
a date been set for unplugging the main frame in which 
``softswitch'' currently resides? When will Members and 
Committees be advised?
    Response. The plan is to remove ``softswitch'' from the 
Enterprise server by the end of CY97. The Enterprise server 
will not be removed because it continues to support many of the 
House's important operational systems.
    Members and Committee will be notified in the next few 
months of the plan to remove ``softswitch''. There will be 
regular updates throughout the year on that subject including 
articles in the ``Cyber-Congress Connection''.
    Question. When does HIR expect to complete the migration of 
House legacy applications, such as Legis, newswire, and 
bulletin boards to Web servers? Once this is done, how will 
Member offices who do not have the technology access the 
service?
    Response. There are two elements that must be addressed 
regarding the migration of legacy systems. They are whether to 
migrate the application to a new three tier client server Web 
based platform or some other non MVS based system or to ensure 
that the application is Year 2000 compliant because the 
transition to a new platform is not feasible due to time and/or 
other considerations. All of this work has to be completed 
including thorough testing in the next 18-30 months.
    For offices that can't access the Web due primarily to 
their continued use of a UNIX based CMS system, a freeware 
system is planned to be available for installation during FY 97 
and beyond. It will provide text based Web access via non-
intelligent workstations. The number of offices with this type 
of equipment continues to diminish every month.
    Question. What should the House do to encourage Member 
offices which are woefully behind the technology curve to 
upgrade their computer systems?
    Response. First, the House should provide those offices 
with information that clearly demonstrates the benefits of new 
technology. The House could designate space and funds to set up 
a model office that makes it easy to demonstrate equipment and 
services. If the Member can be shown how services such as 
Exchange, access to the Internet, a Web page, and video 
conferencing can better allow him/her to serve constituents, 
little encouragement will be needed. The purchase of hardware 
and software to accommodate these technologies will be seen as 
an investment in service to the public rather than an 
unnecessary expense.
    Maintenance and support of old technology is expensive and 
sometimes not available at all. The House should take steps to 
remove old equipment from the House inventory. The first step 
of this type occurred with the 105th Congress when the new 
Members were not able to inherit dumb terminals and 286 PCs. 
Similar programs should be continued to systematically remove 
antiquated equipment.
    Next, the House should provide information and processes 
that assist the Member in making buying decisions. Continuing 
programs such as Minimum Technical Standards, and volume buy 
contracts while providing vendor performance information will 
allow for educated decision making with some assurance that the 
investment will not too quickly be outdated. However, Members 
need to understand that if they wish to continue taking 
advantage of technology advances, equipment and software 
purchases are an ongoing expense.
    Finally, the House must assure that training is available 
to Members and staff in the use of technology. Training classes 
must become more position specific so that the application of 
software and services can be seen in direct relation to 
successful job performance. Investment should be made in multi-
media learning options both for staff in Washington and the 
district offices.
    Question. Do you expect to rewire the Rayburn and Longworth 
Buildings?
    Response. Yes. The Category 5 and Fiber Wiring Project that 
was originally part of the FY95 Communications Infrastructure 
Reprogramming included funding for rewiring portions of these 
buildings. At present, the Rayburn Building Member Suite 
rewiring has been engineered, and the first phase of wire 
installation has begun. It is anticipated that all Rayburn 
Member suites will be completely rewired by the end of FY97. 
Engineering for the Longworth rewiring will begin within the 
next month. A wire installation schedule has not yet been 
determined. It should be noted that, due to access limitations 
and the desire to minimize office disruptions, it is 
anticipated that all the Category 5 and Fiber Wiring will not 
be ready until the end of FY99.
    Question. In his testimony, Acting Law Revision Counsel, 
Mr. Miller, states that he believes HIR cannot provide the 
needed support for tasks his office performs. Do you believe 
this is true? If so, why is that?
    Response. HIR continues to provide the LRC support for the 
databases that reside on the Entrprise server that are used by 
the LRC staff and others. HIR also prepares the US Code CD 
annually. An area where there will be some reduction in HIR 
support will be the House Law Web site which is a high quality 
internet Web site that experiences over 2 million hits per 
month primarily from non House employees. The reason for this 
reduction in effort is the need to allocate HIR resources to 
support the growing House needs including the CyberCongress 
initiative.

                       finance office fte issues

    Mr. Latham. The major increase, I guess, in the full-time 
equivalents in the Finance Office, you have 25 additional 
people. I am just curious as to, I guess, where that number 
came from or if it is just basically a guess and also, if you 
have a new system in place, how you justify that large an 
increase.
    Mr. Trandahl. Actually, we are still in the process of 
implementing the new system. The new system isn't totally in 
place yet. And the number 25 actually was a number that I 
inherited. There was a reorganization proposal that would have 
created a net increase of 25 that the previous CAO had 
submitted up to the Committee on House Oversight, and it was 
withdrawn because there were multiple concerns including the 
fact that the background and the analysis of where the true 
needs were hadn't been fully completed. So I continued with 25 
FTEs.
    Now, we are still in the process internally creating a new 
plan for the Finance Office. It is truly my hope that we won't 
end up with a net increase request of 25 positions, but it is 
where we were previously headed, and we requested it in the 
budget request.
    Mr. Latham. You can assure me the next time I go to the 
airport and give my House--a credit vendor a card to him, and 
they say your card is no longer any good, and you are standing 
there going, apparently the House of Representatives is not 
paying its bills.
    Mr. Fazio. And you see the police moving in on you.
    Mr. Latham. Yes. After a long conversation, they finally 
do. It is embarrassing.
    Mr. Walsh. It is.

                           child care center

    Mr. Fazio. Mr. Chairman, I have two brief questions, if you 
will yield. I apologize.
    Mr. Walsh. You go right ahead. No need to apologize.
    Mr. Fazio. What is the status of the day care center?
    Mr. Trandahl. The day care center, as you know, is 
currently located in one of our side buildings. There is 
discussion about relocating the day care center because that is 
the building that had been identified to be put up for sale.
    Mr. Fazio. Right.
    Mr. Trandahl. The House Building Commission has been in the 
process of evaluating other House space that would be 
available. I think the recommendation that has been made and 
the issue that is under discussion is where should the day care 
center be relocated at this time. I have been providing 
background and supportive information.
    Mr. Fazio. There will be no interruption in service, I 
assume?
    Mr. Trandahl. That was a guarantee that the Building 
Commission gave last summer that there would be absolutely no 
interruption in the service. And, second, we are taking every 
precaution to ensure that safety considerations and concerns 
are addressed prior to any action being taken.

                 sale of 501 first street, se, building

    Mr. Fazio. Where is the sale of the building at the moment, 
do we know?
    Mr. Trandahl. I know second or third person, based on what 
the Building Commission has said to me, but there is a broker 
and a listing. And that is part of the day care center issue, 
the broker would much prefer that we have a vacant building to 
show for sale rather than one that is occupied with a day care 
center and multiple employees.

                  discussion of cao ``capital'' budget

    Mr. Fazio. I understand you abandoned the concept of a 
capital budget that was started in the last year. Would you 
elaborate?
    Mr. Trandahl. I don't believe a capital budget was ever 
really, truly created. There was a fallacy--the CAO appears 
within the legislative branch as a single line item, and it is 
made up of multiple things. Some of it is purchases which are 
House-wide based, you know, backbone systems for the computer 
to telecommunication switches to--you name it. It has always 
appeared just as a single dollar amount.
    We internally within the CAO's organization divide that out 
and put it out to multiple things. One area was considered a 
capital budget. Now, I believe my predecessor, in rereading the 
testimony from the last Congress, created the idea that he was 
somehow requesting that a separate dollar amount appear in the 
bill outside the CAO budget. Because that is not the historical 
process, I have simply put it all back into that single number.
    Mr. Fazio. Okay.
    Mr. Trandahl. Okay.

                         food service contract

    Mr. Serrano. Jim, I have just two or three questions.
    The food service contract, how is that going, number one. 
Number two, are we taking into consideration at all the folks 
with a lot of House service who were hired by this current 
contractor?
    Mr. Trandahl. My comment on that would be that we received 
notification my first week, when I took over as interim CAO, 
and I believe this has been pretty much read in Roll Call, so 
notification that they were going to be exiting and they were 
choosing to provide us a six-month notification that they were 
going to be leaving, our office has been internally in the 
process of drafting up a RFP for the competitive processes and 
things like that. It would be an initiative that would go 
before the Committee on House Oversight. I would assume that 
the subcommittee, in working with the Committee on House 
Oversight, would take up the multiple other issues involved. We 
would just be administering and writing the contract.

                          random drug testing

    Mr. Serrano. One last question. On the random drug testing 
in the House, have you come up with a cost of that operation?
    Mr. Trandahl. We have not come up with a cost because no 
one has yet interpreted the rules and come up with what the 
program needs or determined the desire of the House is in terms 
of the implementation process.
    There, again, that is an issue I believe that is pending in 
the Committee on House Oversight, between Committee on Rules 
and House Oversight; and they should be formulating plans. We 
are there to assist in terms of coming up with dollar figures 
and doing whatever administratively we need to do to assist.
    Mr. Serrano. So they will basically interpret what the rule 
is and let you know?
    Mr. Trandahl. I would think multiple individuals would; but 
the Committee on House Oversight, I believe, under the rule 
that was adopted, is given responsibility to establish a 
program.
    Mr. Serrano. Thank you, Mr. Chairman.

                             overtime cost

    Mr. Walsh. One last question for me, and that is, the House 
has about a year's experience paying overtime now. What is our 
annual overtime costs? Do you know what--how much of that is 
administrative and how much of that is committee staff?
    Mr. Trandahl. Okay. I can break it out every which way. The 
total overtime costs for calendar year 1996 was roughly a 
million dollars. It was $948,449.65. Of that, just looking down 
the list, MRA account was roughly $300,000, which were--oh, 
okay. Here is the percentages. I don't have to estimate.
    Mr. Walsh. So MRA covered about a third of that?
    Mr. Trandahl. MRA members' individual offices was roughly 
28 percent. The House officers, including the IG and the 
legislative counsel, made up roughly 50 percent of the House 
overtime costs.
    Now, I would attribute the costs here basically to 
implementation of the Congressional Accountability Act, 
effective January 23rd, 1996. Early in the process, people took 
very conservative action in terms of who they paid overtime to, 
because we were still in the process of understanding legally 
the implications as well as the requirements as to who was 
exempt and who was not exempt under fair labor standards.
    I think that if you looked over the year you would see that 
it would actually have fallen, because we would understand that 
more people would not be legally required to be paid overtime 
because they would be professionally exempt.
    Mr. Walsh. So that the trend was downward in terms of the 
impact of that change in the law on budgets?
    [A question from Mr. Walsh and response follow:]

    Question. The House has over a year's experience paying 
overtime to our non-exempt staff. What is our annual overtime 
cost? How much of that is administrative staff, members staff; 
committee staff? (Details for the record)
    Response. The information follows:

------------------------------------------------------------------------
                                                    CY 1996   Percent to
                    Category                        actual     subtotal 
------------------------------------------------------------------------
Administrative..................................    $548,592       57.84
Member..........................................     287,343       30.30
Committee.......................................     112,515       11.86
                                                 -----------------------
      Subtotal..................................     948,450  ..........
Benefits........................................      61,934  ..........
                                                 -----------------------
      Total.....................................   1,010,383  ..........
------------------------------------------------------------------------

    The Administrative category primarily includes the Clerk of 
the House, Chief Administrative Officer of the House, Inspector 
General and Legislative Counsel.
    The Committee category includes all House Committees.
    The Member category includes staff employed by Members of 
Congress.
    Overtime costs also impact the Government Contributions 
(benefits) account for Medicare and Social Security (FICA). An 
estimated 6.53% has been used to complete the overtime costs to 
the House. The Medicare contribution (1.45%) and 82% of the 
FICA contribution (6.2% <greek-e> .82=5.08%) total the 6.53% 
total percentage being used. The FICA portion was prorated 
based upon 82% of the employment population participating in 
the FERS retirement program. Those participating in the CSRS 
program are not required to contribute to FICA.

    [Questions from Ms. Kaptur and response follow:]

    Question. During last year Subcommittee hearings, the 
former CAO stated there was no way of estimating how much the 
Congressional Accountability Act would cost Congress. Looking 
at the budget request this year, how much would you say is for 
implementation of the Congressional Accountability Act?
    Response. There is still no way to estimate the total cost 
to the House for implementation of the Congressional 
Accountability Act. There has been substantial time spent by 
staff in Member offices, Committees, Leadership and 
administrative support offices developing necessary policies 
and procedures to comply. There has also been substantial time 
spent in responding to actions brought in the Office of 
Compliance. The Office of Employment Counsel was set up and 
staffed.
    Funds totaling $257,000 are requested in the Fiscal Year 
1998 House bill for the new Office of American with 
Disabilities which began operations at the beginning of 1997. 
This office was approved by the Committee on House Oversight on 
a provisional basis until further direction.
    Funds totaling $70,000 are requested in the Chief 
Administrative Officer's budget request to begin and maintain a 
safety and medical program as required under the guidelines of 
the Occupational Safety and Health Act of 1970 (OSHA). The 
effective date of this Act to the Congress was January 1, 1997.
    Question. Has an inspection of the Capitol grounds taken 
place in order to comply with the work safety standards set in 
the Congressional Accountability Act? If so, have the 
violations been addressed? Will there be a report issued to 
document all the violations found?
    Response. The CAO is not responsible for the inspection of 
the Capitol grounds and therefore is unable to respond to this 
question.

                    overtime within the cao's budget

    Mr. Trandahl. Yes, it was. And I believe as well that you 
will find in the FY 1998 request in front of you that roughly 
$318,000 is requested. Most people are actually looking to just 
simply absorb it within their existing budgets.
    Mr. Walsh. Good. Any other questions?
    All right. Thank you, Mr. Miller.

                    office of the inspector general

    Mr. Trandahl. Okay. Mr. Chairman, I would ask that the 
Inspector General be called to the table.
    Mr. Walsh. Welcome, Mr. Lainhart.
    Mr. Lainhart. Thank you very much.
    Mr. Trandahl. The Office of the Inspector General. For 
salaries and expenses for the Office of the Inspector General, 
$4,344,000 is requested. Included in this request is $1,763,000 
for personnel and $2,581,000 for nonpersonnel items. This 
request is an increase of $390,000 above the amount enacted in 
the FY 1997 appropriation bill.
    At this time, I would introduce John Lainhart, the 
Inspector General, to testify on his FY 1998 budget request in 
its entirety. I would ask that after his testimony the 
following table on page 41 be inserted into the record.
    Mr. Walsh. Without objection.
    Welcome, Mr. Lainhart. We believe we have your prepared 
remarks, and if you would like to make a brief statement we 
will then open it up to questions.

                  104th congress audit accomplishments

    Mr. Lainhart. Thank you.
    Good afternoon, Chairman Walsh, Congressman Serrano and 
members of the subcommittee. I am pleased to appear before you 
today.
    I would like to very briefly highlight the accomplishments 
of the OIG during the 104th Congress. During the 104th 
Congress, the OIG issued 42 audit reports accounting for over 
$22 million in potential savings and identifying numerous 
material internal control weaknesses.
    Last year we issued three audit reports on the new 
accounting system being implemented in the Finance Office that 
accounted for nine findings and 39 recommendations.
    At the committee's request, we also looked at the new 
computer center where the accounting system is being 
processed--the Geological Survey's Reston computer center. We 
identified 42 significant information systems integrity 
weaknesses and made 72 recommendations with respect to those 
weaknesses.
    As mentioned earlier, we also looked at the three House 
officers to see how their operations worked during the 104th 
Congress. We also completed three major investigations, two of 
which involved significant procurement irregularities.

                      goals of the 1997 audit plan

    And in looking at our next year and continuing years of 
operations, we have identified the fact that our workload 
continues to grow. Our proposed 1997 annual audit plan and 
perpetual inventory together account for 76 audits, an increase 
of 19 audits and some 1,300 staff days of effort.
    As Jeff indicated, we are asking for total funding of 
$4.344 million. Included in this is a request for an increase 
of $201,000 for four additional OIG nonsupervisory audit 
positions. These positions are needed because of sporadic and 
unpredictable increases in our investigative and contract audit 
workloads. This has caused significant delays in, or 
suspensions of, ongoing audits.
    I think if you look at it, the OIG's 19 FTEs and a little 
over $4 million in funding to audit the financial and 
administrative activities of the Sergeant at Arms, Clerk and 
CAO, operations that total approximately 1,000 FTEs and $74 
million in funding for FY 1997--and protect total House FY 1997 
funding of $683 million, you will see that we are a pretty good 
investment for the House of Representatives.
    So, with that, I will conclude my opening statement and 
submit my formal statement for the record and will be glad to 
answer any questions you might have at this time.
    Mr. Walsh. Thank you.
    [The information follows:]

[Pages 115 - 123--The official Committee record contains additional material here.]


                       inspector general reports

    Mr. Walsh. These reports that you have produced, are they 
all on record with this subcommittee?
    Mr. Lainhart. Yes, sir, every one.
    Mr. Walsh. Do you do that as a matter of course?
    Mr. Lainhart. Yes, sir.

     inspector general's assessment of financial management system

    Mr. Walsh. The financial management system was mentioned 
earlier on. Could you give us your assessment of that system 
that is being implemented?
    I asked the CAO, the acting CAO--I want to make that clear, 
Jeff--if he thought we were putting good money after bad, and 
he said, no. I would like to put the same question to you.
    Mr. Lainhart. Well, I will start off with that and then 
explain the status.
    I don't think that we are putting good money after bad. I 
think the system that we had before this one was being 
implemented was very much deficient. There were internal 
control weaknesses. There were major accounting weaknesses. It 
wouldn't stand up to scrutiny by anybody--in comparison to 
private industry or any other Federal agency for that matter. 
So I think we definitely needed to move in this direction. And 
like Jeff indicated earlier, we are moving in that direction.
    The new financial management system was mandated on August 
3, 1995, by the House Oversight Committee. As a result, the 
Chief Administrative Officer entered into a cross-servicing 
agreement with the Geological Survey to implement their Federal 
Financial System, which is an off-the-shelf software package.

             implementaiton of financial management system

    Full implementation was scheduled to occur in four phases. 
The first phase was completed September the 30th, and it 
involved identifying and setting up the functionality of the 
new system to support the House.
    Phase 2, which is still not complete, includes establishing 
and implementing the core FFS system, custom interfaces and 
custom reports for the House. We are very close to getting to 
the completion of that phase. It has been slipping on us a bit, 
and that was a concern that we raised in our audit reports near 
the end of last year.
    In addition, there are phases 3 and 4 that really have not 
been defined yet. However, the Office of Procurement and 
Purchasing began implementation of Procurement Desktop, which 
was parallel to the implementation of the core FFS, and this 
has generally been considered part of phase 3. So some of phase 
3 is being done separately.

                        delays in implementation

    As described in our December 23rd, 1996, report, ``The 
House Struggles With The Management Of The New Financial 
Management System,'' phase 2 isn't complete because the Office 
of Finance Management hasn't provided sufficient resources to 
perform the day-to-day operational tasks required of the new 
system and to complete the remaining phase 2 implementation 
tasks.
    Jeff referred to this earlier, and that is why the request 
for the additional staff is included in the budget.

                     Discussion on Finance Staffing

    Mr. Walsh. Excuse me. On the staffing levels, Jeff said--I 
believe he said he inherited the 25 FTE figure. In your mind, 
did you--or otherwise did you determine what you felt was an 
adequate need in terms of FTEs?
    Mr. Lainhart. We didn't look at it from that perspective. 
We certainly knew that certain functions didn't have enough in 
the way of resources.
    For example, when the requests were being put together, I 
believe the Director of Financial Systems position hadn't been 
approved by the House Oversight Committee. That position is key 
to the implementation of the new system, somebody to head the 
implementation effort; and that position has just been recently 
advertised. So that certainly is one of the positions that was 
needed. So we looked at the CAO's request in that perspective. 
Certain key areas needed to be reinforced within the office, 
that being the major one.

            audit concerns with financial management system

    Mr. Lainhart. When the system was being brought before the 
House Oversight Committee for approval to be implemented, that 
was back on June 4, 1996, there were six items that still had 
to be completed for phase 2. Unfortunately, those still to this 
day remain to be completed.
    They deal with the reconciliation and correction of errors 
from conversion of the old system to the new system; 
modification and associated training of custom interface 
programs, such as the General Services Administration district 
office lease billing system; development of operating policies 
and procedures for the interfaces; establishment of a user 
support program to resolve user questions and problems, 
development of user procedures and training for these 
subsystems; and then, finally, the execution of systems 
acceptance testing for year-end closing processes.
    In addition, FFS has incurred operational problems as we 
reported in one of our other reports. There is normally the 
traditional backlog that is experienced with implementing a new 
system and the operational problems. Jeff already referred to 
those.

                  probable solutions to audit concerns

    Mr. Lainhart. These problems can be anticipated and 
alleviated by assigning additional temporary resources. 
Unfortunately, that wasn't done when the system was being 
brought up. Management in the Finance Office didn't make the 
additional resources available, and the FFS team was 
understaffed throughout the implementation process and 
overburdened with additional work and really up against the 
wall.
    As a result, many of the phase 2 tasks couldn't be 
completed as planned, which negatively impacted on user 
confidence with the new system and the trust in the new system 
that Members and staff have.

         common legislative branch financial management system

    Mr. Walsh. This financial management system, will this 
encompass the entire legislative branch budget?
    Mr. Lainhart. No. This is just the House.
    Mr. Walsh. Just the House?
    Mr. Lainhart. Just the House.
    Mr. Walsh. Does it make sense to put everybody into the 
system if that sort of effort is ongoing, and it seems to be, 
that we are headed in the right direction?
    Mr. Lainhart. Well, one of the issues that Jeff alluded to 
earlier was that this is an interim solution and that 
ultimately we are looking for a new system, and I would suggest 
one system for the entire legislative branch of the government. 
I think that is definitely the right way to go.
    We can save through economies of scale and through proper 
implementation of a system using a system development life 
cycle methodology--unfortunately, we had to cut some corners 
this time. We can save on procurement and maintenance, 
enhancements and upgrades, operations, development of 
accounting policies and procedures, training and security by 
having one system for the entire legislative branch. So these 
economies certainly would support the establishment of one 
system for the entire legislative branch.
    Mr. Walsh. Okay. Mr. Serrano.
    Mr. Serrano. I have no questions.
    Mr. Walsh. Mr. Wamp? Mr. Latham?
    Mr. Wamp. No.
    Mr. Latham. No.
    Mr. Walsh. Mr. Fazio.
    [A question from Chairman Walsh and response follows:]

    Question. What needs to be done to move us toward the goal of a 
common financial management system?
    Response. The Legislative Branch Financial Managers Council, which 
is an informal forum for Legislative Branch financial managers, has 
already been established. The Council has also established and 
documented a charter and a high level statement of vision, goals, and 
strategies. This is an excellent first step. I believe that this group 
should be formally tasked with developing a plan to implement an 
integrated financial management system for the Legislative Branch. To 
be successful the Council needs to adopt a system development life 
cycle approach which would initially entail:
    Developing a needs statement which describes the users' financial 
management system requirements;
    Conducting a feasibility study which would identify and explore 
alternative approaches for implementing an integrated financial 
management system;
    Conducting a risk analysis to identify internal control and 
security vulnerabilities;
    Conducting a cost-benefit analysis to determine the most cost-
beneficial solution, and based on the results of this analysis, 
recommending going ahead with the best approach;
    Developing a project plan which would specify the strategy, goals, 
activities, and resources for all phases and sub-phases of the 
development effort; and
    Preparing a functional requirements document which would provide 
the basis for the mutual understanding between users and designers of 
the required financial management system.

                  inspector general's audit activities

    Mr. Fazio. Thank you, Mr. Chairman.
    I want to say, John, I think you have really made a 
positive impact on the institution. I think all of those people 
who, in both parties, thought it was important to have an 
Inspector General should be heartened by the way in which you 
have performed, without any fanfare or penchant for publicity, 
in fact, just the opposite.
    Mr. Lainhart. Thank you.
    Mr. Fazio. We have done a lot of good, and I think 
objectively people can follow your blueprint to make 
improvements in most of the operations we are engaged in here.
    The one thing I have heard, and it is not unusual--you hear 
it about the GAO coming in--it is time consuming for elements 
of the legislative branch to work with your people as you go 
through your audits. I think HIR is a good example of people 
who found at times that perhaps that they were being diverted 
from their normal course of business to some degree; and this, 
of course, is an irritant. You understand the banks don't like 
the various regulatory agencies in their way. It is endemic.
    But what are you doing to be as unobtrusive as possible and 
as, I guess, unburdensome as possible as it relates to the time 
you require the agencies to spend working with you?
    Mr. Lainhart. Well, without any question, since the House 
had never been audited before, and especially HIR, I think 
there is valid concern that we are in there a lot. I think that 
is just the nature of the beast, if you will, in that 
organizations that haven't been looked at demand additional 
looks at them to see how they are operating.
    I can give you one specific example of how we tried to be 
unobtrusive. We started an HIR management audit in December, 
and when we initiated that audit one of the key areas that we 
wanted to look at was Susan Zeleniak's area with the technical 
service representatives. She made the point that the moves with 
the new Members were going to be occurring during the initial 
time period of our audit, and asked if we could hold off on 
interviewing her and her staff until a later time. We were very 
willing to accommodate, and we did accommodate her request.
    So we try to do that as much as we can.
    Mr. Fazio. In some cases, people who have been unaudited 
just are going to find this perhaps a greater irritant than 
others who are used to the process.
    Would you estimate that we are going to have additional 
personnel needs because we go through annual audits?
    Mr. Lainhart. No, I don't think you do. Audits are part of 
business in the executive branch and private industry; and 
unfortunately it was, if you will, a culture shock here. You 
might ask this of Jeff, who has seen it from both sides, from 
both the Clerk's Office as well as the CAO's office now. 
Hopefully, since audits are more ingrained and more expected 
now, we will see some leveling off of staff anxieties and not 
as much concern, if you will, on the staff's part.

         inspector general's concurrence with finance staffing

    Mr. Fazio. In terms of the CAO's budget, I gather you feel 
their submission pretty much ratifies the concerns you 
expressed in the past. Do you essentially support their 
personnel requests and perhaps imply even that we may need 
more?
    Mr. Lainhart. We haven't looked at the CAO's budget in 
detail. However, in the finance area we certainly did look at 
what the CAO was putting together--when the prior CAO was 
putting together his package and definitely felt that there 
were some additional resources needed.
    As Jeff indicated, I also see where there are some trade-
offs in that maybe Finance goes up and some of the other CAO 
activities would go down. So I don't necessarily see that 
overall within the CAO there would necessarily be increases. 
But I really personally believe that in the Finance Office, 
since they cut a number of positions with the beginning of the 
104th Congress--I think they overdid the cuts and didn't have 
enough resources to really support the activities--and I think 
that we have got to build some of those positions back up.
    Mr. Fazio. Yet we really didn't want to admit that in order 
to fix the problem.
    Mr. Lainhart. Well, yes, the Oversight Committee asked 
routinely in FFS Steering Committee meetings and in meetings of 
the committee whether additional resources were necessary, and 
up until the last month under the prior CAO, the answer was 
always no. Finally, I think last November, we heard that there 
were resources that were needed.
    Mr. Fazio. Is it possible that you would be able to 
recommend to Jeff or his successor areas where we can make 
reductions in the CAO's FTEs in order to compensate to some 
degree for the increases?
    Mr. Lainhart. Yes, be glad to do that.
    Mr. Fazio. Would that be part of your ongoing audit 
responsibility of the CAO issue?
    Mr. Lainhart. Yes, sir.

              preliminary recommendations on ffs staffing

    Mr. Fazio. And you could report that back to the committee 
perhaps even before the completion of your audit? Would it be 
possible that would help us before we finish our work on 
marking up the bill?
    Mr. Lainhart. Well, the Chairman has already asked me to 
look at the H.I.R. budget item. So, yes, we will be glad to do 
that.
    Mr. Fazio. I appreciate that. Thank you.
    Mr. Lainhart. Yes, sir.
    Mr. Latham. Do you have any preliminary recommendations or 
any ideas right now as to where you would go in that regard?
    Mr. Lainhart. No, I really haven't started looking at it 
yet. I just got the request today. So we will start now.
    Mr. Latham. Okay.
    Mr. Walsh. Are there any other questions of Mr. Lainhart?
    If not, thank you very much, sir.
    Ms. Kaptur. Mr. Chairman.
    Mr. Walsh. Oh, I am sorry. I would like to recognize--Ms. 
Kaptur has joined us.
    Welcome, Marcy. Good to have you with us.

                       inspector general staffing

    Ms. Kaptur. I am sorry, Mr. Chairman. I had a conflict, and 
I couldn't get here any sooner.
    I just wanted to welcome Mr. Lainhart. I am a new member of 
this subcommittee and very proud to be and look forward to 
working with you.
    I did have just a couple of brief questions. One concerns 
the total number of--and it may be in the documentation. I just 
haven't seen it. What is your total staff full-time equivalency 
at this point?
    Mr. Lainhart. We have 19 currently.
    Ms. Kaptur. Okay. Does that include what you call 
nonsupervisory positions?
    Mr. Lainhart. That is our entire staff, yes, ma'am, it 
includes nonsupervisory positions.
    Ms. Kaptur. So you would be looking to increase by four 
positions which would bring you up to 23?
    Mr. Lainhart. That is correct.

                           computer security

    Ms. Kaptur. I also wanted to ask in one of the areas you 
mentioned in your testimony that you are concerned about is the 
unauthorized--poor security over access to computer systems. 
And you are talking about Members' offices as well as committee 
offices?
    Mr. Lainhart. Committees, Members, the House officers, the 
whole House, yes.
    Ms. Kaptur. Could you elaborate on that just a little?
    Mr. Lainhart. We have issued a number of reports in the 
last two years where we have identified security weaknesses. We 
issued reports that have confidential portions to them so there 
is a lot of detail in the reports for corrective action.
    For example, in one case last year we were able to 
penetrate a Member's CMS system, correspondence management 
system, and actually change a Member's position in a piece of 
correspondence from supporting an issue to not supporting an 
issue.
    Mr. Serrano. That cost me a lot of votes, you know.
    Mr. Lainhart. We did not make the change, though.
    Mr. Walsh. That is good to know. Members do that all the 
time.

               internet and financial management security

    Mr. Lainhart. And we have also been able to access systems 
and send electronic e-mail, as if we were the Member, to my 
office just to demonstrate the fact that it can be done. So we 
have identified a number of problems.
    Ken Miller in the HIR organization has hired a security 
officer who is doing an outstanding job and moving by leaps and 
bounds to correct these problems.
    We also identified significant problems, as I indicated 
earlier, in the Geological Survey system where we are actually 
processing the House's Federal Financial Management system, and 
they have made major improvements. We penetrated their system 
as well, and they took the corrective action--actually, before 
we went live with the new system, I should add. So there is a 
lot of movement to correct security weaknesses in both places.
    [A question from Ms. Kaptur and response follow:]

    Question. In the last two years, have there been any 
systems compromise via the Internet or through the backbone. If 
so, can you give us a detailed account of the situation.
    Response. Since being established in February 1996, the HIR 
Security office has not investigated nor been aware of any 
systems compromises via the Internet. There have been numerous 
problems and investigations associated with e-mail for which 
there are no viable alternatives for mitigation or elimination 
other than complete dissolution of the use of electronic mail.

                         donation of computers

    Ms. Kaptur. Is there any information that you might be able 
to provide me and my staff? I would really be interested in 
that area.
    I also wanted to mention, either to yourself or I guess the 
Chief Administrative Officer, the Senate has a program where 
they are able to donate used computers to schools, and it is my 
understanding that in the House we are not able to do that. I 
wondered, Mr. Chairman, if someone might be able to comment on 
that, whether we need legislation to do that. I think Senator 
Murray offered an amendment in the Senate.
    Mr. Trandahl. If it is okay, Mr. Chairman, I could provide 
information.
    Mr. Walsh. Just consulting with the clerk, House Oversight, 
to our knowledge, has authorized HIR to provide used equipment 
to schools. I am not sure what the process is.
    Jeff.
    Mr. Trandahl. How about if we look into that and provide 
background for the record for you?
    Ms. Kaptur. We tried to go into that, but there was a 
problem.
    Mr. Trandahl. There have been multiple efforts through the 
years, and the Frost Commission is something that comes 
automatically to mind to me where Congressman Frost was working 
to donate supplemental House equipment to emerging democracies 
in Eastern Europe. I believe all of those demonstration 
projects have ceased at this point, but I will go back, and I 
will find out more information, and I will find out where we 
stand.
    [A question from Ms. Kaptur and response follow:]

    Question. What is the current policy for donating old 
computers from the District office? Washington office? Where do 
the excess computers which do not meet the minimum technical 
standards go? I am curious because schools in my district, at 
every level, would appreciate some of the computers which we 
are currently discarding. Does the House have an overall policy 
addressing this issue?
    Response. Disposition of used equipment of the House is 
governed by 2 USC 117e. This law, which was adopted in 1986 and 
amended several times, the last in 1996, provides that the 
Chief Administrative Officer may dispose of used equipment 
through trade-in or sale, directly or through the General 
Services Administration (GSA). If the CAO determines that 
disposition is not feasible because of age, location, 
condition, or any other relevant factor, which would result in 
a loss to the Government, then the CAO may donate that 
equipment to State or local Government or to a 501(c)(3) 
charity.
    All House computer equipment wherever located is controlled 
through Office Systems Management, one of the offices of the 
Chief Administrative Officer. If a Member determines that the 
computer equipment in his/her office no longer meets the needs 
of the office (and he/she has met their purchase obligations), 
then the equipment is returned to OSM. It may be traded to the 
vendor supplying replacement equipment to that Member or it may 
be held in inventory for use by another Member for whom it is 
suitable. If the item is not needed by the House at all, then 
OSM declares it surplus. All surplus computer equipment located 
in Washington, DC is transferred to GSA for their disposition. 
The situation is different in district offices because GSA does 
not have facilities convenient to all Districts for disposal of 
equipment from the House.
    If a Member decides that computer equipment in a District 
office no longer meets the needs of the office, then OSM 
requests GSA to take the equipment. If GSA does not agree, then 
OSM makes a determination, based on the age and location of the 
equipment, that it would be a loss to the Government to retain 
or try to sell it and authorizes the Member to make a 
contribution of the equipment to charity. The Member is 
required to report to OSM information concerning the equipment 
and the charity. If the Member does not want to give the 
equipment to charity, then OSM requires GSA to dispose of the 
equipment.

                          house staff benefits

    Ms. Kaptur. We appreciate that.
    My final question--again, I don't know if you are looking 
into this or not. Since becoming a Member, when I look at some 
of the support staff that have served Members in this Congress 
over the years, particularly I am thinking about many immigrant 
women who serve in positions here on the Hill, and I have been 
very concerned about their pension equity, their benefits and 
whether they have been treated fairly in terms of their 
retirement.
    I am wondering if you have done any studies, particularly 
looking at people that may be working in the barber shop, the 
salons that serve both Members and the public, in terms of the 
manner--are people being treated equitably in terms of their--
and I am not talking about just this year but under their 
historic record of employment. Is there something you can 
provide me with or give me a briefing on this for people who 
serve in support positions on the Hill?
    Mr. Lainhart. We do have in our proposed audit plan--that 
is being submitted next week to the Committee on House 
Oversight--a proposed House-wide audit that would include 
benefits. So I think we get into those issues.
    Ms. Kaptur. I would like to ask that you speak to my staff 
privately about some of the concerns I have had for a long time 
about the inequitable treatment of some of these employees. And 
my perceptions may be totally incorrect, but I would like to 
make sure everyone is treated fairly and therefore, you know, 
would very much appreciate speaking with someone if you are 
going to be getting into that.
    Mr. Lainhart. I will give you a call.
    Ms. Kaptur. Thank you.
    Thank you, Mr. Chairman.

                introduction of new subcommittee member

    Mr. Walsh. Let me just say I am delighted to have you with 
me on this committee. We have been together on Agriculture, 
District of Columbia----
    Ms. Kaptur. Yes.
    Mr. Walsh [continuing]. And hopefully Legislative will be 
as fruitful.
    Ms. Kaptur. We are learning a lot.
    Mr. Walsh. Yes, we are, every day.

               further comments on donation of computers

    Mr. Serrano. Mr. Chairman, if I may, the donating of 
computers was an issue that we brought up at the last meeting 
of the last session; and that is an area that we really should 
continue to look at because we have this turnover in technology 
every so often--we are having it now in many of the offices--
and it is at times not clear if the House is getting the best 
possible deal in the way we just turn this equipment over 
again.
    The whole idea of going to emerging countries is fine, but 
certainly many communities in this country are in need of this 
technology. A certain piece of equipment may be a year too old 
for us, for what we want to do but certainly in 99 percent of 
the places throughout the nation it is a very good piece of 
equipment, a very modern piece of equipment that could be used 
properly.

                      comments on hiring practices

    Mr. Serrano. And one just almost dangerous comment, but 
what Ms. Kaptur brings up about the treatment of people may 
open up a wider discussion some day as to the hiring practices 
of the House and whether indeed the House reflects the makeup 
of this country, not only in gender and race and ethnicity. 
This is something that we should be very aware of as we move to 
make this a better institution. I think we have to look at all 
possibilities of making it a better institution.
    Mr. Walsh. Are there any other questions or comments, Mr. 
Lainhart? If not, thank you very much, sir.

    [Questions from Ms. Kaptur and responses follow:]

    Question. Last year, there seemed to be some friction 
between you and the former CAO regarding your evaluation of the 
Federal Financial System (FFS). Have you and the current CAO 
come to some consensus regarding this project?
    Response. Last year we issued the following audits related 
to the implementation of FFS. House Experiencing Problems With 
The Implementation Of The Core Federal Financial System (Report 
No. 96-CAO-02, March 1, 1996); The House Is Ready To Implement 
The Core Federal Financial System (Report No. 96-CAO-04, June 
3, 1996); The House Struggles With The Management Of The New 
Financial Management System (Report No. 96-CAO-12, December 23, 
1996).
    Each of these reports identified management problems 
dealing with the implementation of FFS. Under the Former CAO, 
while some of the recommendations in these reports were 
implemented, many of the key recommendations were either not 
addressed or not implemented in a timely fashion, which 
exacerbated the FFS implementation problems.
    The current Acting CAO has agreed to all of our 
recommendations and is taking aggressive action to implement 
them. We are continuing to work in an advisory capacity with 
the Acting CAO through the FFS Steering Committee and daily 
meetings with his staff. For example, we are currently working 
closely with the Office of Finance in identify and developing a 
complete and detailed task list for completing the 
implementation of the Core FFS and future tasks with level of 
effort estimates for each task and the associated costs. Thus, 
I definitely believe that we have consensus with the CAO, and 
we are both working in a totally cooperative manner to complete 
implementation of the Core FFS and further improve financial 
management within the House.
    Question. Of the 42 audits which were conducted, how many 
in your opinion have resulted in changes in House practices?
    Response. Without a doubt all of the 42 audits issued in 
the 104<SUP>th</SUP> Congress have resulted or will result in 
some change in House practices. Recommendations contained in 
these 42 audits have, without exception, received the auditees' 
full concurrence. As of December 1996, we have reviewed the 
status of 300 audit recommendations contained in the 31 audit 
reports issued through June 1996. Based on this review, 
auditees have fully implemented 166 recommendations (55 
percent), and partially implemented 85 recommendations (28 
percent). No action has been taken on the remaining 49 
recommendations (16%). Recommendations where no action has been 
taken are typically where, although the auditee has agreed with 
the recommendation, the time frame for its implementation has 
expired. For example, the former CAO had agreed to develop a 
contingency/disaster recovery plan for Member Services' payroll 
operations to ensure that the payroll system would continue to 
operate in the event of a disaster. Although this recovery plan 
was to be developed by mid July 1996, as of December 1996, no 
action had been taken.
    Question. Your office performed 42 audits in the 
104<SUP>th</SUP> Congress, in your testimony, you state in 
Calendar Year 1997 there's a need for 47 audits. What areas 
will you be looking at during this Congress?
    Response. Our Perpetual Inventory of Proposed Audits 
includes 47 audits. However, these audits will be considered 
for initiation later in Calendar Year (CY) 1997 or in future 
years, should resources become available. It is the 29 audits 
included in our 1997 Annual Audit Plan (AAP) that we plan to 
start during CY 1997. These are the audits that we consider to 
be of the highest priority, and include the CY 1996 Financial 
Audit of the House, 16 financial and performance audits, and 12 
information systems audits. Of these 29 audits 22, or 76 
percent, are within the CAO's area of responsibility. Audit 
efforts to accomplish these 22 CAO audits will primarily focus 
on the Office of Finance (7), Media Services (7), House 
Information Resources (6), and Human Resources (2).
    Question. What happens to the unexpended balances that are 
not expended by the end of the fiscal year by Member, 
Leadership, administrative offices within the House?
    Response. Pursuant to section 102a of Title 2 of the United 
States Code, the unexpended balances of appropriations for a 
fiscal year remain available for two years following the 
closing of each fiscal year. This allows the House to pay 
outstanding obligations with funds from the fiscal year in 
which the obligation occurred. At the end of this two year 
period, any remaining funds are surplused to Treasury via a 
Treasury surplus warrant and the ``books'' are officially 
closed.

                   Office of the Attending Physician

    Mr. Walsh. Another area that we have oversight for is the 
Office of the Attending Physician. Given his responsibilities 
of an emergency nature and otherwise, I would like to just 
introduce Admiral John Eisold briefly and have him come up and 
say hello; and we will turn him loose as quickly as we can. 
Welcome, Doctor.
    Dr. Eisold. Thank you.
    Mr. Walsh. Good to have you with us.
    Dr. Eisold. Glad to be here.
    Mr. Walsh. If you would like to make a comment for the 
subcommittee, feel free. If not, we will give everybody an 
opportunity to say hello to you, and then we will send you back 
where you came from.
    Dr. Eisold. We have submitted all of our material in 
written form, and I really offer myself just to answer 
questions if you have any.
    Mr. Walsh. Well, it is my understanding, our understanding, 
that you have responsibility for the medical care for the 
pages, emergency care, immunization for Capitol Police--I 
wasn't aware of this--emergency care for millions of visitors 
who tour the complex as well as Members and staff for the House 
and Senate.
    Dr. Eisold. Yes, sir.
    Mr. Walsh. That is a pretty good workload.
    Dr. Eisold. Well, it encompasses a broad spectrum of 
primary care, as you point out, and emergency care, as well as 
the preparation for events like this evening where we expand 
our care and our resources so that we are prepared for 
different contingencies that might come up when you have a 
collection of people like those who will be here tonight or 
other joint sessions. Additionally, we take responsibility to 
make sure that the air you breath and the water you drink and 
the food you eat is up to standards. And I think that that 
encompasses, really, the mission we have in terms of promoting 
the health and safety on the Hill.

                  house drinking water safety concerns

    Mr. Walsh. Now that I have moved my office from the 
Longworth Building to the Rayburn Building, can I drink the 
water?
    Dr. Eisold. Yes.
    Mr. Latham. How about Cannon?
    Mr. Walsh. I am told--yes, how about Cannon?
    I am told the lead content in the water is such that we 
shouldn't be drinking it. We should be drinking bottled water, 
is that true?
    Dr. Eisold. We can certainly look into that with our 
environmental health specialist. He samples the water, and if 
at any given time there is an indication that it exceeds a 
limit, then that warning will be given out. Of course, that can 
vary from week to week or time to time. But he is on a regular 
schedule of testing.
    Mr. Walsh. I would suspect in a building as old as the 
Capitol there must be a lot of lead joints on copper pipes 
around the building. I don't know if that poses a problem.
    Dr. Eisold. Yes, there can be, and as I say, it's under 
constant surveillance. An old building like the Capitol does 
pose those sorts of problems, but at any given time different 
areas are refurbished and so that what was a problem at one 
time may not be at a future time.
    Mr. Walsh. Fair enough.
    Are there any other questions?

                         other health concerns

    Mr. Serrano. Just a follow-up on that. Because Mr. Walsh 
and I share the same concern, not only about the water, but 
about the air we breathe, and because we have not just Members 
but so many staff members who work here, when you refurbish an 
area, doesn't that run the risk of stirring up other problems 
that may be in there? I mean, do we have an asbestos problem in 
these buildings?
    Dr. Eisold. I can't identify specifically what all the 
risks are, but when projects are undertaken there is always a 
chance for those sorts of environmental contaminants to get 
stirred up. And that is why, again, our environmental health 
specialist will do a survey and help the workers with regard to 
proper ventilation, adjusting the ducts, which is a complex 
operation and requires some study, and if necessary, putting in 
proper fans or proper enclosures and ensuring that the safety 
of the workers is looked after as well as the people that are 
working in the building.
    And along those lines, workers that are at high risk for 
such exposures in the day-to-day operations are under a medical 
surveillance program, again, run out of the environmental 
health specialist's office with a specific occupational health 
nurse to put people on a surveillance and try to identify those 
who would be at risk for lead exposure respiratory concerns, et 
cetera.
    Mr. Walsh. Anything?
    Mr. Latham. I would like to say, I think the first time I 
met the doctor was up on top of the dome, and you were doing a 
run-through of what would happen if someone were to collapse 
doing a dome tour up there. I was nearly ready to be your first 
patient at that time myself. It was a very hot day. But I 
appreciate very much your readiness and what you do.
    Dr. Eisold. Yes, sir.
    Mr. Walsh. His prescription for vertigo. That is what I 
feel when I go up there.
    Dr. Eisold. It does happen. Unfortunately, with the high 
ceilings or the problem people have with heights, that is 
always a problem. There really is not anything except avoidance 
to try and counteract that, or having somebody nearby to prop 
you up.
    The worst thing that can happen is to fall. And as you can 
imagine, there are many elderly tourists in the Capitol or on 
the stairs that hit the marble floor with a great thud and so 
we have seen our fair share of people from time to time. It is 
a risk. There is no doubt about it.

                        care for general public

    Mr. Fazio. Mr. Chairman, just for the record, I think 
people need to understand the degree to which this office 
assists the general public.
    Can you give us any information as to the degree to which 
that occurs?
    Dr. Eisold. Well, we respond to several hundred emergency 
calls each year and as you are aware, we are the 911 for the 
geographical boundaries of Capitol Hill because we can get into 
places much more quickly than the resources in the city. And 
approximately 98 percent of those calls are nonmember related. 
And 47 percent are usually staff and 47 percent are related to 
visitors, and as you can imagine with 7 million visitors, just 
the statistics alone dictate that somebody is going to have a 
heart attack, somebody is going to have a seizure, somebody is 
going to fall. And certainly some of our responses vary 
seasonally, taking care of small church choirs in the middle of 
the summer that have been singing too long on the Capitol steps 
and likewise people who are exposed out in the winter cold 
waiting to get into the building.
    But we take great pride in that. We are pleased to be able 
to provide that service.

                       emergency medical services

    Mr. Fazio. I know at times you supplement the D.C. 
emergency services when you can get people to a hospital room 
or to emergency care faster.
    Dr. Eisold. We don't necessarily think of it as 
supplementing them, but occasionally if we do need to transfer 
somebody, ordinarily we would like to have D.C. Fire and Rescue 
make that transfer so that we are still available here to 
respond to another emergency. But if the clinical situation 
dictates or there is a delay or we just need to move, we have 
taken whomever it may be to the hospital if the clinical 
situation dictates.
    Mr. Fazio. Thank you, Mr. Chairman.
    Mr. Walsh. Doctor, thank you very much. It is good to have 
you with us.
    Dr. Eisold. Thank you. I appreciate it.
    Mr. Serrano. I feel better already.
    Mr. Latham. How do we look?
    Dr. Eisold. You look healthy and ready for the 105th.
    Mr. Walsh. Jeff.

                         office of the chaplain

    Mr. Trandahl. Mr. Chairman, the Office of the Chaplin, for 
the Office of the Chaplin $126,000, and I would ask that the 
balance of page 42 be inserted into the record.
    [The information follows:]

[Page 137--The official Committee record contains additional material here.]


    Mr. Walsh. Without objection.

                     office of the parliamentarian

    Mr. Trandahl. The Office of the Parliamentarian. For 
salaries and expenses for the Office of the Parliamentarian, 
including the Parliamentarian, Compilation of the Precedents 
and $2,000 for preparing the Digest of Rules, $1,129,000 is 
requested. Included in this request is $1,028,000 for personnel 
and $101,000 for nonpersonnel related items. This request is an 
increase of $93,000 over the amount enacted in the FY 1997 
appropriation bill.
    Mr. Chairman, for your information, the combined table, as 
well as separate tables showing the actual and estimated 
appropriations are provided, and I would ask that the balance 
of pages 43 and 44 be inserted into the record.
    [The information follows:]

[Pages 139 - 140--The official Committee record contains additional material here.]


                   office of the law revision counsel

    Mr. Trandahl. For the Office of Law Revision Counsel, for 
salaries and expenses of the Office of Law Revision Counsel, 
$1,881,000 is requested. Included in this request is $1,667,000 
for personnel and $214,000 for nonpersonnel related expenses. 
This request is an increase of $114,000 above the amount 
enacted in the FY 1997 appropriation bill.

                            additional ftes

    Mr. Chairman, this office is requesting two additional FTE 
based on the need for entry level assistant counsels at editor 
positions which are needed for current production and future 
development.
    At this time, I would introduce Mr. John Miller, the acting 
Law Revision Counsel, to testify on behalf of the FY 1998 
request.
    Mr. John Miller. Thank you.
    Mr. Trandahl. And I would ask at the end of his statement 
the table on page 45 be inserted into the record.
    Mr. Walsh. Without objection.
    Mr. Miller, welcome. It is good to have you with us today. 
We will place your statement in the record. And since we are 
running short on time, if you would like to make a brief 
statement, feel free. Otherwise, we will have a couple of 
questions to ask you.
    Mr. John Miller. Well, I think my written statement and the 
letter of Mr. Willett requesting the positions originally 
pretty well cover our positions. I think it is well detailed 
and I will be glad to answer any questions that you may have.
    [The information follows:]

[Pages 142 - 144--The official Committee record contains additional material here.]


                internet access to electronic u.s. code

    Mr. Walsh. All right. Thank you.
    Just one. The U.S. Code is now available through the 
Internet, and Thomas, as I understand it. Is that correct?
    Mr. John Miller. Yes, sir, it is.
    Mr. Walsh. Is your office responsible for updating that?
    Mr. John Miller. Yes. We provide the tapes that are used 
for updating both the GPO Access, which can be accessed through 
Thomas, and also our Web site.
    Mr. Walsh. How often is that updated?
    Mr. John Miller. Well, it depends. This time of year, when 
legislation is not being passed, not very frequently. The 
policy of our office has been over the past couple of years, 
that when a tape is prepared for printing a volume of the code 
and the okay is given to print, then that tape is made 
available for updating the on-line data services.
    In addition, the data bases continue to be kept up to date 
by daily updating which affords the users the text of a section 
that is current, or at least the latest available text of the 
section, plus a citation, to any later amendments or repeals to 
that section.
    So to the extent that the user can find out the status of a 
section, it would be updated as soon as the information is 
available, usually within a day or two after the President 
signs legislation.
    Mr. Walsh. This information has obvious value. The people 
that use it the most, I would assume, are attorneys 
interpreting the law?
    Mr. John Miller. I think it is certainly the attorneys. We 
get a lot of input from attorneys who are glad to have this 
service available at low cost compared to the commercial 
services that are available and which are probably too 
expensive for a lot of small firms to afford.

             possible reduction in u.s. code printing costs

    Mr. Walsh. As a matter of fact, we, for years, have printed 
the U.S. Code. Of course, you have to update the Code and go 
through new printings and so on.
    And I had an unusual experience. We have a book of the U.S. 
Code, and traditionally--I guess it is traditionally--Members 
have offered that to individuals, if they didn't have a use for 
it. We couldn't find anybody who wanted it because they would 
get it all on-line. And I just wondered if you would know what 
sort of a budget, or maybe Jeff or maybe someone else would 
know, what sort of a budget there is for printing the U.S. 
Code. And it would seem to me that maybe that budget ought to 
be going down.
    Mr. Trandahl. I could provide that for the record, but I 
believe that what was traditionally a GPO-funded item under the 
printing and binding fund providing Members copies of the U.S. 
Code has been eliminated in the previous legislative branch 
appropriations bill.
    Mr. Walsh. All right. One step ahead of us.
    Are there any other questions?
    Mr. Serrano. Just a quick follow-up, Jim.
    You said low cost to lawyers? Or did you say no cost?
    Mr. John Miller. Actually, it would be no cost on the Web, 
yes. The database is also available on a CD ROM and that costs 
about $35, $36 for the entire Code.
    Mr. Walsh. You just have to buy a new CD ROM every so 
often?
    Mr. John Miller. Annually. It is only printed once a year, 
yes.
    Mr. Walsh. Any further questions?
    Mr. John Miller. Thank you very much.
    Mr. Walsh. Got off easy. Thank you.
    [The information follows:]

[Page 147--The official Committee record contains additional material here.]


    [Clerk's note.--The Acting Chief Administrative Officer has 
supplied the following:]

    Funds were last appropriated under the House account 
``Supplies, Materials, Administrative Costs and Federal Tort 
Claims'' for subscriptions to the U.S. Code in the fiscal year 
1995 Legislative Branch Appropriation Bill. Each new Member 
would receive a full volume of the U.S. Code at no cost to the 
Member. At that time $420,000 was appropriated. The same amount 
was requested in Fiscal Year 1996 and subsequently deleted 
during markup. The U.S. Code became available on the Internet 
through the ``Thomas'' connection, through GPO ``Access'' and 
CD ROM, which is available through the Government Printing 
Office.
    The fiscal year 1996 cost incurred for the U.S. Code by the 
House was $43,996.

                     office of legislative counsel

    Mr. Trandahl. Mr. Chairman, I would ask that Mr. David 
Meade come to the table.
    The Office of Legislative Counsel, for salaries and 
expenses of the Office of Legislative Counsel, $4,824,000 is 
requested. Included in this request is $4,663,000 for personnel 
and $161,000 for nonpersonnel related items. This request is an 
increase of $137,000 above the amount enacted in the FY 1997 
appropriation bill.
    At this time, I would be pleased to introduce David Meade, 
the Legislative Counsel, to testify on behalf of his FY 1998 
budget request, and I would ask that after his statement, the 
following table on page 46 be inserted into the record.
    Mr. Walsh. Thank you, Jeff.
    Mr. Meade, welcome.
    Mr. Meade. Thank you, sir.
    Mr. Walsh. Is there anything you would like to say before 
we ask you a few questions?
    Mr. Meade. No.
    Mr. Walsh. You are a wise man. My father always said you 
never get criticized for what you don't say.
    Mr. Fazio. Anything you wouldn't like to say?
    Mr. Walsh. Are there any questions of Mr. Meade?
    [Questions from Chairman Walsh and responses follow:]

    Questions. Staff in your office provide assistance to 
Members in drafting legislation. The output is set up to 
facilitate printing of bills and amendments at the Government 
Printing Office. The Legislative Counsel staff use XyWrite, the 
program used by GPO for setting bill type. If a Member wants to 
work on a copy of legislation drafted by Legislative Counsel, a 
paper copy is normally delivered or sent by FAX. An electronic 
copy cannot be provided. While XyWrite can export to ASCII 
text, format coding used by XyWrite is lost or sometimes 
interpreted as text of the legislation.
    What impediments do you see in being able to provide the 
requesting office electronic output that the requester can edit 
and pass back electronically, or add directly to a bill or 
Floor amendment, without undertaking format coding or other 
technical data input?
    Response. There are several impediments to our being able 
to pass electronic versions of legislative drafts back and 
forth between our office and a client's office in a form that 
they can use to ``add directly to a bill or floor amendment, 
without undertaking format coding or other technical data 
input''. Some are technical impediments and some are 
impediments relating to the professional accountability or 
attorneys in this office with regard to legislative language 
that is worked on in this office.

                         Technical Impediments

    Currently many attorneys in our office pass the text of 
small provisions back and forth through e-mail with clients. 
There is no formatting or printing involved until the final 
document is produced. The chief technical impediment to passing 
text back and forth with formatting intact is the fact that 
client offices use a variety of word processing software. We 
have the ability (if time is available) to convert XyWrite-
Microcomp documents into plain ASCII text, Microsoft Notepad, 
Wordpad, Word Perfect, or Microsoft Word. However, when this is 
done, all formatting is lost because Microcomp is a GPO 
proprietary program. It uses a type of text formatting that 
cannot be automatically picked up by other word processing 
software and vice versa.
    We do not believe that this problem is solvable until all 
House and Senate offices that interact with our office with 
regard to legislative language, and the GPO, use a single 
program for document output.
    Compatibility with GPO, the House Enrolling Clerk, and the 
Senate is critical to our operations. Even if all House offices 
used a single system for document formatting and processing, 
unless the Senate Legislative Counsel, the Enrolling Clerk, and 
GPO also used that system, we would exchange one very valuable 
form of compatibility for another possibly less valuable one. 
If we lost our ability to exchange documents with the Senate 
Legislative Counsel, the Enrolling Clerk, and GPO in a format 
that requires no additional input on the part of anyone, great 
inefficiencies and expense would result. Our current ability to 
produce documents that are 100 percent compatible with GPO, the 
Enrolling Clerk, and the Senate Legislative Counsel provide a 
great savings of time and expense. It is doubtful that the 
ability to produce documents that are 100 percent compatible 
with the variety of word processing programs used by our 
clients would save much time and expense for our office unless 
the GPO, the Enrolling Clerk, and the Senate Legislative 
Counsel are also onboard.

                      Professional Accountability

    The other chief impediment to the type of exchange 
envisioned by question #1 is the need for attorneys in our 
office to authenticate the language sent out from this office 
in electronic form and to identify that language and the 
changes that are proposed when it is returned to us or 
published elsewhere in revised form. If language sent from this 
office is altered by a client without the attorney's knowledge, 
the attorney may be held accountable for the changed text. This 
could obviously cause serious problems for that attorney and 
for this office.
    This concern could be resolved by means of some mechanism 
for authenticating the text of documents that are exchanged 
with other offices. However, we do not yet know of any such 
mechanism. One possibility we have considered is the use of a 
program that allows documents generated in one office to be 
printed without alteration in another office. This would be 
similar to the use of paper documents so far as changing the 
text is concerned, but would allow more rapid electronic 
transfer and exchange without format change.
    Adobe Acrobat may enable us to transfer documents in this 
manner, but we have not yet been able to determine whether 
Adobe Acrobat documents are, or will continue to be, documents 
that can be authenticated in this respect. In any case, if we 
use a system that provides for authentication by not allowing 
the document to be altered, we will have solved the 
professional accountability problem, but not the problem of 
allowing each office involved in an electronic document 
exchange to make changes without retyping or reformatting the 
entire document
    Questions. What role is your office playing in current 
discussions on standardization of electronic files? Should 
Legislative Counsel been asked to participate?
    Response. At the invitation of Mr. Reynold Schweickardt, 
two representatives from our office attended a meeting in 
January of this year at the Committee on House Oversight. That 
meeting dealt with the issue of compliance with Rule XI, clause 
2(e) (making publications available in electronic form). Since 
we make many documents available to committees for publication, 
the issue of printing format compatibility arose at that 
meeting.
    We also had a meeting with Mr. Ray Strong, Chief of 
Legislative Computer Systems in the Office of the Clerk in 
early February to discuss the Clerk's progress toward the goal 
of using SGML as a standard system within the House and Senate. 
We have had a few discussions with the Clerk's Office in the 
past, and we are eager to be a part of this effort, but so far 
we have not been asked to participate in depth in the project. 
The Clerk's Office is aware of our word processing system and 
of our needs for compatibility with GPO, the Enrolling Clerk, 
and the Senate Legislative Counsel, as well as the importance 
from a professional point of view of our being able to 
authenticate documents passed back and forth with our office.
    We would be very interested in participating fully in any 
discussions going on among House offices regarding the 
standardization of electronic files. This is a matter of great 
importance to our office. We are eager to assist the House with 
this project, and we hope that the issues mentioned in our 
answer to question #1 can be taken into account by those who 
are working toward this goal.

    Mr. Serrano. No. Just an observation, that his testimony 
looks like a bill. It does.
    Mr. Walsh. Put in bill language.
    Mr. Fazio. There will be no amendments.
    Mr. Walsh. Anyone else?
    Well, you had a nice day at the Congress today, Mr. Meade.
    Mr. Meade. Happy to be here.
    Mr. Walsh. Thank you for coming.
    [The information follows:]

[Pages 151 - 162--The official Committee record contains additional material here.]


    Mr. Fazio. Nice work every year.
    Mr. Trandahl. Mr. Chairman, I would ask that the balance of 
the charts within the book before the subcommittee from page 47 
all the way to page 61 be included into the record.
    Mr. Walsh. Without objection.
    [The information follows:]

[Pages 164 - 178--The official Committee record contains additional material here.]


                            Closing Remarks

    Mr. Trandahl. Mr. Chairman, this would conclude my 
presentation of the House of Representatives fiscal year 1998 
budget request for the House and certain joint items. I have 
appreciated the opportunity to speak before you today. Any 
assistance that can be provided during the FY 1998 budget 
deliberations will be delivered in an expeditious manner. I 
welcome any further requests for information and will provide 
answers at this time or as promptly as possible.
    Mr. Walsh. Thank you, Jeff. Thank you for your very well-
prepared presentation, for helping us to coordinate the hearing 
today and bringing everyone in. I think it was very productive. 
And unless anyone else has any further comments----
    Mr. Serrano. Just to also join you in thanking Jeff for a 
perfect--an excellent presentation and to all of those who 
joined you today.
    Mr. Trandahl. Very good staff.
    Mr. Fazio. And we hope this will be the first and last 
appearance.
    Mr. Trandahl. Thank you.
    Mr. Fazio. I know you feel that way.
    [A question from Chairman Walsh and response follows:]

[Pages 180 - 194--The official Committee record contains additional material here.]


    Mr. Walsh. On that point, we may very well need to ask 
people to come back before we get to a marking up of the 
legislative branch appropriations bill. But absent that, the 
committee stands adjourned. Thank you all very much.

                            ----------

                                        Tuesday, February 11, 1997.

                       U.S. CAPITOL POLICE BOARD

                               WITNESSES

HON. GREGORY S. CASEY, SERGEANT AT ARMS, U.S. SENATE, CHAIRMAN, U.S. 
    CAPITOL POLICE BOARD
HON. WILSON LIVINGOOD, SERGEANT AT ARMS, U.S. HOUSE OF REPRESENTATIVES, 
    MEMBER, U.S. CAPITOL POLICE BOARD
HON. ALAN M. HANTMAN, ARCHITECT OF THE CAPITOL, MEMBER, U.S. CAPITOL 
    POLICE BOARD
GARY L. ABRECHT, CHIEF, U.S. CAPITOL POLICE

                       Chairman's Opening Remarks

    Mr. Walsh. The subcommittee will come to order.
    We have before us today the Capitol Police Board. I would 
like to recognize our Ranking Minority Member, Congressman 
Serrano, and Vice Chairman of the subcommittee, just recently 
announced, Duke Cunningham.
    Welcome, gentleman. We will now take up the Capitol Police 
budget, which will be presented by the Capitol Police Board, 
all of whom are in attendance. Welcome, gentlemen.
    It is good to have the incoming Chairman of the Police 
Board, the Honorable Greg Casey, Senate Sergeant at Arms and 
Doorkeeper. We also have Mr. Livingood, and then Mr. Hantman.

                             budget request

    Before we proceed, let me state the budget request that has 
been submitted to the committee. Members will find details 
beginning on page 235, Part 1, on page 118 of the subcommittee 
print. Overall, the request is for $73.9 million for salaries 
and $5.4 million for general expenses. Those funds would 
support 1,259 full-time equivalent positions, an increase of 
three positions.
    Do we have your statement, Mr. Casey?
    Mr. Casey. I believe you do, Mr. Chairman.
    Mr. Walsh. If you would like, please summarize.

                         Remarks From Mr. Casey

    Mr. Casey. Thank you, Mr. Chairman. Again, my name is Greg 
Casey. On September 6th, I became the 34th Sergeant at Arms and 
Doorkeeper of the U.S. Senate. January 1, I became the Chairman 
of the Capitol Police Board, part of the regular rotation 
between the Sergeant at Arms of the House and the Senate. I am 
delighted to be here.
    I must tell you I have spent 15 delightful years on Capitol 
Hill, six of them over here on the House side. This is the 
first time I have been on this side of the table. I must tell 
you, Mr. Chairman, I much prefer being on that side.
    Mr. Walsh. I am sure you will do just fine given the 15 
years of experience.
    Mr. Casey. I want to welcome Alan Hantman. This is day 7 
for Alan as the 10th Architect of the Capitol. He comes to us 
from New York City, where he worked at Rockefeller Center.
    On his second day, I had the honor of working with Mr. 
Hantman, escorting the President around on the State of the 
Union, sort of a heady day for him.
    I also appreciate you, Mr. Chairman, understanding that I 
do have to make some arrangements for the President and Vice 
President coming up for a summit meeting on the Senate side 
this morning. I may have to leave before you finish with your 
questions. I appreciate your indulgence.
    Mr. Walsh. We will try to make them as brief as possible 
and let you go.
    Mr. Casey. Thank you, sir. I think it is fair to say the 
Capitol Police has been a department in transition for some 
time. As you know, it has the sole statutory authority for the 
law enforcement and security of the entire third branch of 
government, this building and the many tourists that come 
through here. That requires of us that we become a dynamic 
organization, constantly trying to meet the varied and ever-
present and ever-changing threat assessment that occurs up 
here.
    With the leadership of this committee, we have had, I 
think, tremendous success, not only in becoming a top law 
enforcement organization, but in expanding the capabilities of 
the Capitol Police to be a full member of the intelligence and 
national security network within the Federal government.
    It is a responsibility of the Board, the three of us, to 
continue to do whatever we can to make sure that the 
institution of the Capitol Police remains a viable law 
enforcement organization. In discharging that responsibility, 
we have an obligation to both the department and to Congress.
    Our obligation to the department is to make sure that the 
pay and the benefits are commensurate for our uniformed 
officers, not only to the metropolitan police departments, 
those in this area, but also to other Federal agencies who have 
similar functions within the Federal system.
    We have a responsibility to you, to Members of Congress, to 
make sure that our budget request is reasonable, and that when 
we do receive these appropriated dollars, we use those dollars 
in a responsible and cost-effective manner. I believe that the 
program I am going to briefly outline to you is in keeping with 
that pledge, to make sure that we act in a cost-effective and 
responsible manner.
    All of these factors were, indeed, considered when we 
prepared the budget that is before you today. This budget 
reflects a 9 percent increase, basically concentrated in two 
areas.
    Number one, is an initiative on pay parity that the 
Sergeant at Arms in the House, Mr. Livingood, will discuss in 
more detail, for the sworn officers of the Capitol Police 
Force. And, second, a general increase in the expenses budget.
    That general increase in expenses basically is due to an 
accounting change where the costs of certain telecommunications 
and computers that were heretofore in the Senate Sergeant at 
Arms budget directly are being placed back on the Police 
budget. It is not new tax dollars, it is basically an 
accounting shift.
    We understand at the Capitol Police Board that although we 
have enjoyed tremendous operational successes and an increase 
in the professionalism of the force, that we must continue to 
try to improve. We have recognized that we must focus in this 
coming year on our administrative and management functions. 
Therefore, the Capitol Police Board passed a resolution that 
directs to the command staff to work with us in pursuing an 
administrative and management evaluation.
    We are basically going to look at three things: The 
financial management, the information technology, and the human 
resource management. We are going to take a systems approach. 
We are going to look at what we are doing right now with an eye 
towards improvement. We are going to begin laying out what we 
need to accomplish and what our priorities are, and we are 
going to identify the tools necessary to put the processes 
together to improve the three areas.
    We believe that this is a very responsible, proactive 
approach that will give you, the command staff of the Police 
and the Police Board, the kind of benchmarks against which to 
measure our improvements. We think that is a very responsible 
approach, and we look forward to getting that done in this 
fiscal year.
    In conclusion, let me say I don't have the same 
professional law enforcement background that Mr. Livingood 
does, and 5 months on the job does not necessarily make me an 
expert in much of anything. I have come to respect the 
professionalism of the Capitol Police. I have come to 
understand that they have a very difficult duty.
    Indeed, we are in a very dynamic and ever-changing mission 
mode up here. We protect the very building that is the symbol 
of the freedom of our country. We protect an entire branch of 
government, not only for those who work here, but for the 
millions of people who come up here to visit, not only from our 
country but from around the world. It is a very difficult 
mission. It is our job as the board to make sure that we get 
them the resources that are necessary to make sure that they 
achieve that mission.
    We believe it is also our job to make sure we do that in a 
cost-effective way. That is what we are dedicated to trying to 
get done. That is what is presented to you in this budget for 
1998.
    I think that would finish my remarks, Mr. Chairman. Again, 
thank you very much for the leadership that this committee has 
given and the support it has given to the Capitol Police. I 
would answer any questions.
    [The information follows:]

[Pages 200 - 202--The official Committee record contains additional material here.]


    Mr. Walsh. Thank you for your statement. There may be some 
questions. Why don't we, first of all, give Mr. Livingood an 
opportunity to make his statement, if he would like.
    Mr. Livingood. Thank you, Mr. Chairman.
    Mr. Walsh. Summarize your statement.

                       Remarks From Mr. Livingood

    Mr. Livingood. Mr. Chairman and members of the committee, 
as a member of the U.S. Capitol Police Board, it is my honor to 
appear before you to discuss the fiscal year 1998 budget 
request for the U.S. Capitol Police. I join Mr. Casey in 
welcoming Mr. Hantman to the U.S. Capitol Police Board.
    During my tenure as Sergeant at Arms of the House, I found 
my service on the board to be both challenging and rewarding, 
extremely challenging and rewarding. I know Mr. Hantman will 
find the experience equally satisfying. The experience he 
brings to the table will provide valuable insight on board 
decisions, and we welcome you.
    The U.S. Capitol Police is a unique law enforcement agency. 
It is charged with protecting the 535 Members of Congress and 
their families, congressional staff, the visiting public, and 
the buildings comprising the Capitol complex.
    To successfully meet its mission, the department has 
evolved into a full service security agency, instead of just a 
local police department, and it provides in addition to 
security for the Capitol, comprehensive law enforcement and 
protective operations to the legislative branch of government.
    The U.S. Capitol Police also interacts on an equal basis 
with agencies that deal in national security and intelligence 
matters. Due to the leadership and support of the committee, 
this committee, and the dedication and hard work of our 
personnel, the Capitol Police has made great strides in its 
operational capabilities. The Board feels it is now time to 
focus its efforts on the department's internal management 
mechanisms.
    In particular, the Board, as Mr. Casey said, will 
commission a review of the department's internal accounting, 
personnel, and information management functions, and also 
training, to ensure they are being performed in a manner which 
is consistent with industry standards.
    In addition, a police post and staffing level study is 
being conducted to ensure that our personnel are deployed in a 
manner that is both operationally effective and financially 
efficient. It is hoped that overtime expenditures will be 
further reduced once the study is completed.
    With regard to personnel issues, it has been the long-
standing goal of the U.S. Capitol Police Board to ensure that 
the men and women of the Capitol Police maintain pay parity 
with their counterparts in other law enforcement agencies. 
Therefore, the U.S. Capitol Police fiscal year 1998 budget 
submission contains a request to fund two pay initiatives, 
scheduled leave inclusion and differential pay.
    These pay rates are consistent with rates paid for the 
officers of other similar law enforcement agencies. In order 
for the Capitol Police to attract and retain highly qualified 
officers, I feel it is imperative that these initiatives be 
fully funded.
    I am proud of the Capitol Police and the men and women that 
serve within the Capitol Police, their professionalism, and, 
above all, their attitude and their attitude towards making 
this a secure environment with a friendly and polite attitude.
    I would like to thank the committee for the support that 
you have given to the Capitol Police and to the Capitol Police 
Board, in particular the transfer of the physical security 
responsibilities from the Architect of the Capitol to the 
Capitol Police and for providing funding for necessary security 
upgrades recommended in the Capitol Police Secret Service 
study. This study provided the Board with numerous 
recommendations on how to improve security within the Capitol 
Complex.
    I would also like to thank the committee for your 
assistance in providing emergency funding to relocate the U.S. 
Capitol Police K-9 facility to the Architect's facility in Blue 
Plains. This is a tremendous improvement. We look forward to 
occupying the former metropolitan police facility this spring 
and urge the committee to approve the Architect's request to 
renovate that facility for the department's use.
    A detailed budget for the Capitol Police has been submitted 
to the committee, and at a later date, I will be happy to 
answer any questions. Thank you.
    [The information follows:]

[Pages 205 - 206--The official Committee record contains additional material here.]


    Mr. Walsh. Thank you, Bill.
    Before we get to questions, we will give Mr. Hantman the 
opportunity to make a statement, if he would like.

                        Remarks From Mr. Hantman

    Mr. Hantman. Thank you, Mr. Chairman. As you can recognize, 
I am in the learning curve at this point in time. I hope to be 
able to make a real contribution as we go forward. At this 
point in time I really have no statement.
    Mr. Walsh. Very good. I would also recognize the Chief 
Architect, the Chief of the Capitol Police. Chief, do you have 
anything you would like to say at this time?
    Mr. Abrecht. Not very much.
    Mr. Walsh. You just happen to have a speech in your hip 
pocket.

                       Remarks From Chief Abrecht

    Mr. Abrecht. Not a speech, Congressman. I have submitted a 
written statement for the record. I would like to briefly touch 
on a few items from that statement for your information that 
might be of interest to the committee in particular.
    As has been mentioned before, last year was a time of 
operational growth for the department. Due to the lessons 
learned from the Tokyo gas attack, for instance, the department 
has developed a chemical and biological incident response 
capability for the Capitol Complex. This capability compliments 
the exemplary explosives protection capacity that the 
department has maintained since 1971.
    In addition, we have expanded our protected intelligence 
capabilities. We routinely exchange information which impacts 
on the security of the United States Congress with other 
national security and intelligence agencies.
    You will recall that last year, I reported that threats 
against Members of Congress nearly doubled from the previous 
year. I am pleased to report that cases this year have 
decreased from last year's peak, although the number of threat 
cases is still above the average from the previous years. We 
continue to diligently investigate each case that is brought to 
our attention and work closely with other Federal law 
enforcement agencies to successfully resolve these cases.
    With regard to our law enforcement efforts, violent crime 
within the Capitol Complex continues to decline. The year 
before last, crimes against persons dropped 8 percent. Last 
year, such crimes decreased 33 percent to a total of only 16 
reported incidents for an entire year. This figure is quite 
remarkable when one considers the millions of people who visit, 
travel through the buildings, streets and parks of the Capitol 
Complex each year. Property crimes also decreased by 29 percent 
compared to the previous 12-month period.
    This year's budget request contains a pay initiative which 
is intended to ensure that the salaries and benefits that the 
Congress provides for the men and women of the Capitol Police 
remain comparable to those which are provided to their 
counterparts in other similar Federal law enforcement agencies.
    Aside from the issue of fairness, this initiative will 
ensure the department can continue to recruit and retain the 
highly qualified officers we need to effectively perform our 
mission.
    The issue of attracting the best possible officer candidate 
has become even more critical due to the increasing complex and 
technical nature of our mission. Therefore, I urge the 
committee to support this request and provide funding to 
institute these pay initiatives.
    As a result of the leadership and support of the committee, 
the responsibility for physical security systems within the 
Capitol Complex has been transferred from the Architect of the 
Capitol to the new Capitol Police Physical Security Division. 
We are now moving forward with a system selection and 
installation design plan and will seek the approval of the 
committee to begin the procurement and installation phase.
    Once the installation is completed, all of the security 
systems in the Capitol will be state of the art and completely 
integrated. The systems will be more easily maintained and 
police alarm and emergency operations will be streamlined and 
improved.
    The installation of these systems is a significant advance 
in the security of the congressional community, and I thank the 
committee for their support of the project. I feel you will be 
very pleased with the results when they are done.
    Over the past several years, the department has made great 
strides in its operational capabilities. We have reduced crime, 
increased training, improved our response capabilities, 
addressed new threats, and, as I have just stated, we are in 
the process of making vast improvements in the physical 
security systems of the Capitol and office buildings.
    Now it is time for us to look inward and identify areas in 
our administrative infrastructure where improvements can be 
made and fiscal savings realized. We are pursuing two 
initiatives to attain the goal. First, we are conducting an 
exhaustive review of every police post to include staffing 
levels and the hours each post is required to be staffed in 
order to determine if our personnel can be redeployed. This 
review is being conducted to determine if police post staffing 
costs can be reduced without affecting security.
    Furthermore, we are reviewing staffing of support and 
administrative positions to see if there can be reductions. The 
second initiative consists of the comprehensive review of our 
internal administrative management systems. This initiative 
dovetails nicely with an effort that this committee has been 
pursuing for a number of years which is now coming to fruition. 
That is unifying the Capitol Police payroll through the use of 
a servicing agency such as the Department of Agriculture's 
National Finance Center. I am very pleased to report that the 
transfer of the House payroll to the NFC will occur next month.
    I am also excited that the Senate Sergeant at Arms is 
supportive of moving the Senate police payroll to the NFC as 
well and is seeking the approval of the committees of 
jurisdiction. A single unified payroll system for the 
department will maximize efficient utilization of resources and 
provide equity, quality and responsiveness. Further, it will 
provide the department with an integrated database which will 
enhance management information and reporting.
    Finally, like Mr. Livingood, I would like to thank the 
committee for your providing an appropriation to relocate our 
K-9 facilities. These dogs are an important element of the 
department's explosives detection capability. It is essential 
they be well cared for and provided adequate kenneling and 
training facilities. This spring we will move to the 
Metropolitan Police Department K-9 Building. This building is 
currently, unfortunately, in some disrepair.
    I hope the committee will therefore approve the Architect's 
request to renovate this facility for our use. I would be happy 
to answer any questions you have.
    [The information follows:]

[Pages 210 - 212--The official Committee record contains additional material here.]


    Mr. Walsh. Thank you very much, Chief, for your statement, 
and all of you.
    The Capitol Hill police, I think, have always enjoyed a 
very special relationship with the Congress, the House and 
Senate, the staffs. I know my father, who served here back in 
the seventies, also spoke very highly of the police officers he 
dealt with on a daily basis here.
    I am reminded when I first came 8 years ago, I remember 
reading, I think it was in Roll Call, they interviewed a Member 
who had left, retired, 3 or 4 years before, and they asked him 
if there was anything he missed about Washington. This is an 
individual that served here for many years. He said, yes, there 
is one thing. He said I miss the Capitol Police. That is the 
only thing that he missed. That is what you would describe----
    Mr. Abrecht. We are touched.
    Mr. Walsh. That is a special relationship.
    Mr. Serrano. Did he elaborate on that?

                         pay parity initiatives

    Mr. Walsh. No, he didn't, and I will not give you his name 
either, although Roll Call could probably figure it out.
    I have just a couple of questions I would like to ask. You 
have already touched on some of them. Maybe you could just 
expand a little bit. This issue of parity, as I understand it, 
and any of the members of the Board or the Chief can respond, 
parity in these termsmeans commensurate pay with other Federal 
police departments; is that right?
    Mr. Abrecht. That is correct, sir.
    Mr. Walsh. Now, if these items are approved, would it 
require legislative authority to use those funds?
    Mr. Abrecht. We would, of course, defer to the committees 
of jurisdiction on the House and Senate side to determine what 
level of authority approval would be required for that. We are 
not certain what exactly is required by the committees of 
jurisdiction. It has been handled in different ways for 
different changes made in the police pay scale. Some of them 
required actual legislation, and sometimes the committees 
determined they could be done by their own authority.
    Mr. Walsh. You probably ought to touch base with the 
authorizing committees to be clear on that.
    If parity is funded, will there be any differences between 
the Capitol Police and any other Federal police organizations?
    Mr. Abrecht. In the pay area, that will resolve all parity 
issues I know of. Obviously, since they are all under Title V, 
there are all sorts of administrative matters that are 
different. These are the major issues that are of concern to 
the force.
    [Questions from Chairman Walsh and responses follow:]

    Question. If the pay parity initiatives are approved, will 
you require legislative authority to use the funds?
    Response. The requested funding would allow us to pay USCP 
uniformed personnel for various differentials that are paid to 
other law enforcement personnel under Title 5, including 
Sunday, holiday and night pay. Obviously, we would defer to the 
prerogative of the relevant House and Senate authorizing 
entities to determine what additional actions, if any, would be 
required prior to implementation.
    Question. In addition to the $212,000 requested for the new 
positions, you are requesting $4.4 million for ``mandatory'' 
pay changes. Last year's bill fenced $1.4 million for a 
prospective COLA and comparability increase, pending approval 
by the appropriate authorizing officials. Has that been 
approved? What increases were approved; at what annual cost? 
The FY 97 cost?
    Response. The increases were approved by the House 
Committee on Oversight as well as the Senate Sergeant at Arms. 
For uniformed personnel, the net increase was 3.3%, which 
included the nation-wide cost of living increase of 2.3% and 
the adjustment in pay for the Washington DC area. Civilian 
personnel received the 2.3% COLA.
    The FY 97 cost of these increases is estimated to be 
$1,341,000 and the annual cost $1,788,000.
    Question. In last year's omnibus appropriations bill, a 
$3,250,000 supplemental was included for security enhancements. 
Have you made any determinations of exactly how those funds 
will be expended? Give us an idea of what you intend to do.
    Response. Early in 1995 the USCP and the US Secret Service 
conducted a comprehensive physical security survey. In fiscal 
year 1996, responsibility for installations of physical 
security equipment was transferred to the USCP.
    Since that time, the USCP established a Physical Security 
Division (PSD), appointed a director and hired staff. A five-
year budget and program plan was developed, approved by the 
Board and forwarded to the Senate and House Appropriations 
Committees. The Board then directed the PSD to provide a 
comprehensive security implementation plan based on the USCP/
USSS survey. In December 1996, the USCP engaged the Department 
of the Army, Physical Security Equipment Management Office to 
assist in the development of the implementation plan. This 
survey was completed in early February and includes technical 
design, equipment selection, installation and cost estimates. 
This three-phase plan will now be presented to the appropriate 
committees to expand the required funding to initiate phase I 
for FY 97. Approval will be sought within the next three weeks.
    Additionally, in fiscal year 1997 responsibility for the 
maintenance of physical security was transferred to the USCP. 
At the time of this transfer, there were only 52 on-line 
accounts on the House side for the Members' duress alarm 
system, which had taken over three years to install. Since that 
time, the USCP has installed 245 additional systems in less 
than six months. Additionally, the Maintenance Section has 
completed more than 1000 requests for service repairs since 
October 1, 1996. This is double the amount completed in the 
entire preceding year prior to the transfer. We have 
accomplished this without increase in personnel, funding or 
overtime while expanding coverage to seven days each week.
    Question. As you know, there are some specific rules that 
must be complied with before any alterations are made to the 
buildings, including the Capitol. Leadership approvals and so 
forth, are required. I expect you will be working closely with 
the Architect of the Capitol in the design of these 
improvements and in making sure the appropriate approvals are 
obtained.
    Response. We are nearing the completion of a Memorandum of 
Understanding with the Office of the Architect as specified in 
the Conference Report to accompany H.R. 3610, Making Omnibus 
Consolidated Appropriations for Fiscal Year 1997, to delineate 
the process for implementing security projects. We have also 
initiated an architectural steering group comprised of AOC and 
USCP representatives to look at the architectural requirements 
of existing and planned security installations.
    Question. Last year, we provided funds to alleviate a 
terrible situation that had developed at the former Capitol 
Police canine center at Poplar Point. We also got the D.C. 
government to comply with an agreement they made with the 
Architect several years ago to build a new canine facility for 
the use of the D.C. Metropolitan Police. When this new facility 
is built (currently under construction), the Capitol Police 
will be able to move into the facility that will be vacated by 
the D.C. canine unit. What is the status of that project?
    Response. The Architect of the Capitol (AOC) has completed 
all their assigned work related to the emergency funding. The 
obedience, attack, and agility fields have been completed and 
fenced. All the trailers and storage areas have been put in 
place. The Metropolitan Police Department (MPD) will turn over 
their old facility, which includes 12 indoor kennels, to the 
U.S. Capitol Police in April, after they move to their new 
training facility, which is now under construction. Even though 
these kennel facilities are an improvement from the one at 
Poplar Point, they still need considerable renovation. The AOC 
has requested funds to renovate our kennel facilities in FY 
1998 and FY 1999.
    Question. Since the new D.C. facility is virtually adjacent 
to the one the Capitol Police will occupy, are there any plans 
to share some of the space for common training grounds and the 
like?
    Response. We plan to share the obedience, attack, and 
agility fields with MPD.
    Question. It would be a shame if we did not try to work out 
a cost-effective relationship with the D.C. police force on 
this matter. I suggest the Chief look into this and report back 
to the Committee on the possibilities.
    Response. Certainly we are in agreement that the most cost-
efficient relationship possible be pursued and implemented. As 
we move into the facility we will look for opportunities to 
maximize the sharing of resources and will keep the Committee 
apprised of our actions.

                computer and telecommunications services

    Mr. Walsh. The Senate Sergeant at Arms is requesting to be 
reimbursed for the computer telecommunications services he 
provides to Capitol Police. Could you explain briefly what 
those are, the services?
    Mr. Casey. There are some hard costs that are provided in 
the Senate radio, Senate telecommunications services, computer 
service, those kinds of things, that have been provided 
directly as a cost charged to the Senate Sergeant at Arms. The 
history of that is somewhat muddled. It goes back to a few 
years ago when there was an assessment done of the 
communications system in the Capitol Police, and it was found 
to be wanting. There was no other way to go, so the Senate 
Sergeant at Arms just sort of unilaterally decided at that 
point in time to provide for an enhanced communications system. 
It has now just been internalized to the Senate Sergeant at 
Arms budget. It is obviously earmarked in our budget as the 
communications and computer systems for the Capitol Police.
    Mr. Walsh. You carry it in your budget.
    Mr. Casey. We just carry it directly in our budget. It is 
basically an accounting transfer. If we want them to do a 
better job of managing their resources, we have to get their 
resources to a point where they can manage them.
    Mr. Walsh. Does the House do this?
    Mr. Livingood. The House pays only one area for the Capitol 
Police and that is the telephone service on the House side.
    Mr. Walsh. What about the administration of police 
personnel records and so on? Is that a House expense also?
    Mr. Livingood. Gary, you can answer that.
    Mr. Abrecht. One of the anomalies about this agency is that 
our payroll is split. Half of our people are on the House roll, 
and half on the Senate roll.
    Mr. Walsh. Is that a good idea?
    Mr. Abrecht. No, sir.
    Mr. Walsh. Does everybody agree? Okay.
    Mr. Abrecht. So half of our payroll administration is done 
by the Senate Disbursing Office, and half by the House Finance 
Office. The only small wrinkle is that all of our disbursing 
for general expenses is handled through the House, so the House 
Finance does bear the additional burden of administering our 
general expense accounting function, which is not on the Senate 
side.
    Mr. Walsh. Does the House charge for those services, or is 
there a reimbursement done?
    Mr. Abrecht. No, sir.
    Mr. Walsh. If the Senate is going to do it, should the 
House be doing it, or should we both be doing it the same way?
    Mr. Casey. If I may, Mr. Chairman, there are a number of 
things that appear that are incidental items. We do some long 
distance phone charges. We take care of some printing. We take 
care of the radios for the cars, the car washes, stuff like 
that. There are a lot of things that we do that are incidental 
that we are not charging for.
    The only reason I bring these up is that this is not a 
small item. We are talking over $2 million. I want to go ahead 
and find every single pocket of these monies, but when you are 
talking of that size of a resource and something that critical, 
I look at the communications, particularly as we are moving 
into the increased communications age, as being a critical part 
of their mission.
    I am more interested in having the Capitol Police have 
control of their own destiny in that whole area, as much as I 
am of just getting the cost shifted over there. That is why we 
are making the change.
    [A question from Chairman Walsh and response follows:]

    Question. Have you asked the House if they can provide 
computer and telecommunications services rather than increasing 
the burden on your budget by $2.2 million? If not, you might 
ask the Chief Administrative Officer if he can help out.
    Response. To date, we have not had any discussions with the 
Chief Administrative Officer regarding their willingness or 
ability to provide these services. We will pursue this avenue, 
but at this stage of the budget cycle it is unlikely that they 
would be able to accommodate us in fiscal year 1998.

                             record keeping

    Mr. Walsh. The issue of record keeping, apparently there is 
an auditor report that said that the record keeping is not 
good, and that there are problems with management, data 
controls, accounting reconciliations, keeping of overtime 
records, all these things. Does anyone care to comment on that?
    Mr. Abrecht. We have aging data systems in the department 
in a number of areas. There are mainframe systems run on the 
Senate computer center, they are written in very obtuse code 
and old languages. They are really quite old. In a number of 
areas, we really have some concerns about the quality of our 
data systems.
    That is one of the areas that the management study that Mr. 
Casey discussed at some length will be focusing on, is getting 
us proper data systems, both to give you information that you 
need to do your work, and certainly information that I need to 
deploy personnel in a proper manner, to account for how much it 
costs to do everything we do up here, and to look at ways we 
can save money. So we have some data system problems that we 
would like to improve substantially.
    The Congressional Accountability Act has had some impact on 
this. When the Congressional Accountability Act came in, we 
were placed under the Fair Labor Standards Act, which has a 
whole different set of rules for overtime and all of that. We 
went to reprogram our computer to accommodate all these 
changes, and we have had just a tremendous amount of difficulty 
in getting this very antiquated system brought up-to-date to 
track the overtime under the FLSA rules, which are completely 
different from the system we used to operate on.
    That is just one example of a complex system, which is a 
24-hour-a-day operation, 7 days a week, that has a lot of 
differences from your typical government operation, 5-day-a-
week kind of operation. This system needs some work.
    So that is one of the many systems. We have difficulty 
reconciling our personnel data with our time and attendance 
data and our accounting data. There is a need for an integrated 
management operation or accounting system, and that is what we 
are asking for in this.
    Mr. Casey. That was one of the primary motivations behind 
the board passing the resolution to get on with this 
evaluation. I would prefer to look at those not as problems, 
but as challenges. We are one with the command staff in 
addressing that and getting this done this fiscal year.

   transfer of police payroll function to the national finance center

    Mr. Walsh. This payroll to NFC, is that part of this?
    Mr. Abrecht. That would be a very key part of it, sir, 
absolutely, because, particularly if the Senate side goes down 
as well, we will then have one personnel database, and it is an 
outstanding one. The NFC operates an outstanding, fully 
integrated personnel----
    Mr. Walsh. What does NFC mean?
    Mr. Abrecht. National Finance Center. It is part of the 
Department of Agriculture, servicing 400,000 Federal employees 
who are paid through it.
    Mr. Walsh. You would just provide them with the data and 
they would manipulate it for you and do the payroll?
    Mr. Abrecht. And physically give us the checks, give each 
officer a pay slip that explains exactly how the money was 
earned, how much of it is overtime, which they don't get at 
this point.
    Mr. Livingood. It will be a tremendous help.
    Mr. Casey. The bifurcated nature of the pay system right 
now is untenable, and it needs to be fixed. Obviously the onus 
is on my shoulders to see if we can't do in the Senate what you 
have done in the House.
    Mr. Walsh. I think, too, there is obviously a turf issue, 
and whenever you have got divided payroll and records, people 
are going to say, well, they are treated better than we are.
    Mr. Casey. We actually have different policies. There are 
actually policy differences, which means we have to treat the 
officers differently.

                             new positions

    Mr. Walsh. Well, the last question. You need three 
additional FTEs. You can't find those within existing ranks? 
You can't reshuffle or shift?
    Mr. Abrecht. I guess it is a case of death by 1,000 cuts. 
Every time we need something new, we say, well, it is only one 
or two, can't you find them? We have experienced some reduction 
already of like 70 positions since I came here. It becomes 
difficult to keep finding those without pulling people off of 
things already being done, police posts, and then that causes 
overtime to go up. So it is difficult. They are critical 
positions.
    If the Senate comes over on the NFC system as well, two of 
those positions will support the personnel functions that will 
be necessary coming over from the Disbursing Office.
    The other is we are just desperately in need of legal help. 
The Congressional Accountability Act has imposed a whole host 
of new requirements on us, and we have one lawyer for an 
operation the size of the Capitol Police Force. With all the 
personnel law issues that are coming up, he has just been 
absolutely buried. We just need help in that regard. Those are 
the requests being made.
    [Questions from Chairman Walsh and responses follow:]

    Question. You are requesting three additional positions to 
be added to the Senate rolls. What is the basis for assigning 
them to the Senate payroll as opposed to the House payroll?
    Response. Two of the positions are requested to support the 
anticipated migration of the Senate payroll to the National 
Finance Center. The remaining position will be in the Office of 
the General Counsel. The General Counsel is currently on the 
House payroll and we have typically attempted to balance the 
payrolls within the divisions and bureaus of the Department 
between the two payrolls.
    Question. Would it be possible to use attrition for these 
positions and fill them when three other positions are vacated?
    Response. It is increasingly difficult to absorb the 
staffing of new functions through attrition. In fiscal year 
1992, the Capitol Police had an authorized staffing level of 
1,357 positions. For the past two years we have operated within 
the authorized level of 1,299. Ultimately, the utilization of 
existing FTE creates shortages in other areas of the Department 
requiring the use of overtime to fill the void. Further, the 
new FTE's requested are for civilian/administration activities 
and it is not prudent to utilize FTE that would otherwise be 
dedicated to activities of sworn personnel for this purpose.
    Question. For the record, please supply a table reflecting 
the total authorized positions, the total funded positions, and 
the actual full-time equivalent (FTE) usage for the Capitol 
Police for fiscal years 1994-1997. For 1997, project the actual 
based on year-to-date including recruitment and hiring plans 
for the remainder of the fiscal year. Include fiscal year 1998 
figures for authorized positions and the number of FTE the 
request would fund.
    Response. The information follows:

                              U.S. CAPITOL POLICE--FULL-TIME EQUIVALENT EMPLOYMENT                              
----------------------------------------------------------------------------------------------------------------
                                                                               Fiscal year--                    
                                                          ------------------------------------------------------
                                                              1994       1995       1996       1997       1998  
----------------------------------------------------------------------------------------------------------------
Authorized...............................................      1,352      1,281      1,299      1,299      1,302
Funded...................................................      1,233      1,281      1,299      1,256      1,259
Actual \1\...............................................      1,212      1,176      1,233      1,249  .........
----------------------------------------------------------------------------------------------------------------
\1\ Estimated, fiscal year 1997.                                                                                

    Mr. Walsh. Mr. Serrano.

                           MANAGEMENT REVIEW

    Mr. Serrano. Thank you, Mr. Chairman. First of all, let me 
join the Chairman in commenting on the unique relationship 
between the Capitol Police and the Members of both Houses, and 
the staff. Of course, that is a very self-serving statement, 
because we like the security you provide for us. Sometimes you 
should provide us security from each other, but I know you 
can't do that.
    Mr. Cunningham. They do.
    Mr. Abrecht. The Sergeants at Arms do that.
    Mr. Serrano. I forgot about that. One question, Mr. 
Chairman, that comes to mind immediately, and one that perhaps 
we should ask everyone that comes before us is: You mention 
your antiquated system and bringing it up-to-date.
    I would imagine, backing up a second, that if tomorrow 
there was a new way of dealing with public disturbances, you as 
a law enforcement officer of many years have the ability to 
lead your department to move into that direction and to look at 
those new methods. I get the feeling this computer technology 
is just thrust on everybody, from schools to hospitals to you, 
and my question is, do you have people, outside folks or 
consultants or whatever, that come in and show you how to bring 
you along? Or are you trying to figure this out as you do 
everything else?
    Mr. Casey. Well, it is a very good question. It is a 
problem that is being universally faced. The Senate Computer 
Center, which is a $392 million concern by itself, is facing 
the same thing. We have a dynamic movement in the kind of 
technology that is going on. That computer center is in itself 
doing an evaluation of how it is going to remain abreast of 
that kind of technology.
    Part of what has happened, I think, with the Capitol Police 
is that they have inherited some obsolete technology, and we 
need to correct that so that they can be as dynamic as is 
required by the changing needs of the job.
    The way we intend to do that is by this process. That is 
what this management and administrative evaluation is all 
about. Rather than prescribing what the solution is first, we 
are going to find out what the need is. We are doing that in 
the Senate computer system as well. So we are going to go out 
and find out what the need for it is first, before we go in and 
describe the solution. It is going to take time.
    Mr. Serrano. The center has people equipped to deal with 
what the need is the same way you would be equipped to deal 
with other areas. If I tell you there is a problem with the way 
people run out of cars and confuse police officers on the 
street, I know you can deal with that. But if I say to you, 
okay, everything has to be computerized, you might say excuse 
me, that is not my field. That is not what I do.
    Mr. Abrecht. Internally we have a very small data 
processing capability. We basically have people who are LAN 
managers, not someone who can solve the overarching problems. 
They are excellent people and do a very good job, but they are 
not at the level of what would be needed to design a whole new 
management information system.
    Mr. Casey. We are going to go to GAO to get their help. We 
also have a number of vendors that work for the computer center 
that will be able to design what it is we need to look at. I 
think the most important part is the process of evaluating what 
we are going to require, the forward-looking analysis of what 
it is these guys are going to have to have in 5 years and 10 
years, and that we have not done. We have the outside resources 
available to us to get that look down the road completed 
effectively.
    Mr. Serrano. This internal study that you are going todo, 
which speaks about management and fiscal needs, and also speaks about 
training, is this something you do periodically, or is being done 
because you suspect there is a problem? If part of it or all of it is 
geared toward reducing costs, are you running the risk of sacrificing 
the quality of your service? How do you balance that? That is the 
toughest thing to do these days. How do you balance continuing to give 
us the kind of service that we want from you, and at the same time, 
reducing costs?
    Mr. Casey. Mr. Chairman, if I may, good management is not 
destination, it is process. What we are trying to do with what 
we are doing now is designed within the systems at the Capitol 
Police, a process of continual evaluation. We are not driven 
strictly by the need to reduce the cost. Certainly, if we can 
better utilize our resources, then we can reduce our costs. 
That is what we are really trying to focus on, are we utilizing 
our resources in the best way possible to meet the mission? No, 
we are not driven by just the one need to reduce costs.
    What we are trying to develop is a systematic approach that 
continues within the department to continue to keep the 
department dynamic. We think we can improve that.
    Mr. Abrecht. I would just add, in my capacity, since I bear 
the ultimate responsibility, you will never see me sit here and 
allow any cost reduction that is going to compromise the 
security of this institution, or I won't be sitting here.

                        history of two payrolls

    Mr. Serrano. Just one last question, Mr. Chairman. Is there 
a historical reason why we have that split payroll? Does that 
create a problem other than the obvious one? Are people being 
paid at different times?
    Mr. Livingood. Yes, sir.
    Mr. Abrecht. The history of this is fairly straightforward. 
There was formerly a patronage system entirely. Half of the 
patronage positions were on the House side and half were on the 
Senate side. They were filled with students going to college. 
This goes back 20 or 30 years ago. So half of them were paid as 
House employees once a month, and half are still paid on the 
Senate roll twice a month. So there are differences, quite a 
few.
    Professionalization of the force started almost 30 years 
ago now, probably under the impetus of the two bombings of the 
Capitol where it was determined that a nonprofessional 
patronage kind of operation was not effective.
    The department began to professionalize. About 2 years ago, 
I guess, the last of the nominally patronage positions were 
abolished. It is now a fully professionalized force. We recruit 
completely without regard to any influence or anything like 
that and in the standard way that any Federal law enforcement 
agency recruits.
    So there have been tremendous changes. Dual payroll is 
essentially a vestige of a long lost kind of police entity that 
would not make any sense in the present day.
    Mr. Livingood. I will just add, that is why the National 
Finance Center is an answer to this. Hopefully the Senate will 
join the House in the National Finance Center. For the 
officers, it is going to make a big difference, because right 
now, even with their overtime on the House side, they have no 
idea what hours they worked or when it was, because it is not 
set up in an accounting system that the National Finance Center 
will be. I have experienced it in the past, and it has been 
excellent.
    Mr. Serrano. Thank you.
    [A question from Chairman Walsh and response follows:]

    Question. You also mention the possibility of getting your 
accounting needs ``cross-serviced'' by another agency. Have you 
asked the Library of Congress or the General Accounting Office 
for help on this? Would this arrangement save money?
    Response: The accounting function within the Department is 
currently being performed on an outdated system which has been 
in use for over ten years. There are several options available 
including the development of our own accounting system. We 
believe that it may be more cost efficient and timely however 
to be cross-serviced by another agency and we have begun 
discussions with several agencies, including the Library of 
Congress, to determine which may best meet our requirements. 
While we have not directly discussed our requirements with the 
General Accounting Office, they will be included in our review 
prior to making any decisions.
    There would not be any reported savings through this 
initiative. The Office of the Chief Administrative Officer 
currently provides disbursement data only via hard copy. 
Accrual accounting is being performed to a limited degree on 
the ten year old system operated on the Senate Computer Center 
mainframe which is being phased out. There is a possibility 
that the Office of the Chief Administrative Officer will be 
able to bring the Department on-line with the new Federal 
Financial System once it is successfully implemented for the 
House.

    Mr. Walsh. Mr. Cunningham.

                coordination with intelligence agencies

    Mr. Cunningham. I will just be brief. I would like to 
express my sentiments on the professionalism of the Capitol 
security staff across the board, especially during Desert Storm 
and things like that. I think you serve as a model for a lot of 
law enforcement agencies, not just your professionalism but in 
the courtesy and the politeness of your officers.
    I have only been here six years, but I have never run 
across--and I don't know how you do it, because all of us have 
a bad day from time to time--such consistent professionalism.
    A couple of areas that I see increasing: Hopefully this 
year it will not be as bad as the last two years, since we are 
using the President's budget as a base. But when protest groups 
come in and disrupt different hearings when I was a chairman, 
that was always a concern. You acted very well,but I just see 
an increased agitation in the country for those kinds of things on both 
sides, whether it is abortion, whether it is seniors, or whatever it 
happens to be. I would sure like to see those clamped down, and where 
there is suspicion that they are going to appear somewhere, to make 
sure that they don't disrupt.
    The second area is that I was glad to see you are working 
with intelligence agencies. If you look at the worldwide 
movement of Hamas and the fundamentalists around the world, and 
in Bosnia, with the 12,000 Mujahedin, they are planning on 
moving into Europe and exporting terrorism. I can see an 
increased threat.
    I would hope that, almost on a daily basis, you would get 
an update of what different movements are, not only external, 
but internal. We have got nutcakes within our own country that 
are increasing the number of bombs. It seems like every day you 
find pipe bombs and all kinds of stuff. When you are being cut 
in force, your load goes up. And that is not good.

                            officer training

    Mr. Cunningham. Another thing: As a former commanding 
officer, I want to know if you have an education advancement 
program where you encourage your officers to go to night school 
or go to community colleges? Is there any kind of program for 
that?
    Mr. Abrecht. We certainly encourage them to do that. We, 
unfortunately, do not have any situation where we pay them, pay 
their tuition, for instance, for that type of education or give 
them released time. But we have encouraged that universally.
    On occasion, where we can find some benefit to the 
department, we have allowed released time to do it. We send all 
of our command staff for training to the FBI National Academy. 
Eventually everyone gets to go. At this point, we are down to 
the middle of our lieutenants. All of our top staff has gone.
    We have sent top level commanders to the Senior Management 
Institute for Police at Harvard University in the summertime. 
We try to send one every year for that. We do a considerable 
amount of management training as well as, of course, training 
in-house for the officers. We also have training for all of our 
first-line supervisors and all of our experienced officers.
    Mr. Cunningham. I found that that was a benefit in squadron 
level. I had to take it out of my hide sometimes, but in the 
long run it paid dividends. I got every one of my enlisted 
personnel educated. The hardest thing was taking in the master 
chief or senior chief in a squadron that had done things with a 
pencil for 20 years, and tell them they had to do it with a 
computer. But we put them in a computer class. In the end our 
efficiency went up by leaps and bounds.
    I know when you are short of personnel, education and 
training is hard to do. But to get them through a computer 
course, with the technology boom of the 21st century, the last 
thing you want is for law enforcement to be left behind.
    That is all I have, Mr. Chairman.
    Mr. Walsh. Thank you.
    Mr. Latham.

                      staffing to process payroll

    Mr. Latham. I would like to associate myself with your 
remarks as far as the Capitol Police. I think they do a 
tremendous job, obviously, and I think they have an impossible 
situation many times. To maintain the public access here and 
still maintain security is a tremendous challenge obviously.
    I have one question here. In the request, there are two 
additional full-time equivalents in payroll, and then, on the 
other hand, you are going to move the payroll to the National 
Finance Center.
    Why would you need additional people? I would think there 
would be some savings in that area if you are going to actually 
do that.
    Mr. Abrecht. If there are savings, they are are savings to 
others, unfortunately, because presently, all payroll 
processing is done in the Senate Disbursing Center for those 
Senate employees. We would be taking over the benefits 
counseling, personnel, and payroll processing functions.
    For instance, if you decide you wanted to change health 
care providers, presently I would say to you, you are on my 
Senate payroll, so go over to Senate disbursing and make the 
change. Under NFC all of that would be done internally in our 
personnel operation. So that is where the additional work load 
comes to us. Whether the Senate disbursing office would be able 
to reduce staff, I obviously don't know.
    Mr. Latham. What is the time frame as far as the internal 
management evaluation? Is that going to be completed in this 
next cycle, or when will it be done?
    Mr. Abrecht. We are hoping to get that accomplished 
quickly. We are going to try to push it fairly quickly and have 
it completed certainly this calendar year in order to be 
prepared, if we need to come to the committee for help, it 
would be for the next budget cycle.
    Mr. Latham. Is that redundant? Shouldn't the IG be doing 
basically the same thing?
    Mr. Abrecht. One of the oddities of our system is we are a 
bicameral enterprise. The IG is a House enterprise, so there is 
some question as to how much they can help.
    Mr. Livingood. Two years ago when we came and started 
looking at systems, we talked to the IG about the possibility 
of doing a study of the Capitol Police: Financial, computers, 
are they integrated, are they talking to each other, 
programming. It is on their agenda, and we will be talking to 
the IG once we come up with a list of everything we want done, 
a statement of work. We will have to see if the Senate will 
agree how we can go about this and what is the process.
    I would like to see, just personally, the IG manage it for 
the Capitol Police Board. That would be for the police board, 
and with the two entities working together. But we haven't 
gotten that far yet.
    Mr. Latham. Apparently there were some recommendations, and 
I don't have them all here, I don't know whether the K-9 part 
by the IG before. Does your request reflect concerns that they 
had before, answering the concerns from the IG?
    Mr. Abrecht. No. It really reflects internal concerns that 
we have. The IG, to my knowledge, has never discussed this 
issue with me in any way.
    Mr. Livingood. The IG has not looked at the Capitol Police 
at all. This was just strictly the board and the chief and the 
management wanting to get a fresh update. Times have changed so 
rapidly in computers and management, we wanted to make sure we 
are interfacing together.
    Mr. Latham. Thank you, Mr. Chairman.

                  unified payroll requires legislation

    Mr. Walsh. Just to wrap up, this issue of putting all the 
records in one house at the NFC, obviously, and I think I can 
speak for the subcommittee here, it would have our support. But 
can you explain, to my understanding this conversation has gone 
on before the last several years, but nothing happened. Is it 
because it is not getting a priority in terms of legislation on 
the authorizing committees, or can you explain why it hasn't 
occurred, and is there anything we particularly can do to be 
supportive?
    Mr. Abrecht. Obviously, everything that the House can do 
has been done. Mr. Wolff and the authorizing committee have 
been supportive, the House Finance office has been supportive, 
the Chief Administrative Officer, all entities on the House 
side.
    Mr. Walsh. Do you need statute or action by the authorizing 
committee?
    Mr. Abrecht. No. Their approval has already been obtained. 
No statutory change is required.
    Mr. Livingood. Because it is in the appropriations.
    Mr. Walsh. The idea of merging the payrolls----
    Mr. Livingood. That is what we are trying to do.
    Mr. Abrecht. A true merger would require statutory change. 
Currently, if the Senate goes to NFC there will still be two 
technical payrolls, to the extent that personnel action 
approvals will go to either House Oversight or the appropriate 
Senate authority.
    Mr. Walsh. Why don't we try to do it all at once?
    Mr. Abrecht. That would require major legislative change 
because there are references to these two payrolls in 
applicable laws that would have to be changed.
    Mr. Walsh. Is there no support for that on the authorizing 
committees?
    Mr. Abrecht. I don't know if it has ever been discussed at 
that level in recent years.
    Mr. Latham. You say on the House side they are paid once a 
month and on the Senate side they are paid twice a month?
    Mr. Abrecht. That is correct. There are still two 
appointing authorities essentially. That will remain. It will 
just be a question of once they are appointed, they would be 
treated exactly the same. So from the officers' point of view, 
it would be largely transparent, which payroll they happen to 
be on.
    Mr. Walsh. There is a separate hierarchy that hires for the 
Senate and a separate hierarchy that hires for the House?
    Mr. Abrecht. That is correct. It is an oversight function. 
While the selecting is done by the Capitol Police, it is 
subject to the oversight authority.
    Mr. Livingood. Signed off on the House by the House 
Sergeant at Arms for House employees under their payroll, and 
signed off on by the Senate Sergeant at Arms for those 
employees. We don't see their interviews.
    Mr. Walsh. Are the responsibilities different for these men 
and women?
    Mr. Livingood. Exactly the same.
    Mr. Walsh. The pay scale is the same?
    Mr. Livingood. Yes, sir. It would make sense to me, to me 
as an outsider here, a fairly new employee of the House----
    Mr. Walsh. It sure would to me.
    Mr. Livingood [continuing]. To unify the two payrolls.
    Mr. Latham. They are identical as far as operations.
    Mr. Livingood. It is common sense. Everything else is 
unified.
    Mr. Abrecht. The officer standing in front of the door of 
the Rayburn Building where you come in in the morning, could 
very well be a Senate employee. The odds are 50 percent he is.
    Mr. Walsh. Are there any additional costs associated with 
that, to keep that separate?
    Mr. Abrecht. Yes. There are certainly a lot of 
administrative costs on us to track each one. Well, this 
officer is getting promoted, so we send this promotion to the 
Senate side; this is a Senate guy; we send it this way. It gets 
really exciting when we have several promotions and they are 
moving between rolls because the vacancies are in different 
places.
    Mr. Livingood. In the long run, the savings would be to the 
Senate and House in their human resources area, because the 
Capitol Police would assume the human resources area for all of 
the Capitol Police.
    Mr. Serrano. Are they going to have separate labor unions?
    Mr. Abrecht. When the Congressional Accountability Act was 
passed, they did establish the Capitol Police Board as the 
employing authority for that purpose.
    [A question from Ms. Kaptur and response follows:]

    Question. I noticed that none of your statements mention 
the possible unionization of the Capitol Police. If this does 
occur, has there been a determination of how much overtime will 
have to be paid under the Congressional Accountability Act? If 
so, does your FY 98 budget reflect this?
    Response. Effective January 23, 1996 the Department was 
subject to the provisions of the Fair Labor Standards Act 
(FLSA) as adopted by the Congressional Accountability Act. The 
applicable provisions of the FLSA as of that date have been 
incorporated into the US Capitol Police (USCP) overtime system. 
Since several issues regarding unionization have yet to be 
resolved by the Office of Compliance, it is difficult to 
ascertain what impact unionization, as a whole, will have on 
the future operations of the Department.
    Unrelated to the unionization question and in our continued 
effort to apply the FLSA in an equitable and fiscally 
responsible manner, the Capitol Police Board has requested 
funding in fiscal year 1998 for several pay initiatives, 
including Sunday pay, holiday pay and evening shift pay. 
Additionally, we have requested funding to allow the inclusion 
of scheduled leave to count toward the 85 hour threshold 
established under FLSA for the purposes of earning overtime. If 
the Committee approves the scheduled leave initiative, it would 
increase our overtime estimate by the amount of $676,000.
    Of course, all matters of pay and benefit administration 
are subject to approvals of the appropriate funding and 
authorizing committees in the House and Senate.

    Mr. Walsh. Maybe we should talk and see if we can develop a 
communication from the subcommittee to the authorizing 
committees to suggest that it would be a good idea to merge all 
the administrative matters.
    Mr. Hantman. There may be in fact some parallels between 
the Architect of the Capitol's staff, as we serve both sides of 
the Congress. We come before you tomorrow afternoon, and we 
report to you on the issues that impact the House, we then go 
to the Senate and report on the issues impacting the Senate, 
and joint issues are brought to both bodies. But in fact, we 
have one organization to service.
    Mr. Walsh. Perhaps with your fresh perspective on these 
things, you can give us advice on whether or not it would make 
sense to merge the responsibilities. I understand we have an 
HVAC system that we share, we have water we share, we have 
sewer we share, we have a lot of things. Maybe there is an 
opportunity here to get some efficiencies by combining those.
    [A question from Chairman Walsh and responses follows:]

    Question. For the record, please supply all reprogramming 
requests made last year and the disposition of each by the 
appropriations Committees.
    Response. The information follows.

[Pages 226 - 233--The official Committee record contains additional material here.]


    Mr. Walsh. Are there any other questions of the members?
    Thank you very much.

                               ----------

                                        Tuesday, February 11, 1997.

                      CONGRESSIONAL BUDGET OFFICE

                               WITNESSES

JUNE E. O'NEILL, DIRECTOR
JAMES L. BLUM, DEPUTY DIRECTOR
GAIL DEL BALZO, GENERAL COUNSEL
STANLEY L. GREIGG, DIRECTOR, OFFICE OF INTERGOVERNMENTAL RELATIONS
POLLY E. HODGES, BUDGET AND FINANCE OFFICER
DAVID M. DELQUADRO, PERSONNEL OFFICER
MARK G. DESAUTELS, ASSISTANT FOR INTERGOVERNMENTAL RELATIONS
DANIEL F. ZIMMERMAN, CHIEF, SYSTEMS DEVELOPMENT AND RESEARCH UNIT

    Mr. Walsh. We will now call up the 1998 budget request for 
the Congressional Budget Office. Welcome.
    We have with us Dr. June O'Neill, CBO director--welcome, 
Dr. O'Neill. Dr. O'Neill was appointed as the fourth director 
on March 1, 1995. We have also Mr. James Blum, the deputy 
director.
    Welcome to both of you. Before we proceed, let me indicate 
the budget request. CBO is requesting approximately a $25 
million budget for fiscal year 1998. No staffing increases are 
requested. The Budget Office is leading by example, I see.
    Dr. O'Neill, would you like to introduce any other members 
of your staff at this time?
    Ms. O'Neill. Yes. Present today with me are the key people 
who have been working with the budget and administration at the 
Congressional Budget Office (CBO), starting with Dan Zimmerman, 
who heads our computer services area; Dave Delquadro, our 
personnel officer; Polly Hodges, our budget officer; Gail Del 
Balzo, our general counsel; and Stan Greigg, who heads our 
intergovernmental relations unit that contains the personnel 
budget; and Mark Desautels, who does our communications.
    Mr. Walsh. Welcome to the whole team.
    Mr. Cunningham. They are all Irish.
    Mr. Walsh. Be careful.
    Okay, you may proceed with your statement if you would 
like. I believe we all have your statement, if you would like 
to summarize.

                             cbo's mission

    Ms. O'Neill. Mr. Chairman and members of the subcommittee, 
I am very pleased to be here to submit our budget request for 
fiscal year 1998.
    CBO's mission is to provide the Congress with objective, 
timely, and nonpartisan analysis, that is needed for the 
congressional budget process and for economic decisionmaking in 
the Congress.
    CBO does not make policy recommendations, but presents the 
Congress with options and alternatives covering a wide array of 
subjects that have economic and budgetary impacts.

                          new responsibilities

    CBO has had a very busy year. On January 1, 1996, the 
Unfunded Mandates Reform Act took effect. That act set up new 
procedures for alerting the Congress to the potential effects 
of unfunded mandates before they are imposed on state, local, 
and tribal governments. The key to that process is the 
requirement that CBO provide statements to authorizing 
committees about whether reported bills contain mandates, and 
if so, their estimated costs.
    In carrying out those new responsibilities, CBO used an 
estimated 24 work years of staff effort last year. Our 
appropriation for 1996 provided funds for 13 additional staff 
positions, and we reallocated another 11 staff years of efforts 
from other tasks.
    Our original estimate of the mandate work load assumed that 
we would have to prepare analyses of 550 intergovernmental and 
550 private sector mandates annually. In fact, last year we 
transmitted cost estimates of approximately 700 
intergovernmental and 700 private sector mandates to the 
Congress.
    Although it was a strain, we managed to hold approximately 
to the resource level for which we had budgeted.
    CBO has just completed a report analyzing its first year of 
operation under the Unfunded Mandate Act, and I have provided 
copies of the report for the Committee's information.

                           a major new effort

    Another major new effort undertaken by CBO last year was 
that of developing the analytical tools to examine the 
budgetary impacts of the retirement of the baby boom generation 
that will begin around 2010.
    For the past several years, CBO has been comparing 10-year 
budget processes and policies to serve as a benchmark for 
estimating the effects of the policy proposals. A 10-year time 
frame, however, is not sufficient to show the dramatic effects 
on the Federal budget of the projected aging of the U.S. 
population combined with unchecked increases in per capita 
Medicare costs.
    To illustrate those future prospects, CBO needed to prepare 
very long-term budget projections extending as far as 2050. 
CBO's long-term projections show that the Federal deficit will 
begin to mount rapidly after 2010 under current budget policy, 
setting in motion a vicious cycle of rising interest rates, 
slowing economic growth, and further erosion of the budget and 
economic outlook.
    Because the projected escalation in Federal spending will 
be concentrated largely in Medicare and Social Security, CBO 
included a special chapter in its report on options for 
reducing the deficit. That report was issued last August. It 
examined options for limiting the long-term growth of outlays 
for those programs.
    We believe that analysis to be a significant one, and so we 
have extended and updated the work and will publish it this 
spring as a stand-alone report entitled ``Long-Term Budgetary 
Pressures and Policy Options.''

                         line item veto effects

    As in other years, CBO has maintained its normal support of 
the Congressional budget and legislative processes throughout 
the fiscal year. We performed cost estimates for hundreds of 
bills, maintained a steady flow of scorekeeping reports to the 
appropriations committees, and prepared reports and testimony 
on a broad array of topics. Those activities are detailed in my 
prepared statement.
    Also, I should note that CBO has new responsibilities under 
the Line Item Veto Act that began January 1, 1997. Although the 
work required will not be nearly as demanding as that required 
by the Unfunded Mandate Law, each time the President exercises 
his authority under the Line Item Veto Act, CBO is required to 
provide the budget committees with an estimate of the 
reductions in budget authority and outlays stemming from the 
President's action.

                          cbo's budget request

    Now I would like to turn to our budget request for fiscal 
year 1998. In that request, as noted, was $24,995,000, which 
allows for an increase of 1.9 percent, or $463,000, more than 
our fiscal year 1997 appropriation.
    The amount of our request is about half of the 4 percent 
increase that CBO would need to maintain its budget at the 
level of current services. That is taking account of pay and 
benefit increases and other rising costs.
    The requested amount would fund our current staff ceiling 
of 232 full-time equivalent positions, but in order to hold our 
requested increase to 1.9 percent, we would reduce spending on 
automated data processing, printing, and postage by a total of 
$542,000.
    Although CBO should be able to maintain its current work 
load with the funds requested here, I would like to point out 
that the law dealing with unfunded mandates, as well as the 
Congressional Accountability Act, will continue to have a 
significant cost impact on our budget.

                          costs of new duties

    CBO has now had a full year of operation under the Unfunded 
Mandates Act, and the costs of carrying out its 
responsibilities are becoming clearer. Both our fiscal year 
1997 and fiscal year 1998 budgets are based on the assumption 
that the required level of work on mandates will fall somewhat 
after the first year. That is, we have had our year of on-the-
job training. But considering the pace of work on unfunded 
mandates last year, that assumption could prove optimistic.
    Furthermore, a number of legislative proposals have been 
made for expanding the scope of our work on mandates, which 
would cause a significant diversion of resources from our basic 
work.
    As for the Congressional Accountability Act, CBO used an 
estimated two full-time equivalent workers and $320,000 to 
assure compliance in fiscal year 1996. No additional staff or 
funds were provided for that purpose. For fiscal years 1997 and 
1998, we estimate that a similar level of effort will be 
required. That cost is also being absorbed.
    Of course, estimating how much it will cost annually to 
comply with the Act beyond 1996 is extremely difficult.
    Mr. Chairman, no agency is more keenly aware than CBO of 
the Congress's intention to balance the budget and downsize the 
Federal Government, including the legislative branch. However, 
maintaining a strong analytic capability in the Congressional 
Budget Office is essential to achieving those goals.
    Our request is for less than is necessary to maintain our 
budget at its current level of services. It is a prudent budget 
in which we also absorb more than 50 percent of our mandatory 
pay and benefit increases with reductions. We do believe, 
however, that our requested increase of 1.9 percent would allow 
us to continue to serve the Congress at the level it has come 
to expect.
    Thank you. I would be happy to address any questions you 
may have.
    [The information follows:]

[Pages 239 - 271--The official Committee record contains additional material here.]


    Mr. Walsh. Thank you very much for summarizing.
    The request is for a 1.9 percent increase. You said that 
you would be cutting $542,000 below 1997 in other areas. That 
was administrative, data processing, and where?
    Ms. O'Neill. Right. Essentially we would postpone some 
purchases of equipment, and with respect to publishing expenses 
and disseminating expenses, we expect those in 1998 to be lower 
than 1997, simply because 1997 is going to be a very heavy 
year.
    We had to push a lot of the reports that we would have 
ordinarily put out in 1996 into 1997, because we were so 
overwhelmed with work in 1996.
    Mr. Walsh. Well, we asked you to do it; right?
    Ms. O'Neill. That is true.
    Mr. Walsh. Just a couple of policy questions, if I may. In 
the House rules this year, we added a requirement for the Joint 
Committee on Taxation to undertake dynamic scoring of certain 
tax bills. Do you expect a similar requirement for spending 
bills?

                         ``dynamic'' estimates

    Ms. O'Neill. It is very hard to say. I guess if the idea 
gains prominence, we could be asked to do similar types of 
analysis for an education bill or some kind of infrastructure 
bill--highway construction or something of that sort. So it is 
possible.
    But I would like to point out that we have over the years 
provided that type of information for major kinds of 
legislation. We did that for the various health cost 
initiatives that came up in 1993, including the President's 
health care bill that had wide-ranging consequences. We were 
asked to look at these consequences and we did so.
    We did that also for the NAFTA legislation, and we have 
done it for the consequences of budget deficit reduction 
itself. The fiscal dividend that we estimate is the result of 
an estimate that takes account of dynamic feedback effects.
    So we have been working on dynamic estimates, although one 
might not call it by the colorful name of ``dynamic.'' But that 
is essentially what they are.
    Mr. Walsh. I am curious: I know you are the director; I 
don't know how involved you would get in a study like the long-
term budget impact study that you mentioned.
    Other than the obvious impacts of an aging population, my 
generation, on medicare and Social Security, what sorts of 
other interesting impacts, major or minor, did your folks see 
when they did that study--budgetary impacts?

                            a two-sided push

    Ms. O'Neill. The budgetary impacts cover many programs, 
such as Social Security, Medicare, Medicaid, and generally 
services for the elderly.
    In addition to that, on the revenue side, we are benefiting 
from the baby-boom generation, because its members are in their 
prime working years and constitute a large section of the 
taxpaying public. They are going to be moving away from the 
taxpayer situation and becoming retirees. They are followed by 
much smaller population cohorts, so we are simultaneously 
experiencing a dwindling labor force. Thus, we are being faced 
with a two-sided push.
    Mr. Walsh. I was curious about possible construction, 
Federally-funded construction--road construction, airport, 
whatever. This is really difficult identifying, but what other 
sorts of impacts might there be?

                           changes in savings

    Ms. O'Neill. Just generally in the economy, because of the 
demographic change itself, there will be different demands for 
services. Also, compositional changes in the population have an 
effect on savings. The elderly population tends to be 
dissavers, because in retirement they rely on income from their 
accumulated wealth. We will have a much smaller population in 
the working and saving ages, and that, of course, leads to 
economic problems associated with a low savings rate. So we 
will be faced with various economic problems.
    Our dynamic estimates show the effects of population 
changes on the budget deficit, and how you get a vicious cycle. 
Once you start getting accumulated deficits, if nothing is done 
to change any of the policies we would have growing deficits, 
which lead to higher interest rates, and so we start into this 
cycle.
    Those effects of the budget itself would be detrimental to 
the economy.
    Mr. Walsh. We are going to have to deal with this issue of 
entitlement reform sooner than later.

                          the cost of inaction

    Ms. O'Neill. Yes, because it is very difficult to try to do 
something once the population has already reached retirement 
age. Once the problem becomes very obvious to everybody, it is 
going to be very late to do anything about it. The cost and the 
pain of doing something about it at that point will be high.
    Mr. Walsh. It is kind of like trying to save for your kids' 
college education once they get to high school. You can't do 
it.
    Mr. Serrano?
    Mr. Serrano. Thank you, Mr. Chairman. I only have a couple 
of questions.
    I am trying to ask this question in a way that doesn't ask 
you to comment on what happens on the House Floor during 
debate. But I am trying to understand: on the unfunded mandates 
issue, you only act if asked to offer an opinion; you don't 
volunteer information.

                             cbo's mandate

    Ms. O'Neill. It is not a question of volunteering. CBO is 
required by legislation, when a bill is reported out of 
committee, to provide not only an estimate of the budget costs, 
but an estimate of state and local costs; and the state and 
local costs can be subject to a point of order.
    With respect to the private sector, we are also required to 
provide an estimate of the costs of a piece of legislation to 
the private sector.
    Mr. Serrano. This information you put together goes to the 
appropriate committees before we get to the Floor?
    Ms. O'Neill. Yes.
    Mr. Serrano. The reason I am asking this is, and I say this 
with respect and not being sarcastic in any way, but my dear 
colleague and friend, Duke Cunningham, and I got into some 
debate along with Mr. Rohrabacher about identifying 
undocumented children in the schools.
    My argument was that that is an unfunded mandate, because 
it will cost California, according to their school system, 
anywhere from $5 to $15 per child to try to find out who was an 
illegal alien. That did not score any points for me on the 
Floor.
    So what is the procedure by which someone would have said, 
oh, hold it, yes, he is correct, California did say that--and 
New York--said it was $12 to $15 per child?
    I remember when we were having that debate, it was my word 
against his, and he didn't agree, and the bill went on.
    So at what point does someone say no, Serrano, you are 
totally wrong on this, or since you say it is mandated by law 
now, I didn't see anyone saying I was right or wrong at that 
point?
    [Questions from Chairman Walsh and responses follow:]

                           unfunded mandates

    Question. Two years ago, CBO was given additional 
responsibilities to make cost estimates on legislation that 
included unfunded mandates. How many bills have required actual 
cost estimates? How many staff are assigned to this workload?
    Answer. In 1996, CBO transmitted to the Congress 718 
intergovernmental and 673 private-sector mandate cost 
statements. Among the proposals analyzed, 69 contained 
intergovernmental mandates and 91 included private-sector 
mandates. Of those, 11 intergovernmental and 38 private-sector 
mandates had costs exceeding the thresholds established in the 
Unfunded Mandates Reform Act.
    CBO's fiscal year 1997 and fiscal year 1998 budgets assume 
20 work years of staff effort for unfunded mandates work. In 
carrying out its new responsibilities under the Act last year, 
however, CBO used an estimated 24 work years of staff effort. 
As a result, the levels of effort provided by CBO's 1997 and 
1998 budgets could prove too low, although we expect the level 
of effort to fall somewhat after the first year. CBO's 
appropriation for 1996 provided funds for 13 additional staff 
positions, and we reallocated an additional 11 staff years of 
effort from other work. Originally, we estimated that we would 
need 25 work years of staff effort to carry out our new duties, 
based on an assumption that we would have to prepare 550 
intergovernmental and 550 private-sector mandate analyses.
    Question. Before the unfunded mandates workload was 
imposed, CBO did estimates of the costs of the impact of 
legislation on state and local governments. Are you still doing 
those separately, or have you integrated that work with this 
new workload?
    Answer. CBO is no longer separately providing estimates of 
the impact of federal legislation on state and local 
governments, but has integrated that work into its requirements 
under the Unfunded Mandates Reform Act. The Unfunded Mandates 
Reform Act made a number of changes that affected the range and 
the stature of CBO's state and local bill cost estimates. The 
act lowered the threshold for cost estimates of 
intergovernmental mandates to $50 million from $200 million. It 
also established a point of order against a bill if a CBO 
intergovernmental mandate statement is not provided to the 
Congress before a floor vote. Before the enactment of the law, 
CBO's state and local cost estimates were only advisory. 
(Although the Act does not specifically require CBO to analyze 
the cost of mandates in appropriation bills, a point of order 
would lie against legislative provisions in such bills, or 
amendments to such bills, that increase the direct costs of 
intergovernmental mandates, but do not have the appropriate CBO 
statement.)
    Because the act narrowly defines mandates, however, the 
range of CBO's analysis of the impact of a bill on state and 
local governments is more limited than in its previous work. In 
order to be responsive to the needs of federal and state and 
local officials, CBO has typically included more than just the 
required information in its statements about unfunded mandates. 
An example of such additional information would be analysis 
identifying any additional grants conditions contained in a 
bill--which can have a significant impact upon state and local 
government operations--even though such a change would not be 
considered a mandate under the Act.
    Finally, CBO is required, when requested, to assist 
committees by preparing studies of legislative proposals 
containing intergovernmental mandates. As directed by the Act, 
CBO has established several advisory panels of experts on 
intergovernmental mandates and consults with them regularly.
    Question. For the record, provide a staffing and cost 
estimate workload comparison before and after the unfunded 
mandate duties.
    Answer. In fiscal year 1996, CBO used 52 full-time 
equivalent positions to prepare approximately 2,021 cost 
estimates for federal bills and intergovernmental and private 
sector mandates. In fiscal year 1995, the year before the 
Unfunded Mandates Reform Act of 1995 was carried out, CBO used 
28 full-time equivalent positions to prepare 948 federal and 
state and local bill cost estimates.

                           defining a mandate

    Ms. O'Neill. Internally we go through a process of 
determining whether a provision is a mandate or not. We have 
various kinds of rules. We could address that in more detail: 
Jim.
    Mr. Blum. The definition of a mandate in the Unfunded 
Mandates Act is as follows: first, a mandate carries an 
enforceable duty and it has some other subqualifications as 
well.
    A mandate is also related to a specific new legislative 
proposal that is being considered, as opposed to what may 
already exist under Federal or State law.
    So the focus of the analysis that we do on a new Federal 
legislative proposal is, first of all, ``Does this impose a 
Federal mandate?'' And sometimes we find that is not an easy 
question to answer; there are a lot of uncertainties.
    The law itself is not all that specific in giving precise 
guidelines for answering that question; as to whether or not a 
Federal mandate exists.
    We spent a lot of time during that first year just going 
over all the many different proposals that came up. We tried, 
by the end of the year, to have a consistent set of criteria 
that we could apply.
    With respect to the very specific example that you are 
citing, I am afraid I am not familiar with the context.
    Mr. Serrano. Right. I don't want to stay on this subject 
too much, but let me just kind of break it down to you as I see 
it.
    There are obviously situations that are clearly mandates. 
If you say every child in this country must have three 
textbooks on science on their desk, someone could easily get up 
and say, ``Who is going to pay for that?'' You have now 
mandated every local school district--every State--to have 
these three books on their desk.
    But if you say any child who is an undocumented alien 
cannot have access to textbooks, for argument's sake, that 
child has to be identified, and that incurs a cost.
    No one during that debate said that there was information 
from you whether it was or was not an unfunded mandate. I 
suspect that we are going to see more and more of that debate 
as we continue to deal with this whole immigration issue.
    Mr. Blum. Our general counsel just handed me the Unfunded 
Mandate Law, and, as I indicated, the precise definition is 
that it would impose--with certain exceptions--an enforceable 
duty to be funded by State, local, or tribal governments.
    It turns out one of the definitions includes elimination of 
amounts authorized for the control of borders by the Federal 
Government or reimbursement to state, local, or tribal 
governments for the net cost associated with illegal, 
deportable, or excludable aliens, including court mandated, 
census related, and so on.
    Mr. Serrano. Okay.
    Ms. O'Neill. We could look into that and let you know about 
it.
    [Clerk's note.--The following has been supplied for the 
record.]

[Pages 277 - 278--The official Committee record contains additional material here.]


    Mr. Walsh. I certainly don't want to take this time to 
carry on more of those debates, but please understand that this 
is an issue that is not going to go away, and there will be 
many people on one side of the issue who will argue that any 
time you set this up, you have to identify who is not eligible, 
and when you do that, there is a local cost involved.
    Mr. Blum. That is a legitimate concern, and I think we 
could make an effort to provide information about what costs 
there might be.
    Mr. Serrano. One last question. You said that you could 
live or operate with a reduction in equipment.

                         purchase of equipment

    Ms. O'Neill. Just postponing the purchase of new equipment.
    Mr. Serrano. This is in the area of computers?
    Ms. O'Neill. Computer equipment, yes.
    Mr. Serrano. Just curious. Everyone else is saying just the 
opposite, we have to speed into this new age. Are you not 
speeding? Are you there already, or do you just love pencils?
    Ms. O'Neill. We have over the years acquired equipment that 
serves us pretty well right now. We obviously couldn't do this 
indefinitely, but we are able to do it this year.
    Mr. Serrano. It is a great answer.
    Mr. Blum. I might add that we have kept up with the 
computer age. We have kept up with the basic technology, and by 
doing so, we have been able to lower the cost of computers in 
our budget dramatically.
    When you look at the figures over the years, computer costs 
used to be a very significant chunk of our total budget 
resources. Now it is down to less than 10 percent. I think at 
one time it was as high as 25 percent. Furthermore, it has 
actually fallen in nominal dollars. Ten years ago, we were 
spending two or three times the amount of money for which we 
are now budgeted.
    So we have not only been able to keep up with technology, 
but to take advantage of the falling costs to control our own 
budget.
    Mr. Serrano. Thank you.
    Mr. Walsh. Mr. Cunningham.

                      state and local information

    Mr. Cunningham. I hadn't planned on asking any questions, 
but I will ask. Would it help if we asked for a specific 
unfunded mandate, if we provide you with the studies that we 
are taking the statistics from?
    For example, in the debate my colleague was talking about, 
I spoke of California statistics only, not national statistics. 
For example, we have about 400,000 illegals in K through 12 in 
the State of California. Schooling costs around $5,000 a child. 
Simple math tells you that it amounts to about $2 billion a 
year in unfunded mandates.
    The Gallegly amendment that we were discussing, though, 
gave the States the right to handle their own education 
programs. We were trying to not make it an unfunded mandate.
    We also used statistics from our penal system at various 
times when we deport felons. There are normally about 18,000 to 
22,000 illegals just in California prisons. That is documented. 
The point being if we ask you something and we have ready 
statistics based on science, would you like us to provide those 
to you, or do you just go out and collect them?
    Ms. O'Neill. We do have a group that devotes its time to 
state and local issues, and they have contact points in the 
various states. I guess it always helps to have additional 
information.
    Mr. Blum. We would make our own independent verification, 
but, yes, it would be helpful.
    Mr. Cunningham. I would expect that.
    I was very careful during that debate not to dispute 
national statistics, because I didn't know them. But I did know 
from various studies in California statistics.
    Mr. Serrano. You know the headline: ``CBO Skewed By 
Cunningham.''
    Ms. O'Neill. I can send you a note with the names of the 
people who would be directly concerned about this at CBO. Maybe 
your staff could contact them.
    Mr. Cunningham. It will be another issue this year, and I 
will be happy to provide direct studies that will help you to 
help us.
    Ms. Del Balzo. We do add a section in our cost estimates of 
unfunded mandates that is entitled, ``Other Impacts on State, 
Local and Tribal Governments.'' Even though the cost might not 
fall within the strict limits of the definition of the term 
``unfunded mandates,'' we try to provide information to the 
Congress if there is other information out there about costs.
    Mr. Serrano. It is important, what Mr. Cunningham said. 
Maybe you should consider, as you said before, just opening up 
this whole area, because this is going to be more and more a 
point of dispute. As we set out to reform our immigration 
system and to deal with undocumented people who are already 
here in this country, it will require, in my opinion and the 
opinion of many people, checking people's status, and bills 
that require that, directly or indirectly, could be considered 
unfunded mandates. Certainly checking status requires local 
costs. Maybe that is something we should really concentrate on, 
the fact that is going to be coming up more and more every day.
    Mr. Blum. We hear you.
    Ms. O'Neill. The issues concerning unfunded mandates and 
the determinations of what is or isn't, as well as what the 
costs will be, can be extraordinarily complicated, which is one 
of the reasons that we always say that we are somewhat uneasy 
as to whether we can handle it with our current level of 
resources. We are never totally certain, because it could 
become very complicated and absorb a lot of CBO staff.
    Mr. Blum. If I may, Dr. O'Neill referred to this as a 
document to be made available. This is for information only, 
and not for the record. I think it would be particularly 
helpful.
    It is our experience with the Unfunded Mandates Act for 
that first year. It gives you a full explanation of how we view 
the way it works, what we did, and the kinds of issues we had 
to grapple with.
    Mr. Serrano. You never determined that profound comment 
that the Constitution was an unfunded mandate?
    Mr. Walsh. Since I opened this up to broader issues, I will 
just do it once more. The President, as I understand it, has 
agreed to accept CBO's scoring of his budget when we get to the 
final negotiations between the Congress and the President. You 
did an analysis of the President's budget. Can you tell us in 
general terms how that differed from the OMB?

                   analysis of the President's budget

    Ms. O'Neill. We haven't completed our analysis of the 
President's budget. We will actually be finished in a few 
weeks. We do have a preliminary assessment--just the overall 
number--and by the year 2002, we show about a $50 billion 
higher deficit.
    Mr. Walsh. That is an accumulated number? That is in 2002 a 
$50 billion?
    Mr. Walsh. No, that is just in the year 2002.
    Mr. Walsh. OMB shows it as balanced?
    Ms. O'Neill. OMB projects a slight surplus.
    Mr. Walsh. There is a $50 billion difference, basically.
    Mr. Blum. It is actually more than $50 billion in terms of 
starting points. But since they show a $17 billion surplus, 
there is some room in terms of reaching a balance in the year 
2002. The projection points out the differences in our 
comparable baselines or starting points for analyzing the 
policy changes. It is something on the order of $66 billion. So 
if you take away the $17 billion surplus in the President's 
budget, that leaves roughly a $50 billion hole that would have 
to be filled under CBO's economic and other estimating 
assumptions.
    That is before we have actually analyzed the effects of the 
President's policy proposals. Traditionally, we do differ to 
some extent with the Administration in pricing out the effect 
of their policies. For example, in reducing Medicare costs or 
other changes in current law it might add to the size of the 
hole by the year 2002.
    Mr. Walsh. Is the difference primarily on the spending side 
or the revenue estimate side?
    Ms. O'Neill. The baseline differences are primarily on the 
revenue side.
    Mr. Blum. They are actually evenly divided almost.
    Ms. O'Neill. Oh. Okay. I stand corrected.
    Mr. Blum. Let me give you a table, Mr. Chairman, that 
compares the baselines for CBO and OMB.

                         CBO and OMB baselines

    Ms. O'Neill. That is right, our Medicare and Medicaid 
baselines are the same. I was confused for a moment. But Social 
Security would show a difference, because we assume a somewhat 
higher growth rate in inflation, in the Consumer Price Index. 
Thus, our cost-of-living adjustment would be higher than 
theirs.
    Mr. Blum. All of the differences here can be explained by 
the differences in our economic assumptions, even though--when 
you look at the very first table in the packet that I gave 
you--it compares the basic economic assumptions for the 
Administration and CBO, and a lot of those are quite small in 
the realm of economic forecasts. They do loom large in terms of 
what the budgetary impact can be, and they would more than 
explain the differences in our two baselines or starting points 
for budget planning.
    The last page of this is just a summary of the policy 
changes that the President's budget proposed. Those are all 
OMB-Administration numbers. It is those numbers that we will be 
concentrating on in our own analysis over the next several 
weeks to see if we can come up with approximately the same 
numbers or identify what differences we might have about the 
impact of the policy proposals.
    Mr. Walsh. Any other questions?
    [Questions from Chairman Walsh and responses follow:]

                     Legislative Information System

    Question. To what extent is CBO contributing to the 
development of the legislative information system being worked 
on by CRS, the Clerk of House and others?
    Answer. CBO is closely coordinating its efforts to enhance 
the electronic distribution of its products with those who are 
developing the Legislative Information System (LIS) for the 
Congress. A committee from CBO composed of representatives of 
its information systems unit and the legislative branch 
interagency coordination group has met with the technical staff 
of the legislative branch who are developing LIS, as well as 
with the appropriate representatives from our sister 
legislative branch agencies. That coordination will ensure that 
the electronic distribution of CBO's products will be fully 
integrated with the LIS when both systems are completed.
    Question.  What CBO reports and other products will be 
added to the information system? Will these be available for 
the House and Senate computers to access from our desktops? 
Will there be public access?
    Answer. By the end of the current fiscal year, we hope to 
have all of CBO's work products available electronically. As 
with CBO products that are currently available electronically, 
distribution will be via the Internet. Following the 
appropriate Congressional distribution, and in keeping with its 
legislative mandate, CBO will make all of its products 
available to the public.

     projected legislative bill contributions to a balanced budget

    Question. As you know, during the last two years, 
legislative branch spending has been reduced by about $248 
million (outlay basis). We calculated that a similar and 
proportionate reduction applied to the entire federal budget 
would yield a balanced federal budget.
    Would you perform an analysis of that for us, using the 
entire federal budget as the base--not just the discretionary 
portion of the budget. In other words, has the legislative 
branch budget contributed its fair share to the goal of 
balancing the budget by the year 2002?
    Also, what level of spending could the 1998 legislative 
appropriations bill support and still be consistent with the 
overall balanced budget goal? Please work with our staff on 
that.
    Answer. The $248 million reduction in legislative branch 
outlays during the last two years is derived from CBO 
scorekeeping tabulations of actions by the 104th Congress on 
non-emergency discretionary appropriations. As shown in the 
attached table, estimated legislative branch outlays for fiscal 
year 1995 at the end of the 103rd Congress were $2,380 million. 
Estimated outlays for fiscal year 1997 at the end of the 104th 
Congress were $2,132 million, or $248 million less than for 
1995. This represents a 10.4 percent reduction and is the 
largest percentage reduction in outlays among all of the 
appropriation subcommittees.
    One way of judging the relative size of the reduction in 
legislative branch outlays is to compare it to the reduction 
that would have been required in all outlays in order to have a 
balanced budget in 1997. Total outlays in fiscal year 1995 were 
$1,516 billion. Total revenues for 1997 under current laws are 
estimated to be $1,507 billion. If total outlays could have 
been reduced by just $9 billion between 1995 and 1997, or by 
0.6 percent, the budget would be balanced in 1997. Thus, it 
could be said that the reduction in legislative branch outlays 
was more than necessary to achieve budgetary balance if other 
outlays had been reduced from 1995 levels by less than 1 
percent.
    Looking ahead to 2002, revenues are projected to increase 
to $1,871 billion, an increase of 24 percent from the estimated 
1997 level, or an average annual increase of 4.4 percent. To 
reach balance in 2002, the growth in total outlays would have 
to be constrained to an average annual increase of 2.8 percent. 
If all outlays were similarly constrained, legislative branch 
outlays could increase over the next five years and be 
consistent with the balanced budget goal. The amount of 
increase would depend on what actions are taken to constrain 
other outlays. Also, if tax cuts are included in the budget 
plan for achieving balance by 2002, the growth in total outlays 
would have to be reduced further.

[Page 284--The official Committee record contains additional material here.]


                         Reprogramming Requests

    Question. For the record, please supply all reprogrammings 
requested last year, and their disposition.
    Answer. CBO made no requests to reprogram funds in fiscal 
year 1996.

    Mr. Walsh. All right. Thank you very much. It is nice to 
have you with us today.
    Dr. O'Neill. Mr. Serrano, I believe that I grew up in a 
district that must have been adjacent to yours, because I grew 
up in the Bronx. On 182nd Street, between Jerome and the 
university.
    Mr. Serrano. That is mine.
    Dr. O'Neill. I went to PS-91.
    Mr. Serrano. The Architect also grew up in our district. We 
are two for two today.
    Mr. Latham. Mr. Greigg here is a former Member from my 
district. And also the former mayor of Sioux City, which is the 
biggest town in my district.
    Mr. Greigg. Thank you, Congressman.
    Mr. Latham. I am not sure if that is good or bad.
    Mr. Walsh. I don't represent any of my constituents here.
    Mr. Greigg. The Congressman represents 30 districts. When I 
was here, I represented 18.

                               ----------

                                        Tuesday, February 11, 1997.

                          OFFICE OF COMPLIANCE

                               WITNESSES

VIRGINIA SEITZ, MEMBER, BOARD OF DIRECTORS
RICKY SILBERMAN, EXECUTIVE DIRECTOR
DENNIS DUFFY, GENERAL COUNSEL
JAMES STEPHENS, DEPUTY EXECUTIVE DIRECTOR FOR THE HOUSE
PAM TALKIN, DEPUTY EXECUTIVE DIRECTOR FOR THE SENATE
BETH HUGHES-BROWN, BUDGET OFFICER
ELIZABETH HACK, DEPUTY GENERAL COUNSEL

    Mr. Walsh. Now we will take up the budget submission of the 
Office of Compliance. This office was established by the 
Congressional Accountability Act of 1995. We have with us today 
Executive Director Mrs. Ricky Silberman, welcome, and some of 
her staff members. There is also a five member part-time Board 
of Directors. The Chairman of the board is Mr. Glen Nager--am I 
pronouncing that correctly?--a Washington attorney at law. Mr. 
Nager has notified the subcommittee he will not be in 
attendance today.
    Did he send a board member to pinch hit?
    Ms. Seitz. Virginia Seitz. Good morning.

                             budget request

    Mr. Walsh. The fiscal year 1997 appropriations bill 
provided $2,609,000 to this office. The budget before us is 
$2,600,000. This includes a staffing level of 19 full-time 
equivalent positions.
    Madam Director, your budget has been printed in part one 
and given to the Members of the subcommittee. Your statement 
has been given to the Members. If you would like to introduce 
any other members of your staff, please do so, and then please 
give us your statement or summarize for the record.
    Ms. Silberman. Thank you very much.
    As my statement will detail, we have four statutory 
appointees under the CAA. With us today are Dennis Duffy, who 
is the General Counsel, Pam Talkin, the Deputy Director for the 
Senate, and Jim Stephens, the Deputy Director for the House, 
and also our Budget Officer, Beth Brown, and Elizabeth Hack, 
our Deputy General Counsel.
    Mr. Walsh. We are delighted to have you.
    Ms. Silberman. I think we are going to begin with Board 
Member Seitz, who is going to read Mr. Nager's very short 
statement.

                 Statement of the Chairman of the Board

    Ms. Seitz. As a member of the Board of Directors of the 
Office of Compliance, we thank you for the opportunity to join 
Ricky Silberman, Executive Director, in testifying in support 
of the fiscal year 1998 budget request.
    A year ago when we appeared before this subcommittee, the 
office had only just officially opened, and we noted then the 
invaluable assistance given to this agency by your staff, and 
we would again like to express our appreciation, particularly 
to Ed Lombard and Tom Martin, for their help and support 
throughout the year to the Executive Director and to Beth 
Brown, our Budget Officer.
    Last year, Glen Nager testified that his most important 
responsibility as the Chair of the Board had been to recruit 
the very talented group of individuals who lead the office. In 
introducing the four statutory appointees to the committee, he 
paid tribute to the remarkable job they had done in six short 
months under very difficult circumstances.
    The year that has followed has proved no less challenging. 
The considerable accomplishments of the full first year of 
operations are described in detail in our written testimony. 
But I would like to take this opportunity to point out that 
this record is all the more remarkable considering it was 
accomplished with less than two-thirds of the resources and 
people that we had projected would be necessary in the early 
discussions held with the staff of the Senate and the House 
leadership, as well as with the two appropriations committees. 
The Office's fiscal year 1998 appropriation request is again 
based on the FTE total of 19 employees, including the 4 
statutory appointees, far below the 30 originally discussed.
    This coming year marks an important change of focus for the 
Board of Directors. Up until now the Board, which, again, is 
composed of five lawyers experienced in labor and employment 
law who serve on a part-time basis, has spent the lion's share 
of its time on rulemaking.
    As of December 31, 1996, all of the regulations mandated by 
the CAA have now been adopted and are either in place or are 
awaiting Congressional approval. With that important initial 
phase completed, the Board can now turn to its core function, 
which is adjudication.
    Several appeals are now pending before the Board, and we 
would like to thank the Chairman and the committee for 
providing theslot in last year's budget for a solicitor for the 
Board. Our new solicitor has been at work since the middle of 
November, and with her able assistance, we look forward to 
providing a prompt resolution of these appeals and any other 
appeals that come before us.
    Now I will turn it over to Ricky Silberman, Executive 
Director.
    [The information follows:]

[Page 290--The official Committee record contains additional material here.]


                       Ms. Silberman's Statement

    Ms. Silberman. It is a pleasure to again be here and echo 
the words of our Chair in thanking this committee and its 
staff, particularly Ed Lombard and Tom Martin, for their 
support.
    The Congressional Accountability Act of 1995 applies for 
the first time 11 labor and employment laws to the legislative 
branch. To implement, administer, and enforce the CAA, Congress 
created the Office of Compliance, a unique administrative 
agency with a unique structure and responsibilities. And today 
I would like to just briefly summarize how the work of the 
Office and the Board has been organized in order to fulfill the 
important promises of the CAA.
    First, let me turn to the Board and thank Virginia Seitz 
for pinch-hitting for Glen Nager, the Chair of the Board. 
Member Seitz and Chair Nager and their three colleagues serve 
on a part-time basis and were appointed by the bipartisan 
leadership of both Houses of Congress.
    Under the CAA, this Board, composed of five experienced 
labor and employment lawyers, has responsibility for 
promulgating regulations, conducting mandated studies and 
reports, considering adjudicative appeals arising from 
complaints filed under the CAA, and other specifically 
statutorily designated decisions.
    The CAA assigns operational responsibilities to 
fourstatutory officers who were appointed by the Chair, as I indicated 
earlier, the General Counsel and the Deputies for the House and the 
Senate, and the four of us, together, are responsible for, among other 
things under the statute, the alternative dispute resolution and 
adjudicative systems, the education and information function, the 
liaison with the House and Senate, and developing recommendations to 
the Board for substantive regulations. Additionally, the CAA assigns 
responsibility to the Executive Director for promulgating procedural 
regulations and to the General Counsel for the inspection and 
prosecutorial functions arising under OSHA, ADA, and the labor 
management relations section of the CAA.
    Thus, Congress has assigned certain responsibilities to the 
Board, certain responsibilities to the Executive Director, and 
certain responsibilities to the General Counsel. One of the 
great challenges in organizing and staffing this Office has 
been to keep those functions and responsibilities separate 
which the statute and principles of constitutional and 
administrative law deem must be kept separate, while at the 
same time maintaining the flexibility to get the job done with 
as few full-time staff as possible.
    In this respect, let me follow up on just one point made by 
the Chair. Although the Office is operating with far fewer 
people than originally thought necessary, we have promulgated 
hundreds of pages of regulations, researched and written 
reports and studies, developed and disseminated voluminous 
educational materials, and have met every statutory obligation 
imposed by the CAA in a timely manner. This record is possible 
because both the General Counsel and I have recruited and hired 
staff who not only have the requisite qualifications, but also 
the talent and versatility to perform the various functions 
mandated by the CAA.
    Thus, the Chair and his four dedicated colleagues on the 
Board, serving on a part-time basis, the four statutory 
appointees and the staff of 15, have worked superbly together, 
while at the same time being mindful that the statute requires 
the complete separation of the alternative dispute resolution, 
adjudication, and prosecutorial functions.
    I should add here that the decision to outsource mediators 
and hearing officers was based on these principles of 
separation, cost-effectiveness, as well as the necessity of 
having their great expertise and experience available to us on 
an as-needed basis.
    Our written testimony describes these functions and 
accomplishments in detail, but I just want to give you a brief 
snapshot of how well the alternative dispute resolution and 
adjudicative systems, the core functions of the office which 
went into effect on January 23, 1996, are working.
    During the period between January 23 and December 31, the 
office received some 1,600 requests for information, either by 
phone or from people walking in. Now, the vast majority of 
these inquiries did, the people who made these inquiries, did 
not find it necessary to go very far further in the process. As 
of December 31, only 95 formal requests for counseling were 
filed.
    You should understand that we mark the beginning of a case 
by when a formal request is filed. Most of these were resolved 
satisfactorily before a request for mediation was entertained. 
We only had 14 subsequent requests for mediation filed. Eight 
of these resulted in signed settlements, and pursuant to the 
CAA, as Executive Director, I approved two monetary settlements 
for a total of $19,200. (Those settlements were with employing 
offices of the House, and pursuant to House rules, the House 
Oversight Committee approved those settlements.)
    In short, of the 95 actual cases filed during this period, 
nearly half were resolved early in the process. Four hearings 
involving a total of 14 cases were held by hearing officers 
drawn from a roster of retired and senior status judges in the 
District of Columbia. All four are now on appeal before the 
Board, and as indicated in the Chair's testimony, we expect 
that the appeals process will move forward expeditiously.
    The education and information program continues to fulfill 
the foundational CAA principle that a well-informed and 
regulated community ensures compliance in the most cost-
effective way.
    We are grateful to the House Oversight Committee and others 
in the House for their cooperation in ensuring the timely 
dissemination of materials and for facilitating the inspections 
for compliance with OSHA and the ADA mandated in the CAA. 
Copies of those reports, as well as the two studies which were 
submitted to Congress pursuant to sections 102(b) and 230 are 
attached to our written testimony, and I would like at this 
time to submit them for the record as well as our statements 
this morning.
    General Counsel Duffy, Member Seitz and I are here to 
answer your questions.
    Mr. Walsh. Thank you very much.
    [The information follows:]

[Pages 293 - 305--The official Committee record contains additional material here.]


    Mr. Walsh. Is there anyone else who needs to make a 
statement at this time?
    Ms. Silberman. No.

                           board of directors

    Mr. Walsh. Thank you for your testimony.
    Let me just ask a couple of questions that occurred to me 
along the way. The Board, the five-member Board, your primary 
role initially was to get this department set up, choose the 
people, get them in place; is that correct?
    Ms. Seitz. The four statutory appointees are appointed 
actually by the Chair with the approval of the rest of the 
Board. That was our first task, and, indeed, we took that on 
right away. Then we began the regulation writing process.
    Mr. Walsh. Is that complete?
    Ms. Seitz. The regulation writing process is now complete.
    Mr. Walsh. So your role now, is it to participate in the 
arbitration of these cases? Do you have a role there or not?
    Ms. Seitz. We are essentially the appellate body.
    Mr. Walsh. So after they see the hearing officer?
    Ms. Seitz. Yes. Appeals from the decisions of the hearing 
officer come up to the Board. Decisions of ours are appealable 
in turn to the Federal circuit.
    Mr. Walsh. At what point do you personally intervene, Ms. 
Silberman?
    Ms. Silberman. I personally only intervene by appointing a 
hearing officer and by approving any settlements which are 
entered into. Also, as the chief operating officer, I oversee 
the entire operation.
    Mr. Walsh. So your role is primarily the operational 
officer of the department?
    Ms. Silberman. That is correct. I also have other 
decisional responsibilities. As I mentioned, the procedural 
rules are promulgated by me and approved by the Board, but 
generally my authority is in operational matters. It is 
certainly not policy-making.
    Mr. Walsh. I am just trying to envision the whittling 
process. You probably had a lot of initial calls from people 
trying to find out what the idea of compliance was, so a lot of 
calls from Member offices, committee staffs and so on, trying 
to figure out how to comply?

                       dispute resolution process

    Ms. Silberman. That is correct. The vast majority of the 
calls that we got, of the 1,600 calls that we have logged in, 
are requests for how to comply, requests on the part of 
employees as to what their rights might be. As I say, of those, 
there were only 95 formal requests for counseling. These calls 
are taken by trained counselors.
    Mr. Walsh. Those are taken--once they are realized they are 
going to require additional attention, the person that handles 
that call passes it on to the counselor?
    Ms. Silberman. All of the calls are taken by a 
trainedcounselor. A receptionist logs them in and they are passed on to 
a counselor, with the exception of those calls regarding OSHA, ADA, or 
the General Counsel's operation.
    The counselor spends time talking, finding out what the 
situation is, trying to resolve the situation at the earliest 
time--if there is a possible dispute, at the earliest possible 
point. After the formal request for counseling, and after 30 
days of counseling, they receive a notice of a closing of the 
counseling period, and they then have 15 days to request 
mediation.
    At that point, I call a mediator, and we have found it is 
both enormously cost effective and effective in every other way 
to use mediators that are not on full-time staff at the office, 
and we have used an organization called the Center for Dispute 
Settlement as a first matter, and that is because these are the 
people that have the most experience with both Federal sector 
mediation, as well as employment discrimination mediation.
    They have a large roster of mediators, and I worked closely 
with them when I was vice chairman of the EEOC and we were 
trying to set up our alternative dispute resolution process 
there.
    Mr. Walsh. You have a contractual relationship with them 
and they provide you with these hearing officers?
    Ms. Silberman. They provide us with mediators.
    Again, of the 14 requests for mediation, 8 were settled to 
the mutual satisfaction of both parties. It is hard to describe 
cases in specific numerical terms, because we have different 
stopping off places. For instance, we can use the end of the 
fiscal year, or the end of the calendar year, our first year in 
existence. But it has been my experience that the process is 
working extremely well.
    One of the reasons I think the process is working as well 
as it has, and one of the things that I think that you all 
would be interested in is that we have had complete, as the CAA 
requires, complete confidentiality in all of these proceedings 
and matters under the CAA. There have been no press reports, 
there have been no reports of any matter, other than in terms 
of statistics, and that is something we have felt all along is 
a responsibility that the Congress has imposed on us that is an 
extraordinary serious one. Both our mediators and hearing 
officers, as part of our contractual arrangement, sign very 
stringent confidentiality agreements.
    Mr. Walsh. The five-member Board, then, would hear those 
remaining cases that hadn't been resolved though the mutual 
agreement of the two parties.
    Ms. Seitz. First, there would actually be a hearing before 
an administrative law judge. These are the retired judges that 
Ricky referred to, the former D.C. Superior Court judges, most 
of them, conducting hearings and taking evidence and issuing a 
decision. If the employing office or the party decides to 
appeal that decision, then the case comes up to the board.
    Mr. Walsh. That is the last resort?
    Ms. Seitz. Not the last resort, because if either the 
employing office or plaintiff are dissatisfied with what the 
Board does, they may appeal and turn to the Federal Circuit 
Court.
    Ms. Silberman. I should add, Mr. Chairman, that employees 
also have the option of going directly to Federal Court, 
instead of to the Office, for a hearing. The CAA gives them the 
option of going to Federal Court after the mediation period 
closes. First, however, they must engage in counseling and 
mediation.
    Mr. Walsh. What are the majority of these cases, if you 
could say? Or are they diverse?
    Ms. Silberman. They are diverse. They range across the 
board. The statistics are somewhat skewed because of a one-time 
matter in which we had several cases right at the beginning 
that fell under one statute. That is probably not going to 
happen again. We have a few discrimination cases, a few FLSA 
cases.
    Mr. Walsh. FLSA?
    Ms. Silberman. Fair Labor Standards Act, wage and hour 
cases. We have a couple under the ADA. Actually, more than a 
couple under the ADA. They run across the board.
    It is interesting that the requests for information that we 
are getting show a very even pattern that, as complicated as 
this law is, and these are 11 rather diverse statutes in many 
ways, as complicated as this law is, the questions we are 
getting really do pretty much run across the board.
    But I must say the Congress in general, and I think that 
this is shown in the statistics, is reacting very well to being 
a regulated community for the first time. Everybody is trying 
very hard to comply. We have been very pleased with the 
reaction.
    [Questions from Chairman Walsh and responses follow:]

    Question. How long does it take to process a case?
    Response. This depends on the stage at which the case is 
resolved.
    The counseling period is 30 days.
    A covered employee may request mediation any time within 15 
days after receipt of notice of the end of counseling. 
(30+15=45)
    The period for mediation is 30 days, but this may be 
extended by the Executive Director if jointly requested by the 
parties. (It has been extended more frequently than not, in our 
experience.) (45+30=75)
    If mediation ends without a satisfactory resolution, a 
complaint may be filed with our Office or a claim may be filed 
in federal court within 30-90 days after the complainant's 
receipt of notification of the end of mediation. (75+30 
[90]=105 [165])
    The Executive Director will appoint a Hearing Officer who 
will hold a confidential hearing within 60 days. This may be 
extended to 90 days by the Executive Director for good cause. 
(105 [165]+60=165 [225])
    The hearing may take any length of time. Assuming 5 days. 
(165 [225]+5=170 [230])
    The Hearing Officer's decision must be rendered within 90 
days of the end of the hearing. (170 [230]+90=260 [320])
    The case may then be appealed to the Board of Directors 
within 30 days of receipt of the Hearing Officer's decision.
    Thus, a case which is not resolved at one of the earlier 
stages will take approximately nine months to a year to reach 
the appeals stage. This is borne out by the fact that the 
Office began accepting counseling requests approximately one 
year ago, and the earliest cases filed with the Office have 
only just been appealed to the Board. The Board is currently 
establishing its own internal processes and guidelines to 
assure that appeals are handled expeditiously, as contemplated 
by the CAA.
    Question. How much staff time is spent on each type of 
case?
    Response. The breakdown of support staff hours per case or 
type of case is difficult, as cases were resolved at different 
stages of the dispute resolution process and varied greatly in 
the amount of staff time required. For purposes of case 
management, a ``case'' is defined in Office of Compliance 
parlance as starting at the point when a formal request for 
counseling is filed.
    In addition to professional staff time, large portions of 
support staff time were devoted to setting up a filing system, 
writing letters of notification, serving documents, and, once 
the hearings commenced, serving as part-time hearing clerk, all 
functions that supported the caseload in general. Managers' 
time spent training counselors, and supervising and coaching 
both counselors and support staff is also attributable to the 
general caseload.
    In 1996, roughly half of three counselors' time was devoted 
to disseminating information to over 1600 employees, employing 
offices, media, and other interested parties, and to counseling 
the 95 individuals who requested formal counseling. In 
addition, staff counselors dedicated major portions of their 
time to other duties including regulations writing, and 
researching and writing portions of the section 230 and section 
102(b) studies.
    Question. Do you spend more resources on specific employee 
cases or on more general information and building inspection 
activities?
    Response. In FY 1996, more resources were spent on 
providing general information, building inspection, and other 
activities of the Office than were spent on specific cases.
    FY 1996 was an atypical year in many ways. As I have 
discussed in my earlier testimony, employees could not file 
formal requests for counseling until January 23, 1996, when the 
CAA took effect. The time requirements of each stage of case 
processing resulted in few claimants completing the counseling, 
mediation, and hearing ``cycle'' in the months we were 
operational in FY 1996. Costs for the mediation and hearing 
processes were thus minimal.
    In FY 1996, we estimate that upwards of one million dollars 
were spent on the mandated education and information function, 
the conduct of studies, ADA and OSH inspections, the 
preparation of regulations under the CAA for Congress' 
approval, and requests for information from covered employees, 
employing offices, the media, etc. Far less was directly 
attributable to filed cases.
    Dissemination of information is a core function of the 
Office, whether it is through our formal education and 
information program itself, or responses to parties who call 
the Office requesting information on the CAA and the laws it 
applies. Many potential claimants who are fully apprised of 
their rights and responsibilities under the CAA at early stages 
do not go forward to file requests for counseling. Moreover, 
employing offices requested information to enable them to 
comply with their responsibilities under the CAA.
    Question. For the record, provide a comprehensive list of 
these workload activities, and the estimated staffing time 
expended for each.
    Response. Workload activities include the following, with 
estimates of the amount of staff time that will be allocated to 
each activity in FY 1998. (Please note that Office of 
Compliance staff members are required to fulfill multiple 
functions.)

Studies...........................................................     1
Education & Information...........................................   2.5
Inspections/Reports...............................................     3
Regulation Promulgation...........................................    .5
Requests for Information..........................................     3
Counseling........................................................     1
Mediation.........................................................    .5
Hearings..........................................................     1
Appeals...........................................................   1.5
Administrative/Financial/Clerical.................................     5

    Question. The Office of Compliance was tasked to study the 
application of employment and labor laws to the General 
Accounting Office, the Government Printing Office, and the 
Library of Congress. We understand that study is now complete 
and would like a brief summary of the results.
    Response. Section 230 of the Congressional Accountability 
Act required the Board to study the applications of labor and 
employment laws at the General Accounting Office, the 
Government Printing Office, and the Library of Congress. 
Section 230 required the study to evaluate whether the rights, 
protections, and procedures at the instrumentalities are 
``comprehensive and effective.'' The Board evaluated the 
agencies by analyzing whether the rights, protections, and 
procedures afforded their employees are as comprehensive and 
effective as those at Congressional offices pursuant to the 
CAA. Some general conclusions follow:
    The Board concluded that, in general, the rights and 
protections afforded employees of the three agencies are both 
comprehensive and effective. Some gaps remain, however, and 
will continue even after the CAA extends additional coverage at 
GAO and the Library of Congress as of December 30, 1997.
    Some of the instrumentalities' employees enjoy certain 
civil service protections outside the scope of the CAA. 
However, at GPO, neither the Worker Adjustment and Notification 
Act nor the Employee Polygraph Protection Act applies.
    Due to the multiplicity of procedural processes in effect 
at the three instrumentalities, some employees have more 
procedural options than Congressional employees, and others 
have fewer. For example, Library of Congress employees may 
pursue a complaint of discrimination through procedures 
administered by the Library, but they have not right to appeal 
administratively, to either the EEOC or the Office of 
Compliance. In addition, in the area of occupational safety and 
health, GPO is not subject to inspection and enforcement by any 
outside agency or office.
    Jury trials are not available to employees of the 
instrumentalities to the same extent as employees covered under 
the CAA. In addition, although GPO employees have rights and 
administrative remedies, they have little in the way of 
judicial remedies under two laws--the Family and Medical Leave 
Act, and the Uniformed Services Employment and Reemployment 
Rights Act.
    GAO has statutory latitude to issue regulations 
establishing, and limiting, substantive rights of its employees 
in certain areas, including labor-management relations.
    Question. Also, your budget mentions reimbursing the 
Library of Congress for cleaning, security, and manual labor. 
How much is in this budget to reimburse the Library of Congress 
for such services?
    Response. With regard to manual labor, the Interagency 
Agreement (IAG) between the Office and the Library reads as 
follows:
    ``The Office of Compliance may request manual labor on an 
as needed basis. These services will be reimbursed to [the 
Library's] Integrated Support Services based on the applicable 
Wage-Grade rate. . . .
    ``The Office of Compliance shall provide the Library with 
an annual reimbursement . . . for the services described above. 
In addition, the Office shall provide reimbursement to the 
Library for any manual labor services requested.''
    We believe that this arrangement is a very cost effective 
means for the Office to fulfill the need for intermittent 
manual labor. We have requested $3,000 for this purpose in the 
FY 1998 budget request.
    With regard to building security, the Library is charging 
an overhead rate of 21.4 percent of the direct expenses for 
services delineated in the smaller of the two IAG's we have 
entered into with the Library. (We have two IAG's, one for 
purely administrative purposes, in the amount of $9,888. For 
the second IAG, which is for payroll, accounting and 
disbursement services in the amount of $30,000, the Library is 
charging no overhead.) Thus, we are paying approximately $1740 
for building security this year, and have projected the same 
amount in FY 1998.
    The Office is also paying for custodial services at a cost 
of $4,500 per year, based on the square footage we occupy, and 
mail delivery at a cost of $1,325 per year. The same amounts 
have been requested in FY 1998.

                  review of capitol complex buildings

    Mr. Walsh. Good.
    There is one item in your budget for an architectural 
consultant, $15,000. Why couldn't you go see the Architect of 
the Capitol on that?
    Ms. Silberman. I am going to turn that over to General 
Counsel, Mr. Duffy.
    Mr. Walsh. He does have some expertise, I am told.
    Mr. Duffy. Well, the problem is, quite simply, in the case 
of an occupational safety and health complaint that involves 
the services of an industrial hygienist. There may be disputes 
about the Architect of the Capitol, who is technically a 
defendant during that investigation. There is some dispute. I 
have to satisfy myself independently that the problem that the 
Architect of the Capitol says isn't there, is or isn't there. 
It is like the old saying, trust everyone, but cut the cards. 
It may be that there is not a problem, but independently I have 
an obligation to determine whether, in fact, there is a safety 
and health hazard.
    Mr. Walsh. So this is a function or a requirement for 
evidence that you would need to go outside and get a nonbiased 
opinion on?
    Mr. Duffy. Yes. Actually, it is more of a fail-safe. It is 
not that we actually contemplate that this is going to happen. 
For the most part we have been having quite a bit of 
cooperation with the Architect of the Capitol, and in the few 
matters we are currently involved in, there hasn't been much in 
the way of disputes about the evidence, if you will.
    But essentially over the course of a year, it is entirely 
possible that we might get into a situation where bringing in 
an independent industrial hygienist might be necessary. It 
might be possible, and I am going to be meeting with the 
Architect of the Capitol on this issue, but in some cases the 
Architect may bring in a third party or independent IH and 
actually pay for it out of their budget. But this is more a 
potential, rather than something that we actually expect to use 
on a regular basis.
    Mr. Walsh. Your office inspected the Capitol and all the 
office buildings for compliance with OSHA and ADA. Can you give 
us an idea of how that analysis came out and for the record 
provide us with a summary of the status of the buildings?
    Mr. Duffy. Yes.
    As I understand, the actual reports have been earlier 
submitted as part of the record. I will try to summarize 
briefly the major findings of both inspections.
    As you know, the law requires me to inspect on a regular 
basis, and at least once every Congress, all of the facilities 
of the legislative branch. I really didn't have much idea of 
how vast that was until I actually walked it.
    [A Summary of Findings and question from Chairman Walsh and 
response follow:]

    As required by section 215(e)(2)(B) of the CAA, the Safety 
and Health Inspection Report includes as Appendix V a summary 
of each hazard discovered during the inspection, identifies the 
employing office responsible for correction, and assesses the 
level of risk to health and safety associated with the hazards 
identified. I will summarize them extremely briefly below.

                       Safety and Health Reports

                      cannon house office building

    Sprinkler project should be completed for the remainder of 
the building.
    There were insufficient electrical receptacles to handle 
the various power needs of individual offices. In the office/
storage areas on the fifth floor, power cords were draped or 
interlaced through the metal screening for the storage area, 
which presented an electrical hazard.
    Numerous offices had large ripples and some tears in the 
carpeting which could present a tripping hazard.
    Several offices had extremely narrow aisles and limited 
emergency egress routes.
    Several areas were noted where soot or dust has been 
discharged from the heating and air conditioning system.
    The belts and pulleys, sprockets and chains, and electrical 
connections in elevator control rooms in the buildings were 
insufficiently guarded.
    The direction of exits in this building were not always 
clearly marked.

                       ford house office building

    Throughout building, numerous examples were noted where the 
carpeting had bunched or ripped, creating a tripping hazard.
    Several areas were noted where soot or dust has been 
discharged from the heating and air conditioning system.
    A few areas in the building were not protected by a 
sprinkler system.
    Three 55-gallon drums of a flammable thinner were 
improperly stored in the back of Electrical substation A in the 
basement. The lock on the substation door was broken and needed 
repair.

                    longworth house office building

    In many offices there were insufficient electrical 
receptacles for the equipment used.
    Several areas were noted where soot or dust has been 
discharged from the heating and air conditioning system.
    In a limited number of cases, access to the electrical cabinets was 
blocked by difficult to move furniture or other equipment.
    The belts and pulleys, sprockets and chains, and electrical 
connections in elevator control rooms in the buildings were 
insufficiently guarded.
    Some portions of the building were not protected by sprinklers.
                     o'neill house office building
    The belts and pulleys, sprockets and chains, and electrical 
connections in elevator control rooms in the buildings were 
insufficiently guarded.
    Numerous offices had large ripples and some tears in the carpeting 
which could present a tripping hazard.
    In many offices there were insufficient electrical receptacles for 
the equipment used.
    Several areas were noted where exit signing was confusing or 
absent.
                     rayburn house office building
    Members' offices in this building are not currently protected by an 
automatic sprinkler system.
    In many offices there were insufficient electrical receptacles for 
the equipment used.
    Several areas were noted where soot or dust has been discharged 
from the heating and air conditioning system.
    In a limited number of cases, access to the electrical cabinets was 
blocked by difficult to move furniture or other equipment.
    The belts and pulleys, sprockets and chains, and electrical 
connections in elevator control rooms in the buildings were 
insufficiently guarded.
    A number of shop areas located where flammables in storage exceeded 
permissible limits. In at least one shop oxygen and acetylene cylinders 
were improperly stored. Instances of insufficient machine guarding and 
failure of compressed air nozzles to have proper safety nozzles. A lack 
of emergency eye washes was noted in shop areas that require them.
    Ventilation and air quality appeared to be significant issues in 
the Capitol Police Firing Range area.
                     dirksen senate office building
    In many offices, access to electrical cabinets was blocked by heavy 
objects, such as desks and bookcases.
    A number of employees complained of soot or dust being discharged 
from the ventilation system.
    None of the spaces inspected was protected by a sprinkler system. 
Although smoke detectors were installed in most of the buildings, they 
were not activated.
    There were insufficient electrical receptacles to handle the 
various power needs of individual offices.
    Numerous offices had large ripples and some tears in the carpeting 
which could present a tripping hazard.
    In shop areas there were excessive quantities of flammables 
observed that were improperly stored.
    Means of egress was a problem in several shop areas.
    The belts and pulleys, sprockets and chains, and electrical 
connections in elevator control rooms in the buildings were 
insufficiently guarded.
                      hart senate office building
    Floor mounted electrical power boxes create potential trip hazards 
in offices.
    In a number of areas, the secondary exits were not marked as an 
exit.
    There were insufficient electrical receptacles to handle the 
various power needs of individual offices.
    The belts and pulleys, sprockets and chains, and electrical 
connections in elevator control rooms in the buildings were 
insufficiently guarded.
    In shop areas there were several instances observed where excessive 
quantities of flammables observed were improperly stored. Several 
instances of improper machine guarding and electric bulb guarding 
observed. Some areas, including the upholstery shop in the basement, 
did not have sufficient means of exit.
                     russell senate office building
    In many offices, access to electrical cabinets was blocked by heavy 
objects, such as desks and bookcases.
    A number of employees complained of soot or dust being discharged 
from the ventilation system.
    Several areas were not protected by a sprinkler system. Some shop 
areas had insufficient means of emergency exit. The attic area needs 
additional exit signing.
    The belts and pulleys, sprockets and chains, and electrical 
connections in elevator control rooms in the buildings were 
insufficiently guarded.
    In shop areas there were several instances observed where excessive 
quantities of flammables were improperly stored.
    A plumbed-in emergency eye wash should be installed in battery 
changing stations.
 other senate buildings (senate computer center, senate day care, and 
                           senate page dorm)
    There were insufficient electrical receptacles to handle the 
various power needs of individual offices and work areas.
    In shop areas there were several instances observed where excessive 
quantities of flammables observed were improperly stored.
    Battery charging areas did not have permanently plumbed-in 
emergency eye washes.
                     united states capitol building
    Throughout the Capitol, the location, identification, inspection 
and mounting of fire extinguishers was inconsistent.
    Numerous instances were identified where electrical extension cords 
were improperly used and there were insufficient electrical receptacles 
for the areas.
    The carpeting in several areas was badly bunched and could lead to 
a tripping hazard.
    Many complaints were received from employees in the building 
concerning air quality.
    In the shop areas there were a number of potentially dangerous 
equipment, materials, or areas (such as electrical distribution rooms, 
elevator control rooms with open electrical switches), that were not 
posted as to the danger and secured against unauthorized entry. In 
addition, the belts and pulleys and chains and sprockets in elevator 
control rooms were not properly guarded. Some areas were observed where 
oxygen and acetylene cylinders were improperly stored and unsecured.
               501 first street building/e street garage
    Exit signing in the basement of the building could be improved. 
Emergency lighting in the Day Care area did not work when tested. The 
exhaust fan in the blueprint room was inoperable at the time of the 
inspection.
    Most of the fire extinguishers noted in the administrative sections 
of the building were sitting on the floor and being used as door stops. 
In the rear of the architectural division an apparently unused desk was 
blocking an emergency exit.
                          capitol power plant
    Large portions of the power plant had no exit signs.
    Inadequate fall protection was noted in several areas, including 
the turbine bay opening (lack of a midrail) and the stair to the ash 
chute (hand rail needed in places).
    The paint shop was being used as a flammable liquid storage room 
but the room was inadequate for this purpose.
                      united states capitol police
    Inspection of the Photo Development Lab revealed several issues 
concerning inadequate ventilation, lack of an adequate hazard 
communication program, and use of personal protective equipment.
    There was inadequate guarding of belts and pulleys, and sprockets 
and chains in the shop areas and elevator control rooms.
    Electrical distribution rooms were not uniformly posed and secured 
against unauthorized entry.
    Several instances were noted throughout the main building where 
exit ways were inappropriately marked. There were a limited number of 
instances where electrical or telephone cords could present a tripping 
hazard in the main building.
    A number of issues relating to sanitation and possible exposures to 
toxins exist at the Poplar Point K-9 training facility.
                         supreme court building
    The belts and pulleys and drive shafts in elevator control rooms 
need some improvement in guarding. Some of the air nozzles were not 
equipped with safety nozzles to reduce dead end pressure. One battery 
charging area was observed that did not have a proper eye wash.
        united states botanic garden and d.c. village facilities
    Two battery charging stations observed that did not have proper eye 
washes installed. Some air nozzles in the woodworking shop were not 
equipped with safety nozzles. The amount of flammables in the storage 
in the Architect's shops at D.C. Village exceeded recommended limits 
and were improperly stored.
                    grounds and off-site warehouses
    Several areas were observed where there was improper storage of 
flammable liquids. There was inadequate sanitation in a portion of the 
P Street warehouse. In some areas of the warehouse, there were open 
electrical conductors that could present a hazard to passing employees. 
Sprinkler protection was a significant deficiency regarding some of 
these warehouses. Emergency eye washes were not installed in areas 
associated with battery charging stations.
                   general accounting office building
    Storage of flammable liquids was not compliant with safety and 
health standards. Machine guarding in a few shops was deficient. 
Improper storage of compressed gas cylinders observed.
                          library of congress
    Inadequate fall protection was noted in attic areas and the roof of 
Library buildings.
    A significant problem with electrical safety was noted in several 
shop areas. This included allowing employee exposure to live electrical 
connections, improperly installed receptacles and other electrical 
equipment, improper temporary lighting and other connections, open 
electrical boxes, and unsecured electrical distribution rooms.
    A number of machines in the shop areas were inadequately or 
improperly guarded. Emergency eye washes were not installed in areas 
where needed. Some of the air nozzles in shop areas did not have the 
proper safety nozzle.
    Question. Have you or the Architect of the Capitol prepared any 
estimates of the cost and time required to bring these buildings into 
conformance?
    Response. The General Counsel has not prepared an estimate of the 
cost and time required to bring these buildings into conformance. We 
are not aware of any estimates prepared by the Architect of the Capitol 
regarding such costs.
    Mr. Walsh. Have you been to the Botanical Garden?
    Mr. Duffy. Yes, sir. All 20 million square feet on Capitol 
Hill alone, not including the individual home State and local 
offices across the country. Those findings, for both safety and 
health and for disability, the major conclusion was on the 
whole, legislative branch facilities were in pretty good shape.
    With respect to safety and health, they were by and large 
free of major hazards, and with disability access, most of the 
facilities were accessible. That is, if we were to transport 
most of these facilities to the private sector, we wouldn't 
find greater or lesser compliance, if you will, on the whole.
    There were areas that we believed needed improvement and 
attention, and we are currently working with the Architect and 
other employing offices to help them improve them. The summary 
of those recommendations are really in three areas, in both 
safety and health and disability.

                             osha concerns

    Mr. Duffy. With safety and health, a major problem or 
difficulty, or an area of improvement, concerns the lack of 
coordination between various employing offices that may have 
jurisdiction or authority over the spaces where a hazard 
occurs. A good example of that would be in your office. There 
may be a hazard, carpeting, electrical hazards of one sort or 
another.
    Mr. Walsh. No.
    Mr. Duffy. Hypothetically, in that office, the tenant, if 
you will, has some control over that space and can bring in 
others, et cetera. The person who actually has the authority or 
the power to fix the problem is some other entity, the 
Architect of the Capitol.
    On the House side, things like carpeting divides even 
further into the Chief Administrative Officer versus the 
Architect of the Capitol. Trying to get all of those various 
offices to coordinate is something that I think needs 
improvement, and will improve greatly safety and health in the 
legislative branch.
    The second and a related point is a recommendation that all 
employing offices should develop a comprehensive safety and 
health plan that is appropriate to their office.
    Now, for smaller offices, an office of five people, a 
safety and health plan may be simply knowing where the exits 
are, though, to get out of the building in case of an 
emergency. In an organization like the Architect of the 
Capitol, which is a much larger and more complicated 
organization, it might consist of actually having a safety 
officer responsible for doing internal inspections to reduce 
the amount of items I might find during my inspection, or 
eliminating in some cases the necessity for an inspection.
    The third major recommendation we made--and as I 
understand, there is substantial progress being made on this--
is that the legislative branch should develop a comprehensive 
emergency and fire disaster plan for thinking about the 
legislative branch as a whole--hopefully, there won't be--in 
case of a bomb or other major emergency, and trying to 
coordinate the major organizations that will have to respond, 
including the attending physician, the Architect of the 
Capitol, the Capitol Police, et cetera, in a coordinated way, 
and having individual plans for each building for things like 
evacuation, who to call in the case of emergency, who is the 
contact point, et cetera.

                           disability access

    Mr. Duffy. On the disability access side, as I said before, 
on the whole, access was quite good in terms of accessible 
features and being able to have persons get through public 
spaces notwithstanding their disability. But there were three 
areas again in which we believed improvements ought to be made. 
And as we have been monitoring the process with the Architect 
of the Capitol, we understand there has been substantial 
improvement in a very short space of time.
    The first recommendation that we made is to improve the 
signage or the identification of accessible features in the 
building, that is, putting up signs to let people know where 
are the accessible entrances and exits, where are the 
accessible rest rooms and telephones and things of that sort. 
Of course, there are some concerns about the architectural 
nature of some of these buildings and putting signs that are 
appropriate into these areas, and we have been working with the 
Architect of the Capitol in that regard.
    The second major area is really to improve awareness of 
staff regarding disability issues and how they can come into 
compliance. We found over the course of our inspections that 
there were a number of misconceptions about the nature of the 
statute, and the difficulty or lack thereof of bringing them 
into compliance.
    The major misconception is that compliance is extremely 
difficult, such as in every instance you have to have braille 
materials for everything we are producing. As we note in the 
reports, we spent a lot of time attempting to educate Members 
and others regarding their obligations. In many cases, meeting 
the obligations is not as difficult as you might think.
    Lastly, and again this is simply a repeat of the point I 
made with safety and health, a coordination needs to be made in 
terms of providing information generally throughout the 
legislative branch about accessible features. As I understand 
from House Oversight, they are making moves towards bringing in 
a central source to provide information as a disability 
coordinator, if you will. I think that will be very helpful in 
improving the situation.
    Mr. Walsh. Thank you.
    The House Sergeant at Arms indicated he is working on a 
plan, evacuation plan for the House, and has taken steps to 
improve access and egress. Are you involved in that at all?
    Mr. Duffy. We are in the review process. We are working 
with them. They present their plans; we give them the benefit 
of our thoughts, especially on the issue of disability access.
    I might add also that the House Sergeant at Arms has become 
intimately involved in the disaster plan development, along 
with the Capitol Police.
    I have a question for the record at this point.
    [Questions from Chairman Walsh and responses follow:]

    Question. With regard to the reports you referred to--what 
distribution have these reports already had?
    Response. Copies of the Disability Access Inspection Report 
and the Safety and Health Inspection Report were distributed to 
each office of a Member of the House of Representatives, each 
office of a Senator, each committee of Congress, as well as 
each employing office inspected. Copies were also distributed 
to the Secretary of Labor, the Attorney General, and the 
analogous Executive Branch agencies with responsibility for 
compliance with occupational safety and health and disability 
access standards. Copies of the reports (exclusive of reports 
detailing findings on individual buildings and facilities) were 
made generally available to the public after submission to the 
Congress on June 28, 1996.
    The Office transmitted the Section 230 Study to the 
Congress by delivering copies to the Speaker of the House of 
Representatives and President pro tempore of the Senate for 
referral to the appropriate committees of the House of 
Representatives and of the Senate, and the Office transmitted 
copies to the GAO, GPO, and Library of Congress by delivering 
copies to the heads of the three instrumentalities. In 
addition, the Office sent courtesy copies of the Section 230 
Study to the Democratic Leaders of the House and the Senate, to 
the Chairmen and ranking Members of the authorizing and 
oversight committees for both the Office and the three 
instrumentalities, and to employee organizations at the 
instrumentalities that requested copies.
    The Office transmitted the Section 102(b) Report to the 
Congress by delivering copies to the Speaker of the House of 
Representatives and President pro tempore of the Senate to be 
printed in the Congressional Record and referred to the 
committees of the House of Representatives and the Senate with 
jurisdiction. In addition, the Office sent courtesy copies of 
the Section 102(b) Report to the Democratic Leaders of the 
House and the Senate and to the Chairmen and ranking Members of 
the authorizing and oversight committees of the Office. Both 
studies are also made available to the public on the Office's 
site on the world wide web.

    Question. Please supply the record an updated staffing 
chart.
    Response: The information follows:

[Page 318--The official Committee record contains additional material here.]


    Mr. Walsh. Thank you.

                            closing remarks

    Mr. Serrano?
    Mr. Serrano. Mr. Chairman, I don't have any questions. Your 
questions have been very good in bringing forth a lot of 
information.
    Concerning the last point, it can scare anyone to death. 
But I did want to just comment and congratulate you, Ms. 
Silberman, on your comment that these grievances have not 
suffered from any leaks or publicity. We know that they are 
very sensitive issues that come up every so often that could go 
from heavily founded to unfounded, and that kind of information 
can hurt all parties involved. So I congratulate you on doing 
something which is, in these kinds of processes, very difficult 
to do nowadays.
    Ms. Silberman. It is, indeed, difficult. We are going to 
ensure that our good record is going to continue. Thank you 
very much.
    Mr. Walsh. Mr. Cunningham?
    Mr. Cunningham. No. I just wish business had such an easy 
time dealing with OSHA and the rest of it as we do.
    [Questions from Ms. Kaptur and responses follow:]

    Question. In general, what do most of the disputes consist 
of which are brought before your office?
    Response. Inquiries have covered a broad range of areas, 
including all procedural and substantive aspects of the CAA and 
the Office's rules and regulations. In addition, many inquiries 
involve matters that are not within our jurisdiction. In such 
cases we make every effort to refer the individual making the 
inquiry to the appropriate source.
    With respect to formal requests for counseling, we have had 
requests under all of the sections of the Congressional 
Accountability Act, with the exception of the sections applying 
the Employee Polygraph Protection Act and the Veterans' 
Employment and Reemployment Act.
    Question. Is there a breakdown of who filed the cases, in 
terms of whether a case was filed by Members' personal staffs, 
committee staffs, or support staffs?
    Response. The vast majority of our cases have involved the 
instrumentalities of the legislative branch, as opposed to 
Congressional offices. Of the latter group, most cases have not 
involved legislative staff, but have arisen in support offices.
    Question. After a case has been settled, is there a follow-
up procedure to ensure that this employee, who brought a 
complaint, is not subject to retaliation, harassment, or sudden 
downsizing?
    Response. The Congressional Accountability Act includes 
specific protection against relatiation. All employees who file 
complaints are fully apprised of this fact, and of the 
procedures for bringing a complaint of retaliation.

    Mr. Walsh. I think we are all set. Thank you very much for 
your testimony. It is nice to have you in today.
    Mr. Walsh. All right. We will come back at 1 o'clock.

                               ----------

                                        Tuesday, February 11, 1997.

                      JOINT COMMITTEE ON PRINTING

                               WITNESSES

HON. JOHN W. WARNER, U.S. SENATOR FROM THE STATE OF VIRGINIA
ERIC C. PETERSON, STAFF DIRECTOR, JOINT COMMITTEE ON PRINTING

                            Opening Remarks

    Senator Warner. I will be very brief.
    I thank the Chair and I thank the indulgence of the 
Members. We meet on Tuesdays from 1:00 to 2:00, and that is 
really the only meeting that a Senator has to attend is his 
Caucus meeting on that day, so if you will forgive me. I had to 
speak.
    Mr. Walsh. I always heard it was a lot easier on your side.
    Senator Warner. Hopefully, without objection, I will just 
submit my testimony----
    Mr. Walsh. Without objection, why don't you go right ahead.
    Senator Warner [continuing]. And just come to the point 
where I think we have got to give some guidance, and that is 
this Title 44. While we have no intention of pulling work back 
from the private sector, there is a lot of the Government's 
printing which is not in compliance with Title 44. So we have 
got to, in fairness to the executive branch and to the question 
of the Supreme Court decisions and otherwise, figure out what 
we are going to do. And my committee proposes to address that 
issue.
    Now, markup language, you are familiar with the work to 
facilitate the electronic filing of legislative information and 
documents. That is another major initiative.
    Privatization, we are moving on that. It is exploratory: 
What products the Government Printing Office is still printing 
in their plant that could or should be procured from outside.
    [The information follows:]

[Pages 322 - 323--The official Committee record contains additional material here.]


    Mr. Walsh. Well, we are delighted to have you with us, Mr. 
Chairman. I am sure you work very closely with Mr. Thomas, who 
represents the House, as your Vice Chairman.
    Senator Warner. Correct.
    [Questions from Chairman Walsh and responses follow:]

                           Title 44 Revision

    Question. Your budget material states that it is 
anticipated that legislation will be developed in the 105th 
Congress to reform Title 44, the basic statutes that govern 
printing throughout the Federal Government. Title 44 contains 
the statutory authority that covers the Government Printing 
Office. It also contains the basic laws which govern JCP 
workload. Is Title 44 in need of revision and updating? Is it 
likely that this will be done during this Congress?
    Response. There is general agreement among all interested 
parties that Title 44 needs revision. This law was written just 
before the beginning of this century. As we approach the 
millennium, Congress must take into account the new technology 
and adapt our laws accordingly. Last year, as Chairman of the 
Senate Rules Committee, I held four hearings on this matter, 
and that process will continue with additional hearings planned 
for early this spring. It is my hope that a bill can be 
introduced and passed this year which will address many of the 
conflicting issues in the current law.
    Question. One of the most important programs within the 
framework of Title 44 is the Federal Depository Library Program 
(FDLP), which distributes government documents to over 1400 
libraries throughout the country. A large number of those 
documents are still printed on paper. Recently, the Government 
Printing Office developed a plan to transition this program to 
electronic format. Will your Committee use this plan as you 
decide on amendments to Title 44?
    Response. The strategic plan and the effort that went into 
creating it serves as a beginning for this transition. The 
Federal Depository Library Program will become a more 
electronic-based service. The Joint Committee continues to 
urge, and GPO has complied by maximizing the use of electronic 
media. Federal agencies also are being urged to move in that 
direction. To the extent that GPO experiences difficulties in 
the transition that would require legislative attention, the 
Committee will address those issues.

                       Executive Branch Printing

    Question. Your budget material mentions several instances 
where the Executive Branch is either ignoring cost-
effectiveness or the letter of the law with respect to Federal 
printing. The Defense Printing Service, the National Technical 
Information Service, and others, are mentioned. Apparently, 
there is contradictory guidance given by OMB and the Justice 
Department regarding Executive Branch use of the GPO. What 
accounts for this situation?
    Response. There is definitely contradictory guidance from 
the Administration. There are a number of Executive Branch 
agencies that wish to take control of Executive Branch 
information and publication dissemination activities. The 
National Performance Review is promoting printing and 
publishing activities that are not in concert with current 
statutes. In April, 1996, former White House Chief of Staff, 
Leon Panetta, directed the continued use of GPO by Executive 
Branch agencies for a one year period, but the Office of Legal 
Counsel at the Department of Justice has stated that violations 
of Title 44 will not result in prosecution; and OMB has 
contributed to this confusion by not providing consistent, firm 
guidance. This confusion is costly to the taxpayers in terms of 
unnecessary expense and documents lost to the public.
    Question. Will this continue to be a struggle until Title 
44 is revised? Or can we make significant progress in the 
meantime?
    Response. This year at the request of the Joint Committee 
on Printing, the Senate Committee on Rules and Administration 
and the House Oversight Committee are seeking language in all 
authorizing and appropriating bills requiring every Agency of 
the Federal Government to comply with Title 44, as Congress 
moves to update this law in light of modern technology. The 
Joint Committee also is initiating a study of all Executive 
Branch agencies to determine the true volume and costs of all 
printing and duplicating within the Federal Government. Every 
means available will be used to obtain compliance by Federal 
agencies with Title 44, especially with regard to access of 
government information by all citizens. However, until Title 44 
is revised, I see a continued problem with non-compliance and 
the associated waste of money.

                        Printing House Documents

    Question. Your budget material indicates several areas 
where JCP, GPO, and the Secretary of the Senate are working 
closely to reduce expensive printing setups or otherwise make 
efficiencies. We very much want the House to do the same. The 
House has directed the Clerk of the House to seek out printing 
reductions and efficiencies. One of the ways, we believe, is to 
exploit the use of the House ``DocuTech'' machine. Have there 
been any developments along those lines?
    Response. As Chairman of the Senate Rules Committee, I have 
established a policy in the Senate for Committees and Member 
offices to utilize computer links to GPO from their WEB sites 
for access to electronic legislative materials. This avoids 
multiple databases and the associated costs for their 
establishment and maintenance. I understand this is not the 
policy in the House.
    GPO currently operates a print-on-demand system (DocuTech) 
in the Senate Document Room that provides print-on-demand 
copies of Senate documents when stock is exhausted. This avoids 
costly back-to-press requirements. This system and another one 
within GPO's central plant are networked to Congressional 
databases at GPO. The DocuTech resident within the House could 
be linked and operated in a similar manner. GPO's in-house 
DocuTech is routinely used to produce various House products 
when it is economical to do so. The Joint Committee is 
continuing to work with and encourage expanded electronic 
submission of Congressional data from both the House and the 
Senate.
    Question. For example, sometimes it is necessary to print 
very short (less than 10 pages) Committee ``prints'' and House 
documents, such as our 602(b) allocations. These appear to be 
ideal House DocuTech jobs. Can the new desktop printing 
technology be applied to the printing of these House documents?
    Response. The issue here is the information, not the 
medium. Any number of media are adaptable. Desktop publishing 
is just one of the possibilities. The Committee should be 
concerned about the total quantity of documents required and 
whether this would include dissemination to the public and the 
depository libraries.
    Question. Last year's bill directed the Clerk to work with 
the Senate, GPO and others to develop technical standards that 
will allow all Legislative Branch agencies to facilitate 
document printing. Is the Joint Committee participating in that 
effort?
    Response. Joint Committee staff are participating in the 
working group discussions dealing with the development of joint 
standards (Standard Generalized Markup Language) for the 
Legislative Branch. A consultant's report is due this spring 
for review by the working group. Subsequently, the working 
group--including the Joint Committee on Printing--will make its 
recommendations to the Senate Rules Committee and the House 
Oversight Committee for implementation.

    Mr. Walsh. Does anyone on the subcommittee have any 
questions?
    Mr. Cunningham. I know where we can save him $600,000.
    Mr. Walsh. Well, we can talk about that some more.
    Senator Warner. I would like to introduce the testimony of 
the distinguished Members, Sen. Ford and Rep. Hoyer.
    I thank the Chair, and I thank the Members of the 
committee.
    Mr. Walsh. I will accept that without objection.
    Senator Warner. Good. Appreciate it.
    [The information follows:]

[Pages 326 - 333--The official Committee record contains additional material here.]

                               ----------

                                        Tuesday, February 11, 1997.

                     U.S. GENERAL ACCOUNTING OFFICE

                               WITNESSES

JAMES F. HINCHMAN, ACTING COMPTROLLER GENERAL OF THE UNITED STATES
J. DEXTER PEACH, ASSISTANT COMPTROLLER GENERAL FOR PLANNING AND 
    REPORTING
JOAN M. DODARO, ASSISTANT COMPTROLLER GENERAL FOR OPERATIONS
RICHARD L. BROWN, CONTROLLER

                            Opening Remarks

    Mr. Walsh. We will now take up the budget of the General 
Accounting Office, GAO. The budget request is $368.8 million, 
and 3,500 FTEs. The funding includes $7.4 million that will be 
derived from offsetting collections. We have the Acting 
Comptroller General, James Hinchman.
    Welcome, Jim, and the several members of your staff who are 
with us also today.
    Since Mr. Bowsher's 15-year term expired, Mr. Hinchman has 
acted in that capacity. He is the principle Assistant 
Comptroller General, and the former General Counsel at GAO. As 
such, he has appeared before this subcommittee on numerous 
occasions, and we welcome him back today.
    Mr. Hinchman. Thank you, Mr. Chairman. We appreciate this 
chance to be here and talk about our appropriations request.
    Mr. Walsh. If you would like to introduce your staff?
    Mr. Hinchman. Let me do that. On my immediate right is Dick 
Brown, our Controller, and Joan Dodaro, our Assistant 
Comptroller General for Operations, the Chief Operating Officer 
of GAO. Next to her is Dexter Peach, Assistant Comptroller 
General for Planning and Reporting, who fundamentally is 
responsible for the work we do for Congress, for both planning 
and delivering those products.
    I have a prepared statement. I would, with your permission, 
like to summarize that briefly. And if that is acceptable, I 
will ask that it be put in the record.
    Mr. Walsh. We will do it that way.
    Mr. Hinchman. There are only two things I would like to 
share briefly with the subcommittee before we take your 
questions. First, I think we are accountable to you for the 
resources which you provide us, and I want to give you a very 
brief report about our implementation of last year's 
appropriations act and in general on the status of the agency.

                        key features of request

    Mr. Hinchman. As you know, our appropriation for the last 2 
years provides for a 25-percent reduction in our funding. We 
have implemented that reduction. We now have in place for this 
fiscal year a spending plan which accommodates both that 25-
percent reduction and the absorption of 2 years of 
uncontrollable cost increases over the period of that 
reduction.
    As a result of that spending plan, we are now an agency of 
3,500 people. That is down a third from where we were in 1992, 
at approximately 5,300. It is the lowest level at which we have 
been staffed since before World War II.
    However, the good news is that we remain a capable and 
effective organization that is continuing to perform its 
responsibilities for the Congress. We now have our performance 
report for 1996, and that report is positive. We have financial 
benefits of about $17 billion coming from our work. That is 
slightly higher than the year before.
    We issued about 1,300 audit and evaluation products. That 
is consistent with the last 2 years. We testified 181 times 
before congressional committees. That is somewhat lower than 
the 2 preceding years; nonetheless, it is historically a 
satisfactory performance in that category.
    So I would say, in brief, that my report on the status of 
the agency is positive. We have been successful in implementing 
the 25-percent reduction that our appropriations called for, 
successful in two respects: We have achieved the expenditure 
reductions, and we have been able to do so while maintaining 
our capacity to serve the Congress and to carry out our 
statutory responsibilities. So that is the first point.
    Second, I just want to say a brief word about our request 
for this next fiscal year. As you pointed out, we are seeking 
an appropriation of $369 million, which is essentially designed 
to preserve our current staffing size of 3,500. It is meant to 
stabilize the agency at its current level. To do that, we are 
seeking, as you pointed out, a $30 million increase. That 
increase would be for five purposes:
    First, we need some funds to pay for uncontrollable cost 
increases in personnel compensation and benefits, and second, 
we need some funds to pay for uncontrollable price level 
increases in the goods and services we buy.
    Those two items together account for over half of that $30 
million increase. The remainder would go for three things:
    First, we need to invest in our information technology. We 
need to do some upgrading in those systems.
    Second, we have some personnel-related costs associatedwith 
promotions and employee recognition that we have foregone in the last 
few years as we were implementing the 25-percent reduction.
    And finally, we have some building repair and maintenance 
costs that we need to take care of with respect to our 
Washington headquarters building, which is now almost 50 years 
old. We have spent less money on the asbestos removal project 
in the last few years as part of the 25-percent reduction, and 
we need to put some additional funds into that.
    We know that resources are limited. We have tried very hard 
to be as responsible as we can about the amount of money that 
we spend, but if we are to stay at 3,500 and if we are to 
continue to be an effective organization that can meet its 
responsibility to Congress, then we need some funds to pay for 
these uncontrollable costs and price level increases. We also 
need to begin to address our information technology and 
facility needs. That, basically, is what our request is about. 
And those are the things I wanted to say.
    I think we are ready to answer any questions that you or 
Members of the subcommittee have.
    [The prepared statement of Mr. Hinchman follows:]

[Pages 338 - 359--The official Committee record contains additional material here.]


    Mr. Walsh. Well, thank you very much. I am sure there are a 
number of questions we would like to ask.
    Do any of the members of your staff have any statement they 
would like to make at this time?
    Mr. Hinchman. No, sir. I think we have said what is 
important for us to say.

                            contracting out

    Mr. Walsh. All right. Let me just get a couple of questions 
here.
    On outsourcing, is GAO using outside contractors more 
frequently in program evaluation and financial audits to make 
up for the reduction in staff that you have experienced?
    Mr. Hinchman. We are attempting to do that as much as we 
can. Two years ago, we spent about $8 million, last year, about 
$9 million, and this year, we will spend about $17 million. 
That very large increase is due to a major study of medical 
savings accounts, which we are undertaking at the direction of 
Congress, principally the House Committee on Ways and Means. 
And outsourcing has been, in many respects, a good experience 
for us.
    Mr. Walsh. How do you determine which job you are going to 
outsource and which one you are going to keep in-house?
    Mr. Hinchman. A good candidate for outsourcing is one that 
involves specialized skills that we do not have or that 
involves large amounts of resources that we would have to 
remove from some other work, particularly if we need to do the 
work quickly.
    The Medical Savings Account Study, for example, involves an 
enormous database collection effort associated with 
interviewing thousands of people around the country who have 
established medical savings accounts. It is very difficult for 
us to reprogram resources to do that and then send them back 
into other work.
    I do need to say that contracting out is not a way to save 
money. Our experience is that the firms that do this work do 
not charge us less than it costs us to have our own people do 
the work. And, of course, we do need to provide supervision to 
the contractor.
    Outsourcing works least well in areas in which our 
expertise tends to be specialized, particularly areas of 
specialized government activity--the federal personnel system, 
for example--where GAO tends to be more expert and our learning 
curve is in fact shorter than some outside contractors.
    I think we need to have a balance. We need to look for 
opportunities where outsourcing works best for us. We need to 
be sensitive to when it is not the appropriate way to go. My 
expectation is that we will be able to do a substantial body of 
contracted audit work.
    As I said, though, I think we have to recognize outsourcing 
is not a way to save money. Therefore, we do have to have the 
financial resources to pay for it.
    Mr. Walsh. What is the downside of contracting out?
    Mr. Hinchman. I think the biggest downside is that there 
are some areas where it is difficult to find the kind of 
expertise it takes to do the job. We are more expert in some 
areas than private consulting firms.
    And then there is the issue of control. In some cases, 
members want our personal involvement and the assurance that, 
in fact, what they have is GAO's work, which is more difficult 
to ensure when you are working with a contractor.
    There is a little bit of separation between us and them, 
obviously. On the other hand, there are many situations in 
which it works very well.
    [Questions from Chairman Walsh and responses follow:]

    Question. Is GAO using contractors more frequently in 
program evaluations and financial audits? Give us some 
statistics on your use of outside contractors and firms and how 
this compares with earlier practices. (Supply detailed 
comparison statistics for the record.)
    Response. GAO spent about $8.7 million in fiscal year 1996 
and estimates spending $17 million in fiscal year 1997 to 
obtain products and services used to produce and distribute 
audit and evaluation products. Contractor-provided products and 
services include audit and evaluation services, databases, 
expert actuarial and statistical analyses, survey design and 
preparation services, and product review. Table 1 provides a 
breakout of contractor costs by fiscal year. Fiscal year 1997 
estimates include $9.5 million to contract for a mandated 
congressional study of medical savings accounts.

   TABLE 1.--SUMMARY OF CONTRACT COSTS RELATED TO AUDIT AND EVALUATION  
                                PRODUCTS                                
                         [Dollars in Thousands]                         
------------------------------------------------------------------------
                                                             Fiscal year
               Contract Category                Fiscal year      1997   
                                                 1996 cost     estimate 
------------------------------------------------------------------------
Audits and evaluations........................       $4,119      $12,610
Expert assistance and advice, e.g., actuarial                           
 services, real estate appraisals, sampling                             
 plans, questionnaires, and surveys...........          241          241
Support services, e.g., court reporting,                                
 transcribing, interpreting, proofreading.....          134          113
Data processing services, e.g., timesharing                             
 services, databases, data manipulation.......          969          835
Product handling, e.g., printing,                                       
 distribution, etc............................        3,216        3,216
                                               -------------------------
      Total Contracts.........................       $8,679      $17,015
------------------------------------------------------------------------

    Question. What particular strengths do you find these 
private sector experts bring to your work products? What 
drawbacks?
    Response. Using contractors to assist GAO in performing 
audit and evaluation work provides GAO additional flexibility 
to respond to congressional requests. Using contractors to 
conduct all or parts of an audit or evaluation expands the 
areas of expertise available throughout GAO and provides an 
``industry'' perspective to the audit. GAO can undertake more 
assignments by supplementing existing staff resources with 
contract staff without affecting ongoing work--which eliminates 
the need for GAO to hire staff permanently. Contractors can 
also provide GAO a large number of resources on relatively 
short notice operating under GAO control.
    Using contractors works least well in areas in which our 
expertise tends to be specialized, particularly areas of 
specialized government activity, where GAO tends to be more 
expert and our learning curve is in fact shorter than some 
outside contractors. There are some areas where it is difficult 
to find the expertise it takes to do the job. Furthermore, 
information obtained by contract staff during the assignment 
leaves GAO bereft of the institutional knowledge gained during 
the assignment.
    In some cases, Members want our personal involvement and 
the assurance that what they have is GAO's work--which is more 
difficult to ensure when you are working with a contractor.
    A major drawback to using an outside contractor is cost, 
which is usually more expensive than the cost of GAO staff.
    Question. When GAO gets an outside contractor involved 
communication with the customer seems to be better. There seems 
to be more dialogue with the requester as the job unfolds as to 
what is needed. Do you find that to be the case as a rule? If 
so, why?
    Response. It is GAO's policy to keep our congressional 
customers fully informed throughout the course of each 
assignment. This policy is applied to each job regardless of 
whether it is fully staffed by GAO employees or whether we use 
contractors to assist with our work. Early discussions are held 
with our customers to help clearly define the objectives and 
scope the job, and repeated updates are generally held to 
ensure customers awareness of job progress and to obtain 
feedback and direction.
    It is critical for us to understand our customers' needs 
since the methodology and approach used for each job are 
tailored to its specific requirements and objectives. For some 
jobs there are multiple customers, and they require the use of 
more extensive and complicated communication techniques. 
Interviews, the use of focus groups, and frequent dialogue with 
requesters and other interested customers are often used in 
these situations. Other jobs have a smaller customer base and 
require the use of less complex communication techniques. 
However, regardless of the nature of the assignment, GAO's 
policy has always been to discuss each job with our 
congressional customers and to seek input and guidance as the 
job unfolds.
    GAO continually reinforces with its staff, through 
supervisory direction as well as formal and on-the-job 
training, the importance of early and continuing dialogue with 
our customers. We continually emphasize the importance of fully 
understanding customers' needs and perspectives and continually 
strive to improve our communication.

                        use of videoconferencing

    Mr. Walsh. This question is--it is kind of interesting. I 
came from the telecommunications industry before I came here, 
15 years.
    Mr. Hinchman. Yes, sir.
    Mr. Walsh. One of the things we were promoting then, and it 
has come a long way, is the idea of videoconferencing. It would 
seem that these thousands and thousands of interviews that you 
do, rather than go out and about to meet with these folks, can 
you adapt these technologies? It would seem to me there is an 
obvious cost savings, time savings, probably mostly time.
    Mr. Hinchman. That is a very good question, and I don't 
think we have explored all of these issues. We have used 
videoconferencing extensively for our own internal work. We 
have a videoconferencing system that links all of our field 
offices with Washington.
    Utilization of the videoconferencing system is up 7 percent 
so far this year over last year, and it has been very 
successful. We get teleconferencing service from the 
Consolidated Telecommunications System of the legislative 
branch, which has been a very good thing for us. It has reduced 
our costs. And the quality of the service we are getting, not 
only in teleconferencing but in data communications and long 
distance service, has really been terrific.
    Mr. Walsh. That is our lease-line network?
    Mr. Hinchman. Yes, sir. There are various components to it. 
Some of it is provided through contractors who make long 
distance service available, some of it at the high-speed data 
transmission, and some cases involve leased lines. It has 
proven terrific for us.
    We have a switch in our building that we share with GPO and 
is part of the system. We used to be on the GSA system.

                         information gathering

    Mr. Walsh. The brunt of what you do, is it actually sitting 
down and talking to people? And other than number-crunching, 
everybody knows you do, you get those numbers from somewhere, 
is it by going out and sitting down and asking questions?
    Mr. Hinchman. We gather information in a number of ways. 
First of all, we do a lot of work with records. We look at 
records of government agencies that are associated with the 
work that we are doing.
    We do a lot of networking in Washington, but we also do it 
in the field: in the field offices of agencies and in the 
offices and facilities of contractors with the government, for 
example, in the case of major weapon systems. In addition to 
that, we do interview people. We interview government officials 
who are involved with programs. We interview people who 
interact with them and citizens who are participants in 
programs. So we bring all of that information together.
    Mr. Walsh. Do you take sworn testimony in these interviews 
or not?
    Mr. Hinchman. In general, we do not.
    Mr. Walsh. I don't know whether you can do that over video-
teleconferencing.
    Mr. Hinchman. Nor do I. Although I don't know why not.
    Mr. Walsh. It would be okay from me, from where I come 
from.
    Mr. Hinchman. There are some state courts that allow 
videoconferencing to be used for testimony in court 
proceedings, in civil trials. I don't see any reason why that 
would be an impediment.
    Mr. Walsh. Let's see if I have got anything else.
    Are there any other questions, Mr. Serrano?
    Mr. Serrano. No questions.
    Mr. Walsh. Mr. Wamp?
    [A question from Chairman Walsh and response follow:]

    Question. According to your justification, you are using 
videoconferencing on a frequent basis. Explain your use of 
videoconferencing and its advantages and cost-effectiveness. 
(Please provide details of investment and annual operating 
costs for the record.)
    Response. GAO uses videoconferencing principally in 
carrying out mission work but also uses the technology for 
training and other administrative activities. In terms of 
mission work, videoconferencing has allowed dispersed 
workgroups in headquarters and field offices to conduct 
meetings without the need to travel. Generally, these meetings 
focus on such issues as key decision points in the audit 
assignments, coordination between audit sites, and development 
and review of briefing documents and draft reports. In 
addition, GAO has used videoconferencing to coordinate with 
other government agencies and the Congress. For example, GAO 
has hosted briefings in the field with congressional staff in 
Washington and in one instance has used the Internal Revenue 
Service's and GAO's facilities jointly to brief House staff in 
Anchorage, Alaska. GAO has also conducted exit interviews with 
Resolution Trust Corporation officials in Atlanta and has 
gathered testimony from other government agency witnesses--
especially the Department of Defense--throughout the country by 
using joint agency and GAO facilities or by bringing guests to 
GAO facilities. As other agencies begin to implement and use 
this technology more, GAO's use of videoconferencing as a tool 
in conducting audit work will likely increase.
    As mentioned earlier, GAO also uses videoconferencing for 
training and has found the approach both timely and effective. 
And GAO uses videoconferencing for management and 
administrative matters, such as staff meetings, when it is 
cost-effective to do so.
    GAO has conducted two assessments of its videoconferencing 
program. The assessments found that videoconferencing is an 
effective means of helping GAO accomplish its mission and 
identified several benefits of using videoconferencing, 
including significant savings in travel costs and time. 
Participants in the assessment reported that videoconferencing 
was typically as effective as traveling to meet ``in person.'' 
Participants also reported extensive nonquantifiable benefits, 
such as having key decision-makers present at the same time, 
enabling developmental staff and specialists to be present, 
making decisions in a more timely manner, improving 
coordination and teamwork between sites, avoiding potential 
rework, and providing more timely training. Our assessment 
report covering fiscal year 1993 noted that GAO avoided 650 
days of travel time and approximately $400,000 of travel 
expenses during that period.
    GAO's capital investments in videoconferencing ended in 
October 1996, but a typical room system (presently, there are 
17) required a capital investment of approximately $100,000 and 
has an operating cost of approximately $45,000 per fiscal year. 
The operating costs include maintenance, technical support, and 
recurring and usage charges for telecommunications services. In 
fiscal year 1996, GAO spent $950,000 for videoconferencing, 
which included the purchase of some equipment through lease-to-
buy arrangements and operating costs. In fiscal year 1997, we 
estimate expenditures of $750,000 for operating costs.

                       airline deregulation work

    Mr. Wamp. I would just like to make a comment.
    Last week--I think their names are Tim Hannigan and John 
Anderson, your aviation experts.
    Mr. Hinchman. Yes.
    Mr. Wamp. That is the second time that they have come into 
my district. But also last week we had this National Air 
Service Conference on the 20 or so airports that have been 
adversely affected as a result of airline deregulation. And 
GAO's input and their empirical data has helped this group of 
airports across the country battle through some extremely 
difficult times. And without your reports, studies, findings 
and coordination, frankly, this group that is now banded 
together to try to help each other would not even be in 
existence. And these two individuals, I want to commend them on 
the record, for the record here.
    Mr. Hinchman. Thank you.
    Mr. Wamp. The extraordinary talent.
    Mr. Hinchman. Thank you.
    Mr. Wamp. And the work that they do is superior. Everyone 
there last week, we had 15 States, and I guess about 25 
airports and all the major carriers in the airline industry 
looking at this, because 80 percent of the country benefited 
from deregulation, about 20 percent of the country was hurt. 
But because of GAO's leadership, we are dealing with this 
problem. And frankly, there was no glue to hold this issue 
together, other than GAO, across the Nation. I think that is 
instructive as we look at and annually justify this funding. So 
thank you.
    Mr. Hinchman. Thank you for that. I appreciate that.
    I will pass it on to both of them. It is our job to do that 
kind of work, and I am glad that we did it well in this case. I 
appreciate that.
    Thank you.
    Mr. Walsh. Tom?
    Mr. Latham. Nothing.
    Mr. Walsh. No? No one.
    One last question, and you might want to submit it for the 
record, what committees use GAO's services and what are you 
doing for those committees at the current time?
    Mr. Hinchman. I think it would be best if we submitted that 
for the record. We can go back and make sure that the answer is 
precise.
    I can tell you that the largest users of GAO in fiscal year 
1996 were the House Budget, National Security, and Government 
Reform and Oversight Committees.
    [Questions from Chairman Walsh and responses follow:]

    Question. What committees use GAO's services and what are 
you doing for those committees at the current time?
    Response. Attached is a list of House committees and 
subcommittees that requested work from GAO during the second 
session of the 104th Congress and the number of active or 
completed GAO assignments during that session. The number of 
GAO assignments include both assignments linked to House 
requests received during the session as well as assignments 
assigned to committee(s) with jurisdiction that were started in 
response to mandates contained in legislation passed by the 
Congress.

[Pages 366 - 381--The official Committee record contains additional material here.]


                            Closing Remarks

    Mr. Walsh. That Kasich, he is spending all the government 
money.
    Okay. I think we are all set.
    Thank you very much.
    Mr. Hinchman. Thank you, Mr. Chairman.
    Mr. Walsh. I believe that is the end of the testimony 
today.
    The subcommittee hearing is adjourned.
    Thank you all for coming.

                               ----------

                                        Tuesday, February 11, 1997.

                       GOVERNMENT PRINTING OFFICE

                               WITNESSES

MICHAEL F. DiMARIO, PUBLIC PRINTER
WAYNE P. KELLEY, SUPERINTENDENT OF DOCUMENTS
WILLIAM M. GUY, BUDGET OFFICER
CHARLES C. COOK, SUPERINTENDENT, CONGRESSIONAL PRINTING MANAGEMENT 
    DIVISION

    Mr. Walsh. All right, we are ready to do business. The 
Subcommittee on Legislative Branch Appropriations will come to 
order. I would begin with fiscal year budget 1998 from the 
Government Printing Office. We welcome Mr. Michael DiMario, the 
Public Printer. That is your title, the Public Printer?
    Mr. DiMario. Yes, sir.
    Mr. Walsh. The 1998 budget request totals $114.5 million. 
That will be an increase of $3.8 million over the current year.
    There are two appropriation accounts involved, the 
Congressional Printing and Binding appropriation and the 
Superintendent of Documents program. In addition, under the 
Government corporation statutes, the appropriation bill 
authorizes the operation of the GPO revolving fund which 
finances all Federal printing, or at least printing which has 
not been exempted by the Joint Committee on Printing. The 
Government Printing Office therefore is the primary printing 
source for all Federal Government printing that is done through 
the operation of the GPO revolving fund.
    Before proceeding, Mr. DiMario, would you like to introduce 
your staff for the record.

                       Introduction of Witnesses

    Mr. DiMario. Yes, sir. To my extreme right is Mr. Wayne 
Kelley, who is the Superintendent of Documents. He is also the 
acting Deputy Public Printer; my deputy retired in January.
    Mr. Cunningham. We have had enough of that talk--``extreme 
right.''
    Mr. Walsh. Would you prefer ``the extreme left''?
    Mr. DiMario. To my immediate right is William Guy, who is 
my Budget Officer and responsible for preparing most of our 
work today.
    Mr. Walsh. Welcome.
    Mr. DiMario. Also with me in the audience is Charles Cook. 
Charlie is the Superintendent of our Congressional Printing 
Management Division, and he is the person through whom the 
Congress submits its work to GPO. So he is very important to 
our process.
    And our Production Manager is also here, Don Ladd.

                           Prepared Statement

    Mr. Chairman, for fiscal year 1998, we are requesting, as 
you indicated, a total of $114.5 million for those programs 
requiring annual appropriations directly to GPO. This includes 
$84 million for the Congressional Printing and Binding 
Appropriation and $30.5 million for the Salaries and Expenses 
Appropriation of the Superintendent of Documents. The total 
amount we are requesting is an increase of $3.8 million, or 3.4 
percent over the funding approved for fiscal year 1997.
    For congressional printing, we are seeking $2.4 million 
more than was approved this year due to work load increases 
anticipated for the second session of the 105th Congress, as 
well as cost increases due to employee pay and expenses for 
supplies, utilities, and maintenance.
    For the Superintendent of Documents, we are requesting $1.5 
million more to fund unavoidable cost increases as well as the 
continued transformation of the Depository Library Program to 
an electronic basis.
    My prepared statement includes information on GPO's mission 
and programs to assist you in your review of our appropriations 
request.
    I specifically want to direct your attention to the fact 
that our use of electronic printing and information 
technologies over the past 2 decades has generated substantial 
savings for Congress and the taxpayers while improving public 
access to congressional and other Government information.
    Twenty years ago, our congressional printing budget was the 
equivalent of $209.5 million in today's dollars, and today our 
budget request is for $84 million, a reduction of nearly two-
thirds. That reduction was achieved through our utilization of 
successive generations of electronic printing technologies to 
serve Congress.
    A major outcome of the productivity improvements generated 
by these technologies has been an ability to downsize our 
operations significantly. Since the mid-1970's, our work force 
has been reduced by more than 55 percent, from over 8,200 to 
the current 3,674 employees. We are continuing to manage 
downsizing to achieve savings without interrupting critical 
services to Congress and the public.
    Our use of electronic technologies means that Congress can 
achieve improved information services for its own use and for 
public access. The GPO infrastructure supporting Congress is 
already capable of receiving significantly more congressional 
data in electronic format in order to reduce production costs. 
It provides the necessary standardization of congressional 
information products as well as the systems for widespread 
public dissemination of this important information.
    We are prepared to assist the House in electronically 
disseminating committee materials, as a recent rules change 
requires, and we have a pilot program already operational for 
on-line access to committee hearings.
    Our GPO Access on-line service currently averages between 
2.5 million and 3 million new document downloads per month, 
providing widespread public access to congressional and other 
Government documents, and we are successfully moving our 
Depository Library Program toward a predominantly electronic 
basis.
    Altogether, GPO's systems and services are dedicated to 
supporting Congress' move to increased utilization of 
electronic formats. We have the resources and experience to 
help make the Cyber Congress a reality.
    Mr. Chairman, this concludes my opening remarks and I would 
be pleased to answer any questions the subcommittee may have. I 
would also ask that my prepared statement be made a part of the 
record.
    Mr. Walsh. Without objection.
    [The information follows:]

[Pages 386 - 408--The official Committee record contains additional material here.]


    Mr. Walsh. We have a few questions we would like to ask and 
submit some others for the record so we will not keep everybody 
too long at the table.
    We had the occasion to meet prior to this hearing, and I 
appreciate your help in explaining some of the operations of 
your department to me. I am new at this. You obviously have a 
great deal of experience.
    Congressmen Serrano and Cunningham--Congressman Serrano, 
you were on the subcommittee the last 2 years; right?
    Mr. Serrano. Let me clarify that. That keeps being brought 
up. When I was appointed to the committee, I came in time for 
the last meeting of the year--conference. That was it.
    Mr. Walsh. That is right. That is right. Okay. You have 
vast experience.
    Mr. Serrano. It was a great meeting though.
    Mr. Walsh. Hopefully, you will help us with that to guide 
the committee in the proper direction.
    In any event, I am sure we all have some questions about 
the operation. We have all heard about the Government Printing 
Office for years. Now we get a chance to really get an idea of 
what you do.
    The increase that you are requesting, it is a $3.8 million 
increase--$2.3 million of that is mandatory wage and benefits; 
is that correct?

             congressional printing cost increase requested

    Mr. DiMario. To a large degree. There is also some increase 
in other costs. Mr. Guy can cover those.
    Mr. Guy. The $2.3 million increase we are requesting is in 
the Congressional Printing and Binding Appropriation. That is 
comprised of costs----
    Mr. Walsh. It is one of the two appropriations?
    Mr. DiMario. Yes, sir.
    Mr. Guy. The other one is the Salaries and Expenses 
Appropriation.
    Mr. DiMario. But of the $2.3, $2.1 million is in fact for 
pay raises--pay increases.
    Mr. Walsh. In that appropriation.
    Mr. DiMario. In the CP&B appropriation.

                          by-law distribution

    Mr. Walsh. Okay. The appropriation includes funds for 
publications distributed without charge to recipients. What are 
those?
    Mr. DiMario. Well, in the statute on Government printing, 
title 44, there are a number of specified distributions that we 
refer to as by-law distributions. Those would include 
distribution of the Congressional Record to recipients 
designated by United States Senators, as an example. It also 
used to include distribution to former Members of Congress. It 
includes certain distributions to the Library of Congress that 
they use to send publications under the International Exchange 
Program beyond those that we include within our appropriation 
to the International Exchange Program. Some of those 
distributions have been reduced through efforts of this 
subcommittee. Last year, as a result of action by the 
subcommittee, former Members of Congress no longer receive 
copies of the Congressional Record. That by-law distribution 
was discontinued, as were distributions to certain judges and 
recipients designated by House Members.
    That is essentially it.
    Mr. Walsh. We had a little flap up home about a document, a 
little document you produced, called the Constitution. There 
are certain individuals who like to get that, and then they 
hand it out to other people. Are you familiar with the book?
    Mr. DiMario. Yes, sir.
    Mr. Walsh. Do we print those every year?
    Mr. DiMario. I don't believe we print them every year 
because the Constitution normally doesn't change, so we produce 
a quantity at a given point in time, and those are retained.
    Is that correct, Wayne?
    Mr. Kelley. Right. We put them in the sales program.
    Mr. Cunningham. You may get ready to gear up for a change.
    Mr. DiMario. Periodically they will be reprinted, but they 
are printed either as House or Senate documents when they are 
printed. I am not certain as to the Constitution.
    Mr. Guy. It has been printed as a House document.
    Mr. Walsh. Would these be without-charge-to-recipients sort 
of publications?
    Mr. DiMario. Not through our distribution, normally, except 
we would send copies to the Federal Depository Libraries. There 
are some 1,400, roughly, of those libraries.
    We may also have some free distribution. Wayne may speak to 
this. It might occur through the consumer center, which is run 
on contract by us for GSA. It is a GSA program. I don't know if 
they include those.
    I am not aware of any specific statutory inclusion for free 
distribution.
    Mr. Guy. As a House document, it would follow the normal 
distribution for House documents.
    Mr. Walsh. What does that mean?
    Mr. Guy. That means that they would become part of the 
serial set, for example, and they would be distributed to the 
Library of Congress, and to International Exchange Library 
partners.
    Mr. DiMario. But the individual who is coming into your 
office in your district who is receiving that, there is nothing 
in the law that compels that kind of distribution. You might 
receive a quantity that is authorized in the law and make it 
available to them.
    Mr. Walsh. That is our discretion under this law?
    Mr. DiMario. I believe that is the case, but without 
looking at the statute, I don't know specifically. But there 
are a number of publications that would be printed as House 
documents.
    This is Mr. Charles Cook, who is speaking now, and he is 
saying that approximately 1,500 copies of any House document 
are printed for distribution.
    Is that right?
    Mr. Cook. Congressional distribution, depository library, 
et cetera.
    Mr. Walsh. So we have discretion to distribute X number of 
these documents; 1,500.
    Mr. Serrano. Divided by 435.
    Mr. DiMario. I would have to rely on Mr. Cook's statement 
as to the printing requirements that come through. But all of 
our printing has to be authorized by law, and the provisions in 
the code are fairly specific on what is a House document, how 
it gets prepared, and what the distribution is. We follow those 
distributions.
    Mr. Guy. We would have the normal distribution, which would 
be about 1,500 copies, and then additional copies can be 
printed based on a resolution. This is the type of document 
that would typically have additional copies printed.
    Mr. Walsh. How many documents might there be, individual 
documents, that are on the House list or whatever?
    Mr. Cook. There are four right now. Over a period of a 
year, approximately 150 to 200 documents.
    Mr. Walsh. Different documents.
    Mr. Cook. Different types.
    Mr. Walsh. Each of these would be considered a House 
document?
    Mr. Cook. House document; yes, sir.
    Mr. Walsh. 1,500 of those copies would be made available to 
Members if they so desire?
    Mr. Cook. No, sir. They are made available to the House and 
Senate document rooms, the depository library program for 
distribution.
    Mr. Walsh. I see. Not the individual member offices?
    Mr. Cook. No, sir. The printing resolution, if one were to 
be passed by Congress, would take care of printing additional 
copies, and X amount of copies would be allocated to each 
Member for distribution.
    Mr. DiMario. Resolutions for printing for the Congress are 
directions by either Chamber to GPO through the Joint Committee 
on Printing. The joint committee is directly involved in that 
program. So the resolution, when it is passed, is directed to 
GPO through JCP.
    [Clerk's note.--The Public Printer has supplied the 
following information for the record:]

    In 1989, the Bicentennial Commission ordered printed 3.7 
million pocket-sized copies of the Constitution. In 1992, 
298,292 copies of the Constitution were printed as a House 
document. In 1994, 100,000 copies of the Constitution were 
printed as a Senate publication. In 1996, 11,229 copies of a 
bound annoted version of the Constitution, The Constitution of 
the United States of America--Analysis and Interpretation, were 
printed as a Senate document.

    Mr. Walsh. All the initials are down. There are a lot of 
them--alphabet soup.
    About how much does that cost, without charge to 
recipients?
    Mr. Guy. Well, there are a number of different categories. 
The largest category is copies of the Congressional Record 
which go to Senate constituents. That is about 2,190 recipients 
currently, and the cost is about $600,000.
    Mr. Walsh. That is the Senate record?
    Mr. Guy. This would be the entire Congressional Record. 
These would be copies that are authorized to go to public 
agencies and institutions that are designated by the individual 
Senators. By law, the authorization is 50. The limit currently 
is 37. The actual distribution is averaging about 22 per 
Senator.
    Mr. Walsh. The House doesn't do that, just the Senate does 
that?
    Mr. Guy. That is correct. The House, largely as a result of 
the efforts of this subcommittee, discontinued that 
distribution several years ago on behalf of the House Members.
    Mr. Walsh. The Senate hasn't seen the wisdom of that yet?
    Mr. Guy. The Senate is continuing to provide them.
    Mr. Walsh. Each Senator is sending out about 22 of these?
    Mr. Guy. On the average.
    Mr. Walsh. This is the total Congressional Record?
    Mr. Guy. Yes, sir.
    Mr. DiMario. And we follow those designated lists, whatever 
they send in. But the statute specifies that they are to be 
designated to public agencies and institutions.
    Mr. Walsh. Can we get a copy of the list that those are 
sent to?
    Mr. DiMario. Certainly.
    [The information follows:]

    The Senate recipients lists for the Daily Congressional 
Record were as follows, as of January of each year: 1993--
2,819; 1994--2,547; 1995--2,492; 1996--2,513; and 1997--2,190.

    [Questions from Chairman Walsh and responses follow:]

[Pages 413 - 415--The official Committee record contains additional material here.]


    Mr. Walsh. Okay. Does anybody else have any questions?
    Congressman Serrano?

                          document management

    Mr. Serrano. I have a question, one question in four parts 
actually. I will read it all as one question.
    Mr. DiMario, the Clerk of the House has requested $1.5 
million next year to launch a program to update the Clerk's 
computer system and for a proposed Document Management System. 
The Clerk has informed the committee that the project will last 
4 years and cost $1.5 million. What is your reaction to this 
request?
    To what extent, if any, are you working with the Clerk on 
the Document Management System. Does GPO have the capability to 
do some or all of what the Clerk wants to do? If so, would that 
save money?
    To what extent does the Clerk's Office depend on the GPO 
for your technology, human resources and computer know-how on a 
day-to-day basis? If the committee granted the Clerk's request 
for this costly undertaking, in your opinion, how much would be 
duplicative and perhaps unnecessary because of what GPO already 
can do?
    And lastly, your agency has been involved in this 
technology for many years. Could you offer us any advice or 
suggestions on how we can get to where the Clerk wants us tobe 
in 4 or 5 years without perhaps providing new funds or scaling back the 
request?
    Mr. DiMario. I will try my best to answer the question.
    Essentially, we have in place at GPO existing technology 
because we began this electronic production of information, the 
digitizing of data, back in the mid-1960s. As a result of that, 
we have over the years maintained many, many products in a 
digitized data base. Those products were originally developed 
for printing, so the output was printed. But the transition 
through GPO to an electronic distribution system was mandated 
to us by the passage of a statute in 1993, which is the GPO 
Electronic Information Access Enhancement Act of 1993.
    Under that Act, we were required to put our products up on 
line, specifically the Congressional Record and the Federal 
Register and other products, and to make those available to 
depository libraries, the public, as well as to the Congress. 
It was a natural progression. We were already doing this. We 
were creating our products electronically. We had them tagged. 
The data bases essentially existed.
    Today, we have some 70 congressional and other products. 
Seventy data bases. That is many, many more products than 70 
publications, but 70 data bases. We are adding on a constant 
basis to that. We include many House materials.
    We believe we are fully capable and have in place a system 
that will allow us to do everything that the House is planning 
to do in their proposal for this Document Management System. 
They have not specifically come to us about this Document 
Management System. However, at a meeting within the last year, 
that our people attended, they did hand out a detailed plan of 
the Clerk of the House, to move into this system.
    We think that is extremely duplicative of what we already 
do or have in place. Moreover, our system is a standardized 
structure for the House and Senate. It allows us to tag 
documents and produce them in a particular way, capture that 
data, and use it in multiple sequences for various products so 
we don't have to re-key and redo the documents over and over 
again. We can just pick up parts and move them, which has great 
economy.
    We think the House would have to put in place a system that 
would duplicate what we are already doing, would have to train 
people, and it would be at an additional cost to the House.
    We would like to work more closely with the Clerk's Office, 
let them be aware of what we are doing. We want to be 
supportive, and we think that our skill is not being looked at. 
There is this view that they need to create something and get 
away from GPO. There are statements of obsolescence about GPO, 
or that we are using proprietary systems that are difficult to 
understand.
    We don't believe that to be the case. There are people 
already in place on the Hill, both in the Senate and the House, 
who are using our systems, not just GPO people who are on the 
Hill. They are trained, and we believe they are very happy with 
it. This includes the Legislative Counsel's Office in both 
chambers. Everything you are doing by way of legislation, is 
going through that system.
    So we think it is simply a case of having us participate in 
a cooperative way and supporting the House in its initiative.
    Mr. Serrano. Thank you all for your very direct answer. Mr. 
Chairman, I wish I could take credit for this question.
    Mr. Walsh. It was a great question.
    Mr. Serrano. For the record, it was prepared by Mr. Fazio. 
We want the record to so indicate.
    Mr. Walsh. All right. The record will show. Would you like 
to have that added into the record and get a response to each 
point of the question?
    Mr. Serrano. Absolutely.
    Mr. Walsh. We will do that.
    Mr. Serrano. On behalf of Mr. Fazio.
    [Question from Mr. Fazio and responses follow:]

    The House Clerk has requested $1.5 million next year to 
launch an ambitious project to upgrade the Clerk's computer 
system for a proposed Document Management System. The Clerk has 
informed the committee that the project will last four years 
and cost more than the $1.5 million requested for FY 98.
    Question. What is your reaction to this request? To what 
extent, if any, are you working with the Clerk on the Document 
Management System? More importantly, does GPO have the 
capability to do some or all of what the Clerk wants to do? If 
so, would that save money?
    Response. I believe that the stated goal of the program--to 
reduce dependency on GPO--focuses on means rather than ends. 
GPO has not been involved in the proposed Document Management 
System. GPO has the skilled employees and infrastructure to 
support the Cyber Congress for official publications. We are 
expanding electronic access and producing additional CD-ROM 
products.
    Question. To what extent does the Clerk's office request 
depend on the GPO for your technology, human resources and 
computer know-how on a day-to-day basis?
    Response. I am proud to say that the Clerk's Office, as do 
all committees of Congress, relies heavily on GPO for support 
on a daily basis. GPO has a long tradition of working closely 
with the Congress to achieve real savings in document creation 
and distribution.
    Question. If the committee granted the Clerk's request for 
this costly undertaking, in your opinion, how much would be 
duplicative and perhaps unnecessary because of what GPO already 
can do?
    Response. I believe that aspects of the project are 
duplicative of GPO's mission and evolving capabilities to 
support the Congress, and would be costly and impractical. GPO 
provides a system for the creation, storage, and retrieval of 
official documents. From that official database we are 
increasingly able to share access, to print, and to produce CD-
ROMs. GPO provides distribution channels for sales to the 
public and depository libraries.
    Question. Your agency has been involved in this technology 
for many years. Would you or could you offer us any advice or 
suggestions on how we can get to where the Clerk wants to be in 
four or five years without us providing the new funds or 
perhaps scaling back this request?
    Response. Solutions need to be pursued in the following 
areas:
    Increase standardization for publication databases to allow 
for highly integrated and open systems.
    Consistency in style and format for user interfaces, 
including online and CD-ROM.
    Reduce duplication in services by linking to GPO databases 
and online services.
    Increase source data automation by capturing more original 
keystrokes in usable electronic formats.
    Enhance finding aids and one-stop shopping capability to 
facilitate access to government information.
    Distribute-then-print where more economical for smaller 
quantities and reprints to reduce life-cycle costs through a 
coordinated distribution network, including public 
distribution.

    Mr. Walsh. Let me go to the other Members first. Mr. 
Cunningham?
    Mr. Cunningham. I have no questions.
    Mr. Wamp. No questions.
    Mr. Cunningham. Maybe just one--your system converts to 
digital, as opposed to analog?
    Mr. DiMario. We are all digital. As my prepared statement 
indicates, we put our electronic products up on the World Wide 
Web. We have our documents up in several formats. We are moving 
aggressively into an SGML-based structure so that we can do 
multimedia kinds of products, and that has all been done 
pursuant to statute, which is important.
    We have a statute which requires us to do this, and we have 
done it. We did it within the one year time frame that was 
required by statute. The Thomas System, which the Library of 
Congress operates, their documents originate in GPO, many of 
them, and we send them over there electronically.
    Mr. Cunningham. So you already convert them electronically?
    Mr. DiMario. Absolutely. We produce them electronically in 
the first instance and we put them up electronically at the 
same time we are printing and then delivering the paper 
products. Not later than 11:00 a.m. in the morning on any given 
day, you can access the Congressional Record. Actually, you may 
get it before it is actually physically up here.
    Mr. Serrano. I have one further question, Mr. Chairman.
    Mr. Walsh. Go ahead.

                           electronic access

    Mr. Serrano. I didn't catch what you said, but I know you 
were speaking about downloads, a couple of million downloads a 
month?
    Mr. DiMario. Right. What that is about in the statement is 
the number of people who are actually accessing our GPO access 
system, and retrieving documents, so that this is not just a 
search and hit. Some people count search and hit. We are not 
doing that. These are actual retrievals of documents by parties 
on the system, whether in the depository system or outside it, 
who are coming into GPO Access and retrieving public documents 
from us, and a great many of those documents are congressional 
documents.
    Mr. Serrano. This is not the general public?
    Mr. DiMario. Yes, sir. I am talking about the general 
public.
    Mr. Serrano. A couple million a month you say?
    Mr. DiMario. Yes, sir. The general public includes the 
Federal Depository System. There are some 1,400 libraries, 
every Congressman is allowed to designate libraries pursuant to 
law. So theoretically in every district there can be 
congressionally designated depositories. Each Senator may do 
the same.
    On top of those congressionally designated libraries, there 
are some statutory libraries, including law school libraries, 
as an example. The State courts are included, the highest court 
in the State. We also have distribution to Federal agencies who 
make use of the documents, so they become depositories. The 
Supreme Court and other courts receive the documents.
    So they receive them through this system that we have in 
place, this depository system. They are not the government per 
se, although some might be. They are mostly private 
institutions that agree to house the documents, at their 
expense, and to make them available to the public, free of 
charge under the law.
    We supply the documents. Now, through the efforts of this 
subcommittee, we have moved that program from what was 
predominantly a paper-driven program to an electronic program. 
The transition that is mentioned in my statement speaks to a 5 
to 7-year time frame, although there was a more ambitious 
direction from this subcommittee initially to go in a 2-year 
time frame, to move all of our documents to an electronic 
basis.
    I can proudly say that we are approaching the 50 percent 
point in terms of the documents being in electronic format. 
That is the goal for fiscal year 1998 that was established in 
our study, to have 50 percent of the documents electronically 
in that time frame. We have gotten them up there long before we 
are going to hit the time frame.
    Now, we think we have done what the subcommittee has asked 
us to do. We think we are saving a lot of money, and we think 
we have proven that we are capable of dealing technologically 
with this. We would like to use this expertise to continue to 
support the House and the Senate.
    Mr. Serrano. Thank you. Mr. Chairman, that question was 
mine.
    Mr. Walsh. Another great question.

                          document management

    Mr. Walsh. Do we have sort of a turf battle here?
    Mr. DiMario. I would like not to think that. I would like 
to think that the House wants to do certain things not because 
of turf, or the Clerk's Office, but because they have a 
perceived need. And I would like to also think----
    Mr. Walsh. The House directed the Clerk in a report from, I 
believe, the Committee on House Oversight, to prepare an 
Information System program plan for the U.S. House of 
Representatives. It directed the Clerk to spearhead the 
selection and deployment of a Document Management Program. That 
is what we are talking about.
    Mr. DiMario. Yes, sir, that was a May 1996 report; is that 
correct?
    Mr. Walsh. Well, it says date, November 15, 1995.
    Mr. DiMario. Okay. I saw an iteration of that. It was dated 
May of 1996. I believe that is correct. But the question is 
whether or not the Clerk's Office initiated the effort before 
it came to House Oversight.
    It may well be directed. The only thing----
    Mr. Walsh. So House Oversight is taking direction from the 
Clerk, is that what you are saying?
    Mr. DiMario. I can't speak to that. I would hope it is the 
other way, but I am not certain.
    Mr. Walsh. I would suspect it is.
    Mr. DiMario. I would only say that we have not been a party 
to the discussions at GPO. We have only seen these 
documentations, incidentally. As I indicated, one of our people 
happened to be at a meeting in which the documentation in draft 
form was handed out some time ago.
    Mr. Walsh. GPO was listed in the distribution of these 
documents in this report, as I understand it.
    Mr. DiMario. It may be in that report. The one I am 
speaking to we were mentioned in it, but we were not--
    Mr. Walsh. Maybe we ought to get you a copy of thisreport. 
Page 19 and 20, the report notes further that complete electronic 
versions of the bills will be forwarded to GPO for printing and 
distribution. On page 21, when dealing with the committee reports, the 
document notes specifically the files will be distributed to libraries, 
the Thomas system, the GPO Access system, and available for sale 
through GPO.
    Mr. DiMario. That may well be the case in there, but that 
is an after-the-fact distribution, after it is produced. Why 
would you go and produce it somewhere else when you have a 
system in place that produces it now?
    Mr. Walsh. Again, I am new at this, but doesn't the Clerk 
basically own that information until it is certified? Don't 
they have to certify the Congressional Record? If words have to 
be expunged or words are taken down or whatever, they have to 
make sure that is all clarified?
    Mr. DiMario. I would agree. The Clerk owns it; the House 
owns it. It is not our information. We do not deal with 
changing information. But the process that is used to produce 
documents has been one that has been through GPO.
    Electronic photocomposition was done by GPO since the mid-
1960s in an electronic format. Now we are moving to an 
electronic distribution. But in order to create an electronic 
product, you have to do precisely the same thing you do to 
create the printed product. We are already doing that.
    Why would you then move to put a system on the Hill to 
create an electronic product in the Clerk's Office, when we 
already have the system in place? Not only that, we have these 
historical data bases that are used and drawn upon by various 
elements of the House that are already tagged and available.
    Mr. Walsh. This is just a small part of your business, 
isn't it?
    Mr. DiMario. It would be a very significant part. Dollar-
wise, you may be talking about a small part, but it is still a 
very, very significant part. It is the essence of what we do.
    Mr. Walsh. The Clerk really is not equipped to make this 
generally accessible to the public, right? She would produce 
the document and electronically transmit it to you, and then 
you would have responsibility for printing it, selling it, 
distribution of it and so forth in printed form. And also you 
would have it on your access.
    Mr. DiMario. I would only submit that we are not fully 
aware of what their plans are at this point. You are saying I 
have received that. I don't recall that specific document. You 
are going to send it to me.
    Mr. Walsh. We can do that.
    Mr. DiMario. But up to this point, our people have not 
participated fully in the process and we are reacting to the 
information that we see, and we are reacting in our statement 
to the statement that was included in part 1 of the 
appropriations hearing, on I think it was page 163. I have it 
here.
    Mr. Walsh. Well, I agree. I think you need to see a copy of 
that report. Since you both have a piece of this business, you 
need to be talking.
    Mr. DiMario. Yes. And I think that is important that we 
talk on the issue.
    It is page 163, and we are reacting to that. One of the 
things, it says, ``The main objective of the Document 
Management System is to become less dependent on the Government 
Printing Office for preparation, printing, and distribution of 
official House documents.'' Then it goes on and says, ``Also to 
reduce GPO costs by rendering GPO detailees and equipment less 
important to offices by establishing a standard format and easy 
to use word processing software.''
    If you look at the more detailed statements, what it 
appears is that this is an effort to eliminate GPO in its 
production process.
    Mr. Walsh. I don't know if that was her view.
    Mr. DiMario. Perhaps we need to meet on the issue.
    Mr. Walsh. It probably would be a real good idea. I don't 
think you need a subcommittee of the Congress to get you two 
together, do you?
    Mr. DiMario. I hope not, no, sir. Not on my part.
    Mr. Walsh. Why don't you give her a call?
    Mr. DiMario. I will do that.
    Mr. Walsh. We will send you the document. I think it would 
be great if you could work this out together.
    [Clerk's note.--The Committee has provided to the 
Government Printing Office a copy of the report, ``An 
Information Systems Program Plan for the U.S. House of 
Representatives, dated November 15, 1995.]
    Mr. DiMario. Yes, sir.
    Mr. Walsh. Any other questions? All right. Thank you very 
much.

                               ----------

                                      Wednesday, February 12, 1997.

                        JOINT ECONOMIC COMMITTEE

                               WITNESSES

HON. JAMES SAXTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
CHRISTOPHER FRENZE, EXECUTIVE DIRECTOR, JOINT ECONOMIC COMMITTEE

    Mr. Walsh. The committee hearing will come to order.
    We are pleased this morning to welcome the incoming 
Chairman of the important Joint Economic Committee, our 
colleague from New Jersey, Congressman Jim Saxton.
    Jim, welcome.
    Mr. Saxton. Thank you, Mr. Chairman.
    Mr. Walsh. We do not have with us this morning Senator 
Connie Mack, but I am sure he will work very closely with you.
    The new Staff Director is also here, Christopher Frenze.
    Chris, welcome.
    As is customary, we will place your biography in the record 
at this point.
    [The information follows:]

                    Biography of Christopher Frenze

    Christopher Frenze was appointed Executive Director of the 
Joint Economic Committee (JEC) by Chairman Saxton in January of 
1997. Before this appointment, he had served the JEC for 16 
years as economist, senior economist, and in 1995-1996, as 
chief economist to the vice chairman.
    Prior to his joining the staff of the JEC in 1981, Mr. 
Frenze was Director of Research for the National Tax Equality 
Association from 1979 to 1981. Mr. Frenze received his 
undergraduate degree in economics from American University in 
1977, and did graduate work in economics at Virginia 
Polytechnical Institute (VPI).

    Mr. Walsh. The budget justification material has been 
printed in Part 1, which has been distributed to the Members.
    Mr. Chairman, your letter reflects a status quo of $2.75 
million, the same amount as provided last year, which was more 
than a 25 percent cut from the fiscal year 1995.
    Please proceed with your statement, Mr. Chairman.

                opening statement of chairman jim saxton

    Mr. Saxton. I have a written statement, which I will submit 
for the record, and just very briefly say thank you for having 
us here this morning.
    Along with Chris Frenze is Colleen Healy who is our 
Financial Director in case there are any questions of a 
specific nature concerning what we do with our money.
    Let me just say, Mr. Chairman, that I believe our function 
is a very vital one and one that is certainly worthy of the 
amount of appropriations that you just mentioned, which is as 
you correctly point out, almost a 25 percent reduction from 
fiscal year 1995, so we would like to think that we are doing 
our part with our oar in the water in trying to operate as 
efficiently as possible, and at the same time, save the 
taxpayers' dollars.
    Essentially, Mr. Chairman, our function in the next two 
years as I see it--and incidentally, I am the first Republican 
House Chairman of the Joint Economic Committee in 40 years----
    Mr. Walsh. I like the sound of that.
    Mr. Saxton. I look forward to carrying out the duties of 
the Joint Economic Committee. As I see our job over the next 
two years, we will look at policy areas that the Congress is 
involved in that have to do with taxing, spending, regulatory 
authority that we give the agencies and how they carry it out, 
and monetary policy, and try to understand and explain and 
report to others who might be interested in the effects of 
those policies on the economy.
    As we all know, we can oftentimes as an institution, and as 
a government, do things that are right and help to promote 
economic growth, and at other times, we do things that, 
unfortunately, do not promote economic growth. In fact, retard 
economic growth. Our function in carrying out that mission 
involves a number of people who have broad experience in 
government/economics.
    We, in addition to the people that work for us, from time 
to time contract out for special projects, which lead to 
reports and a variety of different types of information which 
are useful to the Congress as an institution, and understanding 
among the public generally as to the effect of government 
policy on our free enterprise system. So, we look forward to an 
aggressive two years.
    I might say, that we have a goal of working with both 
parties together to try to reach consensus on as many issues as 
we can relative to government operations and the economy.
    So, if you have questions, I will be more than happy to try 
to answer them at this point.
    [The information follows:]

[Pages 425 - 426--The official Committee record contains additional material here.]


    Mr. Walsh. Thank you for your statement.
    Just as I have said a number of times before, I am 
relatively new at this. This is my first time chairing this 
subcommittee, too, so I am learning every day, and the Joint 
Committee provides analysis for us.
    Who does the analysis? If you could break down the makeup 
of the people who----

                      committee structure and role

    Mr. Saxton. We have a staff which is essentially made up of 
economists, Chris Frenze is a long-time economist. We have 
hired a number of other people, for example, Dr. Bob Keleher is 
our Chief Macroeconomist. He previously served with the Federal 
Reserve for 14 years. He will bring us insight, obviously, into 
issues involving interest rates and monetary policy.
    Dr. Hayden Bryan is a Senior Economist who previously 
served as a Senior Economist for the Senate Labor Committee 
and, obviously, his experience will add a great deal. Dr. Reed 
Garfield is a Senior Economist who works on a variety of macro- 
and micro-economic issues, and he over the past two years has 
been responsible for producing a number of reports which we 
have been able to use quite effectively. Dan Miller, is an 
Economist who works on a variety of economic issues as well, 
and then we have a number of other support staff that work 
along with these folks who are really the backbone of our 
workforce.
    Mr. Walsh. Do you have any--is any of the work that you do, 
reports that you provide, is that done in collaboration with 
GAO or in conjunction with the Congressional Budget Office?
    Mr. Saxton. We work closely with the Joint Tax Committee. 
We work closely with GAO. We work closely with CBO. And, of 
course, we call on BLS from time to time, the Bureau of Labor 
Statistics. As an example of the interaction that we have with 
other agencies, as you know, the Finance Committee recently 
released a report called the Boskin Report which was critical 
of the accuracy of the Consumer Price Index. They recommended 
that we institute changes in the Consumer Price Index that 
would effectively lower the Consumer Price Index, in their 
view, by about 1.1 percent. They think the CPI is overstated by 
that amount.
    A number of economists have asked questions, such as, how 
they arrived at that figure, and about the effect on taxes and 
on benefits if we lower the CPI. We are currently in the 
process of working with the Bureau of Labor Statistics to try 
to answer those questions and sometime this summer report to 
the membership of the Congress and the American public on the 
BLS view and the Joint Economic Committee view of the Boskin 
Report.
    Mr. Walsh. Has the Joint Economic Committee taken a 
position on the Boskin Report or would you just produce your 
findings and not take a standing one way or another?
    Mr. Saxton. We may take a position. At this point, we have 
just raised questions. We have looked at the effects of the 
Boskin Report in a cursory kind of a way, over the next 12-year 
period. We believe that it means about a trillion dollars in 
additional fiscal restraint to the budget over that 12-year 
period; 40 percent of which comes from tax increases because of 
changes in threshold levels in our tax policy, and 60 percent 
comes from reductions in benefit levels for the same reasons.
    We may take the position, particularly relative to the tax 
issue, because that could very well have a marked effect on 
economic growth.
    Mr. Walsh. Just one last question, as you know, the first 
item out of the box this year is the balanced budget--the 
President presented a balanced budget, balanced in the year 
2002. Congress is working with the administration.
    Does the Joint Economic Committee provide analysis of the 
two budgets, the one presented by the Congress and by the 
President? Or do you look at the assumptions, for example, 
regarding recession and when recessions may occur in this 5-
year cycle?
    Mr. Saxton. The answer is yes, we look at budgets. We have 
in the past looked at the effect of a potential balanced budget 
and the balanced budget amendment. There are differing opinions 
on the committee which, frankly, run along party lines, 
although things don't always differ along party lines. Just the 
day before yesterday, we had a hearing which lasted several 
hours on the Economic Report of the President, and we raised 
some questions about it. And so, yes, we are in the process 
currently of issuing a report on the President's Economic 
Report. And will raise very significant questions about it.
    Mr. Walsh. Thank you.
    Mr. Serrano?
    Mr. Serrano. First, let me welcome you and congratulate you 
on this new role you are undertaking.
    Mr. Saxton. Thank you very much.
    Mr. Serrano. You are a class guy, a friend, a gentleman and 
a scholar, and a friend of Jim Walsh.
    Mr. Walsh. You were doing fine up until then.
    Mr. Serrano. But in spite of that, it is good to have you.
    You started to answer the only question I really have, 
which is what role do you think you and the committee will be 
asked to play as some people begin to play out their desire to 
change the Tax Code? And what role do you think your committee 
has to play in singling out the dangers of any changes in the 
Tax Code?
    You know, the big argument in this country right now 
continues to be on whom do you reduce taxes and how do you spur 
movement in the economy. There are those of us who say you have 
got to help people that have two kids in college and others say 
help people at the top and they will trickle it down.
    First, do you feel that you will be called on more than 
usual in the next 2 years? And second, what do you think your 
role will be?
    Mr. Saxton. I hope we will be called on because I think in 
the next two years, particularly relative to tax and spending 
policy, as well as monetary policy, there are going to be 
legislative efforts in each of those directions, and I think it 
is very important that a group like ours be able to be in a 
position to suggest the long-term effects of changes in taxing 
or spending or monetary policy.
    Let me just talk about all three for a minute. Let me start 
with changes in the Tax Code. We have looked at the history of 
Tax Code changes over the long haul on a bipartisan basis.
    John Kennedy, in 1963, in his State of the Union Address 
suggested that there were changes that needed to be made with 
the Tax Code in order to promote economic growth. 
Unfortunately, subsequent to his passing, those changes were 
made and sure enough economic growth took place. And in the 
1970s we watched as there were no tax increases legislated but 
taxes went up because of bracket creep and increases in the tax 
rates for Social Security, were also enacted. And by the end of 
the decade, things had gotten into a stagnant situation and we 
are able to draw a direct correlation between the level of 
taxation that the American people had become subject to, and a 
bad economy.
    During the decade of the 1980s, once again a Kennedy 
policy, this time instituted by Reagan and Congress, provided 
economic growth once again, which is sustained through today. 
We have studies that document all of that.
    On the spending side, and there is some difference of 
opinion, I must say, on this, as to what the appropriate size 
of government is. We have a study, which I would love to share 
with you, which shows that once Federal Government spending 
exceeds somewhere in the neighborhood of 18 to 19 percent, that 
spending becomes a detractor, a drag on economic growth. And so 
there are all kinds of ramifications of things that we look at 
from time to time, relative to spending. But that generally is 
the thrust.
    On monetary policy, the Fed in modern days has adopted two 
objectives: One is to control inflation or deal with the issue 
of price stability; and the other is to institute monetary 
policy which promotes economic growth.
    Most countries in addressing their monetary policy today 
have adopted one target. That target is price stability. And so 
we have a Fed that has two targets. One of the questions that 
we hope to answer over the next two years is whether the Fed 
ought to have price stability as its target or whether it ought 
to have two targets, namely, the promotion of economic growth 
and price stability. That is a very basic question, and I think 
it needs attention.
    Mr. Serrano. Thank you.
    Mr. Walsh. I have questions for the record I'd like to 
insert here.
    [Questions from Chairman Walsh and responses follow:]

    Question. There is $55,000 budgeted for reimbursable 
details and contract support. Do you expect to contract out for 
some of the economics expertise you need?
    How will outside assistance be used by the Joint Committee?
    Response. Yes, we do expect to let contracts. The Committee 
will employ contractors whose specialized skills and/or 
experience facilitate efficient, timely and cost-effective 
analysis of public policy issues. Furthermore, we access 
primary and secondary data sources. Illustrative sources 
include the Joint Committee on Taxation, Congressional Research 
Service, Government Accounting Office, Bureau of Labor 
Statistics, the Federal Reserve System, and various private 
sector trade- and other groups.

    Mr. Walsh. Mr. Wamp?
    Mr. Latham?
    No questions?
    All right, Jim, thank you very much for coming this 
morning. We will let you go. We know you are busy.
                                      Wednesday, February 12, 1997.

                          LIBRARY OF CONGRESS

                               WITNESSES

JAMES H. BILLINGTON, THE LIBRARIAN OF CONGRESS
GEN. DONALD L. SCOTT, RETIRED, DEPUTY LIBRARIAN OF CONGRESS
WINSTON TABB, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
RUBENS MEDINA, LAW LIBRARIAN
JO ANN C. JENKINS, CHIEF OF STAFF, OFFICE OF THE LIBRARIAN
LLOYD A. PAULS, ASSOCIATE LIBRARIAN FOR HUMAN RESOURCES
LINDA J. WASHINGTON, DIRECTOR, INTEGRATED SUPPORT SERVICES
HERBERT S. BECKER, DIRECTOR, INFORMATION TECHNOLOGY SERVICES
MARYBETH PETERS, REGISTER OF COPYRIGHTS
DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
FRANK KURT CYLKE, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE BLIND AND 
    PHYSICIALLY HANDICAPPED
JOHN D. WEBSTER, DIRECTOR, FINANCIAL SERVICES
CHESTER L. TURNER, III, ACTING BUDGET OFFICER

                            Opening Remarks

    Mr. Walsh. Next up to bat is the Library of Congress.
    We will now take up the Library of Congress budget. We want 
to welcome Dr. James H. Billington, the Librarian of Congress.
    We also welcome retired General Donald L. Scott, who was 
named Deputy Librarian of Congress on September 30, 1996.
    Congratulations.
    General Scott. Thank you, sir.

                             budget request

    Mr. Walsh. The 1998 budget of the Library of Congress 
assumes total funds available will be $523.8 million from a 
variety of sources, including appropriated funds, receipts, 
gifts, trusts, and revolving funds and reimbursable programs. 
The funding request before the committee today is $387.6 
million, an increase of $25.7 million or 7.1 percent over 
current level.
    The Library is requesting an additional 96 positions above 
the current FTE level of 4,299. An additional 335 FTEs are 
supported from other sources.
    Dr. Billington, again, welcome. If you would like to 
introduce any members of your staff, go ahead and do that.
    Dr. Billington. Thank you, Mr. Chairman.
    In addition to General Scott, we have Winston Tabb, the 
Associate Librarian for Library Services; Rubens Medina, the 
Law Librarian; Jo Ann C. Jenkins, our Chief of Staff; Lloyd A. 
Pauls, Associate Librarian for Human Resources; Linda J. 
Washington, Director of Integrated Support Services; Herbert S. 
Becker, Director of Information Technology Services; Marybeth 
Peters, the Register of Copyrights; Daniel P. Mulhollan, the 
Director of the Congressional Research Service; Frank Kurt 
Cylke, Director of the National Library Service for the Blind 
and Physically Handicapped; and John D. Webster, Director of 
Financial Services.
    I might mention, Mr. Chuck Turner, Acting Budget Officer 
also planned to be here, but due to health problems, he is in 
the hospital, he was unable to be here and we hope he will be 
back soon.
    Mr. Walsh. We are sorry. He has been helpful to this 
committee and we wish him well.

                         librarian's statement

    Dr. Billington. I will keep my remarks brief because I will 
submit my full statement for the record. And also, I want the 
Deputy Librarian of Congress, Donald Scott, to have time to 
make some introductory remarks. He is the Chief Operating 
Officer of the Library and is appearing for the first time 
before this committee. He has had a very distinguished military 
career and served more recently as Chief of Staff for the Mayor 
of Atlanta and as the National Director of the National 
Civilian Community Corps. He brings very substantial management 
experience to us and we are very fortunate to have him.
    Mr. Chairman, this Library is like no other agency of the 
legislative branch; in a way, like no other institution in the 
world. With the support of the Congress, the Library of 
Congress has become the world's largest, best-organized and 
most-accessible repository of knowledge. A resource that in 
both terms of collections and its staff, will be of increasing 
and incalculable value to all Americans in the Information Age. 
This Library serves both the national legislature and the 
libraries, scholars, and citizens of the entire Nation.
    The Speaker stated on the first day of the 105th Congress 
that ``We, have to move the legislative branch into the 
information age.''

                          electronic services

    That takes plans and investment, but it pays off. Thanks to 
strong support from Congress, the Library was able to put 
THOMAS on-line for the Nation at the start of the 104th 
Congress. Working with the House and Senate, a retrieval 
component of the legislative information system is now 
available at the start of the 105th Congress.
    Since its inception, THOMAS has recorded 30 million 
electronic transactions, a clear sign of the usefulness and 
appeal of searchable congressional information to the American 
public. Through the National Digital Library effort, again with 
congressional support, and with added major support from 
private philanthropy, the Library has become a world leader in 
providing high-quality content for the Internet.
    We are recording some 20 million electronic transactions a 
month on all our databases, triple the number in 1992. Time 
Magazine named our Web site as one of the 10 best of 1996, and 
this also reflects great credit on the Congress which backed 
and encouraged this initiative.

                         goal for 21st century

    The Library's goal for the 21st Century is to lead the 
Nation in ensuring access to knowledge and information to 
educate and enrich society through the acquisition, 
organization, and dissemination of knowledge and solid 
information.
    The Library today faces the challenge of carrying out a 
full transition to new electronic services for Congress and the 
public as well as to the more efficient operations made 
possible by new technology, while at the same time continuing 
its basic, well-established services to the Congress and the 
Nation. The Library, in a sense, must both preserve the past 
and embrace the future in order to maintain its services in the 
present.
    This requires a modest capital investment in technology 
now. It also requires basic continuing support from Congress, 
including paying for mandatory pay increases and price level 
increases, in order to sustain our traditional work of 
cataloging, collections security, and access to the 
collections. Otherwise we face erosion and a possible breakdown 
in traditional services and the likely prospect that the 
transition which we will eventually have to make simply to keep 
up to date will be even more costly in the future.

                          library bicentennial

    Mr. Chairman, in only 3 years the Library of Congress will 
mark its bicentennial. We are fully reopening the magnificent 
Jefferson Building, which the Congress enabled us to restore. 
And the year 2000 will be an occasion to show the Nation that 
its elected representatives have had the wisdom to create and 
sustain the world's greatest repository of human knowledge and 
creativity as a major resource, not just for today's citizens, 
but for future generations for uses we can't anticipate today.
    By funding the Library's 1998 fiscal budget request, the 
Congress will enable the Library to head into the 21st Century 
with the capacity to make its operations more efficient, to 
provide much wider access to its collections, and to offer even 
better services to the Congress and the American people.
    So, Mr. Chairman, I respectly request and strongly urge the 
subcommittee support the Library's budget request.
    [The prepared statement of Dr. Billington follows:]

[Pages 434 - 474--The official Committee record contains additional material here.]


                      deputy librarian's statement

    Mr. Walsh. Thank you very much for your testimony.
    Before we begin questions of Dr. Billington, I would like 
to give General Scott the opportunity to make a statement if he 
would like.
    Welcome to your first appearance before the subcommittee.
    [A biography of Donald L. Scott follows:]

           Donald Lavern Scott, Deputy Librarian of Congress

    Donald Lavern Scott, retired Army brigadier general and 
vice president and national director of the AmeriCorps National 
Civilian Community Corps, has been appointed Deputy Librarian 
of Congress. He will assume his duties at the Library on or 
about September 30, 1996.
    Librarian of Congress James H. Billington said: ``I am 
delighted to appoint Donald Scott as my deputy and the 
Library's chief operating officer. His varied experience, his 
distinguished career in public service, and demonstrated 
competence as a manager and leader have impressed all who have 
met him.''
    Said General Scott: ``I am pleased and honored by this 
opportunity to work with Jim Billington and the dedicated 
employees of the country's oldest national cultural institution 
as we move ahead toward the 21st Century. There is much to be 
done, and we will need everyone's help to do it.''
    The Librarian has assigned General Scott full authority to 
manage the day-to-day administration of the Library's internal 
operations, making Library-wide decisions consistent with the 
Librarian's directions and established policies. The Deputy 
Librarian will allocate financial and other resources, monitor 
the Library's operational progress and ensure that the 
Library's mission is carried out and its objectives are met. He 
will lead the Executive Committee and provide direction and 
supervision to the Library's senior administration, ensuring 
that Library policies are implemented.
    General Scott has been serving since 1993 as the chief 
executive officer of AmeriCorps National Civilian Community 
Corps (NCCC), a division of the Corporation for National 
Service. The federally-funded corporation, established in 1993, 
recruits young people 18-24 years of age, from all backgrounds, 
for full-time community service. At AmeriCorps headquarters in 
Washington, D.C., he designed the organizational structure, 
developed the training program, recruited participants, 
established four sites across the country, and selected over 
389 community projects. In the NCCC program, high school and 
college graduates help communities solved problems in public 
safety, education, the environment, and in disaster relief 
operations.
    Prior to joining the NCCC, General Scott served the Mayor 
of Atlanta, Maynard Jackson, from April 1991 to December 1992 
as chief operating officer and chief of staff. His 
responsibilities as chief operating officer included providing 
public services to the city's citizens, dealing with human 
resources issues, empowering mid-level managers, all while 
dealing with the pressures of downsizing the city government. 
His chief of staff responsibilities included improving job 
performance in the various departments of the Mayor's office, 
including public relations, inter-governmental affairs, budget 
and finance, correspondence and community relations.
    In 1991, General Scott retired from U.S. Army active duty 
with the rank of Brigadier General after 31 years of service. 
At Ft. Gillem, Georgia, he managed a staff of 400 which 
provided financial, personnel, operational, logistical and 
training support for Reserve and National Guard units in the 
southeastern U.S. and the Virgin Islands. He expanded 
cooperative ventures between military and local business 
communities, coordinated the emergency operation center for the 
clean-up after Hurricane Hugo, and managed the activation of 
individuals and units in response to Desert Storm. His earlier 
career in the Army included stints in Germany and two tours in 
Vietnam. His decorations include the Distinguished Service 
Medal, the Legion of Merit, six Bronze Stars, and the Combat 
Infantryman's Badge.
    A native of Hunnewell, Missouri, General Scott received his 
B.A. in graphic arts from Lincoln University in Jefferson City, 
Missouri in 1960, as well as a commission as a Second 
Lieutenant in the U.S. Army, and his M.A. in counseling and 
human development from Troy State University in Montgomery, 
Alabama in 1982. Lincoln University conferred on General Scott 
its Honorary Doctor of Law degree.
    General Scott married Betty Jean Forte in 1962. They are 
the parents of two sons Jeffrey and Merill, and grandparents of 
Taylor, Desiree and Gena. The Scotts live in Alexandria, Va.
    General Scott. Thank you, Mr. Chairman.
    It is indeed an honor to be here. And it is a pleasure to 
appear with Dr. Billington to present our 1998 budget request. 
As you noted, Dr. Billington appointed me to be the Deputy 
Librarian, gave me the authority and responsibility to take 
care of the day-to-day operations of the great Library of 
Congress.
    I found that the staff, at all levels, has been extremely 
energetic, capable and are receptive to new ideas. In that 
regard I have started a facilitative leadership initiative that 
will help the staff improve the effectiveness of the workforce. 
Specifically, we want to better the relationship while at the 
same time pushing down authority, responsibility and 
accountability to the lowest levels.
    So it is a pleasure, and an honor to be here. It is also a 
privilege to help with the challenges that are facing us at the 
Library of Congress.

                      management improvement plan

    We have developed a comprehensive management improvement 
plan in response to our own studies and the studies that we 
asked GAO to help us with last year. And so in the areas of 
collections security, financial management, human resources, 
and other key areas, we have made significant progress in 
fiscal year 1997. And with your help, we think we can make even 
greater progress in 1998 and beyond.
    The current management improvement efforts that we are 
undertaking are all part of a long-range strategic plan which 
also calls for new automation systems which allows us to work 
smarter and faster with fewer people. That is why in our 1998 
budget, we have asked you to make a 5-year commitment to an 
integrated automatized system for basic Library operations.

                       integrated library system

    Nearly every other major American research library, 
including the New York Public Library, has converted to modern 
commercially available integrated systems, and they have done 
this within the past year. We have checked those systems out 
and we now know that there are systems available that can 
handle the size of our own Library of Congress.
    I would like to direct your attention to charts that you 
have in your packet. What this chart shows is how our current 
systems do business. As many business analysts have said, we 
still do business by the smokestack method, function by 
function.
    [The charts follow:]



[Pages 477 - 480--The official Committee record contains additional material here.]

                       integrated library system

    Now, we have about 2,000 employees who depend on this 
inadequate system at a tremendous cost of time, duplication of 
effort, and upkeep to this outmoded technology some of which is 
25 years old.
    What we want to show is that we actually have five large 
separate systems, and many smaller ones that support the 
Library's major functions. Now, it is important to note that 
these systems do not share data, and most or many of our 
important inventory records are created manually. Still we have 
only got it on paper, and it does not help us to get a good 
inventory and improve our collections security. So what we 
really need to do is replace these old systems with a single-
integrated system to support our acquisitions, collections, 
circulation, public service, collections security, and our 
other related activities.
    So this new system we are seeking funding for will allow us 
to centralize control and security, and will streamline the 
work flow while helping us to reduce maintenance costs.
    So we are asking for $5.6 million in 1998. And another $9 
million spread over the next 5 years that would complete this 
project. Now, all of this would make sure that we had the money 
to do the software, the hardware, the training and the data 
conversion so this would be the whole package. This would 
enable us to redirect some labor to other resources and 
critical areas. And it would also meet user demands both of the 
Congress as well as the general public.
    As a brief example of what this new system would do, this 
chart shows currently that if a member of your staff wanted to 
get a book out of the library and for some reason it wasn't in 
the first place they thought it was, it would take 20 steps to 
find that book. With this new system it would take four steps.

                   mandatory wage and price increases

    Meanwhile, Mr. Chairman, our current services depend on 
your funding $14.7 million in mandatory wage and price 
increases. Once again this is the largest part in our budget 
request. We are keenly aware that the Congress has given the 
Library very considerate treatment, and despite our best 
efforts, however, we now have little flexibility to absorb such 
costs. During the last 5 years, we have had a net reduction in 
our workforce of 435 FTEs, many of them highly skilled 
professionals. Without congressional funding for these 
mandatories in 1998, we would be forced to cut another 178 
positions which would impair our ability to provide services. 
Services that no other institution can provide.

           talking books for blind and physically handicapped

    In the same vein it is important to consider our request 
for $2.5 million to acquire 10,000 additional talking books for 
the blind and the physically handicapped in our Nation. Again 
we need your continuing help to help this Library in the future 
with our people and with our technology. This will enable us to 
do more with less, and improve service to the Congress and to 
the American people.
    We feel that if you give us the tools, we can do the job. 
The details are in Dr. Billington's statement. And in our 
budget justification request.
    We are now ready for your questions, sir.
    Mr. Walsh. I have some questions to be answered for the 
Record.
    [The questions and responses follow:]

                             Appropriations

    Question. Overall, the Library is requesting total 
appropriations of $14.7 million ($14,663,651) in the various 
accounts for mandatory pay items and price level changes. That 
is 4.1% out of the 7.1% appropriations increase that your 
budget states is required just to maintain your current 
workforce and workload. Is that correct?
    Response. Yes, that is correct.

                             Mandatory Pay

    Question. Is there any flexibility in that request? (Such 
as additional contracting out so that jobs don't have to be 
replaced when they are vacated?)
    Response. There is very limited flexibility because the 
Library must follow, as a matter of law, Executive Branch pay 
rules--including locality pay. The President has also proposed 
increasing agency retirement contributions in fiscal 1998, 
which would increase the Library's payroll costs by $2 million. 
This proposed change is not included in our mandatory pay 
request of $10.7 million.
    The Library continues to evaluate activities for 
outsourcing and successfully outsourced the CRS messenger 
services in September 1996--a reduction of 10 FTE's. The 
Library also evaluated the outsourcing of preservation 
microfilming (part of the Photoduplication Service) last year 
and determined it was more cost effective to keep the function 
inhouse. Additional opportunities for outsourcing are being 
evaluated (e.g., logistical services at Ft. Meade and security 
services), but we do not project a major reduction of staff 
from outsourcing activities in fiscal 1998. Last year, the 
Library forwarded a study to the Committee which described 20 
outsourcing projects that the Library completed with an 
estimated savings of $3 million and cost avoidance of another 
$14 million. Key projects completed were binding services, 
upgrading premarc cataloging records, payroll processing, and 
custodial services. The Library will continue to evaluate 
activities which are not considered inherently governmental for 
contracting out in which (1) there is a potential for cost 
savings and (2) program services would be improved or equally 
served.

                          Cataloging Arrearage

    Question. The salaries and expenses budget is the backbone 
of your agency. The book purchase budget, cataloging, and 
reference and reading room funding is in this appropriation. 
How many of the 111 million item holdings have yet to be 
cataloged into the collections?
    Response. At the end of calendar 1996, about 21 million 
items were uncataloged, a 48% decrease since the arrearage 
census was undertaken in 1989.
    Question. Where are these uncataloged items stored? Are 
they completely inaccessible if they are not cataloged?
    Response. Most unprocessed items are stored in the 
divisions responsible for them. Some arrearages are stored at 
Landover and in the Adams Building. All items in the arrearage 
are available for use--when they can be located in a reasonable 
time frame. For example, some manuscript collections arrive at 
the Library in good enough order that staff can find items from 
a particular year relatively quickly. Other collections--
manuscripts, photographs, etc.--arrive in such disorder that 
they cannot be made accessible until they are processed. That 
is why our dual commitment to security and service makes 
continuation of the arrearage reduction program so important to 
the Library and our users.
    Question. How much is in this budget to do the cataloging 
and to what extent will this budget reduce the backlog?
    Response. Approximately $50,000,000 is for salaries of 
catalogers and other arrearage reduction staff, who are 
responsible for keeping current with new receipts while also 
continuing to eliminate arrearages identified in our 1989 
census. If we are able to sustain current arrearage staffing 
levels we expect to meet our arrearage reduction goals in FY 
98. Our goal is to eliminate completely the arrearage of print 
materials and maps by December 2000, and to reduce the 
remaining special format arrearages 80% by 2005.

                       Integrated Library System

    Question. The ``growing workload'' request for S&E is $6.3 
million. The largest item is the $5.6 million for an integrated 
library system. This is the first installment of a $15.8 
million 7-year program. I know you have outlined that project 
in your opening statement. What specific improvements are your 
trying to make? When will we see results?
    Response. Specific improvements include: improved security 
for the collections by tracking what we have and where it is at 
all times as the materials are processed and used; improved 
service for Library patrons to know ``Is the material I want 
available for my use now?''; improved workflows, cost 
avoidance, and reallocation of staff to mission critical 
activities; and improved and expanded system capabilities to 
enable the Library to migrate to a modern technology 
infrastructure. The Library expects to go ``live'' with the new 
integrated library system by October 1999, and expects 
immediate results in terms of improved collections security and 
service to Congress and the public. After the conversion and 
loading of all of the Library's large manual files (e.g. 
shelflist, serial records) into the integrated library system, 
and as the new system fully integrates the Library's cataloging 
and other processing activities, the Library will see the 
greatest results in terms of workflow improvements, 
productivity enhancement, staff reallocations, and cost 
avoidance.
    Question. How will this new system assist library patrons 
to locate their research needs?
    Response. The new system will provide improved service by 
enabling the Library to respond to Congressional service 
requests as well as the 1,100,000 annual inquiries from the 
general public by using for the first time a single interface 
to information about the Library's vast collections, as well as 
providing online access to 200 years of inventory information 
for the first time. The Library will also make all of these 
records available over the Internet so that potential patrons 
everywhere can learn what the Library collections have that 
match their research needs.
    Question. How will it aid the cataloging process? Will it 
produce savings and reduce personnel costs?
    Response. The integrated library system will improve work 
flows, avoid costs, and enable the Library to redirect staff to 
high priority mission work, such as collections security and 
arrearage reduction. This significant opportunity for 
reinvestment of staff expertise derives from replacing large 
manual files; eliminating redundant keying; integrating the 
cataloging process with other processing activities of the 
Library (e.g. acquisitions and labeling); facilitating the 
real-time exchange of bibliographic and authority records in 
our national shared databases; facilitating use of copyright 
records for Library cataloging; and providing consistent and 
up-to-date management reports and statistics. The ILS is also a 
critical element in helping the Library deal with the year 2000 
or ``century change'' problem.
    Question. For the record, give us a timeline of when 
functional products or system components will be completed with 
this funding. Also, provide your studies of the cost-
effectiveness and return on investment from this proposed 
system.
    Response. The timeline appears on the last page of the 
business case document, The Case for an Integrated Library 
System at the Library of Congress, January 30, 1997, supplied 
at the request of the Committee with these responses. The 
Library is also providing a copy of the Alternatives Document 
for the Integrated Library System for the Library of Congress, 
prepared by the Abacus Technology Corporation, November 15, 
1996. A separate requirements analysis was also completed. The 
requirements analysis was used to complete the alternatives 
document and will be a critical part of the procurement 
process.

    [Clerk's note.--The first document referred to above is 
reproduced here. An executive summary of the second document is 
reproduced here. The complete ``Alternatives document . . .'' 
has been retained in Committee files.]

[Pages 484 - 524--The official Committee record contains additional material here.]


                      Reader Registration Stations

    Question. The growing workload budget includes 31 new 
positions aimed at improving the security of the collections: 
13 FTEs for reader registration stations and 18 for additional 
Library police officers. What are ``reader registration 
stations''?
    Response. The reader registration stations are a key 
component of the Library's collections security program because 
registration will enable the Library for the first time to know 
for certain that the people using our collections are who they 
say they are. Each researcher using any of the Library's 
reading rooms must first go to a reader registration station to 
obtain a Library-issued reader identification card containing 
the researcher's name, photo, signature, and a unique card 
number (Members and Congressional staff are admitted to reading 
rooms with their congressional IDs). The console operator 
issues a reader identification card only after the researcher 
provides proof of identity (a photo ID) and proof of residence. 
Staff then create a researcher database providing key 
information on each researcher including address, photo, and 
digital signature. In the event of a problem with a collections 
item, the individual who last used the item can be identified 
through the reader registration database and a follow-up 
inquiry can be conducted.

                        Members' Opening Remarks

    Mr. Walsh. Thank you very much, General, for that very 
thorough and forward-looking report.
    I think we will open it up for questions now. I have 
several that I would like to ask. I did read through Dr. 
Billington's testimony prior, and there are a number of things 
that occurred to me.
    First of all, I think--if I could presume to speak for the 
Members of the subcommittee, I think we all have a deep abiding 
interest in this institution, the Library of Congress. It is 
part of us, it is part of this body. It is, as you pointed out, 
the most inclusive repository of all human knowledge, and in 
the Information Age this is certainly the place that would be 
considered a gold mine.
    Coming from business, I remember as this Information Age 
really started to take effect, one of the real problems was 
managing information. There are tremendous amounts of 
information and you can be stymied by the amount of 
information, you can get to a point where you can't make a 
decision because you have too much information.
    So I think what we really have to do, in all of the 
decisions that we make, forward-looking, is find better ways to 
manage that information, make it accessible and understandable. 
And it's more than access, more than just having the ability to 
get at it, but for people that are uninitiated, to help them to 
find it, as you pointed out, breaking that 20-step process down 
to a 5-step process. So I think we want to make sure that we 
are protecting the information, that we are managing it well, 
and that we are making it accessible. I think those are 
certainly some of the priorities that I would have; all in 
light of the downward pressure on spending on the Federal 
budget. But we need to be wise, we need to be not penny-wise 
and pound-foolish. We have to keep the big picture all the 
time.
    Just if I could, there is a reference to mandatory--the 
$14.7 million funding to pay for mandatory increases. Also, $11 
million to meet critical growing workload increases; could you 
comment on what those would be, either of you?

                          mandatory increases

    General Scott. Yes, the mandatories are wage increases that 
we have to pay, and then there are price level increases. For 
example $1.1 million would be for the purchase of materials for 
the collections. Over the last years, with inflation being what 
it is, our purchasing power has decreased. And this would give 
us the opportunity to make sure that we can replenish and keep 
the collections well stocked.
    Mr. Walsh. On page 2, Dr. Billington, your statement 
referred to $14.7 million for pay raises and we talked about 
those. I was curious as to this $11 million to meet the growing 
workload increase.

                            growing workload

    Dr. Billington. Well, that is basically an aggregation. The 
largest component of that, $5.6 million, is for the electronic 
Integrated Library System. But also the----
    Mr. Walsh. That ILS funding is in that $11 million?
    Dr. Billington. Yes, along with the other principal 
elements--security and succession planning, which is the 
planning for the future. More than 50 percent of our staff is 
going to be eligible for retirement in the period of this 
current strategic plan which goes out to the year 2004.
    Most of that is in CRS, where the need exists for the kind 
of specialists with the knowledge to support the work of the 
Congress, and where the knowledge has been built up over many 
years. We have very low turnover. But with the large emerging 
retirement group we need to be mentoring and transferring some 
of that unique knowledge that is accumulated by CRS people who 
live with the collections and with the concerns of the Congress 
over the years. We have to start planning that.
    Those are the principal elements, plus the important 
material for the blind and physically handicapped.
    Mr. Walsh. It is an interesting challenge. It is akin to 
having an elder relative in the family. If you want to get the 
family history, and you don't get to them before they are gone, 
you lose it.
    How do you take the institutional memory that you have that 
is reposited in these individuals and make that available to 
everybody else?
    Dr. Billington. We feel the major concern is to switch from 
a lot of process work that can be better done via electronics, 
into knowledge navigation. This means that we have to develop a 
lot of skills with the people we already have, and we have to 
mentor and transmit accumulated knowledge.

                          internal university

    And we hope to give some vitality to this ``internal 
university'' idea that we talked about with the committee last 
year, which is not going to be a traditional university in the 
sense of a curriculum. But it is going to be a process of 
transmitting the unique knowledge and experience that our staff 
has acquired over the years to a new generation, plus retooling 
quite a large number of our people so they can help with the 
navigational task. To help you and others in the government and 
the country, to make better and fuller use of this enormous 
supply of knowledge and information that we have here right on 
Capitol Hill. We have 530-plus miles of shelves. We are adding 
7,000 items every day, with a million daily electronic 
transactions going on.
    All of this is happening with 435 fewer people than we had 
5 years ago. So we are doing a great deal more business with 
less.
    We feel we have very gifted and hard-working staff that is 
doing more with less. We have got to transmit some of this 
knowledge to younger specialists that we have to bring in and 
we have to retool and help many of our people do more skilled-
type tasks in the future. And that is why the new kinds of 
leadership training that General Scott is bringing to us is so 
important.

                          library acquisitions

    We get most of our materials by copyright deposit or by an 
elaborate system of exchange or overseas purchasing. We have a 
relatively small acquisitions budget of $8.5 million, for a 
system that added 2.5, million items to the collections last 
year.
    The fact is that in this last 4 or 5-year period we have 
declined from purchasing 930,000 items a year, to getting a 
little over 700,000 with a fixed acquisition budget. That is 
practically all inflation, something that we can't do anything 
about in overseas purchasing; we get most of our domestic items 
through copyright deposit.
    If you miss a year of acquisition, you can never recover 
that. If you miss a year of a periodical, the value of the 
whole periodical run is degraded.
    We can't regulate our output, unlike other organizations. 
And we cannot let the arrearages slip. We just need this 
measure of help to do precisely the things that you have 
outlined.
    Mr. Walsh. One of the goals and missions--one of your 
missions, one of our goals is to make this information 
accessible to those who are visually or physically impaired. 
And you talk about these book machines, $2.5 million for those. 
I would assume those are bid?
    General Scott. I would like to call on Kurt Cylke, who is 
Director of our National Library Service for the Blind and 
Handicapped, to respond.

     national library service for blind and physically handicapped

    Mr. Cylke. We currently serve 750,000 people. And we have 
approximately that number of machines in the field at our 
network of libraries, two of which are actually in New York 
State.
    We have a very sophisticated management system. We have a 
very well-managed, I believe, repair system. However, we are 
right at the edge of not being able to meet the needs of people 
who apply for the program, who are blind and handicapped. The 
$2.5 million is asking for 10,000 more machines to meet those 
needs as the people enter the program.
    Mr. Walsh. And those are bid?
    Mr. Cylke. This is done through the usual competitive bid 
process. Ours is a nonstandard machine that operates at half 
speed on four-tracks. So you get four times the amount of 
material on each cassette than you would get on a standard 
machine. The machine is procured through a competitive bidding 
process with the contracts and logistics division of the 
Library of Congress managing the procurement.
    Mr. Walsh. How does it differ from Books on Tape?

                             books on tape

    Mr. Cylke. Books on Tape is a very high-quality current 
producer for the sighted world or for those blind people who 
can afford it. They produce best sellers and the more current 
popular types of things.
    They are a mirror image, if you will, of our materials, in 
that they copy--with no disrespect, but they copy our 
technology and our method of production. They are a small 
commercial operation that provide sales and rentals to sighted 
individuals and others.
    The only comment I would make is that in the blind 
community, there are 750,000 people using the program, our 
program is the only source of public library information.
    Mr. Walsh. This is made available through the library 
system in the Nation?
    Mr. Cylke. Through every State in the United States, except 
one, plus the territories. In New York, as I said, we have two 
library outlets--one in Albany and one in New York City.
    Mr. Billington. But they are made available to the local 
libraries.
    Mr. Cylke. Yes, through the system.
    Mr. Walsh. I have a question to submit for the record.

    Question. For the record, update the readership, 
acquisition, and machine data.
    Response.

    [The information follows:]

[Pages 529 - 537--The official Committee record contains additional material here.]


                           library networking

    Mr. Walsh. I would like to come back for more questions.
    Mr. Serrano?
    Mr. Serrano. First of all, gentlemen, let me also echo the 
Chairman's comments on the fact that we know that the Library 
is very important to us, very much a part of who we are in this 
institution. And certainly I am a big supporter of the Library. 
I hope that we can be helpful during a very difficult time and 
that any action we have taken in the past, or will take in the 
future, will in no way hurt the operation of the Library.
    I was interested in, in fact, how you get out this 
information. You were mentioning libraries, and if you could 
just take a couple of short minutes to tell me how that network 
works. Is it through regular public libraries, do you have 
branches?
    General Scott. I will let Winston Tabb, a long-time 
employee who oversees this operation, to give you that 
information if I might.
    Mr. Tabb. We collaborate very much through a series of 
associations and consortia with various libraries to be sure 
that the information needs of all the people in the United 
States are met. What we try particulary to do is not duplicate 
what is happening at the local or at the State level.
    So, for example, we have a program whereby if someone 
writes a letter to the Library of Congress with a fairly 
routine kind of reference request that we think would be 
answered even better at the local library, we refer that back 
to make sure that the person not only gets that information, 
but knows that they can get that at the local level. So we are 
trying to use each of the national information resources in the 
best way.
    We call ourselves the ``Last Resort Library,'' so that we 
provide very extensive collections that are unique to us, and 
provide resources for managing those. But people should go for 
best sellers or information they could find in the World 
Almanac to their local public library. We work very closely 
with our State networks and local libraries, to be sure that 
the public gets satisfactory service.

                          on-line information

    Mr. Serrano. And through the Web, of course, you are 
reaching, you said, millions of people who are coming in.
    Dr. Billington. Yes, our entire card catalog is on-line. 
Previously you had to go to your library, breaking your back 
pulling the catalog drawers off the shelves; you can get that 
catalog on-line now locally throughout the country. Plus we 
share all of our exhibits that have been put on line now for a 
long time. And all of the congressional information, of course, 
on THOMAS, other automated State information, and, of course, 
the National Digital Library which is projected to get 5 
million items of American history and culture on-line. Drafts 
of the Declaration of Independence and Gettysburg Address are 
already on line. Civil War photographs, a great deal of this 
material, about 300,000 items have been digitized, and 
1,700,000 in the pipeline. That is provided free.
    Mr. Serrano. How many? A million what?
    Dr. Billington. 1,700,000 are in the pipeline for 
digitization. We have a program which is ahead of schedule that 
the Congress has supported, first with the electronic American 
Memory experiment taking the appeal and usefulness of our 
American collections on CD-ROM over 5 years at 44 sites in 
schools and libraries around the country. Now we are putting 
thematerial on line in our National Digital Library program so 
that it is available to anyone with an Internet connection.
    You can use the congressional information on the THOMAS 
system. You can come into the Library exhibits. But 
particularly, you can benefit from the digitization of high-
quality American history material. Not books, but mostly 
special format material. And that program has had the advantage 
of also helping clear our arrearages, which is something that 
this committee has been terrifically supportive of. So we have 
cleared 48 percent of the 1989 backlog of uncataloged items, 
while keeping up with current acquisitions.
    So a great deal of this stuff is going directly from having 
been in arrearage, where nobody knew where it was, to being 
electronically available on-line around the country. And it is 
this electronic vitamin enrichment for the whole library system 
and the school system of America that we think is one of the 
really exciting prospects for the education of the young. And 
we found the fascinating thing is that many of the kids who 
were not reading at all, but very audiovisually inclined, 
playing Nintendo games and that sort of thing, respond to 
American history materials on-line. They get into this, form 
their own questions and then begin to get into the reading and 
learning mode.
    So we think it is very exciting frontier and it is 
particularly important to get it in the libraries, because even 
a simple computer is not that inexpensive for many families. So 
having computers in the public libraries and public schools, 
and having this material available free from us, is an 
extension, we think, of what the Congress did at the end of the 
last century, building the Jefferson Building and opening its 
Library to the public.
    Now we are opening the Library's collections to the public 
beyond the Washington area, so by the year 2000, we hope every 
Congressional district will have a very active program making 
use of this for educational purposes. It is already beginning.
    General Scott. And you have in your package a picture of 
our new Web page, which you will find very useful in describing 
all the information we do have that is on-line.
    [A copy of the Web page follows:]

[Page 540--The official Committee record contains additional material here.]


                          inner-city outreach

    Mr. Serrano. Thank you.
    Mr. Chairman, I had had a conversation prior to this 
meeting with the Librarian. And I wanted for the record to 
express a concern that I have, a concern which may not be 
totally well-founded but one that I need to put on the record 
anyway. And that is that as the Library grows--I am making this 
as a request--as the Library grows, and as we continue to 
enhance its ability to get out this information in a new modern 
way, we consider that the Library could be a great tool in 
helping some of the more difficult areas in this country, such 
as the inner-city, by bringing the information of the Library 
to the inner-city.
    A lot of people will be able to reach you from many 
communities throughout the country right from their bedroom or 
living room through this new technology. But many places in the 
inner-cities, people will be lagging behind for many years in 
using this new technology, unfortunately. So we must find ways 
to reach them and to encourage their participation in getting 
this information.

                   information from u.s. territories

    And secondly, an issue of very personal importance to me: 
Next year we will celebrate 100 years of the United States' 
relationship with Guam, with Puerto Rico. We have had that many 
years with American Samoa, the Virgin Islands and the Marianas 
and Palau and other places. I would hope that throughout the 
years we have been paying attention to any information which 
should be part of the Library and that we continue to really 
get as much information as we can from our territories.
    We don't know, none of us can predict what the future 
outcome will be of these relationships, whether it will be 
anything from independence to statehood to new territorial 
agreements. But that relationship is very much an American 
relationship. That history is very much American, as much as it 
is Puerto Rican or Samoan. And I hope that the Library is 
reaching out and getting as much information as possible, not 
just from the 50 States but from the territories, also.
    Mr. Walsh. Well said.
    Would you like to comment?
    Dr. Billington. I think those are excellent suggestions. We 
do have quite a lot of material, but I think it would be 
appropriate for us to try to draw together a report to you of 
what we have and what our plans are. It is very much a part of 
our responsibility.
    Mr. Walsh. It is a real opportunity for our students to 
learn about those areas, too. How many kids in this country 
know anything about Guam, or where it is, for that matter, or 
even Puerto Rico?
    Mr. Serrano. I have to tell you, that invites the story of 
a Member of Congress who once asked me on my next trip to 
Puerto Rico to bring him stamps from the Puerto Rico Post 
Office.
    Mr. Walsh. I am sure you handled it gracefully.
    Mr. Serrano. I brought him back stamps.
    Mr. Walsh. With the American Flag on it.
    Mr. Cunningham.

                          succession planning

    Mr. Cunningham. I met previously, yesterday, as a matter of 
fact, and I only had one concern. I would be more--personally, 
more apt with the expanding capabilities and requirements for 
personnel to support an increase in personnel, versus doubling 
up some positions. I realize that in a very few short years 
that your experienced personnel are going to be up for 
retirement and there is a request in there to double-up.
    I would like that in every job that I have had, but a lot 
of times we are just thrown into the lion's den and forced to 
learn quick. And I think additional funds to do that might be 
questionable, at least that I would have concern about it.
    I would like to look at some alternatives. You may have a 
person on a volunteer basis, knowing they are going to get the 
job, come in and intern to different methods by which we may 
achieve that. We can save some dollars there, and actually 
increase the number of total personnel without increasing the 
funding requirements--as I went through what you gave me 
yesterday and today.
    General Scott. I must say that when I first heard about the 
succession plan, as we call it, I was somewhat skeptical for 
the same reasons that you just talked about. But then the more 
that I understand about the Library of Congress and about how 
unique many of the functions are, that they are in the cases 
that we have identified, one-of-a-kind functions, and you don't 
find another librarian or another individual in another 
profession who does what these individuals do.
    And so, it was on that basis that, yes, I became a 
believer. This is something that we need to do to maintain the 
skills, ability, and most importantly, the services that the 
Congress has come to expect.
    Mr. Cunningham. How many billets are you talking about, 
General?
    General Scott. We have identified 37 billets that we would 
like to do in 1998. And then each year thereafter there will be 
another, say, bulge of individuals who have some of these 
unique skills that we would be coming back and saying we want 
to also make sure that we have in-house people or grow people 
who could take those responsibilities.
    Mr. Cunningham. I know that I fought for a program for 
businesses that intern students, and get a tax break because 
they are teaching them a skill. But in this case, would it be 
possible that since these people are not full-up rounds that 
you would be hiring, to hire them at a lesser pay rate while 
they are in an intern program? And let them learn the skills to 
save dollars?
    General Scott. I would say, certainly that it is possible 
that we could do that, and it is something that we could take a 
look at.
    Mr. Cunningham. I have not talked to the Chairman or 
anybody. But as we went through this yesterday, I did read 
through a lot of your stuff, and that was the only flag that I 
had.
    Dr. Billington. I think in principle, that sounds like a 
useful thing to do, and we could take a further look at it. 
There are two problems: First of all, the new people are not 
simply duplicating what the mentor would be doing. They would 
be working full-time. They would be working in an organization 
which has lost one-tenth of its staff over the last 5 years so 
that people are already stretched out.
    There is a full complement of work for those people. Some 
25 billets are in CRS. They are going to be losing more of 
their highly trained specialists with 20, 25, 30 years 
experience, which is a kind of institutional memory for the 
Congress.
    Therefore, the idea is to bring these new people on not 
just to simply sit and have a tutorial relationship with the 
older person but to do a full day's work, but at the same time 
be gleaning over a period of years the specialized kind of 
talent that, as the General said, no outside experience 
prepares them for.
    Mr. Cunningham. It is just like in the military service. If 
we have a top sergeant in the billet who is very experienced 
and we are going to lose that person, we put in a private to 
learn his job. Well, that private doesn't receive as much pay 
as the top sergeant while he is learning that skill. And I 
think it would be cost savings, and that is the principle I was 
looking at.
    General Scott. Like I said, I could certainly look at that. 
I would like for Dan Mulhollan to address that when he comes 
up. He has had a lot of experience explaining this.
    Mr. Cunningham. Mr. Serrano, can I have some of those 
stamps?
    Mr. Serrano. Yes, I will bring you a military uniform, too.
    Mr. Walsh. Mr. Latham?

                             turnover rate

    Mr. Latham. I guess the same line of thought that Duke had 
here, is can you give us a historical reason why we have such a 
high number of retirements right at this particular time? I 
mean, was this the initiation or the start of something 25 
years ago when you brought a whole bunch of new people on then 
and they are now all going out together?
    Dr. Billington. We have had a very low turnover rate, about 
3.7 percent annual turnover over the years. The Library built 
up very rapidly in the postwar period. So we are simply nearing 
the retirement time of a large number of people who came on at 
one time, during 1960s and the early 1970s. There was the 
development for the first time of a group of global experts.
    It wasn't really until after that period of growth, that 
what had previously been the Legislative Information System 
became the Congressional Research System. It now had a more 
long-standing and virtually permanent place and built up very 
rapidly.
    We developed this tremendous bank of expertise, but it also 
meant that at a certain point a lot of the experts become 
eligible to retire.
    General Scott. If I could I would like to call on Dan 
Mulhollan because he has particular insight in this arena.
    Mr. Latham. And he is used to telling stories.
    General Scott. And he has some good ones, and I want you to 
hear them.

                     congressional research service

    Mr. Mulhollan. Twenty-five of the thirty-seven positions 
with the succession initiative are in CRS. The reason is the 
1970 Reorganization Act, where at that point in the time of the 
Watergate era, the Vietnam War, Congress was concerned about 
being turned away by the Executive Branch, its use of Executive 
Privilege, doors being closed, and not getting access to 
information and analysis that was needed.
    As a result of the 1970 Reorganization Act, a number of 
things happened: Expansion at the General Accounting Office; 
renaming what was then the Legislative Reference Service to the 
Congressional Research Service, with expanded responsibilities 
to assist the congressional committees. The proposal was to 
expand the Research Service staff threefold.
    In the charts accompanying our budget submission you will 
see a real rise in the retirement numbers in the years 2003, 
2004 by increments of 50. Our staff were hired in 1972,1973, 
and 1974 to meet those expanded responsibilities that were given to the 
Service in the 1970 Reorganization Act. And a large number of those 
people stayed. They are the Legislative Civil Service; they are, as in 
a number of committee staff as well, here because they are dedicated to 
serving the Congress.

                        crs institutional memory

    What I am concerned about, and what we are here in this 
institution, is maintaining that institutional memory.
    The average life-span right now in the House of a 
Legislative Assistant is 1.9 years; for Legislative Director it 
is 2.6 years. And in CRS, we have policy analysts and 
information specialists who have been devoted to understanding 
legislation in every stage of the process for 18.5 years.
    I have only been here for 28 years. But my experience shows 
that----
    Mr. Latham. And you know we are voting on term limits.
    Mr. Mulhollan. All the more reason.
    Mr. Serrano. He makes a good argument against it.
    Mr. Mulhollan. All the more reason for you to have someone 
who understands. We bring people from various disciplines to 
work for the Congress. And it takes, from my experience, about 
5 years to develop fully a particular subject expertise within 
the legislative context. You have good industrial economists, 
but how does it apply to the writing of the law? It takes 
subject expertise, as well as knowing the legislative process, 
because we are dealing with disciplines that can assist in law-
making.

                      crs graduate recruit program

    Directly to your point, sir, Mr. Cunningham, what we are 
looking at is bringing people into entry-level positions. We 
have a Graduate Recruit Program. We also have been using 
volunteers, but you cannot preselect for the positions. You 
have to be concerned about offering a level playing field for 
everyone to be competitive.
    Mr. Cunningham. Would the President's initiative of having 
business look into hiring the welfare recipients, is there any 
possibility of looking at that possibility of using former 
military personnel or welfare recipients in some of these kinds 
of jobs? I am sure there are people out there who have been 
laid off that are statisticians, for example. That are now on 
hard times.
    Mr. Mulhollan. The question is that may well be possible. 
What we are looking at is bringing the best minds to you, to 
the task of making decisions.
    Mr. Cunningham. I assume that is it possible. I have run 
across people who have been laid off. They worked for IBM or 
someone like that and now their families are in disrepair.
    You know, I think the President had a good idea in his 
speech about getting business involved in hiring welfare 
recipients. We have got to put them somewhere. And every 
portion of the government and private enterprise ought to be 
looking in that direction.
    Mr. Mulhollan. I would--be grateful to work with you for 
any ideas you may have; what we want to do is get the 
appropriate recruitment net out to bring in the best minds to 
help the Congress in its decisions. That is what our goal is.
    Mr. Cunningham. I would just ask you to look at it.
    Mr. Mulhollan. We will take a look. We certainly will.

                          crs staff expertise

    Mr. Latham. I am obviously very supportive of maintaining 
the quality and expertise that you have, because it is a 
tremendous asset. But it would almost appear that these people 
are working entirely in a vacuum today. I mean, is it that no 
one else is allowed to have interaction and to learn.
    You know, in a normal business you have interaction all the 
time, and there is shared knowledge. It would be nice if every 
one of us had someone following us around so that someday they 
could inherit the knowledge or maybe it wouldn't. I don't know. 
There might be more of us running around here.
    But, your argument seems to be, and I am not necessarily 
opposed to it, but that these people are actually existing in a 
vacuum and that no one else understands anything about what 
they do, and you are talking about specific knowledge. But 
isn't a lot of that already written down, their knowledge.
    Mr. Mulhollan. Well, most certainly. When you bring in, 
someone from a particular discipline, for instance, a natural 
resource economist who understands and can do the kinds of 
modeling necessary when you are looking at the trends with 
regards to a certain natural resource and its marketability and 
other factors. It is then bringing that kind of expertise and 
helping you with previous laws that have been written and what 
might be taking place in the future.
    An example is that not too long ago, in the transition, 
committee staff were looking for help on markup procedures. We 
were able to pass that expertise along. Political scientists 
have texts on markup, but it is not the same as being able to 
assist members and staff on the actual procedure itself. CRS 
staff are called upon for help and are called upon to assist on 
the markup process itself.
    You have over the years, both in the House of 
Representatives and in the Senate, people who, in fact, 
understand the drafting of law and its relationship to the 
analysis offered in various disciplines. What we are asking for 
is a brief period where, I believe, on a modest scale of 25 
FTEs in fiscal 1998, 25 in fiscal 1999, and then 10 in fiscal 
2000, and then reducing by 10 FTEs over six years back to our 
current number. The ability to manage the mentoring process is 
I think, very helpful.
    Of course, you are quite correct, we are not in any vacuum. 
But hands on, day to day, understanding what happened in 1986, 
what happened in 1966, with regard to a law, as well as the 
implications of the legislative provisions and case law that 
followed has been carried on by CRS staff. It is a complex 
learning process.
    Mr. Walsh. We will insert your prepared statement in the 
record, Dan.
    [The prepared statement of the CRS Director follows:]

[Pages 547 - 556--The official Committee record contains additional material here.]


                legislative on-line systems coordination

    Mr. Latham. One other thing that is on a different subject, 
we have had testimony previously here on similar systems, the 
Clerk, the Government Printing Office and the THOMAS system, 
with the Library of Congress have all been mentioned. Is there 
a lot of redundancy here?
    I am just saying, do we have three different agencies who 
are trying to do exactly the same thing?
    Mr. Walsh. I think the point is well taken. Is there any 
coordination between--among the efforts between the GPO and 
Clerk and Library of Congress in terms of what is available on-
line?
    Mr. Latham. Yes. That is the point.
    Dr. Billington. Mr. Mulhollan might want to add something, 
and Mr. Becker, too, but the fundamental difference was this: 
the THOMAS system was from the beginning a searchable 
legislative information system, and the GPO effort was 
essentially an electronic publishing system, an attempt to 
electronically publish this material. I think there is quite a 
profound difference between the two.
    Now, they have been upgrading this system, but we have also 
been enhancing the THOMAS system, and when you begin with the 
idea of general information and searchability on an information 
system, you are dealing with something fundamentally different. 
By the way, we are paying now for GPO information as we weren't 
before.
    Mr. Latham. You are aware the Clerk wants to set up a 
system also.
    Dr. Billington. I think there is a difference.
    Mr. Latham. How many times are we going to do the same 
thing?
    Dr. Billington. Herb may want to add to this.
    Mr. Mulhollan. The legislative information has, in fact, 
been a coordinated effort on the part of both the House and the 
Senate to provide an integrated information system for you.
    Now, there are three components. One is the creation of the 
data, and that is basically the committees working with the 
House Clerk or the Secretary of the Senate. Two, it is the 
management of the data, and that data is the responsibility of 
the House Information Resources under the Chief Administrative 
Officer and Senate Computer Center under the Sergeant at Arms. 
And then the data retrieval, is what the information system. 
And that data retrieval, is what the Congress asked CRS and the 
Library to undertake; that is basically the linking, how to 
retrieve the information. Those are the three coordinating 
components.
    GPO ACCESS is an excellent electronic document delivery 
system. What the Library and CRS are building is an information 
system, that is, providing for the interrelationship of data. 
The goal requires absolute coordination with both House 
Oversight and Senate Rules. CRS is getting direction from House 
Oversight and working with both sides of the aisle, in deciding 
on a staged basis, what is needed first. As initiated in the 
105th, the legislative information system has goals for every 3 
to 6 months for improving the system of the interconnection of 
legislative information. Both oversight committees are 
dedicated to minimizing duplication, and I believe that is 
taking place. There is coordination.
    Mr. Latham. I would just like to say, I think when I first 
came to Congress here, Dan was one of the first people I met, 
and you are really good. He has found a way to answer these 
questions many times over.
    So thank you, Mr. Chairman.
    Mr. Walsh. I think it is a great question. You know, with 
this rush to make all of what we do accessible and all of this 
information accessible, everybody is trying to get in the act, 
and rightly so. And I think one of the things we have to guard 
against is winding up with a whole lot of different information 
databases. Then 20 years from now somebody saying, well, like 
we did yesterday with the Capitol Hill Police, why do they have 
a different set of books on the Senate side than they do on the 
House side? Maybe they won't wait that long to second-guess the 
decisions that we make, but I think it is a very important 
question, not to mention what the executive branch is doing. I 
have a few questions on CRS products to submit for the record.
    [Questions from Chairman Walsh and responses follow:]

[Pages 559 - 560--The official Committee record contains additional material here.]


    Mr. Cunningham. Mr. Chairman, by the same token, if you 
look at even in the military, we have systems that can't talk 
to each other. We found that in Grenada and so on. This ought 
to be a coordinated effort so that we have digital compatible 
systems in the States and here, in our libraries and in our 
schools as well, so that they can hook up and use it at the 
least cost.
    Dr. Billington. I should say that all of our electronic 
things come off the Web home page. We now have a discrete 
learning page that comes off of that. You can patch through to 
all of this Library material from our home page, although there 
are different kinds of material. And, the fact that we have our 
catalog on-line, we have our exhibits on, we have the American 
history material reachable through the same home page as the 
THOMAS information, all brings more people into the flow of 
congressional information itself.
    And I think the usage of individual aspects of our 
electronic outreach is much enhanced by the fact that people 
discover them on the quite user-friendly, free home page. You 
can get this stuff free, and that is very important. Everything 
we do has essentially been made accessible free to the public 
the way it was when Congress opened up our reading rooms.
    Mr. Cunningham. Would the Chairman yield for a minute?
    Mr. Walsh. I would be happy to yield.

                         systems compatability

    Mr. Cunningham. My biggest frustration is over our full 
compatibility. To give you an example, all of us get business 
cards. Then you have to sit, and write them all down, and put 
then on either your Rolodex or in your phone book, and then the 
pages fall out, and you have to do another one andeverything. I 
was reading in an American Airlines magazine where they had this card 
scanner where you put the card in and bang, it goes into your computer. 
I went and bought it. But now I find I can't use it except with Windows 
95, which we are not using yet.
    So that is the frustration. I have schools that people are 
donating computers to, and they don't know how to upgrade them. 
There are some companies now that are upgrading the systems so 
that they are ready to use. But whatever we recommend, with our 
libraries and our schools and this whole effort, is a system to 
where there is a least amount of problems at the schools if 
they want to access our libraries. There may be some direction 
we could put forward in recommendations, say, this is our plan 
over the next decade, this is the direction we are going and 
the kind of systems that we are using, so that we can upgrade 
those in our schools and in our libraries at the least amount 
of cost. And I think it would be very beneficial for the 
country.
    Mr. Walsh. Mr. Latham.
    Mr. Latham. If you would yield--and I would like to borrow 
your scanner until you get Windows 95.
    My point is, and you are probably not aware that, the Clerk 
wants to make this information available on-line to the public. 
The Government Printing Office wants to put it on-line to the 
general public. You want to put it on-line to the general 
public. All we are saying is there maybe should be some 
coordination. And each of them are asking for new money to do 
this. And I am saying where can we get the coordination so we 
don't have to reinvent the wheel three times over?
    Mr. Mulhollan. May I?
    Mr. Walsh. Yes.

                     electronic data accessibility

    Mr. Mulhollan. As I understand it, the Clerk's submission 
to you is, in fact, to improve the creation of the data itself 
from the committees to whoever--is within the House, the 
Chamber for itself. Then of course--once the data is in a 
proper form and uses common standards, accessibility to what 
kinds of information and to whom will be the Chamber's 
decision.
    For the Library of Congress, the THOMAS system, at the 
request of the Speaker and the Chairman of the House Oversight 
Committee, was erected for the public because of the work that 
had already been done within the Library, in providing 
information technology services to support CRS. CRS has been 
doing its best to get as soon as possible digitized information 
and analysis delivered to the Chamber for many years.
    This committee, in its fiscal 1997 report, directed that, 
in fact, all the responsible entities ensure that there will be 
common technology, to address Mr. Cunningham's concern, and 
that there would be cooperation.
    Right now, as Dr. Billington said, the THOMAS system does 
present to the public certain kinds of information. But it is 
clear that there are other kinds of information the Chamber 
needs in the creation and drafting of its work that is not 
appropriate to be before the public. That is a decision of the 
House. Also it is recognized that there is certain proprietary 
information for licensing that is undertaken here on the Hill. 
The public does not have access to these because these license 
agreements are contained processes. So there are other kinds of 
information that the Congress does not have out to the public 
at all.
    So there are those distinctions, if that is helpful. As far 
as the Government Printing Office and its access system, 
congressional documents are available for public viewing, using 
particularly the avenue of the depository library system, which 
is throughout the country.
    Is that helpful?
    Mr. Latham. You are good, Dan.
    Mr. Walsh. There is a good deal of discussion of this in 
last year's subcommittee report on the legislative branch and 
also in the conference report on the legislative branch. So I 
guess this discussion today reinforces that need for 
coordination.
    Mr. Wamp?
    Mr. Wamp. My concern, Mr. Chairman, is that if I express my 
true feelings about the Library of Congress or my friends at 
CRS, that they might either get the big head or rest on their 
laurels. So I will stay quiet until our next hearing.
    Mr. Walsh. I think that is praise.
    I have a couple of other questions I would like to ask, and 
we will go around once more if everybody would like.
    I am sorry. Congresswoman Kaptur is here. Welcome. Do you 
have any questions you would like to ask, or comments?
    Ms. Kaptur. I will suspend, Mr. Chairman, for the moment.

                          cataloging arrearage

    Mr. Walsh. Your budget, as you pointed out, is about 70 
percent payroll. It is very people-intensive. So if we were 
going to look at an area for consolidation or savings or other, 
we would have to take a look at that part of it, obviously.
    One of the areas that you do a lot of work in is this 
cataloging process, and you mentioned that you have reduced the 
backlog by 48 percent, which is remarkable. You had 40 million 
items in the backlog, is that right, 5 years ago?
    Dr. Billington. About 40 million items.
    Mr. Walsh. You are down to 20 million?
    Dr. Billington. Down to about 21 million as of the end of 
the year.
    Mr. Walsh. What sorts of items would these be? What kind of 
priorities would you set? Would it be books that you do first 
and then everything else after that?
    Dr. Billington. Yes. The original problem was to reduce 
this backlog that we had finally and fully inventoried in 1989. 
The backlog was then about close to 40 million items; our goal 
was to reduce it by 80 percent across the board in all 
categories by the year 2000.
    We are ahead of schedule. We are 35,000 items ahead of 
schedule in the book area, which is the most important, the 
most widely used, and certainly the most important for the 
Congress. And so we are upping that to get 100 percent 
reduction by the year 2000 in the book and serial categories, 
which are the most widely used by the Congress.
    The special collections have proved a little more difficult 
and intractable; far more items that are in the special 
collections are in arrearages. So we are still sticking to the 
80 percent, but we don't believe we can commit ourselves, 
particularly in view of the staff reductions that we have had, 
before 2004. So we are aiming to get that 80 percent in the 
special collections by 2004, but a greater number, 100 percent, 
the book collections, by the year 2000.
    We are well ahead of our targets in book collection; not 
only books, but maps. We are going to completely clear maps, 
because books, maps and serials, are the things that are of the 
most direct importance to the work of the Congress.

                         uncataloged materials

    Mr. Walsh. Where do you store these that are uncataloged?
    Dr. Billington. Much of this material is right in the three 
buildings here on Capitol Hill; most of it, in fact. But there 
is a considerable amount at Landover in the leased warehouse 
space there. Some of it is in other places as well, but most of 
it is right here.
    Mr. Walsh. Is it usable at all? I mean, is it organized in 
any way?
    Dr. Billington. Yes, particularly, say, manuscripts, which 
is the largest part of our backlog and our special collections. 
Some of these manuscript collections come in already sorted and 
in pretty usable form, things like the NAACP files. Or take the 
Lafayette papers, one of our most important recent 
acquisitions, something that has been hitherto totally 
inaccessible. We got that. That was acquired in microfilm 
version because they wouldn't let the original documents leave 
France. We got the microfilm copies. They wereextremely well 
organized. Other collections come in a kind of chaotic form--the other 
great acquisition we have recently had, the Carson collection, 10,000 
items.
    Mr. Walsh. Carson?
    Dr. Billington. The Marion Carson collection. This is the 
greatest collection of Americana in private hands. We acquired 
it this past year, an extraordinary collection. The first 
picture of a human face, the first picture of an urban scene, 
the first Pony Express ride west. That is going to take a great 
deal of work to organize because that has been a private family 
collection. So the work differs.
    All of these collections, almost all of them, are 
accessible to use in some way, even if they haven't been 
brought under full bibliographic control. The archives, say, of 
Look Magazine or U.S. News and World Report, which we have, 
some of them have been fully processed. But even when they 
weren't, they were usable because you had indexes and tables of 
contents and so forth. So most of this material is accessible 
in one way or another, even if it isn't yet brought under full 
bibliographic control.

                       ils relation to cataloging

    Mr. Walsh. Does the mechanization, the computerization that 
you are doing, for example, the five and a half million for the 
ILS system, does that supplement or augment the work that 
people have to do to catalog these documents? Does it speed it 
up? Does it help you to knock off that backlog any faster?
    Dr. Billington. Yes, it will help.
    General Scott. I think, yes, once it is installed. I think 
the important point we need to make about the benefits that we 
receive from this investment is that along the way we would 
start to see some inventory controls that we now don't have, 
that we will have, I think, it would be safe to say, in a 
couple of years. I think that we could say, too, that it would 
help the catalogers. It would also help the people who run the 
circulation. It would help people who run the warehouse because 
then we have this common shared database. But we wouldn't 
expect to see the big increase in benefits until we got the 
full system installed.
    Mr. Walsh. Ms. Kaptur?

                           library priorities

    Ms. Kaptur. Yes. Mr. Chairman, I just had a couple of 
points. First, I want to welcome Mr. Billington and members of 
his staff here today.
    Just for the record, based on some prior actions by the 
Library, I would just want to reemphasize the interest of this 
Member in ensuring that your procurement practices make every 
effort to buy in the USA, whether those be clerical services or 
computer services, and I know that you have made efforts to do 
that, but I just wanted to reemphasize that while you are here 
this morning.
    Certainly, living in the city of Washington, there are lots 
of people who need work, and the Library can be a good citizen 
in the District of Columbia as well, and I am sure that our 
school system and other entities within this region would be 
more than willing to try to perform services that may be 
needed, rather than be acquired offshore.
    I did want to ask two questions in addition to that 
comment. One is on page 6, if you were not to get the increase 
you are seeking this year, you have stated that certain 
management decisions would have to be made to cut back on 
services. Could you elaborate a bit on what would have to be 
done if you do not receive the increase this year?
    Dr. Billington. Well, we would have to adjust in accordance 
with our priorities. We have sort of four levels of priorities. 
To service the Congress would be the first and the most immune 
from cuts. The second is maintaining, securing and preserving 
the universal collections so that we would fight to see that we 
don't suffer any further erosion in the acquisitions and so 
forth. The third priority is making the collections maximally 
accessible. We would reduce as little as possible in that area. 
We would have to reduce heavily in the fourth category of 
priorities, which is enhancing the value of these collections. 
In the third and fourth categories, it would be in those areas 
that we would have to really adopt the most serious cuts, and 
that would affect public programs that serve the Washington 
community rather than the broad national community. For 
instance, such things as public reading rooms, public access, 
exhibitions, things of that kind would have to be severely 
curtailed; bibliographic things, entries, things that enhance 
the value and utility of a collection, but that would not 
affect the fundamental comprehensiveness of it and so forth.

                       effects of reduced budget

    If we did not, for instance, get the $14.7 million for the 
mandatories, which is the biggest part of the request, we would 
lose 178 FTEs. That is on top of the 435 we have lost and the 
additional seven we will lose because we have to absorb the 
costs of audits and some other things this year. So that would 
mean that we would have lost, since 1992, a cumulative 13.6 
percent of our workforce.
    In doing that, staff downsizing would cause disruptive 
furloughs and RIFs unless we could get people off the payroll 
through some kind of retirement incentive program.
    Program improvements would suffer, not get done, including 
security of the collections and staff. We would probably have 
to cut back some of those elements. It would be very dangerous 
to cut back in that area. And also the other one that we would 
have to look at would be the automation reengineering, basic 
library and copyright processes, where we already have 
significant problems that the register of copyright can talk 
about; implementing financial management audit recommendations. 
We would need to cut staff that support our national library 
services before we would have had the opportunity really to 
reengineer and make our operations more efficient.
    So the net result would be that we would have to reduce 
public programs in order not to hurt the infrastructure as much 
as possible. But our national leadership role in cataloging 
would probably suffer at great cost to the Nation's libraries 
as a whole and to our own reduction of arrearages.

                          cataloging progress

    We have made enormous progress. I would like to pay tribute 
to our catalogers. There are nearly a thousand of them. We have 
had substantial reductions, but we have had enormous 
improvements. We now have catalogued 300,000 items last year. 
The cooperative cataloging program produced 100,000 authority 
files, the first time we have ever had anything like that. We 
only had six or eight that we were collaborating with in 1994. 
We now have 213 libraries. The committee encouraged us to 
develop a collaborative cataloging program. We got 60,000 
catalog entries from copy cataloging. So we are getting a great 
deal more done with less, but our contribution to that is 
essential.
    It costs more to catalog a book than it does to buy it, and 
if we were to substantially cut back in this area, it would 
have ripple effects throughout the whole library system in the 
country because it is an invisible subsidy. We conservatively 
estimate our cataloging is now worth about $280 million a year 
to the Nation's libraries, collectively. And thanks to the 
committee's urgings we have developed these cooperative 
relationships. This is an area, I think, of greatly increased 
efficiency. We are doing a lot more with fewer people. We are 
working cooperatively, but that effort would be placed at risk 
as well.
    So we would reexamine systematically what we are doing, in 
accordance with our priorities. But it would be very costly to 
affect at this stage the human infrastructure that we are 
talking about. We have needs to retool people for new tasks of 
knowledge and avocation, and if we do not have the most 
expensive single item, the integratedlibrary system that 
General Scott has spoken of so eloquently, in a sense, any other 
improvements you make are improvements in systems that are already 
becoming ever more obsolescent. The ILS gives you a base on which to 
work, knowing that the improvements you are making will be permanent 
rather than just keeping ancient legacy systems alive for another 
period of time.
    So, you know, we regret having to bring you an expensive 
thing like this, but, on the other hand, as General Scott 
indicated, it does have the promise of real savings later on, 
as we tried to indicate in that chart. There are just times in 
the history of an institution where one has to make a major 
leap.
    Anyhow, General Scott, you might want to speak to that as 
well.
    General Scott. Would you have an additional question, 
ma'am?

                         potential cost saving

    Ms. Kaptur. I wondered do you see any potential for cost 
savings down the road when a large number of your staff might 
potentially retire and new staff would be brought in? I am just 
curious about early in the next century. We have so many budget 
constraints on every subcommittee, and I always look at the 
proposed increases with kind of a hard eye.
    Dr. Billington. I think there could very well be some, 
because people will be retiring, and a lot of people would come 
in at perhaps a lower level, so in that sense, but I will defer 
to General Scott on this.
    General Scott. I think we do see the potential that there 
possibly could be some savings in some functions that--let's 
say, in 2002, 2003; in that time frame, there may be some 
savings, because the ILS will consolidate functions once it is 
up and fully running. Then the opportunity to take a look at 
the large numbers of people who will be leaving through 
retirement in that time frame does pose the possibility that we 
could have some savings there. How many? It would be 
speculative on my part to say how many.
    Ms. Kaptur. It will be interesting to take a look at that 
number down the road, if there can be a compensating offset for 
anything that you are looking for at this point. I don't know 
if you really thought this through as a staff, but I would be 
interested in any information. It appears, according to your 
testimony, over half of your staff will be eligible for 
retirement, or at least 52 percent. Did I read the testimony 
correctly?
    General Scott. Yes. In the year 2004, I think, the people 
will be--about 50 percent of our Library staff would be 
eligible to retire.
    Ms. Kaptur. That is a massive number.
    General Scott. It is indeed.

                    global legal information network

    Ms. Kaptur. My final question--if you can provide me any 
further clarification on that question, I would appreciate it, 
in terms of staff planning and cost of operations and salaries 
as a component of that.
    My last question has to do with the efforts that you are 
making in your multinational electronic database on foreign, 
international and comparative law, and there is a statement in 
here that 11 countries, I think, are participating in that and 
will soon be up to 20 nations. Could you give me a sense, is 
that more in our hemisphere? Which nations are participating? 
Do they tend to be functioning democracies? Who has indicated 
an interest in participating?
    General Scott. If I might, I would like to call up Rubens 
Medina who heads up our law library and this effort on the 
Global Legal Information effort.
    I will give you a chance to earn your money.
    Mr. Medina. This is a projection of our experience in 
dealing with foreign and international law in support of the 
Congress over the years, and we have almost 25 years of 
experience in trying to manage this data more effectively. Now, 
in this day of modern technology, it is giving us the 
opportunity to do so. But the expansion of the number of 
countries brought into the system is requiring that we seek 
support from organizations like the Inter-American Development 
Bank, which support countries directly, not us. These 
organizations fund countries to join us.
    That is, typically the manner in which countries are coming 
into the system. The World Bank for instanceis selecting its 
own countries. Of course, emerging democracies are very much a 
target of these funding organizations. The Inter-American 
Development Bank focuses very strongly on Latin America. The 
World Bank has focused on Africa and Eastern Europe, for 
instance, and those are the areas of the world that are 
currently being targeted for admission into the database.
    The countries that have joined the network are: Argentina, 
Brazil, Hungary, Korea, Kuwait, Lithuania, Mauritania, Mexico, 
Poland, Romania and Ukraine. These are the current members. 
These are the active GLIN stations that have been trained by us 
and are contributing in various levels with the full text of 
their own laws and regulations.
    The countries who requested attention for training and 
admission to the database that are currently trained include: 
Albania, Tunisia and Uruguay. Others to be scheduled for 
training include Bolivia, Egypt, Israel, Nicaragua, Paraguay, 
Peru, Russia, and Sweden.
    This is the way nations join GLIN. We have also targeted a 
number of countries that, according to our records, are in the 
interest of the U.S. Congress, we are inputting their laws and 
regulations ourselves in-house with our own existing resources. 
These are some of the countries in Western Europe and some of 
the countries in Latin America that are not sponsored by the 
mentioned funding organizations.
    Ms. Kaptur. So if you would take one of those countries 
such as Mexico, somewhere in Mexico there is a library or a 
site where they can connect to you, and they send you copies of 
certain laws?
    Mr. Medina. They send us authentic text of the laws and 
regulations as officially released to the people in the country 
itself. That is the way we do it. And let me just clarify that 
point. It is not just any library or any information center. We 
prefer to deal with information units that are within their own 
legislative branch so that we can, also, foster our own 
democratic ideals, and connect legislative bodies around the 
world.
    Ms. Kaptur. I had a request from parliamentarians in Greece 
the other day for some of our laws, and they are not on the 
list.
    Mr. Medina. Not yet.
    Ms. Kaptur. That was very interesting to me. You know, it 
would have been great to be able to call over.
    Mr. Medina. We are prepared to respond to these requests as 
they come in. We were fortunate that this has been gradual, and 
as we hear from them, we begin corresponding in preparation to 
ascertain their candidacy to join the network. We prefer to 
partner with the legislative branch of the agencies.
    Ms. Kaptur. If the women parliamentarians of the world 
wanted to connect to your system, how would they do that?
    Mr. Medina. GLIN is part of the Library of Congress home 
page. You can click--the home page of the Library of Congress 
on the Global Legal Information Network icon, the entire world 
can have access to that. There is a bibliographic level of 
information that we provide, and that is a summary, a 
relatively brief summary of the contents of rules and 
regulations. That is open to all.
    The one part of the database that is reserved for members 
of the legislature and agencies of the legislative branch 
authorized to access is the full text of the law, so that there 
is a privilege granted to those that are actually contributing 
to this effort.
    Ms. Kaptur. Thank you. That was a very complete answer. I 
appreciate it.
    Mr. Serrano. Very good. I bet you get a lot of requests for 
Helms-Burton, huh?
    Mr. Medina. Thank you.
    Ms. Kaptur. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Walsh. Mr. Serrano.
    Mr. Serrano. No questions.
    Mr. Walsh. Mr. Wamp.
    Mr. Wamp. No.
    Mr. Walsh. Mr. Latham.
    Mr. Latham. No.
    Mr. Walsh. We did not specifically address copyrights, CRS 
and so on, although I think a number of us have met with them 
individually. I would suggest that if any Members of the 
subcommittee would like to pursue any of these issues in more 
depth specific to each department, you could contact that 
department leader and sit down with him and pursue with him as 
much time and energy as you like.
    Ms. Peters, we will insert your prepared statement in the 
record, as well as a question on the Copyright Office.
    [The prepared statement of the Register of Copyrights 
follows:]

[Pages 570 - 576--The official Committee record contains additional material here.]


    [A question from Chairman Walsh and response follow:]

                        Copyright Office--CORDS

    Question. You are projecting a 140 percent increase in 
productivity from the new automated registration system (CORDS 
will require 2.5 FTEs to process 10,000 claims compared with 6 
FTEs under the current procedure). Why do you need more staff 
resources just at the time your office should start to derive 
benefits from the investment made in CORDS?
    Response. CORDS is still in the test stage and will not 
become fully operational until the year 2000, when we expect to 
see an increasing number of claims submitted via CORDS by our 
largest remitters. We estimate that 50,000 out of a total of 
635,000 will be processed in an electronic manner by 2000. The 
first actual submissions were made in 1996. Additional testing 
from selected publishers will occur in 1997. Only in 1998, when 
the system is operated by the Library, will we be able to move 
to a production stage.
    From 1998-2000 we will continue building and enhancing the 
system--this includes expanding the platforms, moving to cover 
many more types of works (such as sound recordings and motion 
pictures), greatly expanding the database engine, and 
continuing to test the system.
    Because we will be running dual systems for the foreseeable 
future, with the vast majority of works continuing to be in 
traditional physical formats, we will need the additional staff 
requested to achieve operational currency.
    It is important to note that we estimate benefits will 
exceed costs by 2003. By then we expect to have recovered our 
cumulative costs for the project, including both the cost 
avoidance factor of not having to hire additional personnel for 
registration functions, and the value of the material.
    Mr. Walsh. Mr. Wamp mentioned earlier the service that CRS 
provides. I would like to compliment them also. They are 
helping American kids do their homework through our offices. We 
get lots of requests. They respond very rapidly. But they are 
also a tremendous resource for us, and we use many of the 
reports, and they are very, very helpful, very, very thorough, 
and very, very unbiased, I might add. I think it is important 
that they not reflect a certain philosophy.
    Mr. Walsh. I have just a few additional questions on the 
Library which I will submit for the record.
    [The questions and responses follow:]

                                Security

    Question. Last year, we asked you to seek approval from the 
authorizing committee (House Oversight) of your plans to 
improve security over the collections. Have they approved the 
approach outlined in your budget?
    Response. No. The Library's security management plan will 
be formally forwarded to the Oversight Committee within the 
next few months. During the 104th, the Library regularly 
updated its oversight committees on its progress in security 
planning and the Library will continue to provide updates.
    The Library is requesting funding for initiatives which 
have already been identified as priorities to ensure the 
security of Library personnel, collections, and facilities. 
These initiatives include: Reader Registration stations; 
additional police (for the reopening of the Jefferson 
Building); Copyright staff to help ensure control of copyright 
acquisitions; contract staffing for cloakrooms; and 
installation and maintenance of security equipment.
    The Senate Rules Committee has advised us informally of its 
intention to hold an oversight hearing in March in order to be 
briefed on collections security, as well as other issues. House 
Oversight has not indicated a hearing schedule, but we have 
been briefing committee staff about our progress.
    Question. Instead of hiring more in-house police, have you 
considered outsourcing? Many agencies have done that with 
building guards.
    Response. Yes. A careful review of the Library's security 
needs has been conducted, and to date, we have identified three 
functions currently, or scheduled to be, performed by police 
officers which might be suitable for performance by contract 
security guards. These three functions are roving patrols 
within the stacks and LJ visitor areas and entry inspection of 
persons entering Library buildings. A further outsourcing 
analysis is underway to identify additional opportunities.
    At this time, we know we need the 18 FTEs to perform 
functions which clearly require the services of a duly sworn 
police officer.

                            Tabular Material

    Question. For the record, update the annual cataloging 
tabulations.
    Response.

    [The information follows:]

[Pages 579 - 597--The official Committee record contains additional material here.]


                            closing remarks

    Mr. Walsh. If there are no other comments or questions, we 
will end the hearing and thank all of you and return you to 
your service.

                               ----------

                                      Wednesday, February 12, 1997.

                        ARCHITECT OF THE CAPITOL

                               WITNESSES

ALAN M. HANTMAN, ARCHITECT OF THE CAPITOL
STUART PREGNALL, BUDGET OFFICER
BEN WIMBERLY, ADMINISTRATIVE ASSISTANT
ROBERT MILEY, SUPERINTENDENT, HOUSE OFFICE BUILDINGS
ROBERTO MIRANDA, SUPERVISING ENGINEER, CAPITOL BUILDING

                            Opening Remarks

    Mr. Walsh. All right. Now we will hear from the Architect 
of the Capitol.
    Welcome back, Mr. Hantman. You didn't realize that 50 
percent of your time you would spend as Architect testifying 
before subcommittees of the House.
    We have with us today, Mr. Alan Hantman, who was confirmed 
by the Senate on Thursday, January 30th, to the position of 
Architect of the Capitol.
    We welcome you to your new job and wish you great success. 
It is an extremely important position, to all of us in the 
House and Senate, and at the Supreme Court and the Library of 
Congress where you have responsibility for the care and 
maintenance of the buildings and grounds.
    Before we get to your testimony, let me provide a few 
figures on the budget we will be considering today.
    The estimates we will be considering total $149.3 million, 
and a total of 1,425 FTEs. This does not include funds for 
Senate office buildings, which will be considered by the other 
body.
    This is your first appearance representing the Architect's 
Office. Please take your time to introduce yourself, and tell 
us something about your background. What made you decide to 
come? And we will include your bio for the record.
    [Mr. Hantman's biography follows:]

[Page 600--The official Committee record contains additional material here.]


    Mr. Walsh. If you would like to introduce any staff or 
other members, please feel free to do so.
    Mr. Hantman. Thank you, Mr. Chairman.
    Let me start with introducing my staff.
    To my right is Stuart Pregnall, our Budget Officer; Ben 
Wimberly, our AA, sitting back here; Bob Miley, House 
Superintendent; and Roberto Miranda, Capitol Superintendent. We 
have several other members of the staff who may be called upon 
during our discussions.
    Why am I here? I have just completed 10 years as Vice 
President for Facilities Planning and Architecture at 
Rockefeller Center in New York. Along about March of 1995, I 
was having dinner with my wife and my second daughter, Debbie, 
and her husband Steve. Steve being an MBA type of person turned 
to me and said, Alan, you have been at Rockefeller Center 
almost 10 years now. What is the growth path? Where do you go 
from here as an Architect?
    I really never thought of those kinds of things. I said 
after 10 years at Rockefeller Center, I can't think of many 
places I would want to go. Maybe I will become Architect of the 
Capitol.
    And it was last May, looking at an AIA, American Institute 
of Architecture Journal, I saw George White was to retire. AIA 
was taking nominations to submit to Congress. So I called up a 
friend of mine at a local chapter of AIA and I said, Jerry, 
what do you think my chances are? And he said, Alan, with your 
background at Rock Center, I don't believe there is anybody 
more qualified. So I put in my resume.
    I called up the AIA in Washington and talked to the 
executive director over there. A week later my name was before 
the Congress, so I was fortunate enough to be one of the 15 
people nationwide who were selected as candidates on that final 
list. I am fortunate enough and honored to be here before you 
today.
    Mr. Walsh. Great. Great story.
    Mr. Cunningham. The pyramids would be a challenge.
    Mr. Walsh. They don't have his budget.
    Mr. Hantman. I don't have it either, yet.
    Mr. Walsh. Any other remarks, or you would like to go right 
into your budget statement?

                           Opening Statement

    Mr. Hantman. Well, I guess the remarks are kind of part of 
the budget statement, also kind of woven together.
    As you know, I officially assumed my duties on February 
3rd. That is just 9 days ago. As you can appreciate, Mr. 
Chairman, the process of mastering the complexity of my new 
position will probably take a bit longer than that. In the 
process, however, my first priority has been to prepare for 
this budget presentation.
    Mr. Chairman, as a preamble to the rest of my statement, I 
would like to say that since the Architect of the Capitol 
selection process took a year and a half and has just been 
completed, I have no intention of self-destructing on the 10th 
day of my tenure by coming before this committee and blithely 
requesting a 30 percent budget increase in this time of fiscal 
retrenching and cutbacks.
    As you are also aware, and as I am beginning to learn, the 
role of the office is a very complex and multifaceted one. It 
can fairly accurately be summarized by stating that this core 
mission of the AOC is to provide for the Congress on a 
bicameral, nonpartisan basis, expertise and advice relating to 
preserving the physical environment and operating the 
infrastructure supporting the Congress.
    Now, implicit in this mission to me is the assumption that 
in providing this expertise and advice, that I am part of a 
congressional team that shares the same goals of preserving the 
physical environment and operating the infrastructure 
supporting the Congress in a responsible and cost-effective 
manner.
    So I welcome the opportunity of working with the Members of 
this committee, of discussing the issues at hand, and of 
developing solutions that serve the Congress well.
    As you know, the AOC appropriations request for fiscal 1998 
was prepared under the stewardship of William Ensign. It is 
that budget request that I present to you today. And I present 
it to you in the context of the first 5-year capitalbudget ever 
prepared by this agency.
    Now, clearly, due to the short time I have held this 
office, I cannot be conversant with, nor can I validate the 
merits of the projected operations costs or each of the 205 
capital projects that it encompass. At this time I can say that 
I fully concur with Mr. Ensign's statement that there is a need 
to provide the Congress with a 5-year capital improvement 
budget to assist the Congress in making the wisest and best-
informed financial judgments ``based on a formal evaluation of 
future cost implications and with the assurance that we have 
undertaken a rigorous examination of related needs.''
    I applaud Mr. Ensign for having initiated this systematic 
agency-wide planning effort, which has also included in-depth 
involvement by all of the agency's clients. On the House side 
this included the Sergeant at Arms, the Chief Administrative 
Officer and the Clerk of the House. The projects included in 
this budget, therefore, include all the needs that have been 
identified to date, and I am in the process of evaluating these 
needs, reviewing the priority level assigned to them and 
assessing their budgetary implications.
    Mr. Chairman, since it would be helpful if the individual 
budget numbers were understood in the context of past and 
projected future budgets, I have prepared a series of charts to 
illustrate these relationships. Now I ask your indulgence while 
I explain these charts, because I believe it is important since 
they deal not only with 1998 projected budgets, but also the 
last 5 years and the new 5-year master plan as well.
    The first chart shows two components: Operating and 
capital. The blue is operating and the red is the capital.

[Page 603--The official Committee record contains additional material here.]


    Please note that the operating budget has held fairly 
steady since 1993, going from $137 million in 1993, to $148 in 
1995, to a requested $147 million in 1998.
    Increasing utility costs, mandated raises, et cetera, have 
been absorbed by cuts in staff to be able to keep this fairly 
level over the years. But 1998 represents a 6 percent increase 
over 1997, and it is a worst-case scenario.
    Clearly, our mandate is to explore ways to achieve greater 
efficiencies through appropriate means, such as privatization, 
outsourcing, consolidation of staff, achieving better utility 
rates, things of this nature. The operating budget will be 
decreasing as we bring these recommendations to you.
    Now the capital budget has, however, been steadily 
decreasing. You can see the numbers are $32.8 million in 1993, 
to $27 million in 1995, to half of that or $14 million in 1997. 
In my view, this is really no way to effectively preserve an 
aging superstructure and infrastructure such as ours.
    In 1998, the first year of the 5-year plan, there is a 
proposed increase to $54 million. I still need to examine the 
appropriateness and the priority of many of these projects, but 
let's discuss the breakdown of the 1998 budget itself.

[Page 605--The official Committee record contains additional material here.]


    Two main categories here: On the left, you will see the 
operations costs, representing 73 percent of the budget. Within 
that category, there is a cost of some 46 percent for pay and 
benefits, which will, of course, be evaluated. Utilities in 
green, you see represents 15 percent of the budget. We believe 
there are also savings in that category.
    On the capital side, there is 27 percent of our total 
budget. It is divided into three areas: Client-initiated 
projects, AOC-initiated projects, and cyclical maintenance. I 
want to talk about cyclical maintenance as we go forward a 
little bit later.
    The next chart illustrates the 16 percent staff reduction 
that has occurred in the AOC office in the last 5 years. It 
went from 2,400 people in 1992, 1993, to 2,034 people. This 
again is a worst-case scenario in the fiscal 1998 budget and we 
are asking at this point that we just carry it forward until we 
take a look at the organization and see how we can resolve the 
issues that are at hand.

[Page 607--The official Committee record contains additional material here.]


    I don't know if the 16 percent reduction indicates that 
there was a lot of fat in the agency and that there may still 
be more fat to be cut, or whether the agency is already as lean 
and mean as it can be. I have asked my managers to analyze 
their current staffing levels with an eye towards achieving 
greater efficiencies. But as point of information, cuts in 
other Federal agencies at the same time period have been below 
this 16 percent level.
    Turning to the capital budget itself, the green over here 
represents the level of cyclical reinvestment as a part of the 
overall capital budget, and the yellow represents new 
facilities budgets. Here you can clearly see that the pattern 
of actual decreasing reinvestment from 1993 to 1997, it goes 
again from $25 million on down to $14 million in 1997.

[Page 609--The official Committee record contains additional material here.]


    Can you also clearly see the magnitude of new projects in 
the master plan represented by the yellow from 1998 on? I think 
it is reasonable for us to ask ourselves, how does anyone know 
how much to reinvest in a complex such as ours?
    We can clearly look project-by-project to see what needs to 
be done, and evaluate each project on its merits. Clearly, that 
is what we are going to be doing. But what is a reasonable 
benchmark to measure total budgets against?
    The next chart attempts to do this, to put it in some 
perspective.
    Several years ago the AOC office took a look at three 
university campuses to discuss their cyclical reinvestment 
budgets. Basically they average 1.7 percent of the value of 
their buildings and infrastructure, and on an annual basis, 
they reinvested that amount of money.

[Page 611--The official Committee record contains additional material here.]


    A replacement value exceeding $3 billion was conservatively 
estimated for the Capitol Hill complex. Quite frankly, it is 
invaluable. How do you put a price on the Capitol itself?
    But here we have 13 million square feet in our campus. If 
we assumed 1.7 percent per year rate, such as the universities 
did, we would be talking about $50 million annual investment 
starting in 1993, and probably appreciating 3 percent per year.
    Now, another check on this is the IRS depreciation 
allowance for commercial property. We are looking at a 40-year 
depreciation generally, which would come out at 2.5 percent per 
year. If we use that as a measure to get a benchmark for us to 
look at, we would be looking at significantly more of an annual 
investment than we are looking at here.
    What this graph does, it plots the $50 million annual 
reinvestment level against actual and projected investments 
escalated at that 3 percent level a year. Up to 1997, there are 
fairly low levels of reinvestment. And what the budget 
currently talks to is getting fairly close to that level in 
1998, 1999, and the year 2000.
    The next chart is a pie chart that shows the 1998 cyclical 
maintenance projects in red, in the lower right corner, of some 
$21 million. This represents 57 projects for 1998, including 
the garage floor repairs in the Cannon Building; the Capitol 
Dome Project and sidewalks at the Library of Congress.

[Page 613--The official Committee record contains additional material here.]


    In green, we are looking at the AOC-initiated improvements 
of about $24 million for some 50 projects; some of them 
mandated by ADA criteria, some of them for electrical 
telecommunications systems in the Cannon and Rayburn buildings.
    The blue talks about client-initiated improvements, such as 
security installations, House Chamber reinforcement systems, 
Longworth cafeteria. And the yellow talks to projects such as 
the canine facility that we heard about yesterday from the 
Capitol Police.
    This is 1998 and how the capital part of this budget breaks 
down. And the next chart shows going out 5 years what is 
projected for cyclical maintenance in blue; AOC new projects in 
yellow; and client new projects in green.
    Once again I intend to review these projects in-depth to 
validate the need for them, prioritize them where they are 
appropriate, and report back to the committee with my 
recommendations.

[Page 615--The official Committee record contains additional material here.]


    I thank you for your forbearance. I would be pleased to 
meet with individual Members on a one-to-one basis, if you 
desire, and to answer any questions that you might have right 
now.
    Mr. Walsh. Thank you very much for your testimony.
    [The information follows:]

[Pages 617 - 635--The official Committee record contains additional material here.]


                             capital budget

    Mr. Walsh. The capital budget that you have requested is 
$54 million.
    Mr. Hantman. $54 million for 1998 as presented.
    Mr. Walsh. Does that request reflect these industry 
averages, if you will? Or was it arrived at by using those--you 
used a college campus sort of projection?
    Mr. Hantman. It was arrived at, Mr. Chairman, on a project-
by-project basis.
    Mr. Walsh. And what projects would be priorities for 1998?
    Mr. Hantman. Well, clearly, many of the cyclical projects 
we are talking about are 1998 priorities. Some of the issues 
that we are talking about, repairing the Cannon garage floor, 
for instance, that is in very poor shape and is something that 
needs to be taken care of, clearly.
    The issue of the Capitol dome is something that we need to 
look at. My concern is that the budget actually presented for 
the Capitol dome might be low. I have some photos of the last 
time that the Capitol dome was prepared and worked on back in 
1959, some 38 years ago, and it was a very major project with 
scaffolding around the Capitol. People got up there and scraped 
32 coats of paint down. There are issues of leakage that were 
addressed in 1991 on a short-term basis with the drainage over 
there. I think we really have to look at the Capitol dome. The 
balusters have been cracked. Some of these have been replaced 
and repaired during that time frame inside the metal of the 
dome. There are clearly leaks and areas to be taken care of. We 
have a full report here which I would be happy to review with 
you and Members of the committee over time.
    But what I want to do is meet with the consultants on this 
project, review what their recommendations are, climb up to the 
dome and see firsthand what it is all about. In 1959, when the 
last renovations were done on this kind of scale, the budget 
was something like $1.1 million. Escalated to this date it is 
basically over $6 million. My sense is the $3 million that is 
currently in the budget, 1.5 for 1998 and 1.5 for 1999, may be 
short of what we really need to do. So I don't want to present 
to you a budget at any time where I have to come back to the 
well and say, I am sorry; we underestimated.
    So clearly a lot of issues on this particular project will 
only come out once the paint is stripped out and see which 
pieces of the cast iron may be cracked and where the problems 
really are. But philosophically speaking, before we send a 
project to you, this was only taken through the design 
development phase. I want to take it through the construction 
document phase and be able to examine more what the realistic 
costs might be. This again is one of the projects that we would 
like to talk to you further about.
    Mr. Walsh. This would be a multiyear project; would it not?
    Mr. Hantman. It would be a multiyear project.
    Mr. Walsh. So the 54 million that you request for 1998, how 
much of that could be carried over?
    Mr. Hantman. There is only $1.5 million in this budget for 
that project being suggested for the next year. The reality is 
that we may need more in successive years, and the time period 
is important. I am not sure we want to see scaffolding when the 
next inauguration comes about. We will want to schedule that.
    Mr. Walsh. The last project on the House side, the 
monumental steps, I remember, took about 2 years to repair. It 
struck me as an inordinate amount of time. How long would you 
estimate it would take?
    Mr. Hantman. The last word from the consultants is that we 
could probably do it in two seasons, basically eliminating the 
mid-winter months. So the issue is whether we really want to 
start next year if we haven't gotten design documents far 
enough along for me to give you a more realistic budget. We may 
want to defer from next year and put it off until the 
successive years, still, trying to complete it in time for the 
next inauguration.
    [A question from Chairman Walsh and response follow:]

                            Overall Increase

    Question. We can not increase this budget by $36.2 million. 
That is a 32% increase and it isn't likely to happen. Will you 
study this budget and get back to us with a more reasonable 
level?
    Response. As in the past, the Architect of the Capitol will 
work with the Committee and the limited resources it has 
available. As the new Architect of the Capitol I plan to review 
each and every project that has been submitted. In fact, I have 
scheduled the project reviews to begin the first week in March 
1997. I will not only be reviewing the scope of the proposed 
projects but will be taking a very close look at the funding 
requested and the priority of the projects. I am concerned that 
deferring projects will not be the answer when the five-year 
capital budget indicates an even greater need of resources in 
the next three years. At the conclusion of my reviews we will 
be in a position to prioritize the most critical projects for 
the Committee.

                            staffing levels

    Mr. Walsh. Is my understanding correct that you asked for 
no additional employee positions?
    Mr. Hantman. That is correct, sir.
    Mr. Walsh. And you mentioned the 6 percent increase was a 
worst case scenario. In other words, if you arrived at the 
savings along the way----
    Mr. Hantman. These are mandated costs; those are increases 
in salary that we are talking about, increases in energy costs 
on the same side of the budget as the operations cost.
    The issue here clearly is that I am just beginning to get 
into this job, talk to the managers, find out who reports to 
whom and what they are doing and if there are any economies in 
terms of total staffing that we can effect.
    At this point in time the budget has been presented to you. 
It says 2,034 head count. I don't know at what point that will 
go down to, but we are looking at consolidation issues, and we 
are also looking at the issues of privatization and what that 
means to us. So that is basically the background on that.

                             privatization

    Mr. Walsh. This issue of privatization has been a hot one 
in the Congress. What areas of your operation do you see an 
application for that option?
    Mr. Hantman. Areas certainly that have been talked about 
prior to my arriving here, the most logical one that people 
have been pointing to appeared to be custodial services. And 
the Ford building has just been privatized. I think some 36 
employees were shifted to other buildings. Nobody was actually 
let go at that point in time. That is the first building. It 
has only been on line for a couple of weeks now. I think, 
taking a look at how effectively that is working, the type of 
service being provided by outside vendors is something that we 
do want to measure.
    There was a report by Arthur Andersen that was prepared for 
the Architect of the Capitol agency, and they looked at all of 
the areas of responsibility and services provided by the 
Architect of the Capitol. They came in and presented that 
report before me last Thursday. I want to go back to their 
assumptions, what that was all based on, and how they drew 
their conclusions. They have indicated several areas that they 
think might be appropriate, and they have indicated several 
areas where they think we are doing very well relative to firms 
on the outside in terms of providing the quality and the nature 
of services that are required on Capitol Hill.

                           energy consumption

    Mr. Walsh. Another area I would think that has the 
potential for savings, although since I am new at this, I don't 
know what has been done, and you may not know yet given your 
short duration in the job, is energy consumption. There are 
systems available in the marketplace today that provide for 
energy conservation. Have any of those been implemented in the 
Capitol or the office buildings? Is anyone looking at that?
    Mr. Hantman. Let me ask Dan Hanlon to talk to that if I 
could.
    Mr. Hanlon. Yes, Mr. Chairman, this committee did fund a 
centralized energy management system a number of years ago. 
That has been fully installed and is operating today. There are 
many other areas----
    Mr. Walsh. That is for all the buildings?
    Mr. Hanlon. Yes, a central system that operates the entire 
campus. It provides computer-based energy monitoring and 
management for all of the heating and ventilating systems 
throughout the buildings.
    Mr. Walsh. Were the savings derived that were estimated 
from that?
    Mr. Hanlon. Yes, I think the projected cost savings have 
been realized. And, of course, we have done a number of other 
things associated with that, such as adding variable speed 
drives and other energy conservation measures to all the 
buildings, and are continuing to do that on an as-funded basis.
    Mr. Walsh. I have some additional questions for the record.
    [Questions and responses follow:]

                          Capitol Power Plant

    Question. Out of a total power plant budget of $33.8 
million, $21.9 million is for the purchase of electrical 
energy. A $1 million increase is requested for electricity and 
part of the justification is for a ``continuing rise in 
consumption''. That's a little hard to believe with all the 
reduction we have had in Congressional staff. Can you have the 
staff document this consumption increase?
    Response. Actual kilowatt hour consumption has fallen in 
recent years from 321,462,265 in fiscal year 1994, 318,289,281, 
in fiscal year 1995 to 315,572,200 in fiscal year 1996. We 
attribute the majority of the reduction in fiscal year 1996 to 
the unusually cool summer. Cooling degree hours were 16.7% 
below the past 20 year average. It is estimated that this could 
account for 8,205,000 KWH in comparison to fiscal year 1994 
when the summer was 4.1% above average. Cooling degree hours 
were 1.7% above the average in fiscal year 1995.
    It should be noted that there is not linear correlation 
between the reduction in staff and electrical energy 
consumption. Except for a possible reduction in some office 
equipment, cooling and lighting levels in office areas remain 
almost constant unless entire rooms or areas are closed. Also, 
there is no energy reduction in public areas.
    The projected three percent consumption increase, over two 
years, was included in the budget request based on efforts to 
extrapolate the recent net increase in KWH adjusted for the 
impacts caused by variation in the weather, the knowledge that 
additional cooling capacity is being added to machine and 
telecommunications rooms which is required because of new 
electronic equipment, renovation and occupancy of non-
conditioned space such as room B-106 in the Cannon Building 
which was previously a storage space, and the fact that the 
Library of Congress' Jefferson and Adams building will be fully 
occupied by staff, the majority of which are being relocated 
from rental space.
    Question. There is $1 million to begin a multi-year project 
to replace the refrigeration equipment at the East Plant. This 
is projected to be a $16 million project. We have not yet seen 
the study of alternatives for operating the power plant. We 
also have heard that the General Services Administration has 
some ideas about merging our utility needs and capacity with 
theirs and DOD's. Shouldn't we wait until this situation is 
sorted out before we embark on this large renovation of the 
East Plant?
    Response. A portion of the Capitol Power Plant chilled 
water capacity (approx. 40%) relies on older chillers that 
operate with CFC based refrigerants (R-12). As of January 1996 
the projection and importation of this refrigerant was banned. 
The industry has estimated that existing supplies will only 
last for two to three years. Operation cost will continue to 
increase as supplies of R-12 become less available.
    In addition, the chillers are in excess of 30 years old and 
therefore, should be replaced if the Plants reliability and 
capacity to produce the required quantities of chilled water is 
to be maintained in a cost effective manner. A phased 
replacement of these chillers is anticipated over several 
fiscal years in conjunction with other initiatives at the Plant 
including the introduction of automated controls, development 
of a thermal storage system, improved productivity of the 
systems and staff, etc.
    The replacement of the older (CFC chillers) was one of the 
operational criteria/requirements reviewed during the recently 
completed evaluation of operational alternatives study. Under 
the operational alternatives examined, the replacement of these 
chillers would be required if the Plant capacity and cost 
effective operational flexibility are to be maintained.
    The study on operational alternatives was completed in 
December, 1996, but has not been transmitted to the Committees 
of jurisdiction because, as directed, it is pending a complete 
evaluation of the study by the new Architect of the Capitol 
(AOC). William Ensign, the Acting AOC during the past year, 
deemed this study to be so critical to future operational 
integrity of the facilities that any recommendations from this 
Office should be presented by the new AOC. As a result of a 
preliminary overview presented to the new AOC, it is his 
determination that additional review by outside experts is 
necessary. In that regard, he has contacted consultants in the 
field of utility development and operation to seek their advice 
as to the validity of the recommendations developed by the Blue 
Ribbon Panel and endorsed by William Ensign. It is anticipated 
that his recommendations will be submitted by the end of July 
1997.
    The Office has coordinated with GSA over the past several 
years as they have been evaluating operational alternatives for 
their system. During this process the GSA has supplied copies 
of their studies and reports for review and comment. The 
development/operational scenarios proposed require substantial 
new construction for which no governmental or private funding 
has been confirmed. In addition, the Capitol Power Plant's 
interconnect to the GSA system has substantial interface 
problems stemming from various operational differences between 
the two systems that would have to be resolved. Additionally, 
the GSA has not demonstrated in recent years the ability to 
deliver a reliable, cost effective service to many of its 
customers within the Executive Branch. Based on their own 
studies, the current projected costs of the GSA system without 
any major new expenditures, are substantially higher (by 
approximately 30-40%) than current production costs at the 
Capitol Power Plant.
    It is the professional judgment of the Director of 
Engineering for this Office that there is currently no viable 
alternative to the continued operations of the Capitol Power 
Plant being proposed by the GSA, however, the Office has been 
and continues to be open to proposals that will result in 
improved reliability and cost savings to the Government.

                           Capitol Buildings

    Question. There is $200,000 to begin a $2.5 million project 
to replace the legislative call system and clocks. Outline that 
project.
    Response. The Legislative Call System is based on carrier/
line current frequency technology distributed throughout the 
buildings via the AC electrical system. This technology was 
widely used throughout the U.S. in schools and other 
institutions, but in most cases has gradually been replaced 
with newer technology. It continues to be used to support the 
House and Senate Legislative Call Systems. (There are actually 
three systems that we maintain. They are: the House and Senate 
systems and a simpler system at the Supreme Court.) Spare parts 
and support services are expensive and limited in availability 
making the continued cost effective operation and maintenance 
of the systems difficult. Additionally much of the signal 
generating equipment has reached the end of its useful life and 
needs to be replaced if the systems reliability are going to be 
maintained while the analysis of and transition to an 
alternative system is accomplished.
    The fiscal year 1998 budget request of $200,000 represents 
the funding required to upgrade certain failing components/
elements of the existing systems as well as initiate a 
comprehensive study to provide options to the Congress for a 
permanent replacement for the systems based on more appropriate 
technologies. The study will provide detailed cost estimates 
for the recommended alternatives and will be closely 
coordinated with the Clerk of the House, the CAO and the 
Committee on House Oversight as well as the Senate Committee on 
Rules and Administration.
    Question. Why is $650,000 needed for an ``integrated 
management system''?
    Response. The current financial management systems of the 
AOC do not meet the standards cited by the Federal Financial 
Management Improvement Act of 1996 as well as those promulgated 
by the Federal Accounting Standards Advisory Board (FASAB). In 
addition the functional and operational systems operate on 
varying pieces of hardware, making ongoing maintenance efforts 
more closely and difficult. Many of the AOC's systems were 
developed as stand alone systems and have grown up in stove 
pipe fashion over time within the AOC, thus making it more 
costly and difficult to efficiently share data between these 
systems. This situation has, in turn, lead to redundant data 
entry by AOC end users.
    Most of the existing applications reside on Unisys systems 
that were originally developed over fifteen years ago and were 
designed to use Unisys proprietary system software (e.g. 
DMS1100, TIP, MAPPER, DPS, etc.). Over the years there have 
been significant organizational, technological, and procedural 
changes surrounding these systems which have mandated new 
requirements and nullified previous ones.
    The Integrated Management System (IMS) Project is an 
agency-wide automation effort to develop a fully integrated 
financial information system. The first implementation of this 
process will be an Integrated Management System (IMS), 
encompassing Budgeting, Accounting, Procurement, Inventory, 
Cost Accounting, Work Order, and Labor Tracking (via the NFC 
payroll system). The goal of the IMS is to place the abilities 
of the AOC's financial systems in a position to (1) meet the 
so-called year 2000 fix, (2) implement the government-wide 
Standard General Ledger, (3) adopt the Federal Accounting 
Standards Advisory Board accounting standards and principles, 
(4) improve internal cost analysis and control capabilities, 
(5) provide more precise and timely information to AOC 
management, clients and the Congress. It is also a goal to 
adopt within the Legislative Branch uniform financial 
statements and to the extent possible create a branch-wide 
servicing function to achieve uniform functionality and cost 
savings through elimination of duplicate efforts, systems and 
applications.

                         House Office Buildings

    Question. In House office buildings, you are asking for 
normal mandatory and price level changes plus a $5.2 million 
($5,196,000) project budget. There is $650,000 to begin a $7.15 
million cafeteria project in the Longworth building. Won't that 
interfere with the installation of the new elevators? Has this 
project been approved by the House Office Building Commission?
    Response. These projects will not interfere with each 
other. The $650,000 in the fiscal year 1998 request is for the 
design of the cafeteria project. Current plans calls for 
requesting construction funding and beginning construction in 
fiscal year 2000. The new elevators are scheduled for 
completion in 1998.
    The cafeteria project concept was developed in concert with 
the former CAO and his staff. Although this project has been 
discussed with the Speakers Office as it related to the 
Longworth West Egress Corridor, Snack Bar and North Dining 
projects, it has not been submitted to the House Office 
Building Commission for approval. The project would be 
submitted for approval during the design process.
    Question. There is $1 million to begin a $3 million project 
to repair the floor in the Cannon garage. Is this project going 
to displace parking? For how long? How many auto spaces will be 
affected?
    Response. There are approximately 300 parking spaces in the 
Cannon garage. Approximately 10 to 30 percent of the vehicles 
will be displaced at any given time over the three year 
construction period. It should be noted that spaces on and 
below the levels being repaired will be displaced during the 
construction phases.
    Question. Also, there is $450,000 to begin a $2.25 million 
project to replace the sound systems in committee hearing 
rooms. Will this encompass all committee hearing rooms? (If 
not, list those included and those excluded for the record.) 
Are these off-the-shelf systems? Will they be video-
conferencing compatible?
    Response. There are over 50 committee hearing rooms in the 
House of Representatives. Most of these hearing rooms are 
equipped with sound systems that have limited capability. They 
were designed to support the public address requirements for 
the committees. As the committee structures, operations and 
memberships have changed, the demand for increased flexibility 
and functionality of the sound systems, has become a priority. 
The need to replace the existing sound systems with improved 
technology is now required if these committee spaces are going 
to be utilized as multipurpose facilities, as well as to 
support the needs of the hearing impaired.
    It is anticipated that the replacement of these sound 
systems will be phased over several years and to the extent 
possible, these systems will be specified with standardized, 
``off the shelf'' hardware. The design and specifications for 
these systems will be coordinated with House Information 
Resources to assure compatibility with current or anticipated 
uses/technologies including video conferencing.

                      Library Building and Grounds

    Question. The budget requests $15.8 million for the care 
and maintenance of Library of Congress buildings and grounds. 
That is a sizable increase over the $9.8 million in fiscal 
1997. The capital budget is $6.3 million, of which the largest 
project is $1.5 million for copper roofing at the Thomas 
Jefferson Building. Two years ago, we provided $7 million for 
replacing the copper roof at Jefferson. Why is this additional 
amount needed?
    Response. Based on actual construction bids funding was not 
sufficient to include the replacement of the copper on the 
vertical roof walls. The replacement of the vertical roof walls 
was included in the design of the roof replacement project and 
the estimate provided by the consultant in 1992. By the time of 
the first solicitation for bids in August 1994, there was 
concern if sufficient funding was available to complete all the 
required work. It was therefore decided to include the vertical 
walls as an alternate item in the contract in order to have the 
flexibility to delete this item if the actual bids exceeded the 
$7 million that was available. Except for one questionable bid, 
all bids received for even the base contract work under the 
first solicitation exceeded the available funds. The second 
solicitation of bids ended with a contract awarded, excluding 
the vertical walls, just within the available funds.
    The replacement of the decorative copper roofing and siding 
material that covers the Book Stack projections for the 
Courtyard Inflills is imperative based on recent findings of 
the condition of the building structure. As work on adjacent 
sections of the roof have progressed, it has become even more 
obvious that the copper is pitted and cracked, failing 
structurally which allows moisture to infiltrate into the 
building structure. Temporary repairs have been made where 
possible to limit the damage to finished interior spaces as 
well as structural support elements. The replacement of the 
roofing with a duplicate finish is mandated to maintain and 
preserve the aesthetic and architectural integrities of the 
Jefferson Building.
    Question. What is the status of the remote storage facility 
building at Fort Meade? When will you break ground? When will 
it be available for occupancy? How much is budgeted for this 
construction (including the interior shelving, etc.)? What is 
the schedule for additional modules?
    Response. The schematic design of the facility has been 
completed and agreed on. Current plans call for ground breaking 
to take place in December 1997 with a June 1999 completion 
date. A total of $3,186,000 was provided in the Library 
Building and Grounds appropriation for the book storage module 
including shelving. The current estimate for the facility is 
$4,620,000. The additional funding is available in the account 
Convert and Maintain Fort Meade Facility in the Capitol 
Buildings appropriation. The current plan is to request funding 
for the second module in fiscal year 2000 and to request 
funding for the third and fourth modules in fiscal year 2002. 
Occupancy of the modules would be in the fiscal year following 
approval of the funding. The Library of Congress has projected 
the need to fund construction of the fifth module in fiscal 
year 2004 with occupancy in the following year.
    Mr. Walsh. Mr. Serrano?



                          sale of the capitol

    Mr. Serrano. Thank you.
    You know, aside from the work that goes on on the House 
Floor that affects, hopefully, people forever, I think you have 
one of the most exciting jobs in this place because you have 
something as your responsibility, taking care of something that 
was here way before we were here and will be here way after we 
are gone. And I take seriously what you do. And certainly, I 
take very seriously the fact that you come with the background 
that you do.
    I am nervous, if you were there during the time they sold 
Rockefeller Center. I want to make sure that we don't allow 
that.
    Mr. Hantman. No intentions.

                            capitAl projects

    Mr. Serrano. You keep talking about projects that you have 
to look at and review. I am wondering if those are the projects 
that are on----
    Mr. Hantman. Those are representational for 1998. One 
hundred thirty-five projects are proposed for 1998. Others are 
longer term, larger scale projects.
    Mr. Serrano. Such as?
    Mr. Hantman. The longer term projects, we would be talking 
about sprinkler head jobs. It is a constant job that we are 
doing in multiple years, replace sprinkler heads; roof 
replacement projects; all kinds of fire protection and life 
safety issues that phase in over time that we may be 
requesting, say, $100,000 in fiscal 1998 for replacing smoke 
detectors. We are requesting 100,000 in 1999 for--depending on 
what we are talking about. So these are ADA requirements. They 
are OSHA requirements. They are life safety requirements that 
clearly have to be done.
    Roofs are constantly being looked at. Building and grounds 
issues in general are being picked up on. We are talking about 
an aging complex. The Capitol clearly is our oldest, but even 
the Hart Senate office building and the House office buildings 
are getting close to being 30, 40 years old, and in reality, 
based on IRS-accepted depreciation levels, their 
infrastructure, their mechanical systems, some of their base 
envelope issues are reaching the end of their useful life. We 
are taking a hard look at cyclical needs to be able to maintain 
all of our structures as we move forward.

                          state of the capitol

    Mr. Serrano. Notwithstanding the fact that you have a plan 
to take care of this, if there was such a thing as a mandate 
for you 
to give us a State of the Capitol address, what condition are 
these facilities in?
    Mr. Hantman. From an annual maintenance, year-to-year 
budget, I think that the maintenance staff has been doing an 
excellent job. These are your normal costs of taking care of 
problems that you can see, small-scale renovations, things of 
that nature.
    In terms of capital projects where you talk about major 
jobs, the issue of taking a budget that went from $37 million 
down to $14 million is a reflection somewhat because of 
restrictions that the Congress has placed upon this office. 
Fourteen million is an unrealistic level to assume that we can 
keep thirteen million square feet of office buildings in tip-
top condition, which is why I said when you measure $14 million 
in 1997 going to $54 million, we are talking about a quantum 
leap. Some of that may be possible to defer going forward, but 
some of them probably shouldn't. Many projects have been 
deferred over the last 4 or 5 or 6 years because of the 
tightness in our budget situation.
    Mr. Serrano. And you are saying they shouldn't go forward 
because of the tightness in the budget or because they are not 
needed?
    Mr. Hantman. It is a question of priorities. The attempt, 
as I understand it, over the past years has been to even out 
the appropriations request and not have a major spike or peak 
in requests. And to do that you have to prioritize your 
projects and say, this is the worst case situation; we have to 
take care of this project now. Although we would like to do 
this and we recommend it, let's push it off another year 
because the funding will not be there this year.
    It is a rational request to work with this committee and 
other committees saying that we understand that these needs are 
there, and let's see how we can allocate them where it begins 
to make sense from an overall budget perspective.
    Mr. Serrano. As we look at keeping up repair and 
maintenance, this is still a major tourist attraction 
nationwide.
    Mr. Hantman. Absolutely.
    Mr. Serrano. And we are not losing ground in that at all?
    Mr. Hantman. I think the visitors are increasing if 
anything. And maintaining the process in all of our facilities 
when those millions of people come through on an annual basis 
is certainly a major task.
    Mr. Serrano. I just came from a meeting of the New York 
delegation where we found out that the United States is number 
three behind Spain and France in total tourist visitors, but I 
would think that it has nothing to do with the people that we 
bring into the Capitol. It must be some other places.
    Mr. Walsh. Mr. Cunningham?
    Mr. Cunningham. Thank you, Mr. Chairman.
    Mr. Serrano's statement that none of us were here preceding 
these buildings points to the fact that last year I was 
listening to Senator Byrd talk about Cicero, and he was talking 
about the balanced budget at the same time. And at that moment, 
Strom Thurmond walked in and said, I knew Cicero, and he wants 
a balanced budget. So Strom Thurmond may have preceded these 
buildings.
    Mr. Serrano. I stand corrected, when you speak about one of 
the sponsors of the term limits.

                              davis-bacon

    Mr. Cunningham. I am also new on this committee. Since 
these are Federal projects, they would fall under Davis-Bacon, 
I would presume. Have they ever taken a look at the cost 
savings if they could be exempted from Davis-Bacon?
    The average savings from exempting projects from Davis-
Bacon in California is about 15 to 19 percent.
    Mr. Holmes. We haven't looked specifically, but the 
Department of Defense has done a number of studies, and I 
believe most of their estimates range between a 5 and 10 
percent savings that they felt would come by eliminating Davis-
Bacon Act.

                              ada and osha

    Mr. Cunningham. That is a lot if we are looking at saving, 
and just a thought we might look at.
    Also, but now that Congress is under the same rules that 
everyone else is-- the additional costs for OSHA, the ramps, 
and the different things required for ADA compliance--are they 
going to propose an additional cost?
    Mr. Hantman. That is ADA and OSHA you are talking about?
    Mr. Cunningham. Yes, sir.
    Mr. Hantman. Okay, Stuart is advising me that the 
Congressional Budget Office does have a study on that already.
    Mr. Cunningham. Okay. I will ask for it then.
    That is all, Mr. Chairman.
    Mr. Walsh. Mr. Latham?
    Mr. Latham. No questions, Mr. Chairman.
    [Questions from Mr. Latham and responses follow:]

[Pages 645 - 646--The official Committee record contains additional material here.]


                      botanic garden conservatory

    Mr. Walsh. The Botanic Garden, the request is $11.7 
million, which is an increase of $9 million over fiscal year 
1997. This increase is almost entirely due to starting the 
conservatory renovation project, which has lingered. $8.3 
million is requested to begin a $35 million project. I am told 
that just 2 years ago this same project was estimated to be a 
$27 million project. That is a 30 percent inflation factor in 
just 2 years, when construction costs really, I am told, have 
escalated by 5 percent. Is it reasonable to expect such a large 
increase in estimated costs due to inflationary pressures?
    Mr. Hantman. Jim.
    Mr. Ellison. Mr. Chairman, I am Jim Ellison.
    Mr. Chairman, this project, obviously, has a long history, 
going back to 1990, when the original report was completed that 
assessed the condition of the building itself. At that time the 
report contained a projection of a four-phase construction cost 
of $27.3 million. That is in 1990.
    This report also, of course, identified a full range of 
structural and mechanical and other life safety problems of the 
building.
    Mr. Walsh. That was 1990?
    Mr. Ellison. 1990.
    We began in earnest to design the renovation in 1993, and 
we have done our very best to hold costs down through the 
years. We have done a lot of value-engineering as well as 
trimming back some of the program elements that were originally 
set forth for the building. And the most recent cost estimate--
the final cost estimate--was prepared in January 1995. It 
projected a total construction cost of $30 million. And again, 
this was after we had belt-tightened all the way through the 
process.
    What we have done to that estimate, in order to bring it 
up-to-date for purposes of this budget request, is to escalate 
the cost for about a 2-year period of time, for the assumed 
delay in the beginning of the construction work.
    We also have revised the construction management fee from 5 
percent to a more realistic 8 percent. We have also added some 
architectural fees. The design firm that has beeninvolved in 
the process will also be involved in a major capacity through the 
construction phase. That will involve an additional 3 percent fee, 
possibly. Of course the fee hasn't been negotiated. And we also 
anticipate, because of the delay in the project, that there will be 
some additional fees for the architectural firm to take another look at 
the final drawings and construction documents to reflect some changes 
in product availability.
    When we add all of that up and apply a reasonable 
contingency, we arrive at $35 million. I do know that there 
have been discussions over the past several years about what we 
might be able to do for $28 million or what we might be able to 
do for $21 million or something less than the real cost. To my 
knowledge, in the past few years the Architect of the Capitol 
has not promised we could do the entire project for $28 
million; especially when you realize that the original 1990 
estimate was nearly $28 million if inflated.
    [Clerk's note.--The following letter was received by the 
Committee:]

[Page 649--The official Committee record contains additional material here.]


    I just want to add briefly that we are using a 4 percent 
escalator at this point in time. This is based upon the best 
advice we have from our cost estimator, who is an independent 
consultant.
    This is due to some rather dramatic recent cost increases 
in some of the products and building systems that are very 
pertinent to this project.
    During a one year period in 1994 and 1995, specialty 
glazing systems, and this represents about one-quarter of the 
entire budget for this project, were increasing at a higher 
rate than any of the indexes would suggest; 44.3 percent for 
aluminum and 10 percent for flat glazing. That is just in a 1-
year period of time.
    Mr. Walsh. The structure is aluminum?
    Mr. Ellison. The structure is aluminum, and the glazing is 
a major portion of the job. So that basically is why we are 
where we are with this project.
    Mr. Walsh. I will state my bias in front of God and 
everybody, I think it is a wonderful embellishment to the whole 
campus. While some people may say it is not something that the 
Congress should be involved with, I would take the other view. 
I think it is something that people can enjoy when they come to 
Washington, when they are on the Capitol grounds. But I don't 
know if I have any support for that position. I know this has 
been an issue for this committee, for the subcommittee, over 
the years.
    I think it would be helpful to the subcommittee if we had 
some idea of the public support that the Botanic Garden has. 
Whether we keep it in our budget or it goes to the Smithsonian 
or it goes to the U.S. Department of Agriculture budget, I 
think we should have it. But it would be good to know what the 
public use is of it and what is being done to promote its 
visibility and what has happened since the construction stopped 
and the building itself has been somewhat dismantled.
    Mr. Hantman. Right. My understanding, Mr. Chairman, is--of 
course, this is what the facility looked like before, and this 
is what it looks like right now with the demolition of the Palm 
House. Now, there are many conditions in the building, such as 
you can see the aluminum rusting out over here and somebody 
putting an implement through it, and cracked glass at the top. 
One of the issues regarding the pieces that are currently left 
at the Botanic Garden Conservatory is that they are not in a 
safe situation as it is. If we don't start doing something 
fairly soon, we may have to close it down, the remaining 
portions that are currently open, for safety purposes as we had 
to demolish the Palm House.
    I don't know the answer to your question with respect to 
public--has anyone taken a survey on that?
    Mr. Ellison. We have done some surveying, and I believe 
that we could provide that information as part of the record.
    Mr. Walsh. That would be good to have as part of the 
record. I suspect that we would have some discussion in the 
future on that, but I think it is a great facility. When you 
check those records and associate names with those, you will 
find that I have been there a number of times.
    Mr. Hantman. I have just been given information, Mr. 
Chairman, that there are some 600,000 visitors on an annual 
basis.
    Mr. Walsh. Is that right? I would suspect if it was in 
better repair that it would be much higher.
    [The following information was submitted:]

[Pages 652 - 656--The official Committee record contains additional material here.]


    Mr. Walsh. But it is a question for the subcommittee that 
we have to deal with. It is a rather--it is a large expense; 
$35 million, a huge expense.
    Mr. Hantman. The issue of whether the Smithsonian or some 
other agency takes it over, my understanding is that the 
discussions to date would be rebuild it, and maybe we will take 
it over at that point in time.
    Mr. Walsh. I have an additional question on the Botanic 
Garden for the record.
    [Question and response follows:]

                           Bartholdi Fountain

    Question. Also, there is a project to do some additional 
renovations at the Bartholdi Fountain. The Committee funded 
that project several years ago. There was a formal ceremony at 
the conclusion of that project celebrating its completion. Will 
you look into this?
    Response. This project will complete the restoration of 
Bartholdi Fountain, a historic sculpture which is the 
centerpiece of Bartholdi Park and its associated basin.
    The restoration and renovation of the fountain was 
initiated in the mid-1980s. In fiscal year 1986, paint was 
removed from the statue, repairs were made and the statue was 
repainted. In fiscal year 1992, the Construction Branch of the 
Architect of the Capitol replaced the fountains concrete basin 
and water proof membrane; the allotted budget for this work for 
$244,000. From fiscal year 1992 through fiscal year 1995, 
outside contractors or the U.S. Botanic Gardens internal staff 
have maintained the statue via high-pressure cleanings. In 
fiscal year 1996, the Construction Branch repainted the statue 
at a cost of $22,000. The statue previously had received only 
touch-ups since the repainting ten years earlier.
    The current proposal will complete the restoration via 
selective replacement of the original marble coping, 
restoration of the light fixtures on the fountain and, 
upgrading the existing electrical wiring to the fountain, and 
addressing the fountain's water circulation and filtration 
systems. A total of $50,000 is requested in fiscal year 1998 
for the design, with an estimated $350,000 to follow in fiscal 
year 2000 for actual restoration/renovation. The latter figure 
may be revised pending results of the project design. This 
proposal will position the Bartholdi statue and fountain for an 
ongoing, cyclical maintenance program that will protect this 
historic artwork.
    On October 30, 1986, after renovation of the fountain 
itself, a ceremony was held commemorating the Inauguration of 
Bartholdi Park and the Centennial Rededication of the Bartholdi 
Fountain which was first exhibited at the Centennial 
celebration in Philadelphia in 1876.

    [Questions from Ms. Kaptur and responses follow:]

      Questions for the Record Submitted by Representative Kaptur

    Question. Have you considered transferring the jurisdiction 
of the Botanic Garden to the Smithsonian or the Department of 
Agriculture? Have either expressed interest?
    Response. The Committee directed the new Architect to study 
the proper organizational location for the Botanic Garden in 
its report language last year. Such study, with the assistance 
of the independent experts, is about to begin and will analyze 
the merits of transferring the Botanic Garden to the 
Smithsonian Institution, the Department of Agriculture, the 
National Park Service, a private nonprofit organization, a new 
federal instrumentality, or leaving it within the legislative 
branch, The report, with the Architect's recommendation to the 
Committee, is anticipated to be complete by early May.
    The Smithsonian has expressed interest in receiving the 
Botanic Garden, provided that resources are made available for 
facility renovation. (Such a proviso is likely in the case of 
potential transferee.) We are not aware of any interest by the 
Department of Agriculture or the Park Service. In the past the 
Architect of the Capitol has opposed the transfer to the 
Department as inappropriate to the public education mission of 
the Botanic Garden.
    Question. If you do not get the $35 million to restore the 
Botanic Garden, I assume you would have to close it to the 
public. What would be the cost of such an action? As of this 
date, how long can you continue to operate the Botanic Garden 
before you will be forced to close it to the public?
    Response. The U.S. Botanic Garden exists primarily as an 
institution of public education on botanic, horticultural and 
environmental matters. Closing the Conservatory to the public 
altogether (including Congressional receptions) would 
substantially compromise the primary purpose for the very 
existence of the institution. It is therefore a measure that 
should be taken only with the greatest reluctance. Closing the 
facility to the public would also be a blow to the privately 
financed National Garden, due to commence construction on the 
adjacent site in early 1998. The main entrance to the National 
Garden is through the Conservatory West Display Hall. It should 
also be noted that closing the Conservatory to the public would 
still entail significant ongoing costs to the government to 
protect the plant collection on site and secure the facility. 
Staff would still be needed to maintain the collection and 
existing overhead glazing would not support snow loads if the 
heating were turned off.
    On the other hand, the condition of the facility presents 
imminent threats to the safety of both employees and the public 
and in some respects to the collection itself. A precise 
prediction as to when a threat would materialize is, of course, 
not possible. If it is evident that the Congress will not in 
the foreseeable future provide funds to deal with the need for 
renovation, I would request funds to analyze how to reduce any 
risk while the facility remains open to the public.
    The overhead glazing system, for example, is long past its 
useful life. Falling glass, particularly in the subtropical 
house, could inflict serious injury. Torrential rain, heavy 
snow or ice or high winds could produce loads resulting in 
glazing failure of panes or sections. This was one of the 
reasons for the razing of the palm house over five years ago. A 
failure of the overhead glazing would present a threat to the 
collection as well as to the public, and staff; so consequently 
even a failure after hours could be quite costly. Closing the 
building or portions of it during threatening weather would 
present administrative problems apart from the very negative 
public relations impact.
    In addition, the electrical system is well beyond its 
useful life and presents safety problems to staff working with 
panels, panel feeders, lighting and receptacles. The plumbing 
and mechanical systems are also beyond their useful lives.
    Some palliative measures could perhaps be taken to reduce 
the risk to the public and staff. Developing an interim fix for 
problems that present threats to the safety of the public or 
staff, however, would itself require additional resources for 
complete analysis. Such an analysis has not been made because 
it has been our assumption that funds for the permanent 
renovation would be forthcoming. In light of the Congressional 
action in 1995 rescinding renovation funds, however, we have 
considered the matter sufficiently to know that the spot 
inspection and replacement of glass on an interim basis would 
be quite costly. It would also have to be done by means that 
comply with current OSHA standards, an expensive scaffolding 
preposition, and such interim costs would not offset in any way 
the costs to be incurred by a permanent renovation. Similarly, 
electrical work to eliminate unsafe conditions would also not 
offset the cost of permanent upgraded electrical systems. A 
substantial and costly ADA compliance program would also be 
necessary.
    Certain code compliance costs (ADA, OSHA, life safety 
issues) are being routinely addressed in the rest of the 
Capitol Complex with funds appropriated to the Architect. These 
improvements will extend the useful life of other buildings in 
accordance with current standards. Unfortunately, such interim 
investments in this special purpose facility would be replaced 
by the necessary permanent renovation that has been deferred 
for several years.
    Withholding renovation funds would therefore present us 
with equally unattractive alternatives, neither of such would 
involve the productive use of public resources. Closing the 
facility to the public, including Congressional receptions, 
would still entail significant ongoing operational expenses, 
and any interim repairs would not add value to the needed 
permanent renovation.
    If funding is further deferred for the renovation our best 
estimate is, pending further analysis, that approximately 
$250,000 would be needed to make temporary electrical repairs 
and, if feasible, to install netting to protect the public from 
any falling glass. In the absence of such funding, or if the 
temporary installation of netting is not feasible, in my 
professional judgment it would be prudent to recommend to the 
Joint Committee on the Library that the Conservatory be closed 
to the public, including Congressional receptions, at any time 
when weather conditions suggest that this is necessary. 
Congressional receptions could no longer be booked under such 
unpredictable conditions. If this proves administratively 
infeasible, I would recommend to the Joint Committee on the 
Library that the facility be closed to public access 
altogether.

                      energy conservation lighting

    Mr. Walsh. Back to the energy study, has anything been done 
in terms of lighting throughout the facilities, changing the 
energy consumption of those bulbs throughout the buildings?
    Mr. Hantman. Dan Hanlon, Director of Engineering.
    Mr. Hanlon. Yes, sir. The committee authorized us to enter 
into an energy service contract some time ago, and that 
contract was just executed for all buildings within the 
complex. Some 100,000 fixtures will be addressed. They will be 
replaced with energy-efficient bulbs and ballasts in the 
florescent fixtures.
    Mr. Walsh. Just florescent fixtures?
    Mr. Hanlon. Yes.
    Mr. Walsh. I will insert a question in the record.
    [The question and response follow:]

                             Reprogrammings

    Question. For the record, insert all reprogramming actions 
or other documents that required Committee approval.
    Response. The information follows:

[Pages 660 - 688--The official Committee record contains additional material here.]


    Mr. Walsh. All right. We have some other witnesses that we 
would like to give the opportunity to come before the 
subcommittee.
    Are there any other questions or comments by Members of the 
subcommittee? Or Mr. Hantman or your staff?
    Mr. Hantman. No. We thank you, Mr. Chairman, for the 
opportunity to come before you. We look forward to working with 
you.
    Mr. Walsh. Thank you.
                            PUBLIC WITNESSES

                              ----------                              

                                      Wednesday, February 12, 1997.

                                WITNESS

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Walsh. We welcome you, Representative Blumenauer. We 
are delighted to have you with us today.
    Why don't you go ahead and make your statement and get it 
into the record.
    Mr. Blumenauer. Thank you, Mr. Chairman.
    As a new Member of Congress I would like to think of myself 
as a leader and the Congress provides leadership. But there are 
two areas where I feel our leadership is a little bit behind 
the curve and we have an opportunity to do something about it: 
Employee transit programs and employee fitness and wellness 
programs.
    Several years ago, the executive branch and the Senate 
began offering transit passes to their employees, and public 
and private employers across the country were encouraged to 
follow suit. Today in the Washington, D.C. metropolitan area, 
more than a thousand corporations, law firms, businesses and 
government agencies provide transit subsidies in part or in 
total to their employees. It is one of the most effective ways 
to reduce reliance on single-occupant vehicles and the 
attendant pollution and parking problems and the congestion 
that forces some of us to come to work very early in the 
morning to get to here on time. And most importantly, it is a 
way to avoid penalizing hard-working employees who want to do 
the right thing.
    In my own community, over the last 20 years, I have been 
involved in successful efforts to subsidize transit passes for 
employees. They were successful in convincing people who had 
never before had used transit to leave their cars at home, and 
the program boosted the morale of employees who relied on 
transit all along.
    Here in the House we have nearly 7,000 employees living and 
working in the metropolitan area, and another 3,000 in home 
offices, and we do it entirely backwards. Employees can park 
free, but employees who ride transit pay.
    Four years ago the Senate realized the folly of this 
approach and began offering transit pass options to its 
employees. My proposal would bring us in line with the Senate.
    When this idea was considered a number of years ago, the 
House offices did not have the needed flexibility in their 
budget to support such a program. As a result of the fiscal 
1997 legislative branch appropriations bill, all office 
accounts have been restructured to allow the type of 
independent decision-making that I am proposing. It requires no 
additional funding, for the passes would be paid out of the 
participating Members' office accounts. And we would need only 
a small amount of money to implement and administer the program 
in the same manner as it will cost the Senate. And, frankly, 
far less than the parking we now provide to these employees who 
will shift to transit.
    Across the country, public transportation systems would see 
increased ridership and revenues from the House's participation 
in a transit pass program.
    I strongly urge that you accept this legislation as an 
amendment to your bill. It is a very easy way to provide 
assistance to WMATA and our colleagues here in the metropolitan 
area.
    I would also hope that you would consider efforts dealing 
with the health and fitness of our employees. It is commonly 
accepted by virtually all progressive employers, that promoting 
health and fitness on the part of employees improves morale, 
productivity, and reduces health care costs by reducing sick 
leave.
    Additionally, related to my previous point above about how 
our employees get to work, a significant number of people who 
fit the profile of our younger, hard-charging staff, don't have 
time to exercise, but many of them, if they had shower and 
locker facilities, would in fact run, walk, skate or bike to 
work if they had the opportunity to clean themselves up 
afterwards.
    Hidden away somewhere in the dark reaches of this Capitol, 
I am told, there are one or two shower heads that are available 
to our staff. I don't know. I have never been able to find 
them. But it simply is not enough to meet the needs that are 
here.
    I would strongly urge that you would include funds for a 
feasibility study to provide shower and locker facilities for 
our employees. There can and should be cost recovery similar to 
what happens for Members in our wellness program; not just for 
revenue, but a sort of regulatory mechanism so we wouldn't be 
inundated by a flood of people using the facilities.
    The Speaker as part of his greeting to the new freshman 
class, strongly urged the new Members last fall to use the gym, 
the fitness facilities to build relationships, relieve stress 
and in the short-run, be more productive.
    I think the same advice applies to the 10,000 dedicated men 
and women who work for us. And I would hope that we would be 
able to have such facilities for them and hope that you would 
start the ball rolling on something that would be widely 
accepted. I think it would make this place a better place to 
work.
    [The information follows:]

[Pages 693 - 695--The official Committee record contains additional material here.]


    Mr. Walsh. Thank you very much for doing something that I 
think we all need to do more, and that is to show our interest 
and concern for our employees and fellow Federal workers. And I 
think sometimes it takes a newer Member to remind us of how 
important a resource they are. And so I commend you for that.
    I do have some information we could share with you that 
staff has made available to me. There is--apparently, there are 
a number of shower and locker facilities you mentioned in the 
Capitol. There are some in the Capitol, there are also some 
available in the Rayburn and in the annexes, the Ford and the 
O'Neill buildings, also. I will provide those to you for the 
record. But I do think that maybe we need to talk a little bit 
more about at least publicizing what we have done, and making 
more facilities available to meet the need.
    So we will provide that to you.
    [The information follows:]

[Page 697--The official Committee record contains additional material here.]


    Mr. Blumenauer. Okay.
    Mr. Walsh. Also, regarding your comments about the transit 
subsidies. I think you mentioned this in your testimony, there 
is a Public Law enacted by the Congress. Then House 
Administration Committee brought to the Floor, to provide for 
what is now the Members' representational allowances to pay 
those costs; has a policy been established on that yet?
    All right. So, it is authorized. As I understand it, what 
would be required is that the Committee on House Oversight 
would have to establish a policy for the use of Members' 
representational allowances. Since there is no additional need 
for appropriated funds, we would not--we would not play a role 
there because we would be involved in appropriating the funds.
    Mr. Blumenauer. Mr. Chairman, your understanding is the 
same as mine. But I--I guess what I--why I was appearing here 
was the possibility of your helping along the way this notion, 
even though it was authorized as you point out, 4 years ago, 
nothing has been done about it. And a boost from your committee 
in terms of being able to have a minuscule sum of money set 
aside to actually deal with the administration of this, and get 
the thing set up and moving, as you say, it wouldn't require an 
appropriation of a lot of money in terms of the program itself, 
but getting it started.
    It seemed to me that given your purview of the entire 
administration of the House, I thought this would be an 
appropriate point of departure and that the people would listen 
and respond if you saw fit.
    Mr. Walsh. And I think you are right. I think it was good 
that you came. You made your thoughts known to this committee.
    I certainly have some sympathies for the argument that if 
we are going to support people to drive their own car as 
individuals, maybe we should be doing the same thing to 
encourage them to use mass transit.
    We as a government do subsidize mass transit for the 
general public. But I would suggest also that you make your 
thoughts known to Chairman Thomas and the Members of the 
authorizing committee, and maybe we could build some consensus 
for this change.
    Mr. Serrano, any comment or questions?
    Mr. Serrano. Thank you.
    I want to join you in congratulating our colleague for 
bringing up an issue that really does bear thinking on our 
part.
    I think that what you are hearing is our commitment to take 
a very close look at this, with the full understanding that the 
three of us who are sitting here--the four, actually, Members 
who are sitting here, are Members who know well the value of 
not polluting this country any more and getting as much 
physical fitness time as we can.
    In fact, this committee is trying to accomplish that every 
afternoon, but it is not an easy thing to do. So we take your 
comments with the intent that you brought them to us, and I 
know that the Chairman and I will look very closely at ways of 
publicizing what we have, and improving what we don't have.
    And, certainly, based the information that there is 
authorization to look at the issue of the transit passes, that 
is something that we definitely want to move on, understanding 
that I came from a community where there is not a single 
parking spot allotted to my district office. It is who comes 
first in the morning to park on the street.
    Mr. Blumenauer. I can't take away from my service in local 
government, being proud of the fact that I, as a member of the 
Portland City Council, eliminated free parking for members of 
the city council. So I think we ought to walk where we talk. I 
appreciate your admonition----
    Mr. Serrano. Don't take it that far. You were doing very 
well up until now.
    Mr. Blumenauer. I think I will take the Chairman's 
admonition and get out while I can.
    Mr. Walsh. Mr. Cunningham, any questions or thoughts?
    Mr. Cunningham. No.
    Mr. Walsh. Thank you, very much.
                              ----------                              

                                      Wednesday, February 12, 1997.

                                WITNESS

ROBERT L. OAKLEY, AMERICAN LIBRARY ASSOCIATION, AMERICAN ASSOCIATION OF 
    LAW LIBRARIES, AND ASSOCIATION OF RESEARCH LIBRARIES
    Mr. Walsh. We will now hear from our so-called outside 
witnesses, who have requested to testify. First we would have 
Mr. Robert L. Oakley.
    Welcome, Mr. Oakley.
    Mr. Oakley is representing the American Library 
Association, American Association of Law Libraries and 
Association of Research Libraries, on behalf of the Library of 
Congress and the Government Printing Office.
    Mr. Oakley, welcome. We have a copy of your biography. I 
see, on here that you got a degree at Syracuse University.
    Mr. Oakley. Correct, sir.
    Mr. Walsh. We won't hold that against you, I promise.
    Mr. Oakley. I work for Georgetown now. Basketball rivals.
    Mr. Walsh. Yes. We resolved that last Sunday. At least we 
resolved it for a month or so.
    Mr. Cunningham. Mr. Chairman, could I have a question?
    Mr. Walsh. Yes.
    Mr. Cunningham. We do have our full committee meeting at 
2:00. Would you like us to stay for this or go up to the full 
committee for the votes on the rule?
    Mr. Walsh. My understanding is, and correct me if I am 
wrong, we have asked the committee staff up there to let us 
know when they do a roll call vote. When they do a roll call 
vote, we can run over and make that. If you would like to stay, 
maybe Mr. Serrano and I can come back and hear the rest of the 
witnesses, and then we will probably be called back. I am not 
sure how many votes we are going to have over there. We may do 
a stay for all the votes and then come back.
    Mr. Cunningham. Yes, sir.
    Mr. Walsh. We will play it by ear.
    Mr. Latham. But someone is monitoring it?
    Mr. Walsh. Someone is going to make sure they call us.
    Mr. Latham. Thank you.
    Mr. Walsh. Mr. Oakley, please, go ahead.
    Mr. Oakley. Thank you, Mr. Chairman. My name is Robert 
Oakley and I am professor of law and director of the law 
library at the Georgetown University Law Center.
    I am honored to be here today to appear on behalf of the 
American Library Association, the American Association of Law 
Libraries, the Association of Research Libraries and the 
Special Libraries Association.
    Our purpose in coming here today is to urge you to support 
the budget requests for the Library of Congress and GPO's 
Federal Depository Library Program. We do respectfully ask that 
our written statement submitted to this committee earlier be 
added to the public record of these hearings.
    Mr. Walsh. Without objection.
    Mr. Oakley. Thank you.
    New technologies have led to a significant transformation 
in how Americans create, manage, use, and preserve information. 
Libraries are at the forefront of this change, both as they 
work to make their collections available electronically and 
also as they use information created by the government and by 
others as well.
    The Library of Congress participates in a variety of 
digital projects to explore the full potential of digital 
libraries and to make the information available to its 
constituents and to the American public.
    The National Digital Library Program has increased the 
number of collections available on the World Wide Web to more 
than 350,000 digital files. We applaud this growth because it 
brings some of the unique treasures of the Library of Congress 
into our classrooms, into our libraries and into our homes.
    The Global Legal Information Network, about which there was 
some discussion this morning, is certainly a unique and 
valuable international cooperative program through which 
participating nations provide electronic access to their laws 
and regulations. GLIN enables the Law Library of Congress to 
better serve you and your constituents.
    The development of an integrated library system at the 
Library of Congress, by integrating key library functions, will 
allow for greater efficiency and productivity and will result 
in better service to library users.
    Finally, Mr. Chairman, we are concerned that the GAO now 
questions LC's authority to retain both direct and indirect 
funds from U.S. research libraries that participate in the 
overseas acquisitions program. This is an important program for 
America's research libraries, and we want to work with you 
closely to clarify the library's authority in this regard.
    The Library of Congress performs vital functions for 
Congress and for the Nation. It has taken a leadership role in 
the digitization of its collections and in the use of new 
information technology. We appreciate your continued support 
for these important activities.
    Turning now to GPO, we support full funding for the Federal 
Depository Library Program. As more government information is 
made available electronically, depository libraries and 
librarians are more important than ever to assist the average 
user in navigating the complex layers of technology to find the 
information they need. In 1995, an estimated 237,000 users each 
week were provided with expert service in locating and using 
depository materials at 1,370 partner libraries in nearly every 
congressional district. The Depository Library Program is truly 
one of the most effective and successful partnerships between 
the Federal Government and the American people today.
    The development of GPO access is commendable. In October 
1996, users retrieved from that system nearly 3 
milliondocuments. The addition of key congressional regulatory and 
business information in the near future will further increase the 
importance of that system and increase the public use of the system.
    In June of 1996, the Government Printing Office completed 
the study requested by Congress to analyze the complex issues 
regarding the government's use of electronic information 
dissemination technology. As this important transition goes 
forward, we in the library community do have several concerns.
    First, there must be an easy means for users to identify 
and locate the information they need. The Government Printing 
Office has developed a web side that provides three 
indispensable finding tools for the public. This development 
must continue.
    Second, valuable government information resources disappear 
daily from agency web sites. A systematic and comprehensive 
national program for assuring the preservation and permanent 
public access of electronic government information is sorely 
lacking and must be developed.
    And third, important government information resources are 
increasingly being removed from the public domain. This kind of 
erosion of public access occurs when agencies use exclusive 
contracts or licensing agreements that prohibit 
redissemination. Such contracts and agreements are contrary to 
the policy of open access to government information, and they 
defeat the purpose of the Depository Library Program.
    To conclude, Mr. Chairman, we are at the subcommittee to 
fully support the budget requests for the Library of Congress 
and for the Federal Depository Library Program in this time of 
transition.
    Thank you for the opportunity to be here today, and I would 
be pleased to answer any questions you might have.
    [The information follows:]

[Pages 702 - 741--The official Committee record contains additional material here.]


    Mr. Walsh. Thank you very much for your testimony. Just one 
question.
    The Library of Congress, as you know, is in the process of 
digitizing lots of information. They have to make priorities. 
Obviously, they can't do it all, and they have to determine 
what comes first. Are organizations like the ones you represent 
involved in setting those priorities for the Library of 
Congress in terms of what becomes available electronically?
    Mr. Oakley. In terms of just working with them internally?
    Mr. Walsh. Yes. Is there an advisory, ad hoc advisory 
structure?
    Mr. Oakley. I am not on any specific advisory committees, 
but I do know that they seek input on quite a regular basis 
from a variety of groups. There is an organization called the 
Network Advisory Committee, which is set up to advise the 
Librarian of Congress on networking-related issues, and other 
groups that would provide input into some of those kinds of 
decisions.
    Mr. Walsh. Given what knowledge you have currently, would 
you agree that the decisions the Library of Congress is making 
so far on what information it makes available first on a 
priority basis are the right decisions?
    Mr. Oakley. Without micromanaging, yes, I think many of the 
projects they have done are very exciting. If you have an 
opportunity to look at some of them on the World Wide Web, I 
think you will agree. There are some Civil War photographs and 
many, many historic documents that are very exciting.
    Indeed, I would extend an offer to you or to other Members 
of the committee or staff to come to Georgetown, if you have 
the opportunity, not only to see a depository library, a 
working depository library, but to look at some of these 
electronic resources on the World Wide Web.
    Mr. Walsh. Just one last note, and it is a personal note, 
being in the library community, I would suspect it is fairly 
closely knit. There is a fellow named Dan Casey from Syracuse, 
who was very involved in the Library Organization. Do you 
recall him?
    Mr. Oakley. He is not a person I know. I did go to library 
school in Syracuse.
    Mr. Walsh. He is deceased now. He was a tremendous advocate 
for the Public Library System; as you are, too.
    Mr. Serrano.
    Mr. Serrano. Just one comment. I know you have supported 
what the Library of Congress is doing.
    In my conversations with them, I was discussing the fact 
that they have access to a lot of information in this country 
and they commented to me that sometimes that information gets 
divided between them and the Smithsonian. And I was just 
wondering if you, as one who has not come here only as a 
witness but as one who is head of some organizations, any 
thoughts on how we can deal with that? It seems that is a 
bigger problem than I thought.
    For instance, I was discussing with them the fact that the 
Sinatra family is interested in turning everything from that 
60-year career over to the Library, but then the Smithsonian 
wants part of it, too. And some would be on display and some 
would be in the Archives. So all of a sudden, you have a family 
who says here, and two institutions saying how do we use it, 
how do we take it? And how does the public, which is my 
interest, get to see what this means in this particular case?
    Mr. Oakley. I don't think the library community would 
necessarily have a position on which of two public institutions 
should house this material. But I do think that the overriding 
issue is the last one that you flagged, which is to make sure 
that these treasures are not lost to the American public. And 
that could well be done through either the Library of Congress 
or the Smithsonian.
    Mr. Serrano. But not both?
    Mr. Oakley. Obviously, again, they can't be in two places 
at the same time, of course. Although to the extent that 
organizations----
    Mr. Serrano. Well, with regard to being in two places at 
the same time, I should have clarified this. The Smithsonian 
may want Cole Porter's piano and the Library may want Cole 
Porter's arrangements, or Ellington's, and it gets into that. 
And it is not somewhere where you can take a young music 
student or anyone and say, look, here is a national treasure 
and it is available for you to look at.
    Mr. Oakley. There are interesting aspects of that. Clearly, 
the Library's primary business is in the collection of written 
documents. That might include sheet music or phonograms and so 
on. It is less likely to include artifacts such as a piano 
itself, although it has been known.
    But another thing that they can do, where they can share, 
is to the extent that these digitization projects move forward, 
they can be in more than one place at the same time. And, 
indeed, some of the kinds of projects that are under way are 
for the digitization of music and that music could then be made 
available over the World Wide Web and shared with everyone. It 
could be very exciting.
    Mr. Walsh. Mr. Latham, any questions?
    Mr. Latham. Being from Iowa, I think we should be very 
conscious of the Music Man, Meredith Wilson. I live 30 miles 
from River City.
    Mr. Oakley. I have always been very much in the forefront 
of the development of network resourcing. We appreciate your 
efforts.
    Mr. Latham. We have fiber optics in almost every county and 
community in the State right now.
    Mr. Walsh. Iowa has been way ahead for a long time. That 
may explain why you are such a good pool player.
    Mr. Latham. Thank you.
    Mr. Walsh. Being from River City. He is, too.
    Mr. Latham. I am still waiting for the check, too.
    Mr. Walsh. We have just a couple more witnesses, and we 
have about 11 minutes. So we will let Mr. Oakley go and thank 
him for his testimony.
    Mr. Walsh. If we could bring the other witnesses before us, 
that would keep you from having to come back again sometime, if 
we could bring the other three forward.
    Thank you.
    Mr. Oakley. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
                              ----------                              

                                      Wednesday, February 12, 1997.

                               WITNESSES

JOEL STERN, AFSCME LOCAL 2477
CHRISTINE SCHOLLENBERGER, AFSCME LOCAL 2910
DENNIS M. ROTH, CONGRESSIONAL RESEARCH EMPLOYEES ASSOCIATION
    Mr. Walsh. We have Joel Stern, AFSCME Local 2477, Library 
of Congress; Christine Schollenberger, AFSCME Local 2910, 
Library of Congress; and also Dennis M. Roth, Congressional 
Research Employees Association, Congressional Research Service.
    Welcome, all of you.
    I believe we have your testimony. We do.
    We have curriculum vitae.
    Why don't you decide who goes first and we will sit and 
listen.
    Ms. Schollenberger. We are very democratic.
    Mr. Walsh. Please.
    Ms. Schollenberger. My name is Christine Schollenberger and 
I am the President of AFSCME Local 2910.
    We represent approximately 1,400 professional employees at 
the Library. We have our professionals, our librarians. We 
represent catalogers, reference people. We represent people in 
copyright, nurses, computer specialists, attorneys, legal 
specialists, basically your employees who are from a GS-9 to a 
GS-15 but are nonsupervisory.
    We are happy to be here today and we are here to express 
some concerns and to certainly support the Library's budget 
request. Not to be repetitive, needless to say, we support the 
Integrated Library System and the other automation efforts.
    I would suggest to you, we were invited to a very 
interesting briefing on the ILS that was short, to the point 
and very comprehensive. You might want to take advantage of 
that. I think what is very interesting is that the reason the 
Library is moving now is that now is the time that the 
technology has been available and the sophistication of the 
technology.
    Small libraries have had integrated systems but they 
haven't been systems which the Library, though, was suited to 
something of our size. So the State of Illinois now has 
integrated. There are some big projects. So the technology is 
there, it is on the edge and that is why the Library, I think, 
is ready to go now. And I think that is something for you to 
consider.
    In the area of security, we are happy to welcome the new 
Director of Security. We are hoping that he comes on board soon 
and provides us with a coordinated, comprehensive security 
system which is aimed not only at our collectionsbut also at 
providing a secure environment for all of us here on Capitol Hill.
    One of the things that has occurred to us, and it is--
whether it is a perception or not, is that we all read the 
newspapers, but those of us at the Library, when something 
disappears or something happens, it appears that it is always a 
knee-jerk reaction.
    It began with the closing of the stacks, and it continues 
even today apparently, when we mysteriously find doors locked 
in the morning that were open the previous day. So we are 
looking forward to this Director of Security and a 
comprehensive program.
    It is our belief at 2910 that the Library has been very 
conservative in its request for more staff. We encourage you to 
support this. We are doing with less. I see it every day.
    There is a strain in certain areas of the Library. People 
are very conscious of meeting goals. We do need some more staff 
to help us. We want to get away from some of the repetitive, 
time-consuming aspects of librarianship and get on perhaps with 
some more productive projects which we are very well skilled 
for.
    However, I also do believe that the Library also needs to 
take a look at the staff that we have there and I would 
encourage you to encourage the Library that perhaps we should 
look at how we are utilizing the staff that we have.
    I think you realized today that we have people who have 
been there 28, 30 years; it is the one job they had. They came 
very well-skilled but, you know, in that period of time you get 
new degrees, you develop new skills. There is a life out there.
    We have been asking the Library for a long period of time 
to seriously look at a skilled staff. If we could promote more 
from within, better utilize, perhaps hire from the bottom and 
nurture our staff up, this could provide a considerable cost 
savings.
    And for 2910, in the area of labor relations, we are always 
asking for more input before rather than after. We encourage 
you to support our remaining under the FLRA. Our experience in 
2910 is that we just concluded bargaining, our famous contract 
over more than 2 years, and it was successful and it was 
successful with the help of the facilities of the FLRA. So we 
think it works and we don't think it should change.
    And thank you.
    Mr. Walsh. You are welcome.
    [The information follows:]

[Pages 746 - 752--The official Committee record contains additional material here.]


    Mr. Walsh. Mr. Stern.
    Mr. Stern. Okay.
    There is a good deal of overlap, Congressman. Perhaps 
first, I should introduce myself.
    I am the President of AFSCME Local 2477. My name is Joel 
Stern.
    There is a lot of overlap in what we have to say.
    Thank you very much for letting us make our testimony 
today.
    One of the points that Christine just touched on is the 
question of how staff are promoting health and library 
positions that come open and that is a crucial issue for people 
in my bargaining unit.
    I represent people who are considered nonprofessional 
employees at the Library of Congress. We are the people who do 
perhaps what you consider some of the less creative work. But 
there is really a continuum in the Library that perhaps doesn't 
exist in a lot of Federal agencies in terms of where the work 
begins and where employees begin working at the bottom of the 
wage scale and what happens at higher grades.
    And so what I would like to stress is that there is a 
tremendous opportunity in the Library to create career programs 
which bring people in at the lowest levels and promote them on 
up to the top. We don't have that situation now. It has been a 
matter of constant discussion over the years between the labor 
organizations and the Library. We speak of it in terms of 
career enhancement and various other times.
    What the Library generally offers is a smattering of career 
opportunities in special programs, some of them related to 
affirmative action, some of them related to professional 
development. What we would like to propose and what we hope 
that you will urge the Library to support, is a program like 
the one that Christine just mentioned, in which the Library 
recruits people at the lowest levels from the outside and 
promotes them on up into the higher levels.
    We think that would be efficient for the Library in terms 
of getting the work done, in terms of budgetary questions; 
people get on-the-job training. They will have a deep and broad 
historical knowledge of how the institution does its work and 
we think that they will have a higher morale as a result of 
having some place to progress into rather than being trapped 
under a glass ceiling.
    In addition to that, I would also like to urge you to urge 
the Library to move on a subject we discussed with them on a 
joint committee between labor and management, which is the 
implementation of an alternative discipline program.
    The Library has its fair share of problems with discipline. 
There is a lot of litigation that goes on in the Library 
between personnel and the employees that work there. You may be 
aware of that burden.
    What we are proposing and what we have studied with 
management is a program in which employees--the point of the 
program would be to keep employees productive and to have a 
remedial system as opposed to a system which punishes employees 
who commit fairly minor infractions. Of course, if somebody 
does something major, then that is another story.
    Mr. Walsh. Mr. Stern, let me interrupt just for one second. 
We have about a minute and a half left.
    There is a series of votes upstairs. I am not sure which 
vote is first. It is going to take us about a minute to get 
oriented as to what we are voting on. Maybe Mr. Serrano and I 
at least could come back after the vote and hear the rest of 
your testimony, Mr. Roth, and then we will be finished.
    Mr. Latham. That is fine. There are two 5-minute votes.
    Mr. Walsh. There are two 5-minute votes.
    Mr. Walsh. We will either be right back down or be down in 
10 minutes.
    Mr. Serrano. Sorry about that.
    Mr. Walsh. They are term limit votes, I think, and they are 
for all the different States.
    [Recess.]
    Mr. Walsh. Before we get interrupted again, why don't we go 
back to Mr. Stern, who was in the middle of his testimony.
    Mr. Stern. Do you want me to reintroduce myself?
    Mr. Walsh. No. We got you.
    Mr. Serrano. We remember.
    Mr. Stern. If you don't mind, since we have a little bit 
more time, I will return to my prepared comments here.
    Mr. Walsh. Please do.
    Mr. Stern. I was bringing before you the matter of 
traditional discipline versus alternative discipline. A matter 
of concern to my constituents and to the Library administrators 
as well, is the negative effect of traditional disciplinary 
proceedings.
    Last year, Library administrators and Union representatives 
sat on a joint committee to discuss the concept of alternative 
discipline. The basic idea of alternative discipline is to 
utilize the disciplinary process which is remedial for the 
employee and which spares the agency the disruption of work 
routines.
    Alternative discipline is predicated on the assumption that 
the accused employee is guilty off and admits to the charged 
infraction. Rather than take measures that result in hardship 
both to the employer and to the employee's coworkers and family 
via suspension, demotion, et cetera, alternative discipline 
imposes penalties like community service and forfeiture or 
donation or leave.
    Now that it has been studied at the Library, I hope you 
will encourage the Library to take the next step and prepare a 
plan to implement an alternative discipline program.
    I would like to bring to your attention a situation that 
seems to be the very stuff of bureaucratic inefficiency. The 
employees who maintain the order of the Library's collections 
are known as Deck Attendants. Up until 2 years, the majority of 
the approximately 120 Deck Attendant jobs were temporary 
positions. The employees received no benefits and had no rights 
on-the-job, even though some of them had been in their 
positions for more than 10 years.
    In 1995, as the result of Union concern and the national 
attention on the situation of temporary workers, many of the 
Deck Attendants were converted to ``indefinite'' tenure, making 
them eligible for benefits and job protections, but they must 
now reapply for their jobs every 2 years.
    The reapplication process is not only a waste of agency 
resources and time, but has also resulted in several snafus 
such as the inadvertent selection of outside applicants over 
employees who have been performing the work for many years. 
Surely it would be better for all concerned if these employees 
who are entrusted with the care and security of the Library's 
collections were treated like other Library employees, instead 
of being required to reapply every 2 years. I ask that you 
consider remedying this wasteful situation by urging the 
Library to convert the Deck Attendants to permanent employees.
    The Library has requested funds to implement an Integrated 
Library System. Such a system would provide an integrated 
automation environment for many activities, including 
cataloging, inventory control and financial accounting. Our 
Union supports this initiative because without it the Library 
will be unable to keep up with the expanding demands from the 
Congress and from the Nation for information.
    It should also help clarify some of the murkiness 
surrounding collection, certain issues of collection, security 
and financial accountability, that were highlighted in last 
year's GAO report. We do, however, urge that automated systems 
be used not as a substitute for people but as an aid that 
extends the ability of the Library's employees to cope with the 
avalanche of information that characterizes the time we live 
in.
    Finally, I would like to mention the matter of contracting 
the Library's work out. I am gratified that the Library made 
the right decision this year in keeping the Photo Duplication 
Service in-house. However, there are still questionable 
decisions being made regarding contracting out.
    In the worst case that I am aware of so far, it was 
recently learned that some work for the National Digital 
Library has been farmed out to low-paid workers in Jamaica and 
the Philippines.
    On a related topic; I have also reported in my written 
statement to you on the fact that the Library's Gift Shop is 
offering wares with the Library's insignia that are 
manufactured in Hong Kong and Korea. I urge you to preserve and 
promote the quality of the product the Library delivers by 
keeping its work in-house, among staff who have dedicated their 
careers to the Library. I also urge you to protect American 
jobs by ensuring that the goods and services we offer are 
produced by American labor.
    Thank you.
    Mr. Walsh. You are welcome.
    [The information follows:]

[Pages 756 - 766--The official Committee record contains additional material here.]


    Mr. Walsh. Now we will hear from Mr. Dennis Roth, 
Congressional Research Employees Association.
    Mr. Roth. Thank you, Mr. Chairman, Mr. Serrano. Thank you 
for coming back from the vote and be willing to hear us. I know 
you could have just cancelled, you know, adjourned the meeting 
and accepted only our written testimony.
    Mr. Serrano. It was a choice between listening to you and 
hearing a debate on term limits. It was an easy choice.
    Mr. Roth. Again, my name is Dennis Roth, and I am president 
of the union that represents the employees of the Congressional 
Research Service exclusively. We represent both the 
professional and nonprofessional positions in the Library, and 
this is a tribute to our belief that, you know, we serve the 
Congress as a team. In an environment that does not require 
membership in order to have union representation, our union has 
a membership of between 65 to 70 percent. This morning, I heard 
several of you make very positive comments about CRS. On behalf 
of the staff that I represent, I thank you very much.
    It is this, you know, working staff that I have been 
elected to be here today that has made such a favorable 
impression on you and your staff.
    I would like to just go over four key points in my 
oraltestimony that I presented in my written testimony. First, the 
Congressional Research Service is a vital organ in the body of the 
Congress and cannot be neglected. We all tend to take certain organs 
for granted in our own personal bodies until something goes wrong. We 
do not intentionally try to damage these organs, but once the damage is 
done, we find it irreversible. This is why you must give immediate 
attention and consideration to not only maintaining but sustaining the 
Congressional Research Service, not only for this coming fiscal year 
but also for the next decade.
    In order for us to be responsive to your needs in a timely 
fashion, we have gotten about as thin as we can get. Another 
hit and we will not be able to function effectively. And 
failure to see and address the long-run problem will result in 
total failure in a few years.
    Funding the succession planning initiative that was in the 
Director's testimony will ensure that the Congress will 
continue to have the best public policy research, analysis and 
reference organization available to any legislative body in the 
world.
    In this morning's questioning, Congressman Latham asked how 
we got to this point. While the Director pointed out the rapid 
growth that took place after the legislation in 1970, he 
neglected to point out that the normal cushion that would be in 
the organization evaporated because of the tight budgets that 
we started facing in the 1980s. We did not grow. In fact, we 
were moving in the opposite direction. So by losing maybe 200 
to 300 slots, where you would normally have turnover and bring 
in new people and all of that, we didn't have that. So that was 
another effect that sort of kept us where we were.
    Furthermore, the whole Federal Government tightened up so 
there weren't any particular jobs where people could move to in 
the outside sector. And thirdly, CRS is a good place to work.
    Second, unionization under the Federal Service Labor 
Management Relations Statute has worked well in the 
Congressional Research Service and in the Library for nearly 2 
decades, and there is no need to change the rules of the games 
now. Under the statute passed by the Congress in 1978, certain 
parameters were established for our performance: Effective 
conduct of public business; amicable settlement of disputes 
between employees and management involving conditions of 
employment; maintaining the highest levels of employee 
performance, and continued development and implementation of 
modern and progressive work practices to facilitate and improve 
employee performance and the efficient accomplishment of the 
operations of the government.
    CREA, which we call ourselves, has successfully stayed 
within these boundaries as evidenced in its success in problem-
solving in dispute resolution through discussion and 
negotiation, rather than through the filing of grievances, 
unfair labor practices and other union actions.
    We have not been so successful, however, in bringing the 
management practices of the Library and the Congressional 
Research Service into those of the 1990s. Current management 
practices in the private sector give a lot more respect and 
responsibility to employees than is the case in the Library.
    However, a changing course appears to be on the horizon. As 
you heard in the testimony of Donald Scott this morning, our 
new deputy librarian, he is pursuing something called the 
facilitated leadership approach, and we hope that this will 
help make major changes in how we are managed in the Library.
    Now, I know the initiative is to start in March, and 
hopefully by summer we will start to see some changes.
    In addition, CREA would like for you to encourage the 
Library to adopt new approaches to collective bargaining that 
are more efficient, more effective and less time-consuming. 
This is basically called mutual interest, or sometimes called 
win/win bargaining, where you focus on what the real problems 
are, what do you really need in order to solve the problem. And 
once you know everybody's common base, you move forward, not 
unlike the Congress when it needs to sit down and pass 
legislation. You just need to get everybody's input into it, 
and then when you know what everybody needs, you build and 
construct the resolution.
    Third, we ask that you follow the findings of the Office of 
Compliance that was created as a result of the Congressional 
Accountability Act of 1995 regarding the labor management 
relations in the Library. The Compliance Board found that our 
existing coverage was comprehensive and effective and made no 
recommendations to change our coverage. Yet, we are concerned 
that the Library, and CRS in particular, will not accept this 
finding and continue to request a change. Their arguments for 
doing this, however, cannot be based on the Congressional 
Accountability Statute, and that should not be given any 
further consideration.
    Mr. Chairman, the unbiasedness of CRS products that you 
noted this morning is in no small part due to the protections 
afforded CRS analysts under our contract.
    And fourth, we look forward to working with our new deputy 
librarian Donald Scott in bringing the management of the 
Library into modern practices. We meet with Mr. Scott monthly. 
We are able to raise issues. Interestingly enough, one we just 
raised was the Metro subsidy that we like to also see in the 
Library, and maybe we should get Congressman Blumenauer to come 
over and talk to the Library. He did a very good job.
    So to be up front, Mr. Scott did say he would like to form 
a task force with us and look at the possibilities of 
implementing this in the Library.
    One other fact came out in some testimony we have heard 
this afternoon, and that was your question about the lighting 
fixtures and energy efficiency. You know, in the Library, this 
came to us, I guess, a couple of months ago, and the unions are 
very concerned, not about the energy efficiency aspect of this, 
but that the route taken by the Architect was the least 
expensive and perhaps the most harmful to employees. Because of 
new technology and computers, you need to have adjusted 
lighting in many cases. We have been informed that the new 
light fixtures and ballasts will not permit this. So you will 
not have lighting that is appropriate for today's technology.
    So if you hear somewhere along the line, you know, those 
damn unions in the Library are holding us up, this is the 
reason why.
    And I don't know if Saul Schniderman can add to this, but 
there has been a lot of investigation on this in 2910. You 
might want to say a couple of words about this.
    Mr. Schniderman. My name is Saul Schniderman, and I am the 
chief steward for AFSCME 2910.
    The relationship between the AOC and the Library is a 
tenant/landlord relationship. We are the tenants of the 
building, and the AOC is responsible for the maintenance of the 
building. And oftentimes, decisions are made without 
necessarily consulting Library management because, indeed, that 
is their role, to maintain the building.
    In this particular instance, as President Roth points out, 
we discovered there were a number of florescent light bulbs 
that were ready to be installed in the Library in February, and 
when we found out that they were not adjustable and may not 
meet the needs of the Library even with regards even to 
preservation, we brought it to the attention of our managers. 
But these problems can best be resolved through better 
communication between the Architect's office and the Library 
management and hopefully with us.
    Mr. Walsh. Thank you.
    Mr. Roth. That concludes my statement. I will be glad to 
answer any questions you may have.
    [The information follows:]

[Pages 770 - 779--The official Committee record contains additional material here.]


    Mr. Walsh. Well, thank you all very much for your 
testimony. I think I can safely say that we will all be 
concerned about your ability to perform your respective roles 
in the work environment that you are in. And we can follow up 
with the Architect on that issue for sure. We, obviously, want 
to conserve energy. I think you do, too. But we want to make 
sure that you have conditions in which you work that are safe 
and helpful to conduct your jobs.
    Just a couple of questions. I believe it was Mr. Stern who 
mentioned the deck attendants and the fact that they have to 
refile every 2 years.
    Mr. Stern. That is correct. Every third year.
    Mr. Walsh. Rather than get into the wisdom or lack of 
wisdom of that, you mentioned the inadvertent selection of 
outside individuals. What did you mean by that?
    Mr. Stern. What happened is that the Library is in the 
process of trying on a new selection system which includes an 
automated portion. They contract the rating of applicants to 
what is called the MARS system, an objective test a lot like 
filling in the boxes of the qualifications. There was some kind 
of snafu with that process when some of these employees came up 
to reapply for their jobs, and as a result applicants were 
chosen who had never been in the job and don't have the same 
kind of qualifications, and the people that had been doing the 
job for quite a long time were told they----
    Mr. Walsh. This supposedly objective test determined that 
the individuals who had no experience would be better qualified 
for the job than the individuals who had had the job?
    Mr. Stern. It was a technical problem.
    Mr. Walsh. It wasn't an objective analysis of the test.
    Mr. Stern. Yes, and it has been remedied. The reason I 
bring it up is to point out if you have employees being 
recycled through the application process every third year, you 
are going to have problems like this more often. It is a burden 
on the agency, and it is also a burden on the psyches of the 
employees.
    Mr. Walsh. Sure. We get a 2-year contract every 2 years, 
and I get a little anxiety myself.
    Mr. Roth. We have 1-year contracts as presidents.
    Mr. Walsh. One year. That is tougher.
    You mentioned the photo duplication and the fact that that 
was not contracted out, and that was the right decision, in 
your words. Other than your obvious interest in your membership 
and keeping their job, why was that the right decision?
    Mr. Stern. First of all, there was a lot of expertise in 
the existing workforce. They have already been trained to do 
it. They do an excellent job of it. I think the kind of 
problems that were causing the Library to think they should be 
contracting out turned out not to be. They were counting 
strictly numbers of items that were being processed, and they 
were not thinking of it in a total customer service mode.
    Once they got into that mode and realized the value of 
their staff there and existing equipment and the fact that this 
is something they have known how to do for a long time, they 
realized that all they had to do was reorganizing, perhaps 
change management around a little bit at the top, and they 
actually would have a much more efficient operation, without 
having to go through testing out new contractors and taking the 
risks.
    The other thing is that they deal with invaluable materials 
in photo duplication. They are responsible for keeping 
documents and records of materials which can't be replaced. And 
so in doing that, they actually do photograph the original 
items. To contract that kind of service out would be taking a 
risk with the Library's collections. And so it is obviously 
beneficial to the Library to keep that in-house.
    Mr. Walsh. One hypothetical follow-on question: Would your 
union support, if it made qualitative or quantitative sense, 
any contracting out by the Library of Congress?
    Mr. Stern. Well, our duty is to look after the employees 
that we serve. Obviously, we believe in the Library as an 
institution, and we believe in its mission. But our primary 
focus as humanists--and this is aside from our role as 
employees at the Library--is to look out for the well-being of 
the employees and the maintenance of their source of 
livelihood.
    Mr. Walsh. So the answer is no?
    Mr. Stern. So the answer is no, I am afraid.
    Mr. Walsh. Thank you very much for your honesty.
    Mr. Roth, you mentioned the succession plan, and there was 
some discussion about that earlier, the idea of bringing people 
in to work side by side with these folks before they leave. And 
I think we would all agree that is probably the most expensive 
way to do it, but maybe it is the only way.
    Are there any--is there any--in your estimation, is there 
any better way to do it than the succession plan to retain that 
knowledge?
    Mr. Roth. Given where we are right now, I really don't see 
how. Since we have not hired new employees for a long time--I 
don't mean zero, but it has been maybe half a dozen over the 
last several years that we don't even have younger employees 
that we can train and transition into these jobs. There are a 
few, and we are trying to get our management to look at that, 
but there is not enough to deal with the big problem.
    We have sort of sat where we were without any new employees 
for such a long time that we have reached the point where we 
have got 5 years before a lot of people are going to be 
leaving. And I don't think it takes 5 years to train somebody. 
It may take 2 to 3 to bring them to be able to respond to the 
congressional needs.
    But the best way you are going to get that is through 
mentoring. And I think when you look at your cost 
effectiveness, is that it is going to be more effective for me 
as an analyst to train somebody who is coming up the ranks than 
it would be for that analyst to go out and try to learn 
everything I know by looking at all the resource materials that 
may be there. We can summarize into a matter of hours what 
somebody may take a matter of days, weeks, months trying to 
capture. Don't forget that cost saving at the end by bringing 
in and training people more efficiently and effectively than 
you would do if you just had people coming in.
    Mr. Walsh. Sure. Sure.
    Mr. Serrano?
    Mr. Serrano. You were right, we did say some very nice 
things about the institution before, and it dawns on me, as it 
should have before, that we were not saying those things just 
to the directors that were here, but we were actually saying 
them to the employees who give the service and make us look 
good and feel proud.
    So I do join the Chairman in saying that it is our interest 
that you do well and that you work in a good environment. And 
to that extent we continue to commit ourselves within the 
situation that we live in to try to find a way to keep working 
conditions the best possible and keep the growth of the new 
generation of employees that will do these jobs.
    I don't know, Mr. Stern, if you answered part of this 
question in the issue of contracting out, but you had said that 
some things the Library sold were made overseas?
    Mr. Stern. Right.
    Mr. Serrano. Such as?
    Mr. Stern. A couple of weeks ago a colleague of mine did a 
survey at the gift shop in the Madison Building. There were 
indeed items being marketed with the Library of Congress 
imprimatur on it that were not manufactured in the United 
States. We found mugs that were manufactured in Hong Kong. We 
found calendars. These are items that said, ``Copyright Library 
of Congress,'' or, ``Produced in connection with the Library of 
Congress.'' Calendars that were produced in Korea. There were a 
lot of small items, pencils, pens and things like that. They 
looked like the kind of thing that you could probably buy off 
the shelf.
    Mr. Serrano. When you commented that it would be best that 
those things were handled--I thought you were saying by 
employees of the Library, but----
    Mr. Stern. I understand your confusion. I was really making 
two points. One point is that the work of the Library of 
Congress itself should be done by Library of Congress 
employees. You get better product.
    And the other thing is that in terms of what the U.S. 
Government is promoting as images of itself and souvenirs that 
you buy in the Library of Congress gift shop, those should be 
manufactured by American labor.
    They are two separate points, really, I am sorry.
    Mr. Serrano. No, no, it is okay. It just reminds me of our 
argument about flag-burning--most of the flags that people want 
to burn are made in Taiwan, and it is very confusing.
    I really, Mr. Chairman, don't have much in the way of 
questions at all. Actually, just let me reiterate to you, sir, 
the fact that I think we are looking at the representatives of 
some very vital Federal employees that we have to, in any way, 
shape, or form possible, try to support so that they can 
continue to give us the product that they do give us.
    Mr. Roth. I would just like to add one other point that 
came to mind in your discussion. That is the overall cost of 
this succession plan, is that because most of us have been here 
18, 20, 25 years. The analyst position in CRS is a GS-5 to 15 
ladder. If you are doing a good job, you get promoted to a GS-
15 pretty quickly in your career. It is an annual evaluation 
process. With this succession plan, you will be bringing in 
people with a 7, 9 level. You are going to have an 11 or 12 
replacing a 15 at a step 10. You are going to have money 
savings also during this transition phase that looks big in the 
beginning, but it works its way through the process.
    Mr. Walsh. We have just been notified that we expect to 
have a vote in the full committee very soon so we will give Mr. 
Latham the opportunity to close.
    Mr. Latham. I just would like to associate myself with your 
remarks and express the appreciation and respect that I have 
for the work that you do over there. You do a tremendous job. 
And the quality of the organization is only as good as people 
that are doing it, and that is a very good reflection on you, I 
think. But that is all. Thank you.
    Mr. Walsh. A nice way to finish. Thank you all very, very 
much.
                                       Thursday, February 13, 1997.

                      JOINT COMMITTEE ON TAXATION

                               WITNESSES

HON. BILL ARCHER, CHAIRMAN, JOINT COMMITTEE ON TAXATION
KENNETH J. KIES, CHIEF OF STAFF, JOINT COMMITTEE ON TAXATION
BERNARD A. SCHMITT, DEPUTY CHIEF OF STAFF-REVENUE ANALYSIS, JOINT 
    COMMITTEE ON TAXATION
MARY M. SCHMITT, DEPUTY CHIEF OF STAFF-LAW, JOINT COMMITTEE ON TAXATION
    Mr. Walsh. The subcommittee will come to order.
    We have one remaining witness to wrap up our first round of 
hearings. We will now take up the Joint Committee on Taxation. 
We have Chairman Bill Archer this afternoon.
    Welcome, Mr. Chairman.
    The Vice Chairman for this session is Senator Bill Roth, 
Chairman of the Senate Finance Committee. We also have Mr. 
Kenneth Kies--is it? --the Joint Committee Chief of Staff.
    Welcome, Mr. Kies.
    The Joint Committee budget request is a little over $6.1 
million. The current appropriation level is $5.5 million.
    Mr. Chairman, the Members have been given a copy of your 
budget request. If you would like, please proceed with your 
statement.

                      Chairman Archer's Statement

    Mr. Archer. Thank you, Mr. Chairman.
    And thank you, again, for giving us a hearing as we come 
and make requests for what we believe is necessary to do a job 
that is very important for this country.
    The requests that we are making for the Joint Committee--
and as you aptly pointed out, I share the responsibility for 
this with Chairman Roth over in the Senate Finance Committee. 
We alternate years of chairmanship. I happen to be Chairman 
this year. He will be Chairman next year.
    And it is very important to understand that this unique 
entity, which is the Joint Committee on Taxation does serve 
both the Senate and the House, so its responsibilities are 
very, very different than other staffs that work for various 
committees.
    We are making requests that we believe today are necessary 
to finance their operations for the year 1998, so that they can 
do the job to serve us and to facilitate our ability to 
discharge our legislative responsibilities.
    They participate in the development of every single phase 
of tax policy for the House and the Senate, and ultimately 
provide an enormous resource in conference, where they can 
facilitate the coming together between the two bodies on an 
impartial basis.
    The kind of services that they give us are not duplicated 
anywhere else in the Congress, or the executive branch. It 
requires substantial resources to prepare revenue estimates, 
distributional effects of tax policy and other economic 
analyses that relate to legislation.
    In addition, they have got the very unusual function of 
overseeing the refund of tax liabilities determined by the IRS. 
In other words, if there is a refund that the IRS is going to 
make to a particular taxpayer, in excess of a million dollars, 
it has to be reviewed by the Joint Committee and it has to be 
certified by them. And they have actually, on a number of 
occasions, found that the IRS is wrong.
    I know nobody in this body would think that the IRS can 
make a mistake, but they have determined that some of the 
refunds were not appropriate. It is written into law that there 
be congressional oversight of these refunds and as long as that 
is a part of the law, they have got to discharge that 
responsibility.
    So as you pointed out, for the year 1998, we are requesting 
$6,126,000. And that is, compared to other committee requests, 
including my own Ways and Means Committee, a much higher 
percentage. It is an increase of $656,000 over and above 1997. 
But it is only $107,000 more than in fiscal year 1995, and we 
need to bear that in mind.
    I was able to cut the staff of the Ways and Means Committee 
on the Majority side by 40 percent when I took over the 
committee, because it had been ballooned up beyond anything 
that was necessary to do our job. But the Joint Committee had 
not had that happen to them over the years. And as a result, 
they weren't in a position really to take the cuts and still do 
their job.
    They not only have to give revenue estimates to Members of 
our committee and the Senate Finance Committee, but if you, Mr. 
Chairman, have a tax provision that you are interested in and 
you want to be able to determine whether or not you have got a 
chance to pass it, you have to send it over to them and ask for 
a revenue estimate. And they have then got to comply with these 
requests from all of the Members of the House of 
Representatives, both Democrats and Republicans, and they 
operate in a nonpartisan way.
    Now, in addition to those traditional roles, in the last 
Congress we asked the Joint Committee to assume additional 
responsibilities. We wrote into the law, when we passed line 
item veto legislation, that tax provisions could also be 
subject to the line item veto.
    And in doing so, we recognized that you couldn't open the 
door to broad-based tax changes and make them subject to line 
item veto, but if they were specially targeted to help one 
particular entity that the President should have the right to 
veto that. And the way the law was written if it affects 100 
entities or less, it can be subject to the veto.
    We wrote into the law that the Joint Committee makes the 
final determination of whether a bill affects 100 entities or 
not. So they have to do the certification when the bill goes 
down to the President to determine what he can and cannot veto 
as a line item. And that is a new responsibility that they 
have. And they also have to determine where there are possible 
unfunded mandates, which is also a new legislative 
responsibility that we put on the Joint Committee.
    We are requesting that you authorize 73 full-time 
employees, which is an increase. It is an increase over whatis 
currently 61, but it would return the committee to its authorized level 
in 1995, and would be no increase whatsoever over 1995.
    Unless these full-time employees are increased to an 
acceptable level, I question whether the Joint Committee really 
are going to have the ability to comply with all of the 
legislative responsibilities that we put on them. And in 
addition, a good bit of the increase is going to be devoted to 
putting in place the ability to determine the macroeconomic 
effect of tax legislation. This is something that our 
leadership has been requesting for a long, long time.
    And that is going to require significant additional 
computer capability and significant additional personnel 
capability on the part of extremely bright and astute 
economists. It is not an easy task. And as they move into 
trying to prepare for that, we have got to understand that what 
we are looking for is accuracy, and when we get into this type 
of an exercise, it is going to require some significant 
additional resources. But there has been tremendous pressure by 
a large number of people, on our side of the aisle, of saying 
that the static analysis of the impact of tax proposals is 
really not accurate, and it isn't accurate.
    So thank you for listening to me. That is, believe it or 
not, a synopsis of my written statement, which I would ask 
unanimous consent to have printed in the record.
    Mr. Walsh. Without objection.
    [The information follows:]

[Pages 788 - 817--The official Committee record contains additional material here.]


                      data processing requirements

    Mr. Walsh. It would seem that this committee has taken on 
added importance and an added workload with dynamic scoring and 
line item veto and so on.
    You have requested an increase from 61 to 73 positions. 
Does the funding increase also cover equipment, the computers 
that you are going to need?
    Mr. Archer. It will not cover all of them. It will cover 
the beginning of the upgrading of the computer capabilities.
    Mr. Walsh. What do you estimate that cost is going to be in 
the long run?
    Mr. Archer. Ken.
    This is Ken Kies, who is the Chief of Staff of the Joint 
Committee on Taxation.
    Mr. Kies. We have had a 2-year project under way to try to 
determine how we move to being in a position to provide 
macroeconomic analysis, and we are into that. But I don't think 
we feel confident yet to predict exactly what resources will be 
needed in the long-run. What we have tried to accommodate is 
what we think will be necessary in the next fiscal year.
    We are in the process right now of putting together a 
report which is a culmination of a year-long study which will 
indicate what we think the long-run resource needs will be. And 
we hope to have that out within the next couple of months, 
which would then be relevant for the next fiscal year's 
appropriation request.
    Mr. Walsh. Why couldn't you just use the Congressional 
Research Service to do this for you?
    Mr. Kies. They don't have that capability.
    Mr. Walsh. Or the CBO?
    Mr. Kies. They don't have it, either. Neither one of those 
two organizations do analysis of tax legislation; only the 
Joint Committee on Taxation does. The analysis by CBO is of 
spending legislation only. The CRS doesn't have estimating 
capability at all.
    Mr. Walsh. The macroeconomic effects, will you be analyzing 
the macroeconomic effects of tax legislation?
    Mr. Kies. That is correct.
    Mr. Walsh. Not spending?
    Mr. Kies. No. There is a divide between us and CBO. We do 
all the analysis of tax legislation. They do all the analysis 
of spending legislation.
    Mr. Walsh. Is there a terribly different methodology for 
those two?
    Mr. Kies. It is dramatically different expertise. I mean, 
the CBO are experts in the spending programs, which the 
Congress approves. They have very limited tax expertise. I 
believe they actually have only one lawyer at CBO and they 
don't have technical understanding of the tax provisions, so 
the only place that that exists on the Hill is with the Joint 
Committee on Taxation.
    Mr. Walsh. So when do you think you will have a picture of 
what your needs are in terms of new equipment?
    Mr. Kies. We plan to have a study completed within probably 
2 to 3 months, that will set forth a long-term profile or 
project for being in a position to do macroeconomic analysis. 
What we have requested for the fiscal 1998 budget is what we 
think are the needs that we will have for the steps that we can 
take in the next fiscal year in that process. It will be a 
process that will take more than one year to complete.
    Mr. Walsh. Okay.
    Mr. Serrano.

              discussion on possible overlapping expertise

    Mr. Serrano. Thank you, Mr. Chairman.
    And thank you, Mr. Chairman, for being here. I am almost 
tempted to see, before I ask any questions, if we could reopen 
the 936 question.
    Mr. Archer. Well, we need to have more resources for 
estimating on that.
    Mr. Serrano. I might have stepped into that one.
    There is some part here that is confusing us. At the 
expense, Mr. Chairman Walsh, of sounding like a budget cutter, 
I am concerned about----
    Mr. Walsh. Give it a try.
    Mr. Serrano. Right. It doesn't sit well right now.
    But I am concerned about the number of positions that you 
are asking for in terms of whether there is duplication or 
whether there is a need for people to be doing something one 
place that could be done another place. For instance, my 
understanding of the rule was that it was supposed to deal with 
major pieces of tax legislation.
    Now, how many major pieces of tax legislation do we expect 
to see? Or are we going to be scoring other legislative pieces, 
such as capital gains tax cuts, State taxes, business taxes? 
And is this one of the reasons why we need this new staff?
    And then secondly, also as part of that whole thing, I am 
really totally confused, sir, by your comment that CBO and CRS 
are not equipped to deal with this. My understanding is that 
CBO has 20 macroeconomists on staff.
    I thought a macroeconomist by any other name was still a 
macroeconomist. What could one tell us that another one could 
not tell us, simply because they are in another department or 
another agency?
    Mr. Kies. Well, Congressman, let me answer your second 
question, first. The macroeconomists that the CBO has on staff 
are not experts on tax policy or tax policy changes. That is 
not what they--that is not the nature of their 
responsibilities. And one macroeconomist is not the same as 
another macroeconomist. They do specialize. The ones that are 
at CBO specialize in things like health care policy, welfare 
policy, things of that nature, but not in tax policy changes.
    Mr. Serrano. Well, if I may, they specialize in that 
because that is what we have been dealing with. But they were 
trained, I am sure, in general principles about our economic 
system. The economy either grows or it doesn't grow, or what 
factors make it grow, what role taxes play in that growth or 
lack of growth, which is an ongoing debate in this country.
    You know, I can understand saying we need our own team. I 
may agree or disagree, but I can understand that position. But 
to say we can't have those guys do it because they do something 
differently, well, most Members of Congress may not be as well 
versed as you are in the issues, to the point that you actually 
believe that there are macroeconomists who think different than 
others or who were not trained the same way or not capable of 
doing the same work. So I think that that needs a more direct 
understanding for the membership as to why they are different 
and why you would need these additional ones over there.
    One last thing: that right away gives the feeling, if not 
the suspicion, that one wants a certain outcome, rather than 
the information that may be available for all of us, wherever 
we get it from.
    Mr. Kies. Well, I think that if--you will find that if you 
consult with June O'Neill, who is the head of the Congressional 
Budget Office, that she will confirm the advice that I am 
giving you, that their people are not trained or have the 
expertise to do this type of analysis. The Joint Committee on 
Taxation revenue estimating is not done to achieve any 
particular result; it is done to try and identify what is the 
correct revenue effect of proposed tax legislation.
    What we are attempting to do here is to improve that 
capability, and that does require people who have particular 
expertise with respect to tax policy. And it is our best 
judgment that it is the most efficient way for the Congress to 
proceed to have this capability.
    Mr. Serrano. All right. I just may say in closing on that 
point, that--obviously, you are not a Member of Congress--but 
that runs counter to what we have been hearing in the last 2 or 
so years, which is that we should reduce staff and have people 
learn to do other things and retrain them, as we must. So that 
kind of runs counter, that we have people somewhere else that 
could do this job but we would rather have new people or our 
own in one certain department doing it the way we want them to 
do it, and I am not going to argue that point anymore.
    But how about my first concern, about whether you are going 
to single in on certain major pieces of legislation, or are you 
going to analyze everything that comes before us?

              dynamic scoring of proposed tax legislation

    Mr. Kies. Congressman, the rule that has been passed in the 
House for this Congress is a first step in this process. It is 
intended to be an experimental step so that the rule only 
provides for macroeconomic analysis of certain major 
restructuring proposals. Right now we don't even feel like we 
are in a position to comply with that rule; we need to improve 
our capability to be able to comply with this rule that is a 
very tentative step in this direction.
    So we don't plan--we don't expect that we will be doing 
macroeconomic analysis on a multitude of legislative proposals. 
Indeed, our early indication is that it is probably only 
relevant on major tax restructuring proposals. We are trying to 
anticipate what we have heard from various Members of Congress 
in terms of a desire to have a more significant capability in 
this area. The rule, I think is a first step in that direction.
    Mr. Serrano. So then it would be correct for some people to 
believe that even if it just deals with the application of 
major tax bills, that your request would still be that you need 
these folks to carry out this work?
    Mr. Kies. That is correct.

             joint committee's symposium on dynamic scoring

    Mr. Serrano. I have one last question, which probably 
should have been the first question. I understand that the 
Joint Committee staff sponsored a symposium in January where 
they had macroeconomists come in, and that the result of that 
symposium was that people felt that this area, this way of 
doing business, was not ready yet; the jury was still out on 
whether this was the right way to do it.
    Now, again, we are a new crowd here that now believes that 
we should listen to what the private sector is telling us, and 
in a way that is the private sector in this field. Should we be 
taking off on this until they agree that this is the way to go?
    Mr. Kies. Congressman, let me tell you what the symposium 
did conclude. It was not inconsistent with what was the general 
thrust of testimony provided by Allen Greenspan, and a wide 
variety of economists in January of 1995, on this issue. And 
essentially, what all economists will say is that if one could 
take the macroeconomic effects of major tax changes into 
account in completing a revenue estimate, it would make the 
estimate more accurate. It would give the Congress a better 
indication of the revenue effects of that proposed legislation.
    What the symposium concluded is that while there has been a 
lot of work done in this area, and much of it was done as a 
consequence of the year-long project that we undertook by 
inviting outside modelers to participate, we are perhaps not 
ready for prime time, if you will; that the state of the art 
still needs to be improved upon. And that is one of the reasons 
that we requested the resources we have today, so that we can 
try and push the state of the art in terms of achieving a 
better ability to do this type of analysis.
    I think all economists would agree that if we could do it 
in a reliable manner, it would improve the quality of our 
revenue estimating, and that in the final analysis is what our 
objective is.
    Mr. Serrano. Okay.

             amount of increase for macroeconomic analaysis

    Mr. Archer. Jim, I don't want to prolong this, but if I 
could be given your indulgence to say a couple of things.
    Mr. Walsh. Certainly.
    Mr. Archer. If I were in your position, I would ask exactly 
the same questions you did. I think they are appropriate and 
should be asked and should continue to be asked on a bipartisan 
basis, in your committee. And I don't think that they are 
subject to a 2-plus-2 equals 4 answer, but we have got to 
continue to work to get the job done and to do it in the most 
efficient way, with the least amount of resources.
    I believe that we are better served on the tax side, which 
is a field unto itself, and I hope I am removing myself from 
provinciality in this, than we could ever be served by CBO, as 
a body. I am not just talking about myself as Chairman of the 
Ways and Means Committee, but we as a body, a legislative body, 
Democrats and Republicans, the Joint Committee tries very, very 
hard, and I think succeeds, in being nonpartisan.
    I know that Ken and his staff do a tremendous amount of 
work for the Minority side and they never disclose to us the 
work they are doing for the Minority. And I hope they don't 
disclose to the Minority what they are doing for us. But I can 
tell you, they do not in any way violate that confidence. And 
that is very, very important.
    I think it is also important to add to what Ken said to 
you, that the amount of the increase that is requested that 
relates to the macroeconomic effort, and this is just the 
beginning to try to get there, is a relatively small part of 
the request for increase.
    How much would you guess is involved in the macroeconomic 
part of it?
    Mr. Kies. Well, of the $656,000 increase we have asked for, 
$154,000 is the cost-of-living number that is given to us by 
the Finance Office, that relates to our overall operations. So 
it doesn't relate to this. $120,000 is for merit increases; 
$375,000 is for new hires. Of the new hires, probably 
approximately $200,000 of that is going to be devoted in this 
next fiscal year to the macroeconomic piece.
    It would essentially involve the hiring of two to three 
economists who have expertise in the macroeconomic area. So 
that is essentially the component that is devoted to our 
efforts on the macroeconomic aspects of this.
    Mr. Archer. Let me also just refer back, if I may, for a 
moment, to my original comments. This will get the staff number 
back up to where it was in 1995. It is not an increase over 
1995. It was an increase over what was provided for this year.
    As the Tax Code becomes more complex, and it does every 
year--I want to change that. I want to virtually put the Joint 
Committee out of business ultimately and abolish the income tax 
and all of the complexities that we have to deal with. And I 
think one day we will get that done, but that is another issue, 
not to spend time with here today.
    But every time the IRS issues a regulation, which they are 
doing over and over again, week after week, month after month, 
this Code becomes more complex. And as it becomes more complex, 
Members have more areas that they are interested in and that 
they are trying to change, and they are sending them over for 
revenue estimates. And before we can have a chance to evaluate 
any of that, we have got to get an accurate revenue estimate.
    So just the demands of the system as it grows are putting 
an enormous strain on the Joint Committee. And what has to 
happen is if they don't get adequate resources, it means that 
Members just aren't going to be able to get their revenue 
estimates, because you run out of computer capability, you run 
out of personnel capability and--so I just want you to 
understand, really, what is the guts of all of this. And, 
again, coupled with the fact that they do have this new 
responsibility on the line item veto and on unfunded mandates.
    Thank you for listening very patiently, Mr. Chairman.
    Mr. Serrano. Mr. Chairman, I have no further questions. I 
just wanted to clarify that.
    My questions were based on a general uneasiness on my side. 
As we branch out into different ventures and different ways of 
doing business in the House, we should use all available 
resources. In no way should those questions be seen as 
diminishing this side's respect or admiration for the staff or 
for the Chairman.
    Mr. Walsh. Understood. Thank you.
    Mr. Cunningham.

        discussion on importance of joint committee on taxation

    Mr. Cunningham. First of all, I would say to my colleague 
that I agree with Bill Archer, that if circumstances were 
different I would have concerns also on the budget request I 
understand that.
    I also look at the direction that I come from. Maybe it is 
different in your district; that may be a difference. But 
people tell me, not only just many in my district, but as I 
travel across the country, that they feel the current tax 
system is obtrusive. It is unfair.
    The gentleman would agree with that, that it is burdensome. 
It prevents job creation in one economy versus the other. We 
need to look into making it better in all of those cases. When 
we spend $4 billion on a computer system, or the current 
system, and IRS themselves said they can't use the computers 
now because the system is so complex and the computer can't 
recognize it, something has to be changed.
    So I think we have a moral and an economic responsibility 
not just to do press releases, not just to do the poll-
gathering events of a new issue, but to really dig into areas 
in which we can help the American people. It would be good for 
a housewife that has a child, that is single, to allow her to 
be able to do her taxes without having to hire 10 people to do 
her taxes. When we talk about the people that are less 
fortunate, to make the tax system fairer,and I think in that 
direction on a bipartisan basis, that this is an absolute thing that we 
need to do. Instead of putting another $4 billion into an IRS system, 
we ought to invest in this project to come out with a better system. 
That is the way I view it.
    That is all I have, Mr. Chairman.

                       space for additional staff

    Mr. Walsh. Thank you.
    I can't think of anyone I would have more faith in than 
Chairman Archer to take a real serious look at existing tax law 
and do what is right for the country. It is a huge challenge. I 
am not going to get into it. It is far too complicated for me 
to even discuss with you. But I have full faith that you will 
do it justice.
    Back from the macro down to the micro, I just have one last 
question, very practical question, and that is: If you are able 
to put on these 12 additional people, do you have physical 
space for them? Do you have room for them?
    Mr. Kies. Congressman, we do have a little bit of a space 
problem. We recently wrote to--actually, Chairman Archer 
recently wrote to Speaker Gingrich about some space that seems 
to be not utilized over in Annex 1, and inquired as to whether 
it might be available to us if it is not going to be put to any 
other use. So that is one concern. We do have some space on the 
Senate side as well that we could utilize.
    Mr. Walsh. Staff advised me that there is space in Annexes 
1 or 2. It is available.
    Mr. Kies. It would be helpful--we have a request in from 
Chairman Archer with respect to space that is adjacent to our 
space, that seems to not be utilized. And to the extent we 
could get access to it, it would be very helpful.

                            Closing Remarks

    Mr. Walsh. We have just been joined by Congressman Latham.
    Tom, do you have any questions or comments you would like 
to make?
    Mr. Latham. No. I apologize for being late.
    Mr. Walsh. All right.
    Thank you.
    Mr. Archer. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you very much.
    We might have to enter some questions into the record.
    Does he want to enter those?
    Then we are finished.
    Do you want to enter those for the record?
    Mr. Latham. Sure.
    Mr. Walsh. Congressman Latham has some questions, that he 
began yesterday with the Office of Compliance, and we will 
enter those into the record of that agency.
    Mr. Latham. Thank you, Mr. Chairman.
    Mr. Walsh. With that, the hearing is adjourned.
    Our first round of hearings are adjourned.
    Thank you all very much for your attentiveness.







                           W I T N E S S E S

                               __________
                                                                   Page
Abrecht, G. L....................................................   197
Archer, Hon. Bill................................................   785
Becker, H. S.....................................................   431
Billington, J. H.................................................   431
Blum, J. L.......................................................   235
Blumenauer, Hon. Earl............................................   691
Brown, R. L......................................................   335
Carle, R. H......................................................     9
Casey, G. S......................................................   197
Cook, C. C.......................................................   383
Cylke, F. K......................................................   431
Del Balzo, Gail..................................................   235
Delquadro, D. M..................................................   235
Dennis, David....................................................     9
Desautels, M. G..................................................   235
DiMario, M. F....................................................   383
Dodaro, J. M.....................................................   335
Duffy, Dennis....................................................   287
Eisold, Dr. J. F.................................................     9
Frenze, Christopher..............................................   423
Frey, Bob........................................................     9
Greigg, S. L.....................................................   235
Guy, W. M........................................................   383
Hack, Elizabeth..................................................   287
Hantman, A. M..................................................197, 599
Hinchman, J. F...................................................   335
Hodges, P. E.....................................................   235
Hughes-Brown, Beth...............................................   287
Jenkins, J. C....................................................   431
Kelley, W. P.....................................................   383
Kies, K. J.......................................................   785
Lainhart, J. W., IV..............................................     9
Livingood, W. S..................................................9, 197
Meade, D. E......................................................     9
Medina, Rubens...................................................   431
Miley, Robert....................................................   599
Miller, J. R.....................................................     9
Miller, K. J.....................................................     9
Miranda, Roberto.................................................   599
Mulhollan, D. P..................................................   431
O'Neill, J. E....................................................   235
Oakley, R. L.....................................................   699
Patch, B. J......................................................     9
Pauls, L. A......................................................   431
Peach, J. D......................................................   335
Peters, Marybeth.................................................   431
Peterson, E. C...................................................   321
Pregnall, Stuart.................................................   599
Roth, D. M.......................................................   744
Saxton, Hon. James...............................................   423
Schmitt, B. A....................................................   785
Schmitt, M. M....................................................   785
Schollenberger, Christine........................................   744
Scott, Gen. D. L.................................................   431
Seitz, Virginia..................................................   287
Silberman, Ricky.................................................   287
Stephens, James..................................................   287
Stern, Joel......................................................   744
Tabb, Winston....................................................   431
Talkin, Pam......................................................   287
Trandahl, Jeff...................................................     9
Turner, C. L., III...............................................   431
Warner, Hon. J. W................................................   321
Washington, L. J.................................................   431
Webster, J. D....................................................   431
Wimberly, Ben....................................................   599
Zimmerman, D. F..................................................   235








                               I N D E X

                              ----------                              
                                                                   Page
Architect of the Capitol.........................................   599
    ADA and OSHA.................................................   644
    Bartholdi Fountain...........................................   657
    Botanic Garden...............................................   652
    Botanic Garden Conservatory..................................   647
    Capital Budget...............................................   636
    Capital Projects.............................................   642
    Capitol Buildings............................................   640
    Capitol Power Plant..........................................   638
    Davis-Bacon..................................................   644
    Energy Conservation Lighting.................................   657
    Energy Consumption...........................................   638
    House Office Buildings.......................................   641
    Library Buildings and Grounds................................   641
    Opening Remarks..............................................   599
    Opening Statement............................................   601
    Overall Increase.............................................   637
    Privatization................................................   637
    Reprogrammings...............................................   659
    Sale of the Capitol..........................................   640
    Staffing Levels..............................................   637
    State of the Capitol.........................................   642

Congressional Budget Office......................................   235
    Analysis of the President's Budget...........................   281
    CBO's Budget Request.........................................   237
    CBO's Mandate................................................   273
    CBO's Mission................................................   235
    CBO and OMB Baselines........................................   281
    Changes in Savings...........................................   273
    The Cost of Inaction.........................................   273
    Costs of New Duties..........................................   237
    Defining a Mandate...........................................   275
    ``Dynamic'' Estimates........................................   272
    Legislative Information System...............................   282
    Line Item Veto Effects.......................................   237
    A Major New Effort...........................................   236
    New Responsibilities.........................................   236
    Projected Legislative Bill Contributions to a Balanced Budget   282
    Purchase of Equipment........................................   279
    Reprogrammings...............................................   285
    State and Local Information..................................   279
    A Two-Sided Push.............................................   272
General Accounting Office........................................   335
    Airline Deregulation Work....................................   364
    Closing Remarks..............................................   382
    Contracting Out..............................................   360
    Information Gathering........................................   362
    Key Features of Request......................................   336
    Opening Remarks..............................................   335
    Use of Videoconferencing.....................................   362

Government Printing Office.......................................   409
    By-law Distribution..........................................   413
    Congressional Printing.......................................   409
    Congressional Printing Cost Increase Requested...............   409
    Document Management..........................................   416
    Document Management, continued...............................   419
    Electronic Access............................................   418
    FTE Limitation...............................................   414
    Introduction of Witnesses....................................   383
    Legislative-Branch Wide Information Systems..................   414
    Prepared Statement...........................................   384

Joint Committee on Printing......................................   321
    Executive Branch Printing....................................   324
    Opening Remarks..............................................   321
    Printing House Documents.....................................   325
    Statement of Chairman John Warner............................   322
    Statement of Sen. Wendell Ford...............................   326
    Statement of Rep. Steny Hoyer................................   327
    Title 44 Revision............................................   324

Joint Committee on Taxation......................................   785
    Amount of Increase for Macroeconomic Analysis................   821
    Chairman Archer's Statement..................................   785
    Closing Remarks..............................................   824
    Data Processing Requirements.................................   818
    Discussion on Importance of Joint Committee on Taxation......   823
    Discussion on Possible Overlapping Expertise.................   819
    Dynamic Scoring of Proposed Tax Legislation..................   820
    Joint Committee's Symposium on Dynamic Scoring...............   821
    Space for Additional Staff...................................   823

Joint Economic Committee.........................................   423
    Biography of Christopher Frenze..............................   423
    Committee Structure and Role.................................   427
    Opening Statement of Chairman Jim Saxton.....................   423

Library of Congress..............................................   431
    Appropriations...............................................   482
    Books on Tape................................................   528
    Budget Request...............................................   431
    Cataloging Arrearage.......................................482, 563
    Cataloging Progress..........................................   566
    Congressional Research Service...............................   543
    Copyright Office--CORDS......................................   577
    CRS Graduate Recruit Program.................................   544
    CRS Institutional Memory.....................................   544
    CRS Products.................................................   559
    CRS Staff Expertise..........................................   545
    Deputy Librarian's Statement.................................   475
    Effects of Reduced Budget....................................   565
    Electronic Data Accessibility................................   562
    Electronic Services..........................................   432
    Global Legal Information Network.............................   567
    Goal for 21st Century........................................   433
    Growing Workload.............................................   526
    ILS Relation to Cataloging...................................   564
    Information from U.S. Territories............................   541
    Inner-City Outreach..........................................   541
    Integrated Library System..................................476, 483
    ``Internal University''......................................   526
    Legislative On-line Systems Coordination.....................   557
    Librarian's Statement........................................   432
    Library Acquisitions.........................................   527
    Library Bicentennial.........................................   433
    Library Networking...........................................   538
    Library Priorities...........................................   564
    Management Improvement Plan..................................   476
    Mandatory Increases..........................................   525
    Mandatory Wage and Price Increases...........................   481
    Mandatory Pay................................................   482
    Members' Opening Remarks.....................................   525
    National Library Service for Blind and Physically Handicapped   527
    On-line Information..........................................   538
    Opening Remarks..............................................   431
    Potential Cost Savings.......................................   566
    Prepared Statement (Director CRS)............................   547
    Prepared Statement (Librarian of Congress)...................   434
    Prepared Statement (Register of Copyrights)..................   570
    Reader Registration Stations.................................   525
    Reprogramming Requests.......................................   588
    Security.....................................................   577
    Succession Planning..........................................   542
    Systems Compatibility........................................   561
    Tabular Material.............................................   578
    Talking Books for Blind and Physically Handicapped...........   481
    Turnover Rate................................................   543
    Uncataloged Materials........................................   563

Office of Compliance.............................................   287
    Board of Directors...........................................   306
    Budget Request...............................................   287
    Closing Remarks..............................................   319
    Disability Access............................................   316
    Dispute Resolution Process...................................   306
    Ms. Silberman's Statement....................................   291
    OSHA Concerns................................................   315
    Review of Capitol Complex Buildings..........................   310
    Safety and Health Reports....................................   311
    Statement of the Chairman of the Board.......................   287
U.S. Capitol Police..............................................   197
    Budget Request...............................................   197
        Remarks from Chief Abrecht...............................   207
        Remarks from Mr. Casey...................................   197
        Remarks from Mr. Hantman.................................   207
        Remarks from Mr. Livingood...............................   203
    Chairman's Opening Remarks...................................   197
    Computer and Telecommunications Services.....................   215
    Coordination with Intelligence Agencies......................   221
    History of Two Payrolls......................................   220
    Management Review............................................   218
    New Positions................................................   217
    Officer Training.............................................   222
    Pay Parity Initiatives.......................................   213
    Recordkeeping................................................   216
    Reprogrammings...............................................   226
    Staffing to Process Payroll..................................   222
    Transfer of Police Payroll Function to the National Finance 
      Center.....................................................   217
    Unified Payroll Requires Legislation.........................   223

U.S. House of Representatives....................................     9
    Allowances and Expenses......................................   167
    Attending Physician, Office of...............................   133
        Care for General Public..................................   135
        Emergency Service........................................   135
        House Drinking Water Safety Concerns.....................   134
        Other Health Concerns....................................   134
    Chairman Walsh's Opening Statement...........................     1
        Budget Evaluation........................................     4
        Closing Remarks..........................................   179
        House Budget and FTEs....................................    12
        Introduction of New Subcommittee Member..................   131
        Jurisdiction of the Subcommittee.........................     2
        Members' Information Materials...........................     3
        Subcommittee's Role......................................     3
    Chaplain, Office of the......................................   136
    Clerk, Office of the.........................................    38
        Document Management System...............................    38
        Enhancement to Voting System.............................    40
        Legislative Information Retrieval System.................    60
        Legislative Resource Center..............................    39
        Questions on the Proposed Document Management System.....    58
    Committee on Appropriations..................................    33
    House Leadership Offices.....................................    13
    Inspector General, Office of.................................   112
        104th Congress Audit Accomplishments.....................   113
        Audit Concerns with Financial Management System..........   125
        Common Legislative Branch Financial Management System....   126
        Computer Security........................................   129
        Delays in Implementation.................................   124
        Discussion on Finance Staffing...........................   125
        Donation of Computers....................................   130
        Further Comments on Donation of Computers................   132
        Goals of the 1997 Audit Plan.............................   113
        House Staff Benefits.....................................   131
        Implementation of Financial Management System............   124
        Inspector General Reports................................   124
        Inspector General Staffing...............................   129
        Inspector General's Assessment of Financial Management 
          System.................................................   124
        Inspector General's Audit Activities.....................   127
        Inspector General's Concurrence with Finance Staffing....   128
        Internet and Financial Management Security...............   129
        Preliminary Recommendations on FFS Staffing..............   128
        Probable Solution to Audit Concerns......................   125
    Law Revision Counsel, Office of the..........................   141
        Additional FTEs..........................................   141
        Intranet Access of U.S. Code.............................   145
        Possible Reduction in U.S. Code Printing Costs...........   145
    Legislative Counsel, Office of...............................   148
    Members' Representational Allowances.........................    27
    Mr. Latham's Statement.......................................     5
    Mr. Serrano's Statement......................................     4
        Comments on Hiring Practices.............................   132
        Credit to Previous Subcommittee Chairman.................     5
    Chief Administrative Officer's Budget Request................    74
        Additional Voucher Delays Possible.......................    94
        Additional Video Conferencing............................    98
        CAO FY 1998 Budget Submission............................    74
        CAO Personnel Increases..................................    75
        Child Care Center........................................   109
        Discussion on CAO ``Capital'' Budget.....................   110
        Federal Financial System (FFS)...........................    94
        Finance FTE Issues.......................................   109
        Finance Office Staffing..................................   100
        Fiscal Year 1998 Estimates...............................    10
        Food Service Contract....................................   110
        Improvement in Implementing FFS..........................    92
        Mr. Trandahl's Opening Statement.........................     9
        New Digital Telephones...................................    96
        Organizational Components................................    74
        Other Staff Increases....................................   100
        Overtime Cost............................................   111
        Overtime within the CAO's Budget.........................   112
        Procurement Delays.......................................   102
        Random Drug Testing......................................   110
        Sale of 501 First Street, SE, Building...................   110
        Staffing Procedures......................................   102
        Telecommunication Budget.................................    96
        Unexpended Balances......................................    98
        Vendor Payment Concerns..................................    92
        Vendor Payment Concerns, continued.......................    99
        Video Conferencing.......................................    97
        Year 2000 Readiness......................................   103
        Year 2000 Readiness, Members' Concern....................   105
    Parliamentarian, Office of the...............................   138
    Salaries, Officers and Employees.............................    35
    Sergeant at Arms, Office of the..............................    67
        Acknowledgment of Subcommittee...........................    73
        Questions for the Sergeant at Arms.......................    73
        Study of the Capitol.....................................    69
    Standing Committees, Special & Select........................    30

                                <all>
</pre></body></html>
